No. 19-177

In the Supreme Court of the United States
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, ET AL., PETITIONERS
v.
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.,
ET AL.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

JOINT APPENDIX

NOEL J. FRANCISCO
Solicitor General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

Counsel of Record
for Petitioners

DAVID W. BOWKER
Wilmer Cutler Pickering
Hale and Dorr LLP
1875 Pennsylvania Ave., N.W.
Washington, D.C. 20006
david.bowker@wilmerhale.com
(202) 663-6558

Counsel of Record
for Respondents

PETITION FOR A WRIT OF CERTIORARI FILED: AUG. 7, 2019
CERTIORARI GRANTED: DEC. 13, 2019

TABLE OF CONTENTS

Page
Court of appeals docket entries (15-974) ......................... 1
District court docket entries (1:05-cv-08209-VM) ......... 27
Office of Legal Counsel Memorandum (2004) ............... 95
AAPD 04-04 (Feb. 26, 2004) ........................................... 98
AOSI Memorandum to Kerry Pelzman
(May 26, 2004)............................................................. 111
Letter from Daniel Levin to Alex M. Azar, II
(Sept. 20, 2004) ........................................................... 114
AAPD 05-04 (June 9, 2005) ........................................... 117
AOSI letter to John F. Lord (Aug. 3, 2005) ................. 130
Complaint (Sept. 23, 2005) ............................................ 133
Notice of motion for preliminary
injunction (Sept. 28, 2005) .......................................... 152
Second amended complaint (Aug. 18, 2008) ................. 157
Declaration of Helene Gayle......................................... 197
Declaration of Daniel E. Pellegrom ............................. 212
Organizational integrity of entities that are
implementing programs and activities under
the Leadership Act, 75 Fed. Reg. 18,760
(Apr. 13, 2010) ............................................................ 248
USAID AAPD 05-04 amendment 3 (Apr. 13, 2010) ..... 266
USAID AAPD 14-04 (Sept. 12, 2014) ........................... 300
USAID request for applications (RFA)
No. RFA-621-14-000008 community health and
social welfare systems strengthening activity
(Apr. 14, 2014) ............................................................ 342
Declaration of Purnima Mane ...................................... 365
Exhibit 1, Pathfinder South Africa signage ................. 377
Exhibit 2, Pathfinder Egypt signage ........................... 379
Exhibit 3, Pathfinder USA signage .............................. 381
Declaration of Helene D. Gayle .................................... 383
(I)

II
Exhibit 1, The CARE International Code,
updated Oct. 2011 ....................................................... 394
Exhibit 3, CARE USA and CARE India license
agreement, effective Jan. 1, 2011............................... 435
Exhibit 4, CARE USA signage .................................... 446
Exhibit 5, CARE Cambodia signage ............................ 448
Exhibit 6, CARE Bolivia signage ................................. 450
Exhibit 7, CARE Ghana signage .................................. 452
Exhibit 8, CARE Jordan signage ................................. 454
Declaration of Carlos Carrazana on behalf of Save
the Children Federation, Inc. .................................... 456
Declaration of Mark Sidel ............................................ 463

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

Docket No. 15-974
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.;
OPEN SOCIETY INSTITUTE; PATHFINDER
INTERNATIONAL, INC.; GLOBAL HEALTH COUNCIL;
INTERACTION, PLAINTIFFS-APPELLEES
v.
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT; ANDREW NATSIOS, IN HIS OFFICIAL
CAPACITY AS ADMINISTRATOR OF THE UNITED STATES
AGENCY FOR INTERNATIONAL DEVELOPMENT; JULIE
LOUISE GERBERDING, IN HER OFFICAL CAPACITY AS
DIRECTOR OF THE U.S. CENTERS FOR DISEASE CONTROL
AND PREVENTION, AND HER SUCCESSORS; MICHAEL O.
LEAVITT, IN HIS OFFICIAL CAPACITY AS SECRETARY OF
THE U.S. DEPARTMENT OF HEALTH AND HUMAN
SERVICES, AND HIS SUCCESSORS; UNITED STATES
CENTERS OF DISEASE CONTROL AND PREVENTION;
UNITED STATES DEPARTMENT OF HEALTH & HUMAN
SERVICES; HENRIETTA FORE, IN HER OFFICAL CAPACITY
AS ADMINISTRATOR OF THE UNITED STATES AGENCY FOR
INTERNATIONAL DEVELOPMENT AND HER SUCCESSORS,
DEFENDANTS-APPELLANTS
DOCKET ENTRIES
DATE

3/31/15

DOCKET
NUMBER PROCEEDINGS

1

NOTICE OF OF INTERLOCUTORY APPEAL, with district court
docket, on behalf of Appellant Hen-

(1)

2
DATE

DOCKET
NUMBER PROCEEDINGS

rietta Fore, Julie Louise Gerberding, Michael O. Leavitt, Andrew
Natsios, United States Agency for
International Development, United
States Centers of Disease Control
and Prevention and United States
Department of Health and Human
Services, FILED. [1474890] [15-974]
[Entered: 04/01/2015 04:14 PM]
3/31/15

2

DISTRICT COURT DECISION
AND ORDER, dated 01/30/2015,
RECEIVED. [1474897] [15-974]
[Entered: 04/01/2015 04:17 PM]

3/31/15

3

DISTRICT COURT AMENDED
ORDER, dated 02/10/2015, RECEIVED. [1474899] [15-974] [Entered: 04/01/2015 04:18 PM]

3/31/15

4

ELECTRONIC INDEX, in lieu
of record, FILED.
[1474901]
[15-974] [Entered:
04/01/2015
04:19 PM]
*

5/21/15

33

*

*

*

*

LOCAL RULE 42.1 STIPULATION, Without Prejudice to Reinstatement, RECEIVED. Service
date 05/21/2015 by CM/ECF.
[1515993]
[15-974]
[Entered:
05/21/2015 04:34 PM]

3
DATE

DOCKET
NUMBER PROCEEDINGS

5/22/15

36

LOCAL RULE 42.1 STIPULATION, without prejudice to reinstatement by 11/20/2015, FILED.
[1516172]
[15-974]
[Entered:
05/22/2015 09:18 AM]

5/22/15

37

CERTIFIED
ORDER,
dated
05/22/2015, to SDNY (NEW YORK
CITY), ISSUED. [1516181] [15974]
[Entered: 05/22/2015 09:23
AM]
*

10/1/15

41

*

*

*

*

LOCAL RULE 42.1 STIPULATION STATUS UPDATE, dated
10/01/2015, informing the Court of
proposed new date for reinstatement, RECEIVED. Service date
10/01/2015
by
CM/ECF.
[1610498]
[15-974]
[Entered:
10/01/2015 10:01 AM]
*

*

*

*

*

10/1/15

46

LOCAL RULE 42.1 STIPULATION ORDER, dated 10/01/2015,
without prejudice to reinstatement
by 01/20/2016, FILED. [1611153]
[15-974] [Entered:
10/01/2015
04:02 PM]

10/1/15

47

CERTIFIED
ORDER,
dated
10/01/2015, to SDNY (NEW YORK

4
DATE

DOCKET
NUMBER PROCEEDINGS

CITY), ISSUED. [1611161] [15-974]
[Entered: 10/01/2015 04:07 PM]
1/20/16

48

LOCAL RULE 42.1 STIPULATION STATUS UPDATE, dated
01/19/2016, informing the Court of
proposed new date for reinstatement, RECEIVED. Service date
01/20/2016 by CM/ECF. [1687135]
[15-974] [Entered:
01/20/2016
09:54 AM]

1/20/16

51

LOCAL RULE 42.1 STIPULATION ORDER, dated 01/20/2016,
without prejudice to reinstatement
by 03/21/2016, FILED. [1688030]
[15-974] [Entered:
01/20/2016
05:04 PM]

1/20/16

52

CERTIFIED
ORDER,
dated
01/20/2016, to SDNY (NEW YORK
CITY), ISSUED. [1688035] [15974] [Entered: 01/20/2016 05:08
PM]

3/21/16

53

LOCAL RULE 42.1 STIPULATION STATUS UPDATE, dated
3/21/2016, informing the Court of
proposed new date for reinstatement, RECEIVED. Service date
03/21/2016 by CM/ECF. [1732187]
[15-974] [Entered:
03/21/2016
11:54 AM]

5
DATE

DOCKET
NUMBER PROCEEDINGS

3/28/16

56

LOCAL RULE 42.1 STIPULATION ORDER, dated 03/28/2016,
without prejudice to reinstatement
by 04/08/2016, FILED. [1737098]
[15-974] [Entered:
03/28/2016
11:12 AM]

3/28/16

57

CERTIFIED
ORDER,
dated
03/28/2016, to SDNY (NEW YORK
CITY), ISSUED. [1737106] [15974] [Entered: 03/28/2016 11:18
AM]

4/7/16

58

LOCAL RULE 42.1 STIPULATION STATUS UPDATE, dated
04/07/2016, informing the Court of
proposed new date for reinstatement, RECEIVED. Service date
04/07/2016 by CM/ECF. [1745594]
[15-974] [Entered:
04/07/2016
04:45 PM]

4/11/16

62

LOCAL RULE 42.1 STIPULATION ORDER, dated 04/11/2016,
without prejudice to reinstatement
by 05/11/2016, FILED. [1746992]
[15-974] [Entered:
04/11/2016
11:51 AM]

4/11/16

63

CERTIFIED
ORDER,
dated
04/11/2016, to SDNY (NEW YORK
CITY), ISSUED. [1746998] [15974] [Entered: 04/11/2016 11:54
AM]

6
DATE

DOCKET
NUMBER PROCEEDINGS

5/11/16

64

LOCAL RULE 42.1 STIPULATION STATUS UPDATE, dated
05/10/2016, informing the Court of
proposed new date for reinstatement, RECEIVED. Service date
05/11/2016 by CM/ECF. [1769231]
[15-974] [Entered:
05/11/2016
08:56 AM]

5/11/16

67

LOCAL RULE 42.1 STIPULATION ORDER, dated 05/11/2016,
without prejudice to reinstatement
by 06/30/2016, FILED. [1770063]
[15-974] [Entered: 05/11/2016 03:25
PM]

5/11/16

68

CERTIFIED
ORDER,
dated
05/11/2016, to SDNY (NEW YORK
CITY), ISSUED. [1770075] [15-974]
[Entered: 05/11/2016 03:29 PM]

6/29/16

69

LOCAL RULE 42.1 STIPULATION STATUS UPDATE, dated
06/29/2016, informing the Court of
proposed new date for reinstatement, RECEIVED. Service date
06/29/2016
by
CM/ECF.
[1805571]
[15-974]
[Entered:
06/29/2016 04:07 PM]

7/1/16

73

LOCAL RULE 42.1 STIPULATION ORDER, dated 07/01/2016,
without prejudice to reinstatement
by 08/04/2016, FILED. [1806995]

7
DATE

DOCKET
NUMBER PROCEEDINGS

[15-974] [Entered:
08:34 AM]

07/01/2016

7/1/16

74

CERTIFIED
ORDER,
dated
07/01/2016, to SDNY (NEW YORK
CITY), ISSUED. [1807001] [15-974]
[Entered: 07/01/2016 08:39 AM]

8/3/16

75

LOCAL RULE 42.1 STIPULATION STATUS UPDATE, dated
08/03/2016, informing the Court of
proposed new date for reinstatement, RECEIVED. Service date
08/03/2016 by CM/ECF. [1832256]
[15-974] [Entered:
08/03/2016
03:37 PM]

8/4/16

78

LOCAL RULE 42.1 STIPULATION ORDER, dated 08/04/2016,
without prejudice to reinstatement
by 10/05/2016, FILED. [1832634]
[15-974] [Entered:
08/04/2016
09:19 AM]

8/4/16

79

CERTIFIED
ORDER,
dated
08/04/2016, to SDNY (NEW YORK
CITY), ISSUED. [1832644] [15-974]
[Entered: 08/04/2016 09:24 AM]

10/4/16

80

LOCAL RULE 42.1 STIPULATION STATUS UPDATE, dated
10/04/2016, informing the Court of
proposed new date for reinstatement, RECEIVED. Service date
10/04/2016 by CM/ECF. [1876893]

8
DATE

DOCKET
NUMBER PROCEEDINGS

[15-974] [Entered:
01:38 PM]

10/04/2016

10/4/16

84

LOCAL RULE 42.1 STIPULATION ORDER, dated 10/04/2016,
without prejudice to reinstatement
by 11/04/2016, FILED. [1877075]
[15-974] [Entered:
10/04/2016
03:32 PM]

10/4/16

85

CERTIFIED
ORDER,
dated
10/04/2016, to SDNY (NEW YORK
CITY), ISSUED. [1877100] [15-974]
[Entered: 10/04/2016 03:44 PM]

11/3/16

86

LOCAL RULE 42.1 STIPULATION STATUS UPDATE, dated
11/03/2016, informing the Court of
proposed new date for reinstatement, RECEIVED. Service date
11/03/2016
by
CM/ECF.
[1899368]
[15-974]
[Entered:
11/03/2016 12:06 PM]

11/4/16

89

LOCAL RULE 42.1 STIPULATION ORDER, dated 11/04/2016,
without prejudice to reinstatement
by 12/15/2016, FILED. [1900477]
[15-974] [Entered:
11/04/2016
11:39 AM]

11/4/16

90

CERTIFIED
ORDER,
dated
11/04/2016, to SDNY (NEW YORK
CITY), ISSUED. [1900487] [15-974]
[Entered: 11/04/2016 11:43 AM]

9
DATE

DOCKET
NUMBER PROCEEDINGS

12/15/16

91

LOCAL RULE 42.1 STIPULATION STATUS UPDATE, dated
12/14/2016, informing the Court of
proposed new date for reinstatement, RECEIVED. Service date
12/15/2016
by
CM/ECF.
[1928298]
[15-974]
[Entered:
12/15/2016 08:46 AM]

12/15/16

94

LOCAL RULE 42.1 STIPULATION ORDER, dated 12/15/2016,
without prejudice to reinstatement
by 01/17/2017, FILED. [1928853]
[15-974] [Entered:
12/15/2016
01:30 PM]

12/15/16

95

CERTIFIED
ORDER,
dated
12/15/2016, to SDNY (NEW YORK
CITY), ISSUED. [1928863] [15-974]
[Entered: 12/15/2016 01:34 PM]

1/13/17

97

LOCAL RULE 42.1 STIPULATION STATUS UPDATE, dated
01/13/2017, informing the Court of
proposed new date for reinstatement, RECEIVED. Service date
01/13/2017
by
CM/ECF.
[1947903]
[15-974]
[Entered:
01/13/2017 04:56 PM]

1/17/17

101

LOCAL RULE 42.1 STIPULATION ORDER, dated 01/17/2017,
without prejudice to reinstatement
by 01/24/2017, FILED. [1948960]

10
DATE

DOCKET
NUMBER PROCEEDINGS

[15-974] [Entered:
03:49 PM]

01/17/2017

1/17/17

102

CERTIFIED
ORDER,
dated
01/17/2017, to SDNY (NEW YORK
CITY), ISSUED. [1948986] [15-974]
[Entered: 01/17/2017 03:56 PM]

1/23/17

103

LOCAL RULE 42.1 STIPULATION STATUS UPDATE, dated
01/20/2017, informing the Court of
proposed new date for reinstatement, RECEIVED. Service date
01/23/2017
by
CM/ECF.
[1952836]
[15-974]
[Entered:
01/23/2017 04:35 PM]
*

*

*

*

*

1/25/17

108

LOCAL RULE 42.1 STIPULATION ORDER, dated 01/25/2017,
without prejudice to reinstatement
by 03/02/2017, FILED. [1954204]
[15-974] [Entered: 01/25/2017 08:50
AM]

1/25/17

109

CERTIFIED
ORDER,
dated
01/25/2017, to SDNY (NEW YORK
CITY), ISSUED. [1954234] [15-974]
[Entered: 01/25/2017 09:06 AM]

3/2/17

110

LETTER, on behalf of Appellant
Henrietta Fore, Julie Louise Gerberding, Michael O. Leavitt, Andrew Natsios, United States

11
DATE

DOCKET
NUMBER PROCEEDINGS

Agency for International Development, United States Centers of Disease Control and Prevention and
United States Department of Health
and Human Services requesting to
reinstate the appeal, RECEIVED.
Service date 03/02/2017 by CM/
ECF, email.
[1981050] [15-974]
[Entered: 03/02/2017 05:04 PM]
3/3/17

111

ORDER,
reinstating
appeal,
FILED. [1981194] [15-974] [Entered: 03/03/2017 09:23 AM]
*

*

*

*

*

3/6/17

115

MOTION, to hold appeal in abeyance, on behalf of Appellant Henrietta Fore, Julie Louise Gerberding,
Michael O. Leavitt, Andrew Natsios,
United States Agency for International Development, United States
Centers of Disease Control and
Prevention and United States Department of Health and Human
Services, FILED.
Service date
03/06/2017 by CM/ECF, email.
[1982887]
[15-974]
[Entered:
03/06/2017 02:54 PM]

3/8/17

119

MOTION ORDER, granting motion to hold appeal in abeyance
[115] filed by Appellant Michael O.
Leavitt, United States Department

12
DATE

DOCKET
NUMBER PROCEEDINGS

of Health and Human Services,
United States Agency for International Development, Andrew Natsios, Julie Louise Gerberding,
United States Centers of Disease
Control and Prevention and Henrietta Fore, by RJL, FILED.
[1984464] [119] [15-974] [Entered:
03/08/2017 09:26 AM]
4/7/17

120

STAY STATUS UPDATE LETTER, dated 04/07/2017, on behalf of
Appellant Henrietta Fore, Julie
Louise Gerberding, Michael O.
Leavitt, Andrew Natsios, United
States Agency for International
Development, United States Centers of Disease Control and Prevention and United States Department
of Health and Human Services,
alerting court that the district court
has not yet issued a ruling on the
motion, RECEIVED.
Service
date 04/07/2017 by CM/ECF, email.
[2006645]
[15-974]
[Entered:
04/07/2017 11:37 AM]

5/8/17

122

STAY STATUS UPDATE LETTER, dated 05/08/2017, on behalf of
Appellant Henrietta Fore, Julie
Louise Gerberding, Michael O.
Leavitt, Andrew Natsios, United
States Agency for International

13
DATE

DOCKET
NUMBER PROCEEDINGS

Development, United States Centers of Disease Control and Prevention and United States Department
of Health and Human Services,
alerting court that the district court
has not yet issued a ruling for
the motion for reconsideration
and clarification, RECEIVED.
Service
date
05/08/2017
by
CM/ECF.
[2028662] [15-974]—
[Edited 05/08/2017 by AC]—
[Edited 06/09/2017 by AC] [Entered: 05/08/2017 09:18 AM]
6/9/17

124

STAY STATUS UPDATE LETTER, dated 06/09/2017, on behalf of
Appellant Henrietta Fore, Julie
Louise Gerberding, Michael O.
Leavitt, Andrew Natsios, United
States Agency for International
Development, United States Centers of Disease Control and Prevention and United States Department
of Health and Human Services,
alerting court that the district court
for reconsideration and clarification.
On June 6, 2017, the district court denied the government’s motion, RECEIVED. Service date 06/09/2017
by CM/ECF. [2054707] [15-974]—
[Edited 06/09/2017 by AC] [Entered: 06/09/2017 10:31 AM]

14
DATE

DOCKET
NUMBER PROCEEDINGS

6/12/17

127

ORDER, dated 06/12/2017, the appeal is lifted out of abeyance. The
Government’s brief is due on or before August 4, 2017, FILED.
[2055790]
[15-974]
[Entered:
06/12/2017 12:35 PM]

6/13/17

129

MOTION, to stay, on behalf of Appellant Henrietta Fore, Julie
Louise Gerberding, Michael O.
Leavitt, Andrew Natsios, United
States Agency for International
Development, United States Centers of Disease Control and Prevention and United States Department
of Health and Human Services,
FILED. Service date 06/13/2017
by CM/ECF, email.
[2056944]
[15-974] [Entered:
06/13/2017
12:42 PM]
*

6/23/17

140

*

*

*

*

OPPOSITION TO MOTION, to
stay [129], on behalf of Appellee Alliance for Open Society International, Inc., Open Society Institute,
Pathfinder International. Inc.,
Global Health Council and InterAction, FILED. Service date 06/23/
2017 by CM/ECF.
[2065582]
[15-974] [Entered: 06/23/2017 11:49
PM]

15
DATE

DOCKET
NUMBER PROCEEDINGS

*

*

*

*

*

6/30/17

146

REPLY TO OPPOSITION [140],
on behalf of Appellant Henrietta
Fore, Julie Louise Gerberding, Michael O. Leavitt, Andrew Natsios,
United States Agency for International Development, United States
Centers of Disease Control and
Prevention and United States Department of Health and Human
Services, FILED.
Service date
06/30/2017 by CM/ECF, email.
[2070501] [146] [15-974] [Entered:
06/30/2017 10:19 PM]

7/6/17

152

SUBMITTED
NOTICE,
to
attorneys/parties,
TRANSMITTED.
[2071673] [15-974] [Entered: 07/06/2017 09:52 AM]

7/10/17

153

NOTICE OF INTERLOCUTORY
CIVIL APPEAL, with district
court docket, on behalf of Appellant
Henrietta Fore, Julie Louise Gerberding, Michael O. Leavitt, Andrew Natsios, United States
Agency for International Development, United States Centers of Disease Control and Prevention and
United States Department of
Health and Human Services,
FILED.
[2075322] [17-2126]—

16
DATE

DOCKET
NUMBER PROCEEDINGS

[Edited 07/11/2017 by LMR] [Entered: 07/11/2017 09:58 AM]
7/10/17

154

DISTRICT COURT DECISION
AND ORDER, dated 06/06/2017,
RECEIVED. [2075343] [17-2126]
[Entered: 07/11/2017 10:02 AM]

7/10/17

155

ELECTRONIC INDEX, in lieu
of record, FILED.
[2075346]
[17-2126] [Entered:
07/11/2017
10:03 AM]

7/10/17

158

NEW CASE 17-2126, on behalf of
Appellant Henrietta Fore, Julie
Louise Gerberding, Michael O.
Leavitt, Andrew Natsios, United
States Agency for International
Development, United States Centers of Disease Control and Prevention and United States Department
of Health and Human Services,
FILED. [2075364] [15-974] [Entered: 07/11/2017 10:07 AM]

7/11/17

156

NOTE: See lead case, 15-974, containing complete set of docket entries.
[2075356] [17-2126] [Entered: 07/11/2017 10:04 AM]

7/25/17

161

MOTION ORDER, granting motion to stay [129] filed by Appellant
Michael O. Leavitt, United States
Department of Health and Human
Services, United States Agency for

17
DATE

DOCKET
NUMBER PROCEEDINGS

International Development, Andrew Natsios, Julie Louise Gerberding, United States Centers of
Disease Control and Prevention
and Henrietta Fore in 15-974, by
RSP, PWH, SLC, Circuit Judges,
FILED. [2085930] [161] [15-974,
17-2126] [Entered:
07/25/2017
04:49 PM]
7/25/17

162

CERTIFIED
ORDER,
dated
07/25/2017, to SDNY, ISSUED.
[2085955] [15-974, 17-2126] [Entered: 07/25/2017 04:59 PM]
*

8/4/17

171

*

*

*

*

SPECIAL APPENDIX, on behalf
of Appellant Henrietta Fore, Julie
Louise Gerberding, Michael O.
Leavitt, Andrew Natsios, United
States Agency for International
Development, United States Centers of Disease Control and Prevention and United States Department
of Health and Human Services in
15-974, 17-2126, FILED. Service
date 08/04/2017 by CM/ECF, US
mail. [2094243] [15-974, 17-2126]
[Entered: 08/04/2017 04:26 PM]
*

*

*

*

*

18
DATE

8/4/17

DOCKET
NUMBER PROCEEDINGS

185

BRIEF, on behalf of Appellant
Henrietta Fore, Julie Louise Gerberding, Michael O. Leavitt, Andrew Natsios, United States Agency
for International Development,
United States Centers of Disease
Control and Prevention and United
States Department of Health and
Human Services in 15-974, 17-2126,
FILED. Service date 08/04/2017
by CM/ECF, US mail. [2094378]
[15-974,
17-2126]
[Entered:
08/04/2017 07:25 PM]
*

*

*

*

*

8/7/17

188

JOINT APPENDIX, volume 1 of 7,
(pp. 1-300), on behalf of Appellant
Henrietta Fore, Julie Louise Gerberding, Michael O. Leavitt, Andrew Natsios, United States Agency
for International Development,
United States Centers of Disease
Control and Prevention and United
States Department of Health and
Human Services in 15-974, 17-2126,
FILED. Service date 08/04/2017
by CM/ECF, US mail. [2095000]
[15-974,
17-2126]
[Entered:
08/07/2017 02:25 PM]

8/7/17

189

JOINT APPENDIX, volume 2 of 7,
(pp. 301-600), on behalf of Appellant

19
DATE

DOCKET
NUMBER PROCEEDINGS

Henrietta Fore, Julie Louise Gerberding, Michael O. Leavitt, Andrew
Natsios, United States Agency for
International Development, United
States Centers of Disease Control
and Prevention and United States
Department of Health and Human
Services in
15-974,
17-2126,
FILED. Service date 08/04/2017
by CM/ECF, US mail. [2095003]
[15-974,
17-2126]
[Entered:
08/07/2017 02:28 PM]
8/7/17

190

JOINT APPENDIX, volume 3 of 7,
(pp. 601-900), on behalf of Appellant
Henrietta Fore, Julie Louise Gerberding, Michael O. Leavitt, Andrew Natsios, United States Agency
for International Development,
United States Centers of Disease
Control and Prevention and United
States Department of Health and
Human Services in 15-974, 17-2126,
FILED. Service date 08/04/2017
by CM/ECF, US mail. [2095007]
[15-974,
17-2126]
[Entered:
08/07/2017 02:29 PM]

8/7/17

191

JOINT APPENDIX, volume 4 of 7,
(pp. 901-1200), on behalf of Appellant Henrietta Fore, Julie Louise
Gerberding, Michael O. Leavitt,

20
DATE

DOCKET
NUMBER PROCEEDINGS

Andrew Natsios, United States
Agency for International Development, United States Centers of Disease Control and Prevention and
United States Department of
Health and Human Services in
15-974, 17-2126, FILED. Service
date 08/04/2017 by CM/ECF, US
mail. [2095010] [15-974, 17-2126]
[Entered: 08/07/2017 02:31 PM]
8/7/17

192

JOINT APPENDIX, volume 5 of 7,
(pp. 1201-1500), on behalf of Appellant Henrietta Fore, Julie Louise
Gerberding, Michael O. Leavitt,
Andrew Natsios, United States
Agency for International Development, United States Centers of Disease Control and Prevention and
United States Department of
Health and Human Services in
15-974, 17-2126, FILED. Service
date 08/04/2017 by CM/ECF, US
mail. [2095012] [15-974, 17-2126]
[Entered: 08/07/2017 02:33 PM]

8/7/17

193

JOINT APPENDIX, volume 6 of 7,
(pp. 1501-1800), on behalf of Appellant Henrietta Fore, Julie Louise
Gerberding, Michael O. Leavitt,
Andrew Natsios, United States

21
DATE

DOCKET
NUMBER PROCEEDINGS

Agency for International Development, United States Centers of Disease Control and Prevention and
United States Department of
Health and Human Services in
15-974, 17-2126, FILED. Service
date 08/04/2017 by CM/ECF, US
mail. [2095015] [15-974, 17-2126]
[Entered: 08/07/2017 02:35 PM]
8/7/17

194

JOINT APPENDIX, volume 7 of 7,
(pp. 1801-2065), on behalf of Appellant Henrietta Fore, Julie Louise
Gerberding, Michael O. Leavitt,
Andrew Natsios, United States
Agency for International Development, United States Centers of Disease Control and Prevention and
United States Department of
Health and Human Services in
15-974, 17-2126, FILED. Service
date 08/04/2017 by CM/ECF, US
mail. [2095022] [15-974, 17-2126]
[Entered: 08/07/2017 02:38 PM]
*

11/3/17

212

*

*

*

*

BRIEF, on behalf of Appellee Open
Society Institute, Pathfinder International. Inc., InterAction, Global
Health Council and Alliance for
Open Society International, Inc. in
15-974, 17-2126, FILED. Service

22
DATE

DOCKET
NUMBER PROCEEDINGS

date 11/03/2017 by CM/ECF.
[2164844] [15-974, 17-2126] [Entered: 11/03/2017 10:52 PM]
*

*

*

*

*

11/17/17

221

REPLY BRIEF, on behalf of Appellant Henrietta Fore, Julie
Louise Gerberding, Michael O.
Leavitt, Andrew Natsios, United
States Agency for International
Development, United States Centers of Disease Control and Prevention and United States Department
of Health and Human Services in
15-974, 17-2126, FILED. Service
date 11/17/2017 by CM/ECF, US
mail. [2174989] [15-974, 17-2126]
[Entered: 11/17/2017 01:34 PM]

1/24/18

224

CASE CALENDARING, for argument
on
05/17/2018,
SET.
[2220677] [15-974, 17-2126] [Entered: 01/24/2018 03:41 PM]

4/5/18

226

ARGUMENT
NOTICE,
to
attorneys/parties,
TRANSMITTED. [2272985] [15-974, 17-2126]
[Entered: 04/05/2018 03:33 PM]
*

5/17/18

229

*

*

*

*

CASE, before CJS, RSP, BDP,
HEARD.
[2305277] [15-974,

23
DATE

DOCKET
NUMBER PROCEEDINGS

17-2126] [Entered:
12:21 PM]
*

*

*

*

05/17/2018

*

12/20/18

232

OPINION, affirming the district
court judgment, by CJS, RSP,
BDP, FILED. [2459700] [15-974,
17-2126] [Entered:
12/20/2018
09:57 AM]

12/20/18

234

OPINION, Dissenting, by Judge
CJS, FILED. [2459711] [15-974,
17-2126] [Entered:
12/20/2018
10:01 AM]
*

*

*

*

*

12/20/18

238

JUDGMENT, FILED. [2459883]
[15-974,
17-2126]
[Entered:
12/20/2018 11:23 AM]

12/26/18

239

INTERNET CITATION NOTE:
Material from decision with internet
citation,
ATTACHED.
[2462315] [15-974, 17-2126] [Entered: 12/26/2018 09:52 AM]

12/26/18

240

INTERNET CITATION NOTE:
Material from decision with internet
citation,
ATTACHED.
[2462316] [15-974, 17-2126] [Entered: 12/26/2018 09:53 AM]

3/15/19

242

PETITION
FOR
REHEARING/REHEARING EN BANC, on
behalf of Appellant Henrietta Fore,

24
DATE

DOCKET
NUMBER PROCEEDINGS

Julie Louise Gerberding, Michael
O. Leavitt, Andrew Natsios, United
States Agency for International
Development, United States Centers of Disease Control and Prevention and United States Department
of Health & Human Services in
15-974, 17-2126, FILED. Service
date 03/15/2019 by CM/ECF, US
mail. [2518916] [15-974, 17-2126]
[Entered: 03/15/2019 12:51 PM]
*

*

*

*

*

5/9/19

248

ORDER, petition for rehearing or,
in the alternative, for rehearing en
banc,
is
denied,
FILED.
[2560045] [15-974, 17-2126] [Entered: 05/09/2019 12:41 PM]

5/10/19

251

AMENDED
ORDER,
dated
05/10/2019, denying petition for rehearing or in the alternative, for rehearing
en
banc,
FILED.
[2561047] [15-974, 17-2126] [Entered: 05/10/2019 11:30 AM]

5/15/19

252

MOTION, to stay mandate, on behalf of Appellant Henrietta Fore,
Julie Louise Gerberding, Michael
O. Leavitt, Andrew Natsios, United
States Agency for International
Development, United States Cen-

25
DATE

DOCKET
NUMBER PROCEEDINGS

ters of Disease Control and Prevention and United States Department
of Health & Human Services in
15-974, 17-2126, FILED. Service
date 05/15/2019 by CM/ECF, email.
[2564311] [15-974, 17-2126] [Entered: 05/15/2019 11:16 AM]
5/21/19

256

MOTION ORDER, granting motion to stay the mandate [252] filed
by Appellant Michael O. Leavitt,
United States Department of
Health & Human Services, United
States Agency for International
Development, Andrew Natsios, Julie Louise Gerberding, United
States Centers of Disease Control
and Prevention and Henrietta Fore
in 15-974, by CJS, RSP, BDP,
FILED. [2569577] [256] [15-974,
17-2126] [Entered:
05/21/2019
04:31 PM]

8/7/19

258

STAY STATUS UPDATE LETTER, dated 08/07/2019, on behalf of
Appellant Henrietta Fore, Julie
Louise Gerberding, Michael O.
Leavitt, Andrew Natsios, United
States Agency for International
Development, United States Centers of Disease Control and Prevention and United States Department
of Health & Human Services in

26
DATE

DOCKET
NUMBER PROCEEDINGS

15-974, 17-2126, alerting court that
the government filed a petition for
a writ of certiorari in the Supreme
Court of the United States on August 7, 2019, RECEIVED. Service date 08/07/2019 by CM/ECF.
[2626960] [15-974, 17-2126]—[Edited 08/08/2019 by AJ] [Entered:
08/07/2019 07:58 PM]
8/12/19

261

U.S. SUPREME COURT NOTICE
of writ of certiorari filing, dated
08/08/2019, U.S. Supreme Court
docket # 19-177, RECEIVED.
[2629324] [15-974, 17-2126] [Entered: 08/12/2019 09:29 AM]
*

12/17/19

266

*

*

*

*

U.S. SUPREME COURT NOTICE,
dated 12/13/2019, U.S. Supreme
Court docket # 19-177, stating the
petition for writ of certiorari is
granted, RECEIVED.
[2731206]
[15-974,
17-2126]
[Entered:
12/17/2019 10:21 AM]

27
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK
(FOLEY SQUARE)

Docket No. 1:05-cv-08209-VM
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.;
OPEN SOCIETY INSTITUTE; PATHFINDER
INTERNATIONAL; INTERACTION;
GLOBAL HEALTH COUNCIL; PLAINTIFFS
v.
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT; ANDREW NATSIOS, IN HIS OFFICIAL
CAPACITY AS ADMINISTRATOR OF THE UNITED STATES
AGENCY FOR INTERNATIONAL DEVELOPMENT; JULIE
LOUISE GERBERDING, IN HER OFFICAL CAPACITY AS
DIRECTOR OF THE U.S. CENTERS FOR DISEASE
CONTROL AND PREVENTION, AND HER SUCCESSORS;
MICHAEL O. LEAVITT, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE U.S. DEPARTMENT OF HEALTH AND
HUMAN SERVICES, AND HIS SUCCESSORS, UNITED
STATES CENTERS OF DISEASE CONTROL AND
PREVENTION; UNITED STATES DEPARTMENT OF
HEALTH & HUMAN SERVICES; HENRIETTA FORE, IN
HER OFFICAL CAPACITY AS ADMINISTRATOR OF THE
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT AND HER SUCCESSORS, DEFENDANTS

DOCKET ENTRIES
DATE

9/23/05

DOCKET
NUMBER PROCEEDINGS

1

COMPLAINT against United
States Agency for International
Development, Andrew Natsios.

28
DATE

DOCKET
NUMBER PROCEEDINGS

(Filing Fee $ 250.00, Receipt
Number 556437) Document filed
by Alliance for Open Society International, Inc., Open Society
Institute.
(lb,) Additional attachment(s) added on 9/29/2005
(kco,). (Entered: 09/28/2005)
*
9/28/05

3

*

*

*

*

MOTION for Preliminary Injunction. Document filed by Alliance for Open Society International, Inc., Open Society Institute. (Attachments: # 1 Declaration of Burt Neuborne # 2
Declaration of Rossana Barbero
# 3 Declaration of Chris Beyrer
(Part 1 of 3) # 4 Declaration of
Chris Beyrer (Part 2 of 3) # 5
Declaration of Chris Beyrer
(Part 3 of 3) # 6 Delaration of
Pedro Chequer # 7 Declaration
of Rebekah Diller (Part 1 of 4)
# 8 Declaration of Rebekah
Diller (Part 2 of 4) # 9 Declaration of Rebekah Diller (Part 3 of
4) # 10Declaration of Rebekah
Diller (Part 4 of 4) # 11 Declaration of Robert Kushen # 12 Declaration of Ruth W. Messinger
# 13 Declaration of Maurice I.
Middleberg # 14 Declaration of

29
DATE

DOCKET
NUMBER PROCEEDINGS

Aryeh Neier # 15 Certificate of
Service) (Diller, Rebekah) (Entered: 09/28/2005)
9/28/05

MEMORANDUM OF LAW in
Support re:
3 MOTION for
Preliminary Injunction.. Document filed by Alliance for Open
Society International, Inc., Open
Society Institute.
(Attachments: # 1 Certificate of Service) (Diller, Rebekah) (Entered:
09/28/2005)

4

*

*

*

*

*

10/11/05

7

AMENDED MEMORANDUM
OF LAW in Support re: 3 MOTION for Preliminary Injunction.. Document filed by Alliance for Open Society International, Inc., Open Society Institute.
(Diller, Rebekah) (Entered: 10/11/2005)

10/12/05

8

MOTION for Temporary Restraining Order.
Document
filed by Alliance for Open Society
International, Inc., Open Society
Institute. (Attachments: # 1
Affidavit Declaration of Rebekah
Diller # 2 Exhibit Exhibit A to
Diller Declaration # 3 Exhibit
Exhibit B to Diller Declaration

30
DATE

DOCKET
NUMBER PROCEEDINGS

# 4 Exhibit Exhibit C to Diller
Declaration # 5 Text of Proposed
Order Order to Show Cause with
Temporary Restraining Order)
(Diller, Rebekah) (Entered:
10/12/2005)
10/14/05

9

STIPULATION AND ORDER
that during the pendency of
plntfs’ motions for perliminary
injunction and a TRO, AOSI will
in good faith not take any action
that they think violates the US
Leadership against HIV et al.
(Signed by Judge Victor Marrero
on 10/13/05) (cd,) (Entered:
10/14/2005)

10/18/05

10

TRANSCRIPT of proceedings
held on 10/7/2005 before Judge
Victor Marrero.
(jar,) (Entered: 10/18/2005)
*

11/9/05

13

*

*

*

*

RESPONSE in Support re: 3
MOTION for Preliminary Injunction. Memorandum of Law
of AIDS Action and 21 Other Organizations as Amici Curiae in
Support of Plaintiffs’ Motion for
a Preliminary Injunction. Document filed by AIDS Action

31
DATE

DOCKET
NUMBER PROCEEDINGS

et al.. (Magdo, Christine) (Entered: 11/09/2005)
*
12/5/05

22

*

*

*

AMENDED
COMPLAINT
amending 1 Complaint, against
Julie Louise Gerberding, Michael O. Leavitt, United States
Centers of Disease Control and
Prevention, United States Department of Health and Human
Services, United States Agency
for International Development,
Andrew Natsios.
Document
filed by Pathfinder International, Alliance for Open Society
International, Inc., Open Society
Institute.
Related document:
1 Complaint, filed by Open Society Institute, Alliance for Open
Society International, Inc.. (sac,)
(Entered: 12/08/2005)

20

*
12/8/05

*

*

*

*

*

MOTION for Preliminary InDocument filed by
junction.
Pathfinder International. (Attachments: # 1 Affidavit Declaration of Daniel Pellegrom)
(Diller, Rebekah) (Entered:
12/08/2005)

32
DATE

12/8/05

DOCKET
NUMBER PROCEEDINGS

MEMORANDUM OF LAW in
Support re: 22 MOTION for
Preliminary Injunction.. Document filed by Pathfinder Inter(Diller, Rebekah)
national.
(Entered: 12/08/2005)

23

*

*

*

*

*

1/4/06

27

MEMORANDUM OF LAW in
Opposition re: 22 MOTION for
Preliminary Injunction., 8 MOTION for Temporary Restraining Order., 3 MOTION for Preliminary Injunction..
Document filed by United States
Agency for International Development, Andrew Natsios, Julie
Louise Gerberding, Michael O.
Leavitt, United States Centers of
Disease Control and Prevention,
United States Department of
Health and Human Services.
(Rosberger, Richard) (Entered:
01/04/2006)

1/4/06

28

DECLARATION of Richard E.
Rosberger in Opposition re: 22
MOTION for Preliminary Injunction., 8 MOTION for Temporary Restraining Order., 3 MOTION for Preliminary Injunction.. Document filed by United
States Agency for International

33
DATE

DOCKET
NUMBER PROCEEDINGS

Development, Andrew Natsios,
Julie Louise Gerberding, Michael O. Leavitt, United States
Centers of Disease Control and
Prevention, United States Department of Health and Human
Services. (Attachments: # 1
Exhibit A # 2 Exhibit B # 3 Exhibit C # 4 Exhibit D # 5 Exhibit
E) (Rosberger, Richard) (Entered: 01/04/2006)
1/4/06

DECLARATION of Richard E.
Rosberger in Opposition re: 22
MOTION for Preliminary Injunction., 8 MOTION for Temporary Restraining Order., 3 MOTION for Preliminary Injunction.. Document filed by United
States Agency for International
Development, Andrew Natsios,
Julie Louise Gerberding, Michael O. Leavitt, United States
Centers of Disease Control and
Prevention, United States Department of Health and Human
Services. (Attachments: # 1
Exhibit A # 2 Exhibit C) (Rosberger,
Richard)
(Entered:
01/04/2006)

29

*

*

*

*

*

34
DATE

DOCKET
NUMBER PROCEEDINGS

1/5/06

31

DECLARATION of Richard E.
Rosberger in Opposition re: 22
MOTION for Preliminary Injunction., 6 MOTION for Preliminary Injunction Amended Memorandum of Law in Support of
Plaintiffs’ Motion for a Preliminary Injunction., 3 MOTION for
Preliminary Injunction.. Document filed by United States
Agency for International Development, Andrew Natsios, Julie
Louise Gerberding, Michael O.
Leavitt, United States Centers of
Disease Control and Prevention,
United States Department of
Health and Human Services.
(Attachments: # 1 Exhibit A
# 2 Exhibit B # 3 Exhibit C # 4
# 5 Exhibit E) (Rosberger, Richard) (Entered: 01/05/2006)

1/6/06

32

MEMORANDUM OF LAW in
Opposition re: 22 MOTION for
Preliminary Injunction., 8 MOTION for Temporary Restraining Order., 3 MOTION for Preliminary Injunction..
Document filed by United States
Agency for International Development, Andrew Natsios, Julie
Louise Gerberding, Michael O.

35
DATE

DOCKET
NUMBER PROCEEDINGS

Leavitt, United States Centers of
Disease Control and Prevention,
United States Department of
Health and Human Services.
(Rosberger, Richard) (Entered:
01/06/2006)
*
1/17/06

*

*

*

STIPULATION AND ORDER
during the pendency of plaintiff
Pathfinder’s motion for a preliminary injunction, Pathfinder will
in good faith not take any action
that it thinks violates the United
States
Leadership
Against
HIV/AIDS, Tuberculosis and
Malaria Act of 2003, 22 U.S.C.
7631(f ) (the “Act”), etc. as further set forth in this Order. So
Ordered.
(Signed by Judge
Victor Marrero on 1/12/06) (jco,)
(Entered: 01/18/2006)

33

*
1/19/09

*

*

*

*

*

ANSWER to Amended Complaint. Document filed by Andrew Natsios, Julie Louise Gerberding, Michael O. Leavitt.
(Rosberger, Richard) (Entered:
01/19/2006)

35

*

*

*

*

*

36
DATE

DOCKET
NUMBER PROCEEDINGS

1/25/06

40

REPLY MEMORANDUM OF
LAW in Support re: 22 MOTION for Preliminary Injunction., 8 MOTION for Temporary
Restraining Order., 3 MOTION
for Preliminary Injunction..
Document filed by Alliance for
Open Society International, Inc.,
Pathfinder International, Open
Society Institute. (Diller, Rebekah) (Entered: 01/25/2006)

1/25/06

41

DECLARATION of Rebekah
Diller in Support re: 22 MOTION for Preliminary Injunction., 3 MOTION for Preliminary
Injunction., 8 MOTION for Temporary Restraining Order.. Document filed by Alliance for Open
Society International, Inc., Pathfinder International, Open Society Institute.
(Attachments:
# 1 Exhibit Exhibit 1 # 2 Exhibit
Exhibit 2 # 3 Exhibit Exhibit 3
# 4 Exhibit Exhibit 4 # 5 Exhibit
Exhibit 5 # 6 Exhibit Exhibit 6)
(Diller, Rebekah) (Entered:
01/25/2006)

1/25/06

42

DECLARATION of Robert
Kushen in Support re: 22 MOTION for Preliminary Injunction., 3 MOTION for Preliminary

37
DATE

DOCKET
NUMBER PROCEEDINGS

Injunction., 8 MOTION for Temporary
Restraining
Order..
Document filed by Alliance for
Open Society International, Inc.,
Pathfinder International, Open
Society Institute.
(Attachments: # 1 Exhibit Exhibit 1)
(Diller, Rebekah) (Entered:
01/25/2006)
1/25/06

DECLARATION of Daniel E.
Pellegrom in Support re: 22
MOTION for Preliminary Injunction., 3 MOTION for Preliminary Injunction., 8 MOTION for
Temporary Restraining Order..
Document filed by Alliance for
Open Society International, Inc.,
Pathfinder International, Open
Society Institute.
(Attachments: # 1 Exhibit Exhibit 1
# 2 Exhibit Exhibit 2 # 3 Exhibit
Exhibit 3 # 4 # 5 Exhibit Exhibit
5 # 6 Exhibit Exhibit 6 # 7 Exhibit Exhibit 7 # 8 Exhibit Exhibit 8 # 9 Exhibit Exhibit 9 # 10
Exhibit Exhibit 10 # 11 Exhibit
Exhibit 11# 12 Exhibit Exhibit
12 # 13 Exhibit Exhibit 13)
(Diller, Rebekah) (Entered:
01/26/2006)

43

*

*

*

*

*

38
DATE

DOCKET
NUMBER PROCEEDINGS

4/19/06

47

STIPULATION AND ORDER:
It is hereby stipulated and agreed
that during the pendency of
Pathfinder International’s motion for a preliminary injunction,
Pathfinder International will in
good faith not take any action
that it thinks violates the US
Leadership Against HIV/AIDS,
Tuberculosis, and Malaris Act of
2003, 22 USC 7631(f ) CDC Funding Opportunity numbers 04263,
04208, and 04256 and Pathfinder
International’s related representations . . . (Signed by Judge
Victor Marrero on 1/12/2006)
(lb,) (Entered: 04/19/2006)

4/26/06

48

TRANSCRIPT of proceedings
held on 4/13/2006 @ 9:05 a.m. before Judge Victor Marrero. (lb,)
(Entered: 04/26/2006)

5/9/06

49

DECISION AND ORDER that
the parties to submit to the
Court, with fourteen days of the
date of this Order, a proposed
preliminary injunction conforming with the determinations in
this Decision.
So Ordered.
(Signed by Judge Victor Marrero
on 5/9/2006) (jmi,) (Entered:
05/09/2006)

39
DATE

DOCKET
NUMBER PROCEEDINGS

*

*

*

*

*

6/21/06

52

TRANSCRIPT of proceedings
held on 6/2/06 before Judge Victor Marrero. (tro,) (Entered:
06/21/2006)

6/29/06

53

PRELIMINARY
INJUNCTION ORDER: Pending entry
of a final judgment on the merits
of the parties’ dispute in this action or until any reconsideration
or modification of the order is authorized by the court; dfts are enjoined as further set forth in this
order. (Signed by Judge Victor
Marrero on 6/26/06) (dle,) (Entered: 06/30/2006)
*

8/25/06

*

*

*

*

NOTICE OF APPEAL from 53
Preliminary Injunction,. Document filed by United States
Agency for International Development, United States Centers
of Disease Control and Prevention, United States Department
of Health and Human Services.
(A.U.S.A.)
(nd,)
(Entered:
08/29/2006)

57

*

*

*

*

*

40
DATE

10/27/06

DOCKET
NUMBER PROCEEDINGS

First Supplemental ROA Sent to
USCA (Index). Notice that the
Supplemental Index to the record on Appeal for 57 Notice of
Appeal, filed by United States
Department of Health and Human Services, United States
Agency for International Development, United States Centers
of Disease Control and Prevention, USCA Case Number
06-4035, 3 Copies of the index,
Certified Supplemental Clerk
Certificate and Certified Docket
Sheet were transmitted to the
U.S. Court of Appeals. (tp,) Additional attachment(s) added on
11/20/2006 (tp,).
(Entered:
10/27/2006)

60

*
6/26/07

63

*

*

*

*

ORDER PLACING CASE ON
SUSPENSE:
This action be
placed on the Court’s Suspense
Docket pending a ruling by the
Court of Appeals for the Second
Circuit on dft’s appeal of this
Court’s Order dated 6/30/2006.
(Signed by Judge Victor Marrero
on 6/26/2007) (jar) (Entered:
06/27/2007)

41
DATE

DOCKET
NUMBER PROCEEDINGS

*
12/27/07

66

*

*

*

MANDATE of USCA (Certified
Copy) as to 57 Notice of Appeal,
filed by United States Agency
for International Development,
United States Centers of Disease
Control and Prevention, United
States Department of Health and
Human Services USCA Case
Number 06-4035-cv. Ordered,
Adjudged and Decreed that the
case is REMANDED to the District Court for further proceedings consistent with this order.
Catherine O’Hagan Wolfe, Clerk
USCA. Issued As Mandate:
12/21/2007.
(nd) (Entered:
12/27/2007)

64

*
2/8/08

*

*

*

*

*

MOTION for Leave to File A
Second Amended Complaint and
Motion by Global Health Council
and Interaction for a Preliminary
Injunction. Document filed by
Alliance for Open Society International, Inc., Pathfinder International, Open Society Institute.
(Diller, Rebekah) (Entered:
02/08/2008)

42
DATE

DOCKET
NUMBER PROCEEDINGS

2/8/08

67

MEMORANDUM OF LAW in
Support re: 66 MOTION for
Leave to File A Second Amended
Complaint and Motion by Global
Health Council and Interaction
for a Preliminary Injunction..
Document filed by Alliance for
Open Society International, Inc.,
Pathfinder International, Open
Society Institute.
(Attachments: # 1 Exhibit A) (Diller,
Rebekah) (Entered: 02/08/2008)

2/8/08

68

DECLARATION of Rebekah
Diller in Support re: 66 MOTION for Leave to File A Second
Amended Complaint and Motion
by Global Health Council and Interaction for a Preliminary Injunction.. Document filed by Alliance for Open Society International, Inc., Pathfinder International, Open Society Institute.
(Attachments: # 1 Exhibit A,
# 2 Exhibit B, # 3 Exhibit C, # 4
Exhibit D, # 5 Exhibit E, # 6 Exhibit F) (Diller, Rebekah) (Entered: 02/08/2008)

2/8/08

69

DECLARATION of Nils Daulaire in Support re: 66 MOTION for Leave to File A Second
Amended Complaint and Motion

43
DATE

DOCKET
NUMBER PROCEEDINGS

by Global Health Council and Interaction for a Preliminary Injunction.. Document filed by Alliance for Open Society International, Inc., Pathfinder International, Open Society Institute.
(Attachments: # 1 Exhibit A)
(Diller, Rebekah) (Entered:
02/08/2008)
2/8/08

70

DECLARATION of Daniel E.
Pellegrom in Support re: 66
MOTION for Leave to File A
Second Amended Complaint and
Motion by Global Health Council
and Interaction for a Preliminary
Injunction.. Document filed by
Alliance for Open Society International, Inc., Pathfinder International, Open Society Institute.
(Attachments: # 1 Exhibit A,
# 2 Exhibit B, # 3 Exhibit C, # 4
Exhibit D, # 5 Exhibit E, # 6 Exhibit F, # 7 Exhibit G, # 8 Exhibit H, # 9 Exhibit I, # 10 Exhibit J, # 11 Exhibit K, # 12 Exhibit L, # 13 Exhibit M, # 14 Exhibit N) (Diller, Rebekah) (Entered: 02/08/2008)

2/8/08

71

DECLARATION
of
Sam
Worthington in Support re: 66
MOTION for Leave to File A

44
DATE

DOCKET
NUMBER PROCEEDINGS

Second Amended Complaint and
Motion by Global Health Council
and Interaction for a Preliminary
Injunction.. Document filed by
Alliance for Open Society International, Inc., Pathfinder International, Open Society Institute.
(Attachments: # 1 Exhibit A,
# 2 Exhibit B, # 3 Exhibit C)
(Diller, Rebekah) (Entered:
02/08/2008)
2/8/08

72

DECLARATION of Helene
Gayle in Support re: 66 MOTION for Leave to File A Second
Amended Complaint and Motion
by Global Health Council and Interaction for a Preliminary Injunction.. Document filed by Alliance for Open Society International, Inc., Pathfinder International, Open Society Institute.
(Diller, Rebekah) (Entered:
02/08/2008)

2/8/08

73

DECLARATION of Pape Gaye
in Support re: 66 MOTION for
Leave to File A Second Amended
Complaint and Motion by Global
Health Council and Interaction
for a Preliminary Injunction..
Document filed by Alliance for
Open Society International, Inc.,

45
DATE

DOCKET
NUMBER PROCEEDINGS

Pathfinder International, Open
Society Institute. (Diller, Rebekah) (Entered: 02/08/2008)
2/8/08

DECLARATION of Mark Sidel
in Support re: 66 MOTION for
Leave to File A Second Amended
Complaint and Motion by Global
Health Council and Interaction
for a Preliminary Injunction..
Document filed by Alliance for
Open Society International, Inc.,
Pathfinder International, Open
Society Institute.
(Attachments: # 1 Exhibit A, # 2 Exhibit B, # 3 Exhibit B1, # 4 Exhibit B2, # 5 Exhibit B3, # 6 Exhibit B4, # 7 Exhibit B5, # 8 Exhibit C, # 9 Exhibit D, # 10 Exhibit E, # 11 Exhibit F) (Diller,
Rebekah) (Entered: 02/08/2008)

74

*
3/17/08

77

*

*

*

*

MEMORANDUM OF LAW in
Opposition re: 66 MOTION for
Leave to File A Second Amended
Complaint and Motion by Global
Health Council and Interaction
for a Preliminary Injunction..
Document filed by United States
Agency for International Development, Andrew Natsios, Julie
Louise Gerberding, Michael O.

46
DATE

DOCKET
NUMBER PROCEEDINGS

Leavitt, United States Centers of
Disease Control and Prevention,
United States Department of
Health and Human Services.
(Torrance, Benjamin) (Entered:
03/17/2008)
3/17/08

DECLARATION of Benjamin
H. Torrance in Opposition re:
66 MOTION for Leave to File A
Second Amended Complaint and
Motion by Global Health Council
and Interaction for a Preliminary
Injunction.. Document filed by
United States Agency for International Development, Andrew
Natsios, Julie Louise Gerberding, Michael O. Leavitt,
United States Centers of Disease
Control and Prevention, United
States Department of Health and
Human Services.
(Attachments: # 1 Exhibit HHS Guidance, # 2 Exhibit USAID AAPD,
# 3 Exhibit GHC Member List,
# 4 Exhibit DKT Complaint)
(Torrance, Benjamin) (Entered:
03/17/2008)

78

*
4/7/08

81

*

*

*

*

REPLY MEMORANDUM OF
LAW in Support re: 66 MOTION for Leave to File A Second

47
DATE

DOCKET
NUMBER PROCEEDINGS

Amended Complaint and Motion
by Global Health Council and Interaction for a Preliminary Injunction.. Document filed by Alliance for Open Society International, Inc., Pathfinder International, Open Society Institute.
(Diller, Rebekah) (Entered:
04/07/2008)
4/7/08

82

REPLY AFFIDAVIT of Nils
Daulaire in Support re: 66 MOTION for Leave to File A Second
Amended Complaint and Motion
by Global Health Council and Interaction for a Preliminary Injunction.. Document filed by Alliance for Open Society International, Inc., Pathfinder International, Open Society Institute.
(Diller, Rebekah) (Entered:
04/07/2008)

8/8/08

83

DECISION AND ORDER:
For the reasons stated herein, it
is hereby ordered that the motion (docket no. 66) of plaintiffs
Alliance for Open Society International (AOSI) and Pathfinder
International (Pathfinder) for
leave to file a second amended
complaint to add Global Health
Council (GHC) and InterAction

48
DATE

DOCKET
NUMBER PROCEEDINGS

as plaintiffs to this action is
GRANTED.
The motion of
GHC and InterAction for a preliminary injunction, is GRANTED, as set forth herein. DKT, as
member of GHC, shall be barred
form benefiting from the preliminary injunction.
(Signed by
Judge Victor Marrero on
8/7/2008)
(jpo)
(Entered:
08/08/2008)
8/18/08

84

SECOND AMENDED COMPLAINT amending 20 Amended
Complaint,, against Henrietta
Fore, Global Health Council,
United States Agency for International Development, Julie
Louise Gerberding, Michael O.
Leavitt, United States Centers of
Disease Control and Prevention,
United States Department of
Health and Human Services.
Document filed by Global Health
Council, InterAction, Alliance for
Open Society International, Inc.,
Pathfinder International, Open
Society Institute. Related document:
20 Amended Complaint,, filed by Alliance for Open
Society International, Inc., Open

49
DATE

DOCKET
NUMBER PROCEEDINGS

Society Institute, Pathfinder International. (dle) (dle). (Entered: 08/19/2008)
*
9/2/08

87

*

*

*

ANSWER to Amended Complaint.
Document filed by
United States Agency for International Development, Andrew
Natsios, Henrietta Fore, Julie
Louise Gerberding, Michael O.
Leavitt, United States Centers of
Disease Control and Prevention,
United States Department of
Health and Human Services.
Related document: 84 Amended
Complaint,, filed by Alliance for
Open Society International, Inc.,
Open Society Institute, InterAction, Global Health Council,
Pathfinder International. (Torrance, Benjamin) (Entered:
09/02/2008)

86

*
10/6/08

*

*

*

*

*

NOTICE OF APPEAL from 83
Order on Motion for Leave to
File Document. Document filed
by United States Agency for International Development, Henrietta Fore, Julie Louise Gerberding, Michael O. Leavitt,

50
DATE

DOCKET
NUMBER PROCEEDINGS

United States Centers of Disease
Control and Prevention, United
States Department of Health and
Human Services.
(nd) (Entered: 10/06/2008)
*
10/7/08

93

*

*

*

First Supplemental ROA Sent to
USCA (Index). Notice that the
Supplemental Index to the record on Appeal for 87 Notice of
Appeal, filed by United States
Agency for International Development, United States Centers
of Disease Control and Prevention, United States Department
of Health and Human Services,
Michael O. Leavitt, Henrietta
Fore, Julie Louise Gerberding
USCA Case Number 08-7917, 3
Copies of the index, Certified
Supplemental Clerk Certificate
and Certified Docket Sheet were
transmitted to the U.S. Court of
Appeals. (tp) (tp). (Entered:
10/07/2008)

88

*
6/30/09

*

*

*

*

*

ORDER: It is hereby ordered
that plaintiffs inform the Court,
by July 8, 2009, of the status of
the regulatory proceedings that

51
DATE

DOCKET
NUMBER PROCEEDINGS

had been considered arising out
of the matters at issue in this litigation, and of plaintiffs’ contemplation with regard to further
prosecution of this action. In
the event no timely response to
this Order is received, the Court
may dismiss the action without
further notice for lack of prosecution. (Signed by Judge Victor
Marrero on 6/30/2009) ( jpo) (Entered: 06/30/2009)
7/8/09

94

ENDORSED LETTER addressed to Judge Victor Marrero
from Laura Abel dated 7/8/09 re:
Counsel for Plaintiffs write in response to the Court’s Order of
6/20/09, requiring Plaintiffs to
“inform the Court, by 7/8/09, of
the status of the regulatory proceedings that has been considered arising out of the matters at
issue in this litigation, and of
plaintiffs’ contemplation with regard to further prosecution of
this action. ENDORSEMENT:
Plaintiff ’s are directed to submit
to the Court an updated report
on the status of this matter
within 60 days of the date of this
Order, or any earlier date on

52
DATE

DOCKET
NUMBER PROCEEDINGS

which material development occurs regarding the matters described above.
(Signed by
Judge Victor Marrero on 7/8/09)
(tro) (Entered: 07/08/2009)
*
7/29/09

97

*

*

*

ENDORSED LETTER addressed to Judge Victor Marrero
from Benjamin H.
Torrance
dated 7/28/2009 re:
Counsel
writes to inform the Court that
on July 24, 2009 the Court of Appeals entered the parties stipulation to withdraw the government’s appeal without prejudice
to reinstatement by January 8,
2010. ENDORSEMENT: The
Clerk of Court is directed to file
this letter in the public docket of
this case. So Ordered. (Signed
by Judge Victor Marrero on
7/28/2009)
( jfe)
(Entered:
07/29/2009)

95

*
9/30/09

*

*

*

*

*

TRUE COPY ORDER of USCA
as to 87 Notice of Appeal, filed by
United States Agency for International Development, United
States Centers of Disease Control and Prevention, United

53
DATE

DOCKET
NUMBER PROCEEDINGS

States Department of Health and
Human Services, Michael O.
Leavitt, Henrietta Fore, Julie
Louise Gerberding USCA Case
Number 084917-cv. Order withdrawing appeal by consent without prejudice to reinstatement,
the appeal is hereby withdrawn
without costs and without attorney’s fees and without prejudice,
subject to reactivation of the appeal by appellant’s counsel by
written notice to the Clerk of this
Court by 1/8/10. If not thus
timely reactivated the appea
shall be subject to dismissal.
Catherine O’Hagan Wolfe, Clerk
USCA. Certified:
9/24/2009.
(nd) (Entered: 09/30/2009)
1/6/10

98

ENDORSED LETTER addressed to Judge Victor Marrero
from Rebekah Diller dated
1/6/2010 re: Counsel for Plaintiffs write to the Court to provide
and updated report on the status
of regulatory proceedings related to this matter.
ENDORSEMENT: The Clerk of
Court is directed to enter this letter and enclosed document in the
public record of this action.
(Signed by Judge Victor Marrero

54
DATE

DOCKET
NUMBER PROCEEDINGS

on 1/6/2010) (tro) (tro).
tered: 01/06/2010)

(En-

1/13/10

99

ORDER of USCA (Certified
Copy) as to 87 Notice of Appeal,
filed by United States Agency for
International
Development,
United States Centers of Disease
Control and Prevention, United
States Department of Health
and Human Services, Michael O.
Leavitt, Henrietta Fore, Julie
Louise Gerberding USCA Case
Number 08-4917-cv. This appeal was disposed by a so-ordered stipulation withdrawing
the appeal when reinstated by
the Benjamin H. Torrance counsel for appellants timely submission of notice of that effect.
Counsel for the appellants Alliance for Open Society International et al., has submitted a
timely notice of reinstatement.
IT IS HEREBY ORDERED
that the appeal is reinstated.
Catherine O’Hagan Wolfe, Clerk
USCA. Certified: 1/11/2010.
(nd) (Entered: 01/13/2010)

1/15/10

100

ORDER of USCA (Certified
Copy) as to 87 Notice of Appeal,
filed by United States Agency for

55
DATE

DOCKET
NUMBER PROCEEDINGS

International
Development,
United States Centers of Disease
Control and Prevention, United
States Department of Health and
Human Services, Michael O.
Leavitt, Henrietta Fore, Julie
Louise Gerberding USCA Case
Number 08-4917-cv. This appeal was disposed of by a soordered stipulation withdrawing
the appeal when reinstated by
the Defendants-Appellants timely
submission of notice to that effect. Counsel for the Appellants
has submitted a timely Notice of
reinstatement. IT IS HEREBY
ORDERED that the appeal is reinstated.
Catherine O’Hagan
Wolfe, Clerk USCA. Certified:
1/14/2010.
(nd) (Entered:
01/15/2010)
2/21/12

101

MANDATE of USCA (Certified
Copy) as to 87 Notice of Appeal,
filed by United States Agency
for International Development,
United States Centers of Disease
Control and Prevention, United
States Department of Health and
Human Services, Michael O.
Leavitt, Henrietta Fore, Julie
Louise Gerberding USCA Case
Number 08-4917-cv. Ordered,

56
DATE

DOCKET
NUMBER PROCEEDINGS

Adjudged and Decreed that the
District Court’s grant of preliminary injunctive relief is AFFIRMED in accordance with the
opinion of this Court. Catherine
O’Hagan Wolfe, Clerk USCA for
the Second Circuit. Issued As
Mandate: 02/17/2012. (nd) (Additional attachment(s) added on
2/21/2012: # 1 Opinion) (nd).
(Entered: 02/21/2012)
*

*

*

*

*

3/30/12

102

ORDER: With reference to the
Mandate of the United States
Court of Appeals for the Second
Circuit dated February 21, 2012,
the parties are directed to inform
the Court by April 6, 2012 as to
their contemplation regarding
any further litigation before this
Court, or to settle a final order
reflecting a stipulated resolution
that could serve as the basis for
any further appellate proceedings. (Signed by Judge Victor
Marrero on 3/27/2012) ( js) (Entered: 03/30/2012)

4/10/12

103

ENDORSED LETTER addressed to Judge Victor Marrero
from Benjamin H. Torrance
dated 4/6/2012 re: Counsel for

57
DATE

DOCKET
NUMBER PROCEEDINGS

the parties write in joint response to the Court’s Order,
dated March 30, 2012, requiring
the parties “to inform the Court
by April 6, 2012, as to their contemplation regarding any further
litigation before this Court, or to
settle a final order reflecting a
stipulated resolution that could
serve as the basis for any further
appellate proceedings.”
ENDORSEMENT: The Clerk of
Court is directed to enter into the
public record of this action the
letter above submitted to the
Court by the Government. So
ordered. (Signed by Judge Victor Marrero on 4/10/2012) (rjm)
(Entered: 04/10/2012)
5/1/12

104

ENDORSED LETTER addressed to Judge Victor Marrero
from Benjamin H. Torrance
dated 4/24/2012 re: I am writing
to inform the Court that the government has sought and obtained
from the Supreme Court an extension of time in which to petition for certiorari from the Second Circuit’s judgment of July 6,
2011. ENDORSEMENT: The
Clerk of Court is directed to enter into the public record of this

58
DATE

DOCKET
NUMBER PROCEEDINGS

action the letter above submitted
to the Court by the Government.
So ordered. (Signed by Judge
Victor Marrero on 4/28/2012)
(rjm) (Entered: 05/01/2012)
2/22/13

Appeal Record Sent to United
States Supreme Court (Index).
Notice that the Original index to
the record on Appeal for 87 Notice of Appeal, filed by United
States Agency for International
Development, United States
Centers of Disease Control and
Prevention, United States Department of Health and Human
Services, Michael O. Leavitt,
Henrietta Fore, Julie Louise
Gerberding. US Supreme Court
case number 12-0010. USCA
Case Number 08-4917-cv, 3 Copies of the index, Certified Clerk
Certificate and Certified Docket
Sheet were transmitted to the
U.S. Supreme Court. (nd) (Additional attachment(s) added on
2/22/2013: # 1 U.S. Supreme
Court Letter requesting records)
(nd). (Entered: 02/22/2013)

105

*
9/29/14

106

*

*

*

*

ENDORSED LETTER addressed to Judge Victor Marrero

59
DATE

DOCKET
NUMBER PROCEEDINGS

from David W. Bowker dated
9/23/14 re: Plaintiffs seek a premotion conference in anticipation
of a motion for a permanent injunction and other legal or equitable relief, as this Court deems
appropriate and necessary. ENDORSEMENT:
The Government is directed to respond by
10-3-14 by letter not to exceed
three (3) pages, to the matter set
forth above by plaintiffs, showing
cause why the relief requested
should not be granted. SO ORDERED. (Signed by Judge Victor Marrero on 9/29/2014) (mro)
(Entered: 09/29/2014)
10/3/14

107

ENDORSED LETTER addressed to Judge Victor Marrero
from Benjamin H. Torrance
dated 10/3/2014 re: The government thus respectfully requests
that this Court hold a pre-motion
conference, or, alternatively, direct the parties to submit a proposed briefing schedule on plaintiffs’ motion.
ENDORSEMENT: Plaintiffs are directed
to respond by 10-9-14 by letter
not to exceed three (3) pages to
the matter set forth above by the
Government. (Signed by Judge

60
DATE

DOCKET
NUMBER PROCEEDINGS

Victor Marrero on 10/3/2014)
(lmb) (Entered: 10/03/2014)
10/10/14

ENDORSED LETTER addressed to Judge Victor Marrero
from David W. Bowker dated
10/9/2014 re: Plaintiffs are entitled to a permanent injunction
and any other relief the Court
deems appropriate.
ENDORSEMENT: The Court will
consider evidence and arguments
at a hearing on this matter on
10-16-14 at 9:30 a.m. At that
time the Court will determine
whether further proceedings or
briefing is necessary., (Status
Conference set for 10/16/2014 at
09:30 AM before Judge Victor
Marrero.) (Signed by Judge Victor Marrero on 10/10/2014) (lmb)
(Entered: 10/10/2014)

108

*
10/22/14

109

*

*

*

*

ENDORSED LETTER addressed to Judge Victor Marrero
from Benjamin H. Torrance
dated 10/22/2014 re: At the conference before the Court on October 16, 2014, Your Honor directed the parties to submit documents relevant to plaintiffs’

61
DATE

DOCKET
NUMBER PROCEEDINGS

proposed motion for an injunction by October 23, 2014. The
government respectfully requests that the parties’ deadline
for such a submission be extended to October 30, 2014.
ENDORSEMENT:
So ordered.
Request GRANTED.
The time for the parties to submit the materials referred to
above is extended to 10-30-14.
(Signed by Judge Victor Marrero
on 10/22/2014) (lmb) (Entered:
10/22/2014)
10/27/14

110

TRANSCRIPT of Proceedings
re: conference held on 10/16/2014
before Judge Victor Marrero.
Court
Reporter/Transcriber:
Sonya Ketter Huggins, (212)
805-0300. Transcript may be
viewed at the court public terminal or purchased through the
Court Reporter/Transcriber before the deadline for Release of
Transcript Restriction.
After
that date it may be obtained
through PACER.
Redaction
Request due 11/20/2014.
Redacted Transcript Deadline set
for 12/4/2014. Release of Transcript
Restriction
set
for

62
DATE

DOCKET
NUMBER PROCEEDINGS

1/28/2015.
(McGuirk, Kelly)
(Entered: 10/27/2014)
10/27/14

111

NOTICE OF FILING OF OFFICIAL TRANSCRIPT Notice
is hereby given that an official
transcript of a conference proceeding held on 10/16/2014 has
been filed by the court reporter/
transcriber in
the
abovecaptioned matter. The parties
have seven (7) calendar days to
file with the court a Notice of Intent to Request Redaction of this
transcript. If no such Notice is
filed, the transcript may be made
remotely electronically available
to the public without redaction
after 90 calendar days
. . .
(McGuirk,
Kelly)
(Entered:
10/27/2014)

10/30/14

112

DECLARATION of David W.
Bowker (Re Plaintiffs Arguments at the 10/16/2014 Conference). Document filed by Alliance for Open Society International, Inc., Open Society Institute, Pathfinder International.
(Attachments: # 1 Exhibit A,
# 2 Exhibit B, # 3 Exhibit C, # 4
Exhibit D–Part 1, # 5 Exhibit D
–Part 2, # 6 Exhibit D–Part 3, #

63
DATE

DOCKET
NUMBER PROCEEDINGS

7 Exhibit D–Part 4, # 8 Exhibit
D–Part 5, # 9 Exhibit D–Part 6,
# 10 Exhibit D–Part 7, # 11 Exhibit D–Part 8, # 12 Exhibit D–
Part 9, # 13 Exhibit D–Part 10,
# 14 Exhibit D–Part 11, # 15 Exhibit D–Part 12, # 16 Exhibit D–
Part 13, # 17 Exhibit E, # 18 Exhibit F, # 19 Exhibit G, # 20 Exhibit H, # 21 Exhibit I, # 22 Exhibit J, # 23 Exhibit K, # 24 Exhibit L) (Bowker, David) (Entered: 10/30/2014)
10/30/14

113

DECLARATION of Purnima
Mane (Re Plaintiffs Arguments
at the 10/16/2014 Conference).
Document filed by Alliance for
Open Society International, Inc.,
Global Health Council, Open Society Institute, Pathfinder International. (Attachments: # 1
Exhibit 1, # 2 Exhibit 2, # 3 Exhibit 3, # 4 Exhibit 4, # 5 Exhibit
5, # 6 Exhibit 6, # 7 Exhibit 7,
# 8 Exhibit 8, # 9 Exhibit 9, # 10
Exhibit 10, # 11 Exhibit 11, # 12
Exhibit 12) (Bowker, David) (Entered: 10/30/2014)

10/30/14

114

DECLARATION of Helene D.
Gayle (Re Plaintiffs Arguments
at the 10/16/2014 Conference).

64
DATE

DOCKET
NUMBER PROCEEDINGS

Document filed by Alliance for
Open Society International, Inc.,
Global Health Council, InterAction, Open Society Institute,
Pathfinder International. (Attachments: # 1 Exhibit 1, # 2
Exhibit 2–Part 1, # 3 Exhibit 2–
Part 2, # 4 Exhibit 2–Part 3, # 5
Exhibit 2–Part 4, # 6 Exhibit 2–
Part 5, # 7 Exhibit 2 –Part 6, # 8
Exhibit 3, # 9 Exhibit 4, # 10 Exhibit 5, # 11 Exhibit 6, # 12 Exhibit 7, # 13 Exhibit 8) (Bowker,
David) (Entered: 10/30/2014)
10/30/14

115

DECLARATION of Carlos Carrazana (Re Plaintiffs Arguments
at the 10/16/2014 Conference).
Document filed by Alliance for
Open Society International, Inc.,
Global Health Council, InterAction, Open Society Institute,
Pathfinder
International.
(Bowker,
David)
(Entered:
10/30/2014)

11/3/14

116

ENDORSED LETTER addressed to Judge Victor Marrero
from David W. Bowker dated
10/30/2014 re: I write on behalf
of plaintiffs Alliance for Open Society International, Pathfinder
International, InterAction and

65
DATE

DOCKET
NUMBER PROCEEDINGS

its members, and Global Health
Council and its members (“Plaintiffs”) in the above-referenced
matter, in response to your
Honor’s request for the submission of any declarations and
other evidence that Plaintiffs relied upon at the October 16 conference regarding Plaintiffs’ request for a permanent injunction.
ENDORSEMENT: The Clerk
of Court is directed to enter into
the public record of this action
the letter submitted to the Court
by plaintiffs. (Signed by Judge
Victor Marrero on 10/31/2014)
(lmb) (Entered: 11/03/2014)
11/3/14

117

ENDORSED LETTER addressed to Judge Victor Marrero
from Benjamin H. Torrance
dated 10/30/2014 re: We write
respectfully in response to the
Court’s direction to submit supporting materials regarding the
plaintiffs’ proposed motion for a
permanent injunction.
ENDORSEMENT: The Clerk of
Court is directed to enter into the
public record of this action the
letter above submitted to the
Court by the Government.
(Signed by Judge Victor Marrero

66
DATE

DOCKET
NUMBER PROCEEDINGS

on 10/31/2014) (lmb) (Entered:
11/03/2014)
1/30/15

118

DECISION AND ORDER:
For the reasons stated above, it
is hereby ORDERED that the
Government is permanently enjoined from issuing any official
communications—including but
not limited to RFAs, RFPs, solicitations, and any guidance—that
include the Policy Requirement
without also including a clear exemption for Plaintiffs and their
domestic and foreign affiliates;
and it is further ORDERED that
the Government is permanently
enjoined from applying the Policy Requirement to Plaintiffs or
their domestic and foreign affiliates; and it is further ORDERED that the Plaintiffs’ request that USAID be ordered to
use different language in its
grant contracts to exempt Plaintiffs from the Policy Requirement is DENIED; and it is further ORDERED that the Plaintiffs’ request that the Defendants
be ordered to pay Plaintiffs’ fees,
costs, and expenses incurred in
connection with this matter, is

67
DATE

DOCKET
NUMBER PROCEEDINGS

DENIED; and it is further ORDERED that the Plaintiffs’ request for an order imposing fines
for any further violation of the
Court’s orders is DENIED; and
it is further ORDERED that the
Government show cause why this
Court should not bar it from enforcing the Policy Requirement
against any organization and why
allowing the Government to continue to apply the Policy Requirement would not violate the
Supreme Court’s decision in this
matter. (Signed by Judge Victor Marrero on 1/30/2015) (lmb)
(Entered: 01/30/2015)
2/4/15

119

MOTION to Stay re: 118 Order,,,,,. Document filed by Henrietta Fore, Julie Louise Gerberding, Michael O. Leavitt, Andrew Natsios, United States
Agency for International Development, United States Centers
of Disease Control and Prevention, United States Department
of Health and Human Services.
(Torrance, Benjamin) (Entered:
02/04/2015)

2/4/15

120

MEMORANDUM OF LAW in
Support re: 119 MOTION to

68
DATE

DOCKET
NUMBER PROCEEDINGS

Stay re: 118 Order,,,,,. . Document filed by Henrietta Fore, Julie Louise Gerberding, Michael
O. Leavitt, Andrew Natsios,
United States Agency for International Development, United
States Centers of Disease Control and Prevention, United
States Department of Health and
Human Services.
(Torrance,
Benjamin) (Entered: 02/04/2015)
2/4/15

121

DECLARATION of Susan Keller Pascocello in Support re:
119 MOTION to Stay re: 118
Order,,,,, . . Document filed by
Henrietta Fore, Julie Louise
Gerberding, Michael O. Leavitt,
Andrew Natsios, United States
Agency for International Development, United States Centers
of Disease Control and Prevention, United States Department
of Health and Human Services.
(Torrance, Benjamin) (Entered:
02/04/2015)

2/5/15

122

ORDER granting 119 Motion to
Stay. Upon the application of
the defendants, it is hereby ORDERED that the Court’s Decision and Order granting a permanent injunction, entered in

69
DATE

DOCKET
NUMBER PROCEEDINGS

this action on January 30, 2015, is
stayed for 14 days from the entry
of this Order. (Signed by Judge
Victor Marrero on 2/5/2015)
(lmb) (Entered: 02/05/2015)
2/5/15

123

ENDORSED LETTER addressed to Judge Victor Marrero
from David W. Bowker dated
2/4/2014 re: Plaintiffs respectfully request that this Court issue an amended version of its
January 30, 2015 Decision and
Order that names InterAction as
a plaintiff. ENDORSEMENT:
The Clerk of Court is directed to
enter into the public record of
this action the letter above submitted to the Court by plaintiffs.
(Signed by Judge Victor Marrero
on 2/5/2015) (lmb) (Entered:
02/05/2015)

2/10/15

124

AMENDED ORDER re: 118
Order: that the “Introduction”
section on page one (1) of this
Court’s Decision and Order
dated January 30, 2015 (Dkt. No.
118) be amended to state “Plaintiffs Alliance for Open Society International (“AOSI”), Open Society Institute (“OSI”), Pathfinder
International
(“Pathfinder”),

70
DATE

DOCKET
NUMBER PROCEEDINGS

InterAction
(“InterAction”),
and Global Health Council
(“GHC”) (collectively “Plaintiffs”) brought action against defendants, the United States
Agency for International Development (“USAID”), the United
States Department of Health and
Human Services (“HHS”), and
the United States Centers for
Disease Control and Prevention
(“CDC”) (collectively “Defendants,” or the “Agencies,” or the
“Government”).
“(Signed by
Judge Victor Marrero on
2/10/2015)
(tn)
(Entered:
02/10/2015)
2/19/15

125

ORDER: Upon the application
of the defendants and with the
consent of plaintiffs, it is hereby
ORDERED that the Court’s Decision and Order granting a permanent injunction, entered in
this action on January 30, 2015, is
stayed until and through March
23, 2015. (Signed by Judge Victor Marrero on 2/19/2015) (lmb)
(Entered: 02/19/2015)

3/20/15

126

ORDER: Upon the application
of the defendants and with the
consent of plaintiffs, it is hereby

71
DATE

DOCKET
NUMBER PROCEEDINGS

ORDERED that the Court’s Decision and Order granting permanent injunction, entered in
this action on January 30, 2015, is
stayed until and through April
23, 2015.
SO ORDERED.
(Signed by Judge Victor Marrero
on 3/20/2015) (ama) (Entered:
03/20/2015)
3/30/15

NOTICE OF INTERLOCUTORY APPEAL from 124 Order,,, 118 Order,,,,,. Document
filed by Henrietta Fore, Julie
Louise Gerberding, Michael O.
Leavitt, Andrew Natsios, United
States Agency for International
Development, United States
Centers of Disease Control and
Prevention, United States Department of Health and Human
Services. Form C and Form D
are due within 14 days to the
Court of Appeals, Second Circuit. (Torrance, Benjamin) (Entered: 03/30/2015)

127

*
4/21/15

128

*

*

*

*

ORDER: Upon the application
of the defendants and with the
consent of plaintiffs, it is hereby
ORDERED that the Court’s De-

72
DATE

DOCKET
NUMBER PROCEEDINGS

cision and Order granting a permanent injunction, entered in
this action on January 30, 2015, is
stayed until and through May 22,
2015. (Signed by Judge Victor
Marrero on 4/21/2015) (kgo) (Entered: 04/21/2015)
5/21/15

129

ORDER: Upon the application
of the defendants and with the
consent of plaintiffs, it is hereby
ORDERED that the Court’s Decision and Order granting a permanent injunction, entered in
this action on January 30, 2015, is
stayed until and through August
11, 2015. (Signed by Judge Victor Marrero on 5/21/2015) (lmb)
(Entered: 05/21/2015)

5/22/15

130

ORDER of USCA (Certified
Copy) as to 127 Notice of Interlocutory Appeal, filed by United
States Agency for International
Development, United States
Centers of Disease Control and
Prevention, United States Department of Health and Human
Services, Michael O. Leavitt,
Henrietta Fore, Julie Louise Gerberding, Andrew Natsios USCA
Case Number 15-0974. The parties in the above-referenced case

73
DATE

DOCKET
NUMBER PROCEEDINGS

have filed a stipulation withdrawing this appeal pursuant to Local
Rule 42.1. The stipulation is
hereby “So Ordered”. Catherine O’Hagan Wolfe, Clerk
USCA for the Second Circuit.
Certified: 05/22/2015. (nd) (Entered: 05/22/2015)
8/7/15

131

ORDER: Upon the application
of the defendants and with the
consent of plaintiffs, it is hereby
ORDERED that the Court’s Decision and Order granting a permanent injunction, entered in
this action on January 30, 2015, is
stayed until and through September 30, 2015. (Signed by
Judge Victor Marrero on
8/7/2015)
(lmb)
(Entered:
08/07/2015)

9/29/15

132

ORDER: Upon the application
of the defendants and with the
consent of plaintiffs, it is hereby
ORDERED that the Court’s Decision and Order granting a permanent injunction, entered in
this action on January 30, 2015, is
stayed until and through January
20, 2016. (Signed by Judge Victor Marrero on 9/29/2015) (lmb)
(Entered: 09/29/2015)

74
DATE

DOCKET
NUMBER PROCEEDINGS

10/1/15

133

ORDER of USCA (Certified
Copy) as to 127 Notice of Interlocutory Appeal, filed by United
States Agency for International
Development, United States Centers of Disease Control and Prevention, United States Department of Health and Human Services, Michael O. Leavitt, Henrietta Fore, Julie Louise Gerberding, Andrew Natsios. USCA
Case Number 15-0974. The parties in the above-referenced case
have filed a stipulation withdrawing this appeal pursuant to Local
Rule 42.1. The stipulation is
hereby “So Ordered”. Catherine O’Hagan Wolfe, Clerk
USCA for the Second Circuit.
Certified:
10/01/2015.
(nd)
(Entered: 10/01/2015)

1/20/16

134

ORDER: Upon the application
of the defendants and with the
consent of plaintiffs, it is hereby
ORDERED that the Court’s Decision and Order granting a permanent injunction, entered in
this action on January 30, 2015, is
stayed until and through March

75
DATE

DOCKET
NUMBER PROCEEDINGS

21, 2016. (Signed by Judge Victor Marrero on 1/20/2016) (mro)
(Entered: 01/21/2016)
1/21/16

135

ORDER of USCA (Certified
Copy) as to 127 Notice of Interlocutory Appeal, filed by United
States Agency for International
Development, United States
Centers of Disease Control and
Prevention, United States Department of Health and Human
Services, Michael O. Leavitt,
Henrietta Fore, Julie Louise
Gerberding, Andrew Natsios.
USCA Case Number 15-0974.
The parties in the abovereferenced case have filed a stipulation withdrawing this appeal
pursuant to Local Rule 42.1.
The stipulation is hereby “So Ordered”.
Catherine O’Hagan
Wolfe, Clerk USCA for the Second
Circuit. Certified:
01/20/2016.
(nd) (Entered: 01/21/2016)

3/21/16

136

ORDER: Upon the application
of the defendants and with the
consent of plaintiffs, it is hereby
ORDERED that the Court’s Decision and Order granting a permanent injunction, entered in
this action on January 30, 2015, is

76
DATE

DOCKET
NUMBER PROCEEDINGS

stayed until and through April 8,
2016. (Signed by Judge Gregory H. Woods, Part I on
3/21/2016)
(lmb)
(Entered:
03/21/2016)
3/28/16

137

ORDER of USCA (Certified
Copy) as to 127 Notice of Interlocutory Appeal, filed by United
States Agency for International
Development, United States
Centers of Disease Control and
Prevention, United States Department of Health and Human
Services, Michael O. Leavitt,
Henrietta Fore, Julie Louise
Gerberding, Andrew Natsios.
USCA Case Number 15-974. The
parties in the above-referenced
case have filed a stipulation withdrawing this appeal pursuant to
Local Rule 42.1. The stipulation
is hereby “So Ordered”. Catherine O’Hagan Wolfe, Clerk
USCA for the Second Circuit.
Certified: 03/28/2016. (nd) (Entered: 03/28/2016)

4/8/16

138

ORDER: Upon the application
of the defendants and with the
consent of plaintiffs, it is hereby
ORDERED that the Court’s De-

77
DATE

DOCKET
NUMBER PROCEEDINGS

cision and Order granting a permanent injunction, entered in
this action on January 30, 2015, is
stayed until and through May 11,
2016. (Signed by Judge Naomi
Reice Buchwald, Part I on
4/8/2016)
(lmb)
(Entered:
04/08/2016)
4/11/16

139

ORDER of USCA (Certified
Copy) as to 127 Notice of Interlocutory Appeal, filed by United
States Agency for International
Development, United States
Centers of Disease Control and
Prevention, United States Department of Health and Human
Services, Michael O. Leavitt,
Henrietta Fore, Julie Louise
Gerberding, Andrew Natsios.
USCA Case Number 15-974.
The parties in the above-referenced case have filed a stipulation withdrawing this appeal pursuant to Local Rule 42.1. The
stipulation is hereby “So Ordered”.
Catherine O’Hagan
Wolfe, Clerk USCA for the Second
Circuit.
Certified:
04/11/2016.
(nd) (Entered:
04/12/2016)

78
DATE

DOCKET
NUMBER PROCEEDINGS

5/11/16

140

ORDER. Upon the application
of the defendants and with the
consent of plaintiffs, it is hereby
ORDERED that the Court’s Decision and Order granting a permanent injunction, entered in
this action on January 30, 2015, is
stayed until and through June 30,
2016. So ordered. (Signed by
Judge Victor Marrero on
5/11/2016)
(rjm)
(Entered:
05/11/2016)

5/11/16

141

ORDER of USCA (Certified
Copy) as to 127 Notice of Interlocutory Appeal, filed by United
States Agency for International
Development, United States
Centers of Disease Control and
Prevention, United States Department of Health and Human
Services, Michael O. Leavitt,
Henrietta Fore, Julie Louise
Gerberding, Andrew Natsios.
USCA Case Number 15-0974.
The parties in the abovereferenced case have filed a stipulation withdrawing this appeal
pursuant to Local Rule 42.1.
The stipulation is hereby “So Ordered”.
Catherine O’Hagan
Wolfe, Clerk USCA for the Second

79
DATE

DOCKET
NUMBER PROCEEDINGS

Circuit.
Certified:
05/11/2016.
(nd) (Entered: 05/11/2016)
6/30/16

142

ORDER: Upon the application
of the defendants and with the
consent of plaintiffs, it is hereby
ORDERED that the Court’s Decision and Order granting a permanent injunction, entered in
this action on January 30, 2015, is
stayed until and through August
4, 2016. (Signed by Judge Victor Marrero on 6/29/2016) (lmb)
(Entered: 06/30/2016)

7/1/16

143

TRUE COPY ORDER of USCA
as to 127 Notice of Interlocutory
Appeal, filed by United States
Agency for International Development, United States Centers
of Disease Control and Prevention, United States Department
of Health and Human Services,
Michael O. Leavitt, Henrietta
Fore, Julie Louise Gerberding,
Andrew Natsios USCA Case
Number 15-0974. USCA Case
Number 15-0974. The parties in
the above-referenced case have
filed a stipulation withdrawing
this appeal pursuant to Local
Rule 42.1. The stipulation is

80
DATE

DOCKET
NUMBER PROCEEDINGS

hereby “So Ordered”. Catherine O’Hagan Wolfe, Clerk
USCA for the Second Circuit.
Certified:
7/1/2016. (tp) (Entered: 07/01/2016)
*

*

*

*

*

8/3/16

144

ENDORSED LETTER addressed to Judge Victor Marrero
from Benjamin H. Torrance
dated 8/03/2016 re:
request
an extension of the stay, until October 5, 2016.
ENDORSEMENT: The Clerk of Court is
directed to enter into the public
record of this action the letter
above submitted to the Court
by The Government. SO ORDERED. (Signed by Judge Victor Marrero on 8/03/2016) (ama)
(Entered: 08/03/2016)

8/3/16

145

ORDER re: 144 Endorsed Letter. Upon the application of the
defendants and with the consent
of plaintiffs, it is hereby ORDERED that the Court’s Decision and Order granting a permanent injunction, entered in
this action on January 30, 2015,
is stayed until and through October 5, 2016. SO ORDERED.
(Signed by Judge Victor Marrero

81
DATE

DOCKET
NUMBER PROCEEDINGS

on 8/03/2016) (ama) (Entered:
08/03/2016)
8/4/16

146

ORDER of USCA (Certified
Copy) as to 127 Notice of Interlocutory Appeal, filed by United
States Agency for International
Development, United States
Centers of Disease Control and
Prevention, United States Department of Health and Human
Services, Michael O. Leavitt,
Henrietta Fore, Julie Louise
Gerberding, Andrew Natsios.
USCA Case Number 15-0974.
The parties in the abovereferenced case have filed a stipulation withdrawing this appeal
pursuant to Local Rule 42.1.
The stipulation is hereby “So
Ordered”. Catherine O’Hagan
Wolfe, Clerk USCA for the
Second Circuit.
Certified:
08/04/2016.
(nd) (Entered:
08/04/2016)

10/4/16

147

ORDER: that the Court’s Decision and Order granting a permanent injunction, entered in
this action on 1/30/215, is stayed
until and through 11/4/2016.
(Signed by Judge Victor Marrero

82
DATE

DOCKET
NUMBER PROCEEDINGS

on 10/4/2016) (tro) (Entered:
10/04/2016)
10/4/16

148

ORDER of USCA (Certified
Copy) as to 127 Notice of Interlocutory Appeal, filed by United
States Agency for International
Development, United States
Centers of Disease Control and
Prevention,
United
States
Department of Health and Human Services, Michael O.
Leavitt, Henrietta Fore, Julie
Louise Gerberding, Andrew
Natsios. USCA Case Number 150974. The parties in the abovereferenced case have filed a stipulation withdrawing this appeal
pursuant to Local Rule 42.1.
The stipulation is hereby “So Ordered”.
Catherine O’Hagan
Wolfe, Clerk USCA for the Second Circuit. Certified: 10/04/2016.
(nd) (Entered: 10/04/2016)

11/3/16

149

ORDER: Upon the application
of the defendants and with the
consent of plaintiffs, it is hereby
ORDERED that the Court’s Decision and Order granting a permanent injunction, entered in
this action on January 30, 2015, is

83
DATE

DOCKET
NUMBER PROCEEDINGS

stayed until and through December 15, 2016. (Signed by Judge
Victor Marrero on 11/3/2016)
(cla) (Entered: 11/04/2016)
11/4/16

150

ORDER of USCA (Certified
Copy) as to 127 Notice of Interlocutory Appeal, filed by United
States Agency for International
Development, United States
Centers of Disease Control and
Prevention, United States Department of Health and Human
Services, Michael O. Leavitt,
Henrietta Fore, Julie Louise
Gerberding, Andrew Natsios.
USCA Case Number 15-974.
The parties in the abovereferenced case have filed a stipulation withdrawing this appeal
pursuant to Local Rule 42.1.
The stipulation is hereby “So Ordered”.
Catherine O’Hagan
Wolfe, Clerk USCA for the Second
Circuit.
Certified:
11/04/2016.
(nd) (Entered:
11/04/2016)

12/15/16

151

ORDER: Upon the application
of the defendants and with the
consent of plaintiffs, it is hereby
ORDERED that the Court’s De-

84
DATE

DOCKET
NUMBER PROCEEDINGS

cision and Order granting a permanent injunction, entered in
this action on January 30, 2015, is
stayed until and through January
17, 2017. (Signed by Judge Victor Marrero on 12/15/2016) (cla)
(Entered: 12/15/2016)
12/15/16

152

ORDER of USCA (Certified
Copy) as to 127 Notice of Interlocutory Appeal, filed by United
States Agency for International
Development, United States
Centers of Disease Control and
Prevention, United States Department of Health and Human
Services, Michael O. Leavitt,
Henrietta Fore, Julie Louise
Gerberding, Andrew Natsios.
USCA Case Number 15-0974.
The parties in the abovereferenced case have filed a stipulation withdrawing this appeal
pursuant to Local Rule 42.1.
The stipulation is hereby “So Ordered”.
Catherine O’Hagan
Wolfe, Clerk USCA for the Second
Circuit.
Certified:
12/15/2016.
(nd) (Entered:
12/15/2016)

1/13/17

153

MOTION for Reconsideration
re; 118 Order,,,,,., MOTION to

85
DATE

DOCKET
NUMBER PROCEEDINGS

Stay re: 118 Order,,,,,., MOTION to Amend/Correct 118 Order,,,,,. Document filed by Henrietta Fore, Julie Louise Gerberding, Michael O. Leavitt, Andrew Natsios, United States
Agency for International Development, United States Centers
of Disease Control and Prevention, United States Department
of Health and Human Services.
(Torrance, Benjamin) (Entered:
01/13/2017)
1/13/17

154

MEMORANDUM OF LAW in
Support re: 153 MOTION for
Reconsideration re; 118 Order,,,,,. MOTION to Stay re:
118 Order,,,,,.
MOTION to
Amend/Correct 118 Order,,,,,. .
Document filed by Henrietta
Fore, Julie Louise Gerberding,
Michael O. Leavitt, Andrew
Natsios, United States Agency
for International Development,
United States Centers of Disease
Control and Prevention, United
States Department of Health and
Human Services. (Torrance, Benjamin) (Entered: 01/13/2017)

1/17/17

155

ORDER granting 153 Motion to
Stay: Upon the application of

86
DATE

DOCKET
NUMBER PROCEEDINGS

the defendants and with the consent of plaintiffs, it is hereby ORDERED that the Court’s Decision and Order granting a permanent injunction, entered in
this action on January 30, 2015, is
stayed until and through January
24, 2017. (Signed by Judge Victor Marrero on 1/17/2017) (cla)
Modified on 7/20/2017 (tn). (Entered: 01/17/2017)
1/17/17

156

ORDER of USCA (Certified
Copy) as to 127 Notice of Interlocutory Appeal, filed by United
States Agency for International
Development, United States
Centers of Disease Control and
Prevention, United States Department of Health and Human
Services, Michael O. Leavitt,
Henrietta Fore, Julie Louise
Gerberding, Andrew Natsios.
USCA Case Number 15-974.
The parties in the abovereferenced case have filed a stipulation withdrawing this appeal
pursuant to Local Rule 42.1.
The stipulation is hereby “So Ordered”.
Catherine O’Hagan
Wolfe, Clerk USCA for the Second
Circuit.
Certified:

87
DATE

DOCKET
NUMBER PROCEEDINGS

01/17/2017.
01/18/2017)
*

*

*

*

(nd)

(Entered:

*

1/24/17

159

ENDORSED LETTER addressed to Judge Victor Marrero
from Jason D. Hirsch dated
1/20/2017 re: Proposed Briefing
Schedule.
ENDORSEMENT:
Request GRANTED.
The
briefing schedule of the Government’s motion for reconsideration herein is amended as set
forth above. The stay of the implementation of the permanent
injunction is extended until
3/2/17. (Responses due by
2/10/2017, Replies due by
2/23/2017.) (Signed by Judge
Victor Marrero on 1/24/2017)
(cla) (Entered: 01/24/2017)

1/25/17

160

ORDER of USCA (Certified
Copy) as to 127 Notice of Interlocutory Appeal, filed by United
States Agency for International
Development, United States
Centers of Disease Control and
Prevention, United States Department of Health and Human
Services, Michael O. Leavitt,
Henrietta Fore, Julie Louise
Gerberding, Andrew Natsios.

88
DATE

DOCKET
NUMBER PROCEEDINGS

USCA Case Number 15-0974.
The parties in the abovereferenced case have filed a stipulation withdrawing this appeal
pursuant to Local Rule 42.1.
The stipulation is hereby “So
Ordered”. Catherine O’Hagan
Wolfe, Clerk USCA for the
Second
Circuit.
Certified:
01/25/2017.
(nd) (Entered:
01/25/2017)
2/10/17

161

ENDORSED LETTER addressed to Judge Victor Marrero
from Jason D. Hirsch dated
2/8/2017 re: Request for extension of briefing schedule. ENDORSEMENT:
SO ORDERED. (Responses due by
2/24/2017, Replies due by
3/6/2017.) (Signed by Judge Victor Marrero on 2/10/2017) (cla)
(Entered: 02/10/2017)

2/24/17

162

MEMORANDUM OF LAW in
Opposition re: 153 MOTION
for Reconsideration re; 118 Order,,,,,. MOTION to Stay re:
118 Order,,,,,.
MOTION to
Amend/Correct 118 Order,,,,, . .
Document filed by Alliance for
Open Society International, Inc.,

89
DATE

DOCKET
NUMBER PROCEEDINGS

Global Health Council, InterAction, Open Society Institute,
Pathfinder International. (Bowker,
David)
(Entered:
02/24/2017)
3/6/17

163

REPLY MEMORANDUM OF
LAW in Support re: 153 MOTION for Reconsideration re;
118 Order,,,,,. MOTION to Stay
re: 118 Order,,,,,. MOTION to
Amend/Correct 118 Order,,,,,..
Document filed by Henrietta
Fore, Julie Louise Gerberding,
Michael O. Leavitt, Andrew
Natsios, United States Agency
for International Development,
United States Centers of Disease
Control and Prevention, United
States Department of Health
and Human Services. (Torrance,
Benjamin) (Entered:
03/06/
2017)

3/7/17

164

ENDORSED LETTER addressed to Judge Victor Marrero
from Benjamin H. Torrance
dated 3/6/2017 re: Request for
Extension of Stay. ENDORSEMENT:
Request GRANTED.
The stay of the Court’s injunction
issued in this action shall remain
in effect until the Court rules on

90
DATE

DOCKET
NUMBER PROCEEDINGS

the Government’s motion for consideration
now
pending.
(Signed by Judge Victor Marrero
on 3/7/2017) (cla) (Entered:
03/07/2017)
6/6/17

165

DECISION AND ORDER re:
153:
For the reasons stated
above, it is hereby ORDERED
that the Government’s motion for
reconsideration and clarification
of this Court’s January 30, 2015
order (Dkt. No. 153) is DENIED;
and it is further ORDERED that
the stay issued pending this
Court’s decision on the Government’s Motion is LIFTED.
(Signed by Judge Victor Marrero
on 6/6/2017) (rj) Modified on
7/20/2017
(tn).
(Entered:
06/06/2017)

7/5/17

166

ENDORSED LETTER: addressed to Judge Victor Marrero, from BENJAMIN H. TORRANCE, dated July 3, 2017, re:
Extension of time. ENDORSEMENT: Request GRANTED.
The time for the parties to respond to the Court’s Order dated
6-6-17 is extended to 7-20-17.
(Signed by Judge Victor Marrero

91
DATE

DOCKET
NUMBER PROCEEDINGS

on 7/5/2017)
07/05/2017)
7/10/17

(ap)

(Entered:

NOTICE OF INTERLOCUTORY APPEAL from 165 Order,. Document filed by Henrietta Fore, Julie Louise Gerberding, Michael O. Leavitt, Andrew Natsios, United States
Agency for International Development, United States Centers
of Disease Control and Prevention, United States Department
of Health and Human Services.
Form C and Form D are due
within 14 days to the Court of Appeals, Second Circuit.
(Torrance, Benjamin) (Entered:
07/10/2017)

167

*

*

*

*

*

7/20/17

168

STATUS REPORT. Document
filed by United States Agency for
International
Development,
United States Centers of Disease
Control and Prevention, United
States Department of Health and
Human Services. (Jones, David) (Entered: 07/20/2017)

7/24/17

169

MEMO ENDORSEMENT on
re: 168 Status Report filed by

92
DATE

DOCKET
NUMBER PROCEEDINGS

United States Agency for International Development, United
States Centers of Disease Control and Prevention, United
States Department of Health and
Human Services. ENDORSEMENT: The time for the parties to submit the status report
described above is extended to
8-10-17. (Signed by Judge Victor Marrero on 7/24/2017) (mro)
(Entered: 07/24/2017)
7/26/17

170

ORDER of USCA as to 127 Notice
of Interlocutory Appeal, filed by
United States Agency for International Development, United States
Centers of Disease Control and
Prevention, United States Department of Health and Human Services, Michael O. Leavitt, Henrietta Fore, Julie Louise Gerberding, Andrew Natsios. Appellants move to stay portions of a
permanent injunction pending appeal. Appellees oppose a stay.
Upon due consideration, it is hereby ORDERED that the motion is
GRANTED and the injunction is
STAYED insofar as it enjoins Appellants from enforcing 22 U.S.C.
§ 7631(f ) against foreign nongov-

93
DATE

DOCKET
NUMBER PROCEEDINGS

ernmental organizations, including Appellees’ foreign affiliates.
USCA Case Number 15-0974.
Catherine O’Hagan Wolfe, Clerk
USCA for the Second Circuit.
(nd) (Entered: 07/26/2017)
8/9/17

171

ENDORSED LETTER:
addressed to Judge Victor Marrero,
from BENJAMIN H. TORRANCE, dated August 9, 2017, re:
Defer Further Proceedings. ENDORSEMENT:
The Clerk of
Court is directed to enter into the
public record of this action the letter above submitted to the Court
by the Government. (Signed by
Judge Victor Marrero on 8/9/2017)
(ap) (Entered: 08/09/2017)

8/10/17

172

STATUS REPORT. Re: June
6, 2017 Order 165 Document filed
by Alliance for Open Society International, Inc., Global Health
Council, InterAction, Open Society Institute, Pathfinder International. (Bowker, David) (Entered: 08/10/2017)

9/18/17

173

ORDER: ORDERED that the
Government’s request (Dkt. No.
171) to defer further proceedings
in this action, as required by this
Court’s June 6, 2017 Order (Dkt.

94
DATE

DOCKET
NUMBER PROCEEDINGS

No. 165), is DENIED, and as further set forth in this order.
(Signed by Judge Victor Marrero
on 9/18/2017) (ap) (Main Document 173 replaced on 9/18/2017)
(ap). (Entered: 09/18/2017)
10/18/17

174

ENDORSED
LETTER:
addressed to Judge Victor Marrero,
from BENJAMIN H. TORRANCE, dated October 18, 2017,
re: Status. ENDORSEMENT:
The Clerk of Court is directed to enter into the public record of this action the letter above submitted to
the Court by the parties. (Signed
by Judge Victor Marrero on 10/18/
2017) (ap) Modified on 11/22/2017
(ap). (Entered: 10/18/2017)

95
Constitutionally Permissible Funding Restrictions
for Sex Trafficking and HIV/AIDS Prevention

OLC has considered the constitutional implications of
the following funding restrictions in the Trafficking Victims Protection Reauthorization Act (TVPRA), the
United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act (USLAHATMA), and the Consolidated Appropriations Act:
(1) restrictions on the use of program funds,
which require (with a minor difference between
TVPRA and USLAHATMA) that program funds not
be used to promote, support, or advocate the legalization or practice of prostitution, see 22 U.S.C.
§ 7110(g)(1) (as added by TVPRA § 7(7)); USLAHATMA § 301(e);
(2) organization-wide restrictions, which would
require an organization receiving funds either to
refrain from promoting prostitution or its legalization, see 22 U.S.C. § 7110(g)(2) (as added by TVPRA
§ 7(7)), or to have a policy explicitly opposing prostitution and sex trafficking, see USLAHATMA
§ 301(f ); and
(3) a restriction on what may be said when an
organization wants to provide information about the
use of condoms as part of a project or activity funded
by the Consolidated Appropriations Act, see Pub. L.
No. 108-199, Div. D, Title II (2004).
In the limited time available to us, we have not been able
to conduct a comprehensive analysis, but we have
reached the following tentative views, which might need
to be altered after further analysis:

96
• With regard to category (1), the restrictions on the
use of program funds can be constitutionally imposed on
all grant recipients and sub-recipients, whether they are
U.S. or foreign organizations.*28
• With regard to category (2), the organization-wide
restrictions, which would prevent or require certain advocacy or positions in activities completely separate from
the federally funded programs—
o

cannot be constitutionally applied to U.S. organizations, whether they are recipients or sub­
recipients, and whether they are operating inside or outside the United States;

o

can be constitutionally applied to foreign organizations whether they are recipients or sub­
recipients, but only when they are engaged in activities overseas. The government could exercise its foreign-affairs and plenary immigration
powers to exclude from the United States a foreign organization that advocates certain views.
The government could also argue, albeit with
considerable litigation risk, that it could deport
a foreign organization that advocates certain
views. But powers to exclude or deport are

A simple definition of a foreign organization is contained in the
Mexico City Policy: an organization “that is not organized under
the laws of any State of the United States, the District of Columbia,
or the Commonwealth of Puerto Rico.” Restoration of the Mexico
City Policy, 66 Fed. Reg. 17303, 17303 (2001). The Mexico City Policy has withstood First Amendment challenges (though not every
question has been fully litigated ). Our constitutional advice here
essentially mirrors the limits of the Mexico City Policy with regard
to category (1) and category (2).
*

97
separate from grant funding, and an organization’s advocacy in the United States cannot justify termination of or failure to renew a grant.
• With regard to category (3), the medical-accuracy
provision can be constitutionally applied to all grant recipients and sub-recipients that choose to provide information related to condom use as part of a program or
activity funded by the Consolidated Appropriations Act.
We note, however, that the term “public health benefits”
is not terribly clear, and an organization could not be
punished for conveying views that can be reasonably
characterized as an accurate statement of “public health
benefits”—even if those views do not correspond to the
Administration’s. That ambiguity, however, could be
mitigated by a suitably formal agency interpretation.

98
Acquisition & Assistance Policy Directive
(AAPD)
From the Director, Issued:
Office of Procurement

Feb. 26, 2004

AAPD 04-04 (Revised)
Implementation of the United States Leadership
Against HIV/AIDS, Tuberculosis and Malaria Act of
2003—Eligibility Limitation on the Use of Funds and
Opposition to Prostitution and Sex Trafficking
Subject Category:

Assistance, Contracts

Type:

Policy

AAPDs provide information of significance to all agency
personnel and partners involved in the Acquisition and
Assistance process. Information includes (but is not limited to): advance notification of changes in acquisition or
assistance regulations; reminders; procedures; and general information. Also, AAPDs may be used to implement new requirements on short-notice, pending formal
amendment of acquisition or assistance regulations.
AAPDs are EFFECTIVE AS OF THE ISSUED DATE unless otherwise noted in the guidance below; the directives remain in effect until this office issues a notice of
cancellation.

99
This AAPD:
Precedes
change to

Is New
X

Replaces/ X Amends
CIB/AAPD No: 04-04

AIDAR Part(s) 752 Appendix

X USAID Automated Directives System (ADS) Chapters 303
Code of Federal Regulations
Other
No change to regulations

Applicable to:

Existing awards;
Modification required:
Effective immediately
No later than
As noted in guidance below
X

RFAs issued on or after the effective date of this AAPD; all other
Pending Awards, i.e. 8(a), sole source
. . .

X

Other or N/A All new awards or
modifications to existing awards obligating funds for HIV/AIDS activities

New Provision/
X Yes; Scheduled update to Prodoc:
Clause Provided June 2004
Herein:
No
(Signature on file)
Timothy T. Beans

100
1.

PURPOSE:

The purpose of the AAPD is to provide clauses to be included as new standard provisions for assistance agreements and contracts that include FY 2004 HIV/AIDS
funds. These provisions: (i) permit recipients to not
endorse or utilize a multisectoral approach to combating
HIV/AIDS, or to not endorse, utilize or participate in a
prevention method or treatment program to which the
organization has a religious or moral objection; (ii) prohibit the funds provided under the agreement to be used
to promote the legalization or practice of prostitution or
sex trafficking; and (iii) require certain recipients to
agree that they oppose prostitution and sex trafficking.
2.

BACKGROUND:

The United States Leadership Against HIV/AIDS, Tuberculosis and Malaria Act of 2003, Pub. L. No. 108-25
(2003) (the “AIDS Authorization”) authorizes funds to
be appropriated for HIV/AIDS activities for the fiscal
years 2004-2008. The AIDS Authorization includes,
among other things, certain restrictions on the use of
HIV/AIDS funds, and requires certain recipients of
those funds to have certain policies in place. It also
permits an organization to receive funds even if such organization cannot endorse, utilize or participate in a prevention method or treatment program to which the organization has a religious or moral objection.
Specifically, Section 301, entitled “Assistance to Combat
HIV/AIDS,” includes the following provisions:
“(d) ELIGIBILITY FOR ASSISTANCE—An organization that is otherwise eligible to receive assistance under section 104A of the Foreign Assistance Act of 1961

101
(as added by subsection (a)) or under any other provision of this Act (or any amendment made by this Act) to
prevent, treat, or monitor HIV/AIDS shall not be required, as a condition of receiving the assistance, to endorse or utilize a multisectoral approach to combatting
HIV/AIDS, or to endorse, utilize, or participate in a prevention method or treatment program to which the organization has a religious or moral objection.
(e) LIMITATION.—No funds made available to carry
out this Act, or any amendment made by this Act, may
be used to promote or advocate the legalization or practice of prostitution or sex trafficking. Nothing in the
preceding sentence shall be construed to preclude the
provision to individuals of palliative care, treatment, or
post-exposure pharmaceutical prophylaxis, and necessary pharmaceuticals and commodities, including test
kits, condoms, and when proven effective, microbicides.
LIMITATION.—No funds made available to carry
(f )
out this Act, or any amendment made by this Act, may
be used to provide assistance to any group or organization that does not have a policy explicitly opposing prostitution and sex trafficking.”
In response to a question from Senator Leahy on the
Senate floor regarding provision (f ) above, Senator
Frist stated that “a statement in the contract or grant
agreement between the U.S. Government and such organization that the organization is opposed to the practices of prostitution and sex trafficking because of
the psychological and physical risks they pose for
women . . . would satisfy the intent of the provision.” 149 Cong. Rec. S6457 (daily ed. May 15, 2003)
(statement of Sen. Frist)

102
The Consolidated Appropriations Act of 2004, Division
D—Foreign Operations, Export Financing, and Related
Programs Appropriations (“FY 04 Appropriations Act”),
Title II—Bilateral Economic Assistance, United States
Agency for International Development, Child Survival
and Health Programs Fund includes the following provision, “That information provided about the use of condoms as part of projects or activities that are funded
from amounts appropriated by this Act shall be medically accurate and shall include the public health benefits and failure rates of such use.”
In a colloquy on the Senate floor regarding the application of section 301(d) of the AIDS Authorization (see
above), Senator Frist noted as follows: “I fully agree
that it is essential that information about approaches to
HIV/AIDS prevention be medically accurate, including
both the public health benefits and failure rates of the
approach involved. That is what is intended by this provision. In fact, the provision uses the words “an organization that is otherwise eligible to receive assistance”.
I believe that “otherwise eligible” should be interpreted
to require explicit assurances by such organizations that
when it provides information about HIV/AIDS prevention approaches it will meet this standard of accuracy.”
In addition, the FY 04 Appropriations Act amends section 301(f ) of the AIDS Authorization by exempting the
Global Fund to Fight AIDS, Tuberculosis and Malaria,
the World Health Organization, the International AIDS
Vaccine Initiative and any “United Nations agency”
from that section. The Statement of Managers states
that the conferees “intend that for purposes of this provision, the World Health Organization includes its six
regional offices: The Americas (PAHO); South-East

103
Asia (SEARO); Africa (AFRO); Eastern Mediterranean
(EMRO); Europe (EURO); and Western Pacific
(WPRO).”
OMB has approved the Agency’s information collection
request under the Paperwork Reduction Act, allowing
USAID to require (i) non-U.S. nongovernmental organizations, certain public international organizations and
contractors or subcontractors that are foreign organizations to have a policy explicitly opposing, in their activities outside of the United States, prostitution and sex
trafficking and (ii) U.S. and non-U.S. non­governmental
organizations receiving FY04 HIV/AIDS funds under a
grant or cooperative agreement to provide a certification that they are in compliance with the standard
provisions “Condoms” and “Prohibition on the Promotion or Advocacy of the Legalization or Practice of Prostitution or Sex Trafficking” that appear below.
(OMB
No.: 0412-0568)
3.

GUIDANCE:

For Assistance Agreements and PIO Grants:
I.

Eligibility

The following provisions must be included in each new
Request for Assistance and Annual Program Statement
utilizing FY04 HIV/AIDS funding. When designing a
program for HIV/AIDS the SO Team must be mindful
of the first clause below. The evaluation criteria should
not give any special advantage to an organization that
endorses or utilizes a multisectoral approach (multisectoral in the legislation refers to Abstinence, Be Faithful/
Behavior Change, and Condoms).
These provisions also must be included in the Standard
Provisions of any new grant or cooperative agreement

104
to a public international organization or a U.S. or nonU.S. non­governmental organization financed with
FY04 HIV/AIDS funds or modification to an existing
grant or cooperative agreement that adds FY04 HIV/
AIDS.
“ORGANIZATIONS
TANCE (FEB. 2004)

ELIGIBLE

FOR

ASSIS-

An organization that is otherwise eligible to receive
funds under this agreement to prevent, treat, or monitor HIV/AIDS shall not be required to endorse or utilize a multisectoral approach to combatting HIV/AIDS,
or to endorse, utilize, or participate in a prevention
method or treatment program to which the organization has a religious or moral objection.
CONDOMS (FEB. 2004)
Information provided about the use of condoms as
part of projects or activities that are funded under
this agreement shall be medically accurate and shall
include the public health benefits and failure rates of
such use.”
II.

Limitation on the Use of Funds

a. Assistance Agreements with U.S. Non-Governmental
Organizations and grants to the Global Fund to Fight
AIDS, Tuberculosis and Malaria, the World Health Organization, the International AIDS Vaccine Initiative
and any United Nations agency
The following must be included in the Standard Provisions of any grant or cooperative agreement or subagreement funded with FY04 HIV/AIDS funds with a
U.S. nongovernmental organization or to the Global
Fund to Fight AIDS, Tuberculosis and Malaria, the World

105
Health Organization, the International AIDS Vaccine
Initiative and any United Nations agency. The World
Health Organization includes its six regional offices:
The Americas (PAHO), South-East Asia (SEARO),
Africa (AFRO); Eastern Mediterranean (EMRO), Europe (EURO), and Western Pacific (WPRO).
“PROHIBITION ON THE PROMOTION OR ADVOCACY OF THE LEGALIZATION OR PRACTICE OF PROSTITUTION OR SEX TRAFFICKING (FEB. 2004)
The U.S. Government is opposed to prostitution and
related activities, which are inherently harmful and
dehumanizing, and contribute to the phenomenon of
trafficking in persons. None of the funds made
available under this agreement may be used to promote or advocate the legalization or practice of prostitution or sex trafficking. Nothing in the preceding
sentence shall be construed to preclude the provision
to individuals of palliative care, treatment, or postexposure pharmaceutical prophylaxis, and necessary
pharmaceuticals and commodities, including test
kits, condoms, and, when proven effective, microbicides.
The following definition applies for purposes of this
provision:
Sex trafficking means the recruitment, harboring,
transportation, provision, or obtaining of a person
for the purpose of a commercial sex act. 22 U.S.C.
7102(9).
The recipient shall insert this provision, which is a
standard provision, in all subagreements under this
award.

106
This provision includes express terms and conditions
of the agreement and any violation of it shall be
grounds for unilateral termination of the agreement
by USAID prior to the end of its term.”
b. Assistance Agreements with Non-U.S. NonGovernmental Organizations and Public International
Organizations OTHER THAN the Global Fund to Fight
AIDS, Tuberculosis and Malaria, the World Health Organization, the International AIDS Vaccine Initiative or
any United Nations agency
The following must be included in the Standard Provisions of any grant or cooperative agreement or subagreement funded with FY04 HIV/AIDS funds with a
non-U.S. non­governmental organization or with a public international organization other than the Global
Fund to Fight AIDS, Tuberculosis and Malaria, the World
Health Organization, the International AIDS Vaccine
Initiative or any United Nations agency. For purposes
of this provision, a non-U.S. non-governmental organization means an entity that is not organized under the
laws of any State of the United States, the District
of Columbia or the Commonwealth of Puerto Rico.
Restoration of The Mexico City Policy, 66 Fed. Reg.
17303 (March 28, 2001).
“PROHIBITION ON THE PROMOTION OR ADVOCACY OF THE LEGALIZATION OR PRACTICE OF PROSTITUTION OR SEX TRAFFICKING (FEB. 2004)
The U.S. Government is opposed to prostitution and
related activities, which are inherently harmful and
dehumanizing, and contribute to the phenomenon of
trafficking in persons. None of the funds made

107
available under this agreement may be used to promote or advocate the legalization or practice of prostitution or sex trafficking. Nothing in the preceding
sentence shall be construed to preclude the provision
to individuals of palliative care, treatment, or postexposure pharmaceutical prophylaxis, and necessary
pharmaceuticals and commodities, including test
kits, condoms, and, when proven effective, microbicides.
As a condition of entering into this agreement, the
recipient agrees that it has a policy explicitly opposing, in its activities outside of the United States, prostitution and sex trafficking.
The following definition applies for purposes of this
provision:
Sex trafficking means the recruitment, harboring,
transportation, provision, or obtaining of a person
for the purpose of a commercial sex act. 22 U.S.C.
7102(9).
The recipient shall insert this provision, which is a
standard provision, in all subagreements under this
award.
This provision includes express terms and conditions
of the agreement and any violation of it shall be grounds
for unilateral termination of the agreement by USAID
prior to the end of its term.”
III. Certification
Before a U.S. or non-U.S. non-governmental organization receives FY04 HIV/AIDS funds under a grant or
cooperative agreement, such recipient must provide to

108
the Agreements Officer a certification substantially as
follows:
“[Recipient’s name] certifies compliance as applicable with the standard provisions, “Condoms” and
“Prohibition on the Promotion or Advocacy of the Legalization or Practice of Prostitution or Sex Trafficking” included in the referenced agreement.”
For Contracts:
I.

Eligibility

The following provisions must be included in each new
solicitation and contract utilizing FY04 HIV/AIDS funding. When designing a program for HIV/AIDS the SO
Team must be mindful of the first clause below. The
evaluation criteria should not give any special advantage
to an organization that endorses or utilizes a multisectoral approach (multisectoral in the legislation refers to
Abstinence, Be Faithful/Behavior Change, and Condoms).
In addition, these provisions are to be included when any
existing contract is amended to add FY04 HIV/AIDS
funding.
ORGANIZATIONS ELIGIBLE
TANCE (FEB. 2004)

FOR

ASSIS-

An organization that is otherwise eligible to receive
funds under this agreement to prevent, treat, or monitor HIV/AIDS shall not be required to endorse or
utilize a multisectoral approach to combatting
HIV/AIDS, or to endorse, utilize, or participate in a
prevention method or treatment program to which
the organization has a religious or moral objection.

109
CONDOMS (FEB. 2004)
Information provided about the use of condoms as
part of projects or activities that are funded under
this agreement shall be medically accurate and shall
include the public health benefits and failure rates of
such use.
II.

Limitation on the Use of Funds

The following must be included in the Standard Provisions in any contract that includes FY04 HIV/AIDS
funds.
PROHIBITION ON THE PROMOTION OR ADVOCACY OF THE LEGALIZATION OR PRACTICE
OF PROSTITUTION OR SEX TRAFFICKING
(FEB. 2004)
This contract is authorized under the United States
Leadership Against HIV/AIDS, Tuberculosis and
Malaria Act of 2003 (P.L. 108-25). This Act enunciates that the U.S. Government is opposed to prostitution and related activities, which are inherently
harmful and dehumanizing, and contribute to the
phenomenon of trafficking in persons. The contractor shall not use any of the funds made available under this agreement to promote or advocate the legalization or practice of prostitution or sex trafficking.
Nothing in the preceding sentence shall be construed
to preclude the provision to individuals of palliative
care, treatment, or post-exposure pharmaceutical
prophylaxis, and necessary pharmaceuticals and commodities, including test kits, condoms, and, when
proven effective, microbicides.
If the contractor or a subcontractor at any tier is a
foreign organization, as a condition of entering into

110
this contract or subcontract, the contractor/subcontractor must have a policy explicitly opposing, in its
activities outside of the United States, prostitution
and sex trafficking.
The following definitions apply for purposes of this
provision:
Sex trafficking means the recruitment, harboring,
transportation, provision, or obtaining of a person
for the purpose of a commercial sex act. 22 U.S.C.
7102(9).
Foreign organization means an entity that is not organized under the laws of any State of the United
States, the District of Colombia or the Commonwealth of Puerto Rico.
The contractor shall insert this clause in all subcontracts.
Any violation of this clause will result in the immediate termination of this contract by USAID.”
4.

POINT OF CONTACT:

Please direct any questions to Allen Eisenberg, M/OP/P,
Phone: (202) 712-1467, e­mail: aeisenberg@usaid.gov.

111
TO:

Kerry Pelzman

FROM:

Robert Kushen, Chairperson, AOSI Martha
Sickles, Executive Director, AOSI-Almaty
Zuhra Halimova, Executive Director, Soros
Foundation-Tajikistan Medet Tiulegenov,
Executive Director, Soros FoundationKyrgyzstan

SUBJECT: Compliance with AAPD 04-04
We are writing to explain the policy that has been
adopted by some of the organizations in the Soros Foundations Network in response to the requirements of
AAPD 04-04 with regard to the Drug Demand Reduction Program (“DDRP”). It is our hope that this policy
meets the requirements of the U.S. Government and will
enable us to continue to partner on this valuable program. We ask that you confirm in writing whether this
is the case.
First, we want to explain the framework within which
we have arrived at the policy enunciated below. All of
the foundations in our Network are obliged to adhere to
written “Principles of Governance.” Principle 16 reads
as follows:
National Foundations should not accept funding directly or indirectly from a donor, if a condition of that
funding requires the foundation, or its partners, contractors or sub-grantees, to adopt a policy or restrict
their advocacy, speech, association or programming
in a manner contrary to the values of an open society.
One instance in which unacceptable restrictions are
particularly likely to arise occurs where a donor attempts to restrict even that speech, association or activity that is funded wholly by other sources. The

112
National Foundations also should not accept funding
if the donor requires the National Foundation to adopt
or impose policies or take actions that harm or stigmatize marginalized groups.
AAPD 04-04 requires that any subagreement with a
non-US NGO include the following language: “As a
condition of entering into this agreement, the recipient
agrees that it has a policy explicitly opposing, in its activities outside of the United States, prostitution and sex
trafficking.” As we understand it, because AOSI is a
US NGO, AOSI itself is not required to have such a policy, but is required to ensure that its non-US subgrantees have such a policy.
In order for AOSI to agree to impose such a requirement, and in order for the non-US foundations in our
network to agree to such a requirement, our Principles
of Governance dictate that we ensure that such a policy
is not “contrary to the values of an open society,” and
that such a policy does not “stigmatize marginalized
groups.”
POLICY STATEMENT
AOSI, and the Soros Foundations in Tajikistan and Kyrgyzstan believe that trafficking and sex work do hann
both to the individuals directly involved and to others in
various ways. AOSI and the Soros Foundations in Tajikistan and Kyrgyzstan do not promote or advocate
such activities. Rather, our approach is to disseminate
credible information on questions such as disease prevention, and to provide direct public health assistance to
vulnerable populations, thereby reducing the harms associated with trafficking and sex work.

113
As we engage in efforts to change the behavior of those
engaged in harmful practices we believe it is counterproductive to use terminology that appears to denigrate
them. Therefore we avoid using terms such as “prostitution,” which may be considered pejorative.

114
U.S. Department of Justice

Office of Legal Counsel
Office of the Assistant
Attorney General

Washington, D.C. 20530
Sept. 20, 2004

Honorable Alex M. Azar, II
General Counsel
Department of Health and Human Services
200 Independence Avenue, S.W.
Washington, D.C. 20201
Re:

Trafficking Victims Protection Reauthorization Act of 2003 (“TVPRA”) and United States
Leadership Against HIV/AIDS, Tuberculosis,
and Malaria Act of 2003 (“AIDS Act”)

Dear Alex:
I understand that earlier this year the Department
of Health and Human Services (HHS) asked the Department of Justice (DOJ) whether HHS could implement certain provisions of the TVPRA and of the
AIDS Act. At that time, I understand that DOJ gave
its tentative advice that the so-called “organization
restrictions” set forth in 22 U.S.C.A. § 7110(g)(2) and
22 U.S.C.A. § 7631(f ) could, under the Constitution,
be applied only to foreign organizations acting overseas.
We have reviewed the matter further and we are
withdrawing that tentative advice. The statutes are
clear on their face that the organization restrictions

115
were intended by Congress to apply without the limitations identified in our earlier advice. We have consulted with the Civil Division and, in these circumstances, given that the provisions do not raise separation of powers concerns and that there are reasonable
arguments to support their constitutionality, 1 we believe that HHS may implement these provisions. 2 If
the provisions are challenged in court, the Department stands ready to defend their constitutionality,
in accordance with its longstanding practice of defending congressional enactments under such circumstances. 3

Although the constitutionality of organization restrictions is a
complex question, when, as here, they are closely tailored to the purpose of the grant program, there are reasonable arguments to support their constitutionality. See South Dakota v. Dole, 480 U.S.
203, 206-08 (1987) (holding that the government may condition funds
on the recipient's relinquishment of a right where the condition is
directly related to the purpose for which the funds are expended);
American Communications Ass’n v. Douds, 339 U.S. 382, 390-91
(1950) (upholding a government benefit tied to a restriction on the
recipients' speech where the restriction “bears reasonable relation
to the evil which the statute was designed to reach”).
2
Nothing in this letter should be construed to question the authority of the President to decline to enforce a statute he views
as unconstitutional. See generally Memorandum Opinion for
the Counsel to the President from Walter Dellinger, Assistant
Attorney General, Office of Legal Counsel, Presidential Authority to Decline to Execute Unconstitutional Statutes, 18 Op. O.L.C.
200 (1994).
3
Consistent with that practice, any decision as to whether to
appeal an adverse decision would be made by the Solicitor General.
1

116
Please do not hesitate to contact me if you have any
further questions. I apologize for any confusion or
inconvenience caused by our earlier tentative advice.
Sincerely,
/s/
Daniel Levin
Acting Assistant Attorney General

117

Acquisition & Assistance Policy Directive (AAPD)
From the Director, Office of Acquisition & Assistance
Issued:

June 9, 2005
AAPD 05-04

Implementation of the United States Leadership
Against HIV/AIDS, Tuberculosis and Malaria Act of
2003—Eligibility Limitation on the Use of Funds and
Opposition to Prostitution and Sex Trafficking

Subject Category:

Acquisition Management,
Assistance

Type:

Policy

AAPDs provide information of significance to all agency
personnel and partners involved in the Acquisition and
Assistance process. Information includes (but is not limited to): advance notification of changes in acquisition or
assistance regulations; reminders; procedures; and general information. Also, AAPDs may be used to implement new requirements on short-notice, pending formal
amendment of acquisition or assistance regulations.

118
AAPDs are EFFECTIVE AS OF THE ISSUED DATE
unless otherwise noted in the guidance below; the directives remain in effect until this office issues a notice of
cancellation.

This AAPD: ☐ Is New ☒ Replaces/
☐ Amends CIB/AAPD No: 04-04 (Revision 2)
Applicable to:

Precedes change to:

☒ Existing
awards;

☒ AIDAR Part(s) tbd Appendix

☐ Modification
☒ USAID Automated Direcrequired
tives Systems (ADS) Chapter
☐ No later
302, 303, and 308.
than
☒ Code of Federal Regula☒ As noted in guidtions 22 CFR 226
ance below
☐ Other
☒ RFPs/RFAs issued on
or after the effective ☐ No change to regulations
date of this AAPD; all
other Pending Awards,
i.e. 8(a), sole source,
IQC
☐ Other or N/A
☒ New Provision/Clause Provided Herein:
scheduled update to Prodoc: Dec. 2005
(signed copy on file)
Jeffery Bell
Acting Director

If checked,

119
1.

PURPOSE:

The purpose of this AAPD is to provide clauses to be included as new standard provisions for assistance agreements and contracts that include HIV/AIDS funds.
These provisions: (i) permit recipients to not endorse
or utilize a multisectoral approach to combatting HIV/
AIDS, or to not endorse, utilize or participate in a prevention method or treatment program to which the organization has a religious or moral objection; (ii) prohibit the funds provided under the agreement to be used
to promote the legalization or practice of prostitution or
sex trafficking; and (iii) require recipients to agree that
they oppose prostitution and sex trafficking.
2.

BACKGROUND:

The United States Leadership Against HIV/AIDS, Tuberculosis and Malaria Act of 2003, Pub. L. No. 108-25
(2003) (the “AIDS Authorization”) authorizes funds to
be appropriated for HIV/AIDS activities for the fiscal
years 2004-2008. The AIDS Authorization includes,
among other things, certain restrictions on the use of
HIV/AIDS funds, and requires recipients of those funds
to have certain policies in place. It also permits an organization to receive funds even if such organization
cannot endorse, utilize or participate in a prevention
method or treatment program to which the organization
has a religious or moral objection.
Section 301 of the AIDS Authorization, entitled “Assistance to Combat HIV/AIDS,” includes the following provisions:
“(d) ELIGIBILITY FOR ASSISTANCE—An organization that is otherwise eligible to receive assistance under
section 104A of the Foreign Assistance Act of 1961 (as

120
added by subsection (a)) or under any other provision of
this Act (or any amendment made by this Act) to prevent, treat, or monitor HIV/AIDS shall not be required,
as a condition of receiving the assistance, to endorse or
utilize a multisectoral approach to combatting HIV/
AIDS, or to endorse, utilize, or participate in a prevention method or treatment program to which the organization has a religious or moral objection.
(e) LIMITATION.—No funds made available to carry
out this Act, or any amendment made by this Act, may
be used to promote or advocate the legalization or practice of prostitution or sex trafficking. Nothing in the
preceding sentence shall be construed to preclude the
provision to individuals of palliative care, treatment, or
post-exposure pharmaceutical prophylaxis, and necessary pharmaceuticals and commodities, including test
kits, condoms, and when proven effective, microbicides.
(f ) LIMITATION.—No funds made available to carry
out this Act, or any amendment made by this Act, may
be used to provide assistance to any group or organization that does not have a policy explicitly opposing prostitution and sex trafficking.”
The Consolidated Appropriations Act of 2004 and 2005,
Division D—Foreign Operations, Export Financing,
and Related Programs Appropriations (“FY 04 and FY
05 Appropriations Acts”), Title II—Bilateral Economic
Assistance, United States Agency for International Development, Child Survival and Health Programs Fund
include the following provision, “That information provided about the use of condoms as part of projects or
activities that are funded from amounts appropriated by
this Act shall be medically accurate and shall include the
public health benefits and failure rates of such use.”

121
In addition, the FY 04 Appropriations Act amended section 301(f ) of the AIDS Authorization by exempting the
Global Fund to Fight AIDS, Tuberculosis and Malaria,
the World Health Organization, the International AIDS
Vaccine Initiative and any “United Nations agency”
from that section. The Statement of Managers of the
FY 04 Appropriations Act states that the conferees “intend that for purposes of this provision, the World
Health Organization includes its six regional offices:
The Americas (PAHO); South-East Asia (SEARO); Africa (AFRO); Eastern Mediterranean (EMRO); Europe
(EURO); and Western Pacific (WPRO).”
Although the above-named public international organizations are exempt from section 301(f ) of the AIDS Authorization, they are subject to the AAPD 05-04 clauses
that implement sections 301(d) and (e) of the AIDS Authorization. However, this AAPD does not apply to
USAID contributions to multidonor trust funds, such as
to the Trust Fund for the Global Fund to Fight AIDS,
Tuberculosis and Malaria.
Consistent with guidance from the U.S. Department of
Justice, the AAPD 05-04 clauses that implement section
301(f ) of the AIDS Authorization now apply to U.S. organizations as well as foreign organizations.
Prior to receiving HIV/AIDS funds under a grant or cooperative agreement, U.S. and non-U.S. non-governmental organizations that are prime recipients must
provide a certification that they are in compliance with
the standard provisions “Condoms” and “Prohibition on
the Promotion or Advocacy of the Legalization or Practice of Prostitution or Sex Trafficking” that appear below. USAID intends to require prime contactors to
provide a similar certification and is currently seeking

122
the approval of the Federal Acquisition Regulation
Council to do so. Pending such approval, USAID will
not require contractors to provide a certification.
OMB has approved the Agency’s information collection
request under the Paperwork Reduction Act, allowing
USAID to implement the above stated requirements in
conformity with the Paperwork Reduction Act. Therefore, USAID will require (i) U.S. and non-U.S. nongovernmental organizations, certain public international organizations and contractors and subcontractors to have
a policy explicitly opposing prostitution and sex trafficking; (ii) U.S. and non-U.S. non-governmental organizations receiving HIV/AIDS funds under a grant or cooperative agreement to provide a certification that they
are in compliance with the standard provisions “Condoms” and “Prohibition on the Promotion or Advocacy
of the Legalization or Practice of Prostitution or Sex
Trafficking” that appear below; and (iii) all recipients of
HIV/AIDS fund to ensure that information provided
about the use of condoms as part of projects funded from
such monies shall be medically accurate and include the
public health benefits and failure rates of such use and
shall be consistent with USAID’s fact sheet entitled,
“USAID: HIV/STI Prevention and Condoms.” (OMB
No.: 0412-0568)

123
3.

GUIDANCE:

A. For Assistance Awards (grants and cooperative
agreements) to U.S. non­governmental, non-U.S. nongovernmental, and Public International Organizations
(PIOs):
I.

Eligibility

The following provisions must be included in each new
Request for Applications (RFA) and Annual Program
Statement (APS) utilizing HIV/AIDS funding. When
designing a program for HIV/AIDS the SO Team or requiring office must be mindful of the first clause below.
The evaluation criteria should not give any special advantage to an organization that endorses or utilizes a
multisectoral approach (multisectoral in the legislation
refers to Abstinence, Be Faithful/Behavior Change, and
Condoms).
These provisions also must be included in the Standard
Provisions of any new grant or cooperative agreement
to a public international organization or a U.S. or nonU.S. non­governmental organization financed with
FY04-FY08 HIV/AIDS funds or modification to an
existing grant or cooperative agreement that adds
FY04-FY08 HIV/AIDS funds.
“ORGANIZATIONS ELIGIBLE FOR
TANCE (ASSISTANCE) (JUNE 2005)

ASSIS-

An organization that is otherwise eligible to receive
funds under this agreement to prevent, treat, or monitor HIV/AIDS shall not be required to endorse or
utilize a multisectoral approach to combatting
HIV/AIDS, or to endorse, utilize, or participate in a

124
prevention method or treatment program to which
the organization has a religious or moral objection.
CONDOMS (ASSISTANCE) (JUNE 2005)
Information provided about the use of condoms as part
of projects or activities that are funded under this
agreement shall be medically accurate and shall include
the public health benefits and failure rates of such use
and shall be consistent with USAID's fact sheet entitled, “USAID: HIV/STI Prevention and Condoms.
This fact sheet may be accessed at: http://www.usaid.
gov/our_work/globalhealth/aids/TechAreas/prevention/
condomfactsheet. html”
II. Limitation on the Use of Funds
The following must be included in the Standard Provisions
of any grant or cooperative agreement or subagreement
funded with FY04-FY08 HIV/AIDS funds with a U.S. nongovernmental organization, non-U.S., non-governmental
organization or public international organizations.
“PROHIBITION ON THE PROMOTION OR ADVOCACY OF THE LEGALIZATION OR PRACTICE
OF PROSTITUTION OR SEX TRAFFICKING (ASSISTANCE) (JUNE 2005)
(a) The U.S. Government is opposed to prostitution
and related activities, which are inherently harmful
and dehumanizing, and contribute to the phenomenon of trafficking in persons. None of the funds
made available under this agreement may be used to
promote or advocate the legalization or practice of
prostitution or sex trafficking. Nothing in the preceding sentence shall be construed to preclude the
provision to individuals of palliative care, treatment,

125
or post-exposure pharmaceutical prophylaxis, and
necessary pharmaceuticals and commodities, including test kits, condoms, and, when proven effective,
microbicides.
(b) Except as noted in the second sentence of this
paragraph, as a condition of entering into this agreement or any subagreement, a non-governmental organization or public international organization recipient/
subrecipient must have a policy explicitly opposing
prostitution and sex trafficking. The following organizations are exempt from this paragraph: the
Global Fund to Fight AIDS, Tuberculosis and Malaria; the World Health Organization; the International AIDS Vaccine Initiative; and any United Nations agency.
(c) The following definition applies for purposes of
this provision:
Sex trafficking means the recruitment, harboring,
transportation, provision, or obtaining of a person
for the purpose of a commercial sex act. 22 U.S.C.
7102(9).
(d) The recipient shall insert this provision, which is
a standard provision, in all subagreements.
(e) This provision includes express terms and conditions of the agreement and any violation of it shall be
grounds for unilateral termination of the agreement
by USAID prior to the end of its term.
(End of Provision)”

126
III.

Certification

This certification requirement only applies to the prime
recipient. Before a U.S. or non­U.S. non-governmental
organization receives FY04-FY08 HIV/AIDS funds under a grant or cooperative agreement, such recipient
must provide to the Agreement Officer a certification
substantially as follows:
“[Recipient’s name] certifies compliance as applicable with the standard provisions entitled “Condoms”
and “Prohibition on the Promotion or Advocacy of the
Legalization or Practice of Prostitution or Sex Trafficking” included in the referenced agreement.”
B. For Contracts:
I.

Eligibility

The following provisions must be included in each new
solicitation and contract utilizing FY04-FY08 HIV/
AIDS funding. When designing a program for HIV/
AIDS the SO Team or requiring office must be mindful
of the first clause below. The evaluation criteria should
not give any special advantage to an organization that
endorses or utilizes a multisectoral approach (multisectoral in the legislation refers to Abstinence, Be Faithful/Behavior Change, and Condoms).
In addition, these provisions are to be included when any
existing contract is amended to add FY04-FY08 HIV/
AIDS funding.
“ORGANIZATIONS ELIGIBLE FOR
TANCE (ACQUISITION) (JUNE 2005)

ASSIS-

An organization that is otherwise eligible to receive
funds under this contract to prevent, treat, or moni-

127
tor HIV/AIDS shall not be required to endorse or utilize a multisectoral approach to combatting HIV/
AIDS, or to endorse, utilize, or participate in a prevention method or treatment program to which the
organization has a religious or moral objection.
CONDOMS (ACQUISITION) (JUNE 2005)
Information provided about the use of condoms as
part of projects or activities that are funded under
this contract shall be medically accurate and shall include the public health benefits and failure rates of
such use and shall be consistent with USAID’s
fact sheet entitled, “USAID: HIV/STI Prevention
and Condoms. This fact sheet may be accessed at:
http://www.usaid.gov/ our_work/globalhealth/aids/
TechAreas/prevention/ condomfactsheet. html”
II.

Limitation on the Use of Funds

The following must be included in the Schedule of any
contract that includes FY04-FY08 HIV/AIDS funds.
“PROHIBITION ON THE PROMOTION OR ADVOCACY OF THE LEGALIZATION OR PRACTICE OF PROSTITUTION OR SEX TRAFFICKING (ACQUISITION) (JUNE 2005)
(a) This contract is authorized under the United
States Leadership Against HIV/AIDS, Tuberculosis
and Malaria Act of 2003 (P.L. 108-25). This Act
enunciates that the U.S. Government is opposed to
prostitution and related activities, which are inherently harmful and dehumanizing, and contribute to
the phenomenon of trafficking in persons. The contractor shall not use any of the funds made available

128
under this contract to promote or advocate the legalization or practice of prostitution or sex trafficking.
Nothing in the preceding sentence shall be construed
to preclude the provision to individuals of palliative
care, treatment, or post-exposure pharmaceutical
prophylaxis, and necessary pharmaceuticals and commodities, including test kits, condoms, and, when
proven effective, microbicides.
(b) Except as provided in the second sentence of this
paragraph, as a condition of entering into this contract or subcontract, a non-governmental organization or public international organization contractor/
subcontractor must have a policy explicitly opposing
prostitution and sex trafficking. The following organizations are exempt from this paragraph: the
Global Fund to Fight AIDS, Tuberculosis and Malaria; the World Health Organization; the International AIDS Vaccine Initiative; and any United Nations agency.
(c) The following definition applies for purposes of
this provision:
Sex trafficking means the recruitment, harboring,
transportation, provision, or obtaining of a person
for the purpose of a commercial sex act. 22 U.S.C.
7102(9).
(d) The contractor shall insert this clause in all subcontracts.
(e) Any violation of this clause will result in the immediate termination of this contract by USAID.”
If the contract provides for the contractor to execute
grants to non-governmental organizations (not-for-profits

129
or for-profits), per ADS 302.5.6 Grants under Contracts,
then the contractor must comply with the assistance
provisions in Section 3.A of this AAPD when awarding
grants or cooperative agreements under its contract (in
compliance with ADS 302.5.6(c) and (d)).
4.

POINTS OF CONTACT:

USAID Contracting Officers and Agreement Officers
may direct their questions about this AAPD to Diane M.
Howard, M/OAA/PE, Phone: (202) 712-0206 e-mail:
dhoward@usaid.gov, or Ann Cataldo, M/OAA/PE,
Phone (202) 712-4886, e-mail acataldo@usaid.gov.
Contractors, recipients, and prospective offerors for
contracts or assistance awards must direct their questions to the cognizant Contracting Officer or Agreement
Officer for the award.
All other inquiries about this AAPD may be addressed
to Diane Bui, GC/GH & EGAT, Phone (202) 712-0529
e-mail: dibui@usaid.gov.

130

Outgoing # 131
Date: Aug. 3, 2005
Mr. John F. Lord
Agreement Officer
United States Agency for International Development
Central Asian Region
Park Palace Building
41 Kazibek Bi Street
Almaty 480100
Kazakhstan
Dear Mr. Lord:
I enclose an executed copy of the Modification of Assistance that you forwarded me on August 3, 2005.
I take note of the new standard provisions.
ingly, AOSI certifies as follows:

Accord-

Alliance for Open Society International certifies compliance as applicable with the standard provisions entitled “Condoms” and “Prohibition on the Promotion
or Advocacy of the Legalization or Practice of Prostitution or Sex Trafficking” included in the referenced agreement.
Please note the following in connection with this certification with respect to the requirement that as a con-

131
dition of entering into this agreement or any subagreement, AOSI must have a policy explicitly opposing prostitution and sex trafficking (“the pledge requirement”):
1. In making this certification, we state again, as we
have indicated twice in prior correspondence with
USAID, that AOSI adheres to the following policy,
which AOSI has had in place since spring of 2004:
AOSI, and the Soros Foundations in Tajikistan
and Kyrgyzstan believe that trafficking and sex
work do harm both to the individuals directly
involved and to others in various ways. AOSI
and the Soros Foundations in Tajikistan and
Kyrgyzstan do not promote or advocate such
activities. Rather, our approach is to disseminate credible information on questions such as
disease prevention, and to provide direct public
health assistance to vulnerable populations,
thereby reducing the harms associated with
trafficking and sex work.
2. AOSI believes that because of both the legislative
history of the United States Leadership Against
HIV/AIDS, Tuberculosis, and Malaria Act of 2003
(“Global AIDS Act”), and serious constitutional
concerns raised by the pledge requirement, the
proper interpretation of the Global AIDS Act,
USAID Acquisition & Assistance Policy Directive
05-04, and the attached Modification of Assistance
is that the above-stated policy complies with the
pledge requirement.

132
3. AOSI believes that, as a legal matter, the actions of
the Open Society Institute, with which it is affiliated, have no bearing on AOSI’s compliance or noncompliance with the pledge requirement.
4. AOSI signs the certification in order to ensure that
AOSI and its partners are able to continue operating the highly successful Drug Demand Reduction
Program in Central Asia, and so that client services
are not interrupted. AOSI reserves its rights to
continue to express the concerns raised in its letter
to Andrew Natsios of June 13, 2005 and to challenge the pledge requirement as violative of the
First Amendment and other law.
Sincerely,
/s/ OKSANA KOMEO
OKSANA KOMEO
Acting Executive Director

133
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

No. 05-CV-8209
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.,
AND OPEN SOCIETY INSTITUTE, PLAINTIFFS
v.
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT AND ANDREW S. NATSIOS, IN HIS
OFFICIAL CAPACITY AS ADMINISTRATOR OF THE
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, ET AL., DEFENDANTS
[Filed:

Sept. 23, 2005]

COMPLAINT
I. INTRODUCTORY STATEMENT

1. This is a civil action arising under the First
Amendment to the United States Constitution, seeking redress against the United States Agency for International
Development (hereafter “USAID”), an agency of the
United States, on behalf of entities whose constitutional
rights are violated by a policy directive issued by USAID,
which requires private non-profit organizations based in
the United States to adopt the government’s ideology opposing sex work in exchange for the receipt of USAID
funding to stop the spread of HIV/AIDS. 1
1
The terms “sex work” and “sex worker” are used in this document because they are the terms generally used in the public health

134
2. Plaintiffs, a non-profit recipient of USAID funding
and an affiliated not-for-profit charitable foundation, both
of which are based in the United States, challenge the requirement that they adopt a policy opposing prostitution
as violative of the First Amendment in three ways: a) it
is unconstitutionally vague, b) it requires grantees to
adopt as their own organization- wide policy the ideologically motivated position of the government regarding sex
work, and c) it imposes an absolute bar on grantees using
their own, non-government funding to engage in speech
activities. Plaintiffs also challenge USAID’s implementation of the pledge requirement as being contrary to the
governing law.
II. JURISDICTION AND VENUE

3. Subject matter jurisdiction is conferred upon the
Court by 28 U.S.C. § 1331. Venue is proper pursuant to
28 U.S.C. § 1391(b), (e).
III. THE PARTIES
The Plaintiffs

4. Plaintiff OPEN SOCIETY INSTITUTE (“OSI”)
is a charitable trust organized and existing under New
York law. It is a private foundation enjoying tax-exempt
status under section 501(c)(3) of the Internal Revenue
Code. Its primary office is located at 400 West 59th
Street, New York, New York 10019.
5. Plaintiff OSI is the principal United States-based
foundation of the philanthropist George Soros. OSI
and international relief fields. The terms “prostitute” and “prostitution” are viewed as stigmatizing by the sex workers whose trust
public health officials must gain in order to engage them in the fight
against HIV/AIDS.

135
works to support a network of more than 30 “Soros Foundations,” which operate in more than 60 countries worldwide.
6. In general, Plaintiff OSI and the Open Society network promote democratic governance, human rights, and
economic, legal and social reform. On a local level, members of the network implement a range of initiatives to
support the rule of law, education, public health, and independent media.
7. Plaintiff OSI has received USAID funding in the
past, and is interested in preserving its eligibility to receive Global AIDS Act funding from USAID in the future.
8. Plaintiff ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC. (“AOSI”) is a not-for-profit corporation incorporated under Delaware law. It enjoys
tax-exempt status under section 501(c)(3) of the Internal
Revenue Code. Its primary office is located at 400 West
59th Street, New York, New York 10019. It has a branch
office in Almaty, Kazakhstan.
9. Plaintiff OSI established Plaintiff AOSI in July,
2003 as a separately incorporated not-for-profit organization. Among the reasons for AOSI’s separate existence
are: 1) a desire to concentrate in a separate vehicle the
expertise OSI and the Open Society network in general
have gained in implementing U.S. federal grants, and 2) a
desire to coordinate OSI and Open Society network programs in Central Asia.
10. In October, 2003, Plaintiff OSI agreed to provide
Plaintiff AOSI with a five-year grant in the amount of
$2,177,700 to support AOSI’s work in seeking and implementing U.S. government grants, as well as to support the

136
creation of a Central Asia office of AOSI that would help
coordinate Open Society network projects in that region.
The Defendants
11. Defendant USAID is an agency of the United
States government. Its primary office is located in the
Ronald Reagan Building, 1300 Pennsylvania Avenue, NW,
Washington, D.C. 20523.
12. Defendant USAID uses funding provided by Congress for economic, development and humanitarian assistance around the world.
13. Defendant ANDREW S. NATSIOS is the Administrator of Defendant USAID. His office is located at
Ronald Reagan Building, 1300 Pennsylvania Avenue, NW,
Washington, D.C. 20523.
14. Defendant NATSIOS has responsibility for formulating and implementing USAID policies and practices.
He is sued in his official capacity.
IV.

THE GLOBAL AIDS ACT

15. In 2003, Congress passed, and the President
signed, the United States Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Act of 2003 (“Global AIDS Act”
or “Act”), which is codified at 22 U.S.C. § 7601 et seq.
16. The Act implements the President’s Emergency
Plan for AIDS Relief, which is a five-year global strategy
for fighting HIV/AIDS, focusing on education, research,
prevention, treatment and care of persons living with
HIV/AIDS. The Act authorizes the appropriation of $3
billion in funding for each of fiscal years 2004 through
2008. 22 U.S.C. § 7671(a). For fiscal year 2005, Congress has appropriated $2.8 billion under the Act.

137
17. The funds, which are distributed mainly by Defendant USAID and by the United States Department of
Health and Human Services, go to many non-governmental
organizations based in the United States but doing work
abroad (“US NGOs”), including Plaintiff AOSI. The funds
also go to foreign non-governmental organizations (“foreign NGOs”), which often receive the funds as subgrantees of U.S. groups, and to foreign governments and multilateral organizations.
18. The Act imposes on recipients of funding distributed under the Act two restrictions regarding sex work.
The first provision (the “government funds restriction”)
prohibits funds made available under the Act from being
spent on activities that “promote or advocate the legalization or practice of prostitution and sex trafficking,”
although it allows for the provision of health care to a sex
worker. 22 U.S.C. § 763l (e).
19. Plaintiffs do not challenge either the government
funds restriction or USAID’s implementation of it.
20. The second restriction (the “pledge requirement”)
provides, in pertinent part, that “no funds made available
to carry out this Act . . . may be used to provide assistance to any group or organization that does not have a
policy explicitly opposing prostitution and sex trafficking.”
22 U.S.C. § 7631(f ). The Act does not define “opposing
prostitution.”
21. During the sole legislative debate on the scope of
the pledge requirement prior to passage of the Global
AIDS Act, Senate Majority Leader Bill Frist stated that
“a statement in the contract or grant agreement between
the U.S. Government and such organization that the organization is opposed to the practices of prostitution and

138
sex trafficking because of the psychological and physical
risks they pose for women . . . would satisfy the intent
of the provision.” 149 Cong. Rec. S6457 (daily ed. May
15, 2003) (statement of Sen. Frist).
22. While plaintiffs believe it is unconstitutional for
the government to force them to adopt a policy position in
order to qualify for Global AIDS Act funds, given their significant history of combating sex trafficking they do not
challenge either the requirement that they have a “policy
explicitly opposing . . . sex trafficking,” or USAID’s
implementation of that requirement.
V. USAID’S IMPLEMENTATION
OF THE PLEDGE REQUIREMENT

23. From February 2004 until June 2005, Defendant
USAID did not apply the pledge requirement to US NGOs
on the advice of the federal Department of Justice, which
had issued a draft opinion stating that enforcement of the
pledge requirement against organizations based in the
United States would be unconstitutional.
24. Then, in a letter dated September 20, 2004, the
DOJ’s Office of Legal Counsel withdrew its earlier draft
opinion that had declared enforcement of the pledge requirement against US NGOs to be unconstitutional, and
stated that “there are reasonable arguments to support
[the] constitutionality” of the requirement.
25. USAID, in turn, began applying the pledge requirement to US NGOs. USAID did this by issuing a policy directive requiring grantees to have in place “a policy
explicitly opposing . . . prostitution and sex trafficking.” See USAID Acquisition & Assistance Policy Directive 05-04 (June 9, 2005). Neither in this policy directive, nor in any other written document, does USAID

139
either define “explicitly opposing prostitution” or provide
guidance on what privately funded activities are permissible and impermissible under the pledge requirement.
VI. BROAD CONSTRUCTIONS THAT USAID
AND OTHERS HAVE PLACED ON THE PLEDGE
REQUIREMENT

26. USAID officials and others have placed a number
of broad interpretations on the pledge requirement.
These interpretations all indicate how broadly observers
can construe the pledge requirement in the absence of any
guidance from USAID.
27. In a meeting with AOSI and OSI personnel in
April 2005, Kent Hill, the acting assistant administrator
for global health of Defendant USAID, articulated several
broad, but vague, interpretations of the pledge requirement, although he emphasized that he could not provide
official guidance on the policy. First, he stated that he
believed the pledge requirement bars grantees from advocating legalization of sex work, and might bar advocating
for too great a reduction in penalties for sex work, or helping to unionize sex workers.
28. Second, he stated that he thought organizing sex
workers to prevent police from brutalizing them might violate the requirement if USAID decided that the work was
merely a front for advocating the legalization of sex work.
29. Third, he stated that he believed even if a group
adopted a policy statement that was compliant on its face,
that organization could be found to be in violation of the
pledge requirement if USAID concluded that the organization truly felt sex work should be legalized and that the
totality of statements made that clear.

140
30. Even before USAID started applying the pledge
requirement to Plaintiff AOSI, staff at the Central Asia
Republics mission of Defendant USAID cautioned AOSI
not to use the term “sex worker” in publicly available documents because that might connote acceptance of sex
work. Plaintiffs do not know whether USAID will construe all public use of the term “sex worker” as violating
the pledge requirement.
31. Senator Tom Coburn has construed the pledge requirement as barring Global AIDS Act grantees from running a program providing educational materials and
health safety training for sex workers. On May 19, 2005
he demanded that President Bush investigate a USAID
grantee for engaging in such activities. Sen. Coburn
does not charge that the grantee promoted changes in the
legal status of sex work. Rather, his complaint seems to
be that the grantee uses non-traditional teaching methods
to educate sex workers about HIV transmission. On information and belief, Defendant USAID is delaying renewed funding of this program as a result of Sen. Coburn’s
complaint.
32. In still another far-reaching interpretation of the
pledge requirement, on July 15, 2005, 28 members of Congress wrote to Defendant USAID charging that an HIV
prevention project carried out by a USAID grantee violates the pledge requirement because it has “a rights­
based” approach to sex work, which the members of Congress interpret as advocating “the legalization of prostitution and its cultural acceptance as a legitimate form of employment.” On information and belief, USAID has not
yet responded to this allegation.

141
33. Likewise, some members of Congress have asserted that a debate program for high school and university students run by the Soros Foundation Kazakhstan,
which received USAID civic education funding, promoted
the legalization of sex work. Defendant USAID found
this assertion to be unfounded.
VII. HOW THE PLEDGE REQUIREMENT
AFFECTS THE PLAINTIFFS
The Effect of the Pledge Requirement
on Plaintiffs AOSI and OSI

34. Plaintiffs AOSI and OSI are opposed to the harms
that sex work inflicts both on the individuals directly involved and to others in various ways.
35. Nonetheless, the pledge requirement detrimentally affects Plaintiff AOSI and the clients it serves in several ways. If Defendant USAID construes the pledge requirement as covering Plaintiff OSI, then the pledge requirement detrimentally affects OSI too.
36. Both AOSI and OSI have, as their principles of
governance, an adherence to the principles of an open society, including opposition to adopting any policy positions
that would lead to the stigmatization of socially marginalized groups. Adopting a policy opposing sex work violates this principle.
37. In addition to requiring USAID grantees and contractors to adopt a policy, the pledge requirement appears
to also require USAID grantees and contractors, including Plaintiff AOSI to conform their activities to the policy.
The pledge requirement applies both to activities conducted with government funding and to activities conducted with funding that comes from other sources.

142
38. Consequently, the pledge requirement places a
blanket ban on the use of the private, non-governmental
funds possessed by Plaintiff AOSI to do work that Defendant USAID construes as being insufficiently opposed to
sex work.
39. Plaintiffs do not know whether USAID also construes the pledge requirement as requiring Plaintiff OSI
to also conform its activities—including its privately
funded activities—to any policy opposing sex work that
AOSI may adopt. On at least one occasion, USAID has
indicated that it views OSI as a “partner” in AOSI’s
USAID-funded work.
40. AOSI and OSI engage in a significant amount of
privately funded activity that could be barred by the
pledge requirement. Both are at the forefront of efforts
to reduce the spread of HIV/AIDS by working with people
who are at particularly high risk of contracting HIV/AIDS
and of passing it on to others.
41. In many regions, when the HIV/AIDS epidemic
begins it is concentrated in small populations of people, including sex workers, drug users, and others. When public health officials are able to focus their efforts on those
populations, they can stop the epidemic before it spreads
to the rest of the population.
42. In order to stop the epidemic among sex workers
it is necessary to approach sex workers and other people
at high risk for becoming infected with HIV in a nonjudgmental manner, in order to establish a trusting relationship with them and engage them in needed HIV prevention efforts.
43. Efforts recognized as highly successful in fighting
the spread of HIV/AIDS have involved organizing sex

143
workers, or working cooperatively with sex worker organizations.
44. In some regions, advocating for a change in the legal regime surrounding sex work has been an essential
part of fighting the HIV/AIDS epidemic, because when
sex workers are subject to high fines, arrest or violence,
they go underground, avoiding doctors, outreach workers,
and others who want to provide them with the education,
condoms, and other tools they need to avoid becoming infected and infecting others.
45. As discussed above, Plaintiffs do not know how
broadly USAID construes the pledge requirement.
However, if USAID construes the pledge requirement
broadly to bar advocating changes in the legal treatment
of sex workers; promoting community organizing among
sex workers; or working with, or talking about, sex workers in a non-judgmental fashion, then advocacy of the most
successful tactics in the fight against HIV/AIDS may well
be forbidden.
46. For this reason, the government of Brazil, and a
number of highly respected US NGOs and foreign NGOs,
have turned down USAID funding since implementation
of the pledge requirement. Other NGOs operating under
the pledge requirement have documented the ways in
which the requirement is impeding their efforts to fight
HIV/AIDS.
47. Plaintiffs AOSI and OSI are committed to using
their private funding to facilitate discussion among public
health experts, doctors, social service providers, advocates, government officials and others regarding the most
effective ways to fight the spread of the epidemic in the
populations at the highest risk for contracting HIV/AIDS.

144
48. For example, OSI’s Sexual Health and Rights Program attempts to foster debate regarding policies designed to improve the sexual health and rights of socially
marginalized populations, including sex workers, and to
encourage the adoption and implementation of the most
effective policies. It would be difficult for OSI to advocate for a free debate regarding policies to improve sexual
health if it had to stigmatize sex workers.
49. Likewise, a broad implementation of the pledge
requirement could prevent OSI from continuing to promote a publication it has funded, titled Sex Work,
HIV/AIDS, and Human Rights in Central and Eastern
Europe and Central Asia, which recommends that sex
work be decriminalized as a means of protecting sex workers from abuse by law enforcement personnel, traffickers,
and pimps, thus making it easier for sex workers to access
the health and social services they require in order to remain healthy and informed. OSI does not itself take any
position regarding the contents of the report, or regarding
the desirability of changes in the legal status of sex work.
However, it did provide funding and technical assistance
for the Central and Eastern European Harm Reduction
Network, which wrote the report, and it desires to continue assisting the Network in distributing the report.
50. The Plaintiffs conduct many other activities potentially affected by a broad implementation of the pledge requirement. These include:
a) co-sponsoring a conference in New York on October 14, 2005 entitled, “Sex Work, Sexual Rights and
Countering the Conservative Sexual Agenda.” The
goal of the conference is to bring together members of
different advocacy and service delivery communities—
such as domestic and international groups, and groups

145
working with sex workers and victims of trafficking—
to discuss key policy issues. Among the topics to be
discussed is the legal status of sex work;
b) operating a listserv that provides a forum for participants to share information, opinions, and resources
related to the health, safety and well-being of sex workers in Eastern Europe and the former Soviet Union.
Participants post content regarding best practices, service gaps, model legislation, advocacy strategies, and
new initiatives; and
c) providing funding and technical assistance to a
number of other non-profit organizations working with
sex workers to fight the spread of HIV/AIDS. Several of these groups are studying the circumstances in
which sex workers work and developing policy recommendations. It is essential that these groups remain
free to advocate for the most effective policies, including
—where appropriate —changes in the legal treatment
of sex workers in order to facilitate outreach to them
and ensure their access to needed health care and social
services.
51. There exists a serious risk that AOSI and OSI will
be subject to intrusive and unwarranted governmental investigations regarding whether AOSI and OSI are engaged in activities that the investigators construe as insufficiently opposed to sex work.
52. Plaintiffs AOSI and OSI find the pledge requirement to be vague and confusing. They do not know which
of their current or future activities Defendant USAID will
construe as running afoul of the pledge requirement.
53. Under Acquisition & Assistance Policy Directive
05-04, if a recipient violates the pledge requirement,

146
USAID will unilaterally terminate the funding agreement
or contract.
54. Were Defendant USAID to find Plaintiffs AOSI or
OSI out of compliance with the pledge requirement and
unilaterally terminate Plaintiff AOSI’s grant, AOSI’s clients would suffer.
55. Were Defendant USAID to find Plaintiffs AOSI or
OSI out of compliance with the pledge requirement, a danger exists that civil or criminal penalties would be imposed
on Plaintiff AOSI for falsely certifying compliance with
the requirement.
AOSI’s Decision to Sign the Pledge

56. AOSI is in the middle of operating a highly successful, five-year Drug Demand Reduction Program
aimed at reducing the use of heroin and other injectable
opiates, and stopping the spread of HIV/ AIDS, in a region
of Central Asia where drug use is rising as a result of rampant drug trafficking and is fueling the spread of HIV/
AIDS.
57. AOSI operates this program primarily with a
$16,507,402 five-year grant from Defendant USAID.
AOSI contributes some of its non-government funding,
and OSI contributes funding, technical assistance and administrative support.
58. OSI is not a party to, and has no legal obligations
under, the Cooperative Agreement with USAID establishing the Drug Demand Reduction Program.
59. Since USAID began implementing its pledge requirement, the Plaintiffs have been torn between their desire to continue this successful, life-saving work, and their

147
desire to avoid adopting an ideologically driven government policy that will hurt their ability to do their life-saving work with their own funding.
60. In the spring of 2004, when AOSI’s Drug Demand
Reduction Program subgrantees based outside of the
United States were required to comply with the pledge requirement, AOSI adopted the following statement:
AOSI and the Soros Foundations in Tajikistan and
Kyrgyzstan believe that trafficking and sex work do
harm both to the individuals directly involved and to
others in various ways. AOSI and the Soros Foundations in Tajikistan and Kyrgyzstan do not promote or
advocate such activities. Rather, our approach is to
try to reduce the harms caused by disseminating credible information on questions such as the prevention of
disease, and by providing direct public health assistance to vulnerable populations. . . .
61. AOSI then wrote to USAID, asking whether this
policy statement satisfied the version of the pledge requirement then in effect. USAID responded twice, both
times failing to indicate whether the policy was compliant.
In the second response, however, USAID warned AOSI
that any failure to comply would be subject to investigation by USAID’s Inspector General.
62. In July 2005, after USAID imposed the pledge requirement on US NGOs, AOSI again wrote to USAID,
asking whether the policy statement AOSI had adopted in
the spring of 2004 satisfied the pledge requirement, and
also whether USAID would take OSI’s activities into account in determining whether AOSI is in compliance.
63. After receiving that letter, USAID held up releasing the latest installment of funds for the Drug Demand

148
Reduction Program for six weeks, throwing the work of
the Drug Demand Reduction Program into disarray.
64. AOSI finally received a response from USAID on
August 2, 2005, stating yet again that it could not provide
any guidance regarding whether AOSI’s policy satisfies
the pledge requirement but that AOSI would be subject to
sanctions if it failed to comply.
65. The next day, USAID sent a grant agreement to
AOSI, obligating USAID to fund an additional $542,300
for the Drug Demand Reduction Program, but only if
AOSI certified its compliance with USAID’s pledge requirement. In order to restart the flow of USAID funding, and to avoid the harm that clients would suffer if additional components of the Drug Demand Reduction Program were forced to shut down, AOSI decided to sign the
certification. It did so after carefully reviewing its own
policy and the language of the pledge requirement, and assuring itself that, according to its interpretation of the requirement, it was in compliance.
66. On August 3, 2005, AOSI sent the signed grant
agreement to USAID, along with a cover letter reciting
the required pledge. In that letter, AOSI stated its belief
that the policy it had implemented in the spring of 2004
complies with the pledge requirement and that OSI’s actions have no bearing on AOSI’s compliance or noncompliance with the requirement. Additionally, AOSI reserved
its rights “to challenge the pledge requirement as violative
of the First Amendment and other law.”
67. USAID has now issued an agreement obligating
itself to provide enough funding to AOSI to enable the
Drug Demand Reduction Program to operate through the
middle of next year. Accordingly, AOSI now feels free to

149
file this lawsuit without risking a hold-up in USAID funding of the sort it experienced after it sent its letter to
USAID in mid-June.
VII. CAUSES OF ACTION

68. The pledge requirement contained in Acquisition
& Assistance Policy Directive 05-04 is unconstitutionally
vague, in violation of the First Amendment and the Due
Process Clause of the Fifth Amendment to the United
States Constitution.
69. The pledge requirement contained in Acquisition
& Assistance Policy Directive 05-04 violates the rights of
Plaintiffs AOSI and OSI under the First Amendment to
the United States Constitution by forcing them to adopt
an entity-wide policy opposing sex work in exchange for
the receipt of government funds.
70. The pledge requirement contained in Acquisition
& Assistance Policy Directive 05-04 violates the rights of
Plaintiffs AOSI and OSI under the First Amendment to
the United States Constitution by imposing the pledge requirement on the funding that the Plaintiffs receive from
sources other than USAID.
71. Any application by USAID of the antiprostitution pledge requirement contained in the Global
AIDS Act, 22 U.S.C. § 7631(f ), to require a policy statement by the Plaintiffs broader than the policy statement
that AOSI implemented in the spring of 2004 is not in accordance with the Global AIDS Act and should be held unlawful pursuant to the Administrative Procedures Act, 5
U.S.C. §§ 702, 706(2)(A).
72. Any application by USAID of the antiprostitution pledge requirement contained in the Global

150
AIDS Act, 22 U.S.C. § 7631(f ), to bar the Plaintiffs from
engaging in particular activities because they are perceived as being insufficiently opposed to sex work is not in
accordance with the Global AIDS Act and should be held
unlawful pursuant to the Administrative Procedures Act,
5 U.S.C. §§ 702, 706(2)(A).
WHEREFORE, Plaintiffs respectfully request the
Court to:
(1) declare that USAID’s application to the Plaintiffs
and other US NGOs of the pledge requirement contained
in Acquisition & Assistance Policy Directive 05-04 violates
the First and Fifth Amendments to the United States
Constitution;
(2) grant appropriate preliminary, and final, equitable relief (a) barring defendants United States Agency for
International Development (“USAID”) and Andrew
Natsios, Administrator of USAID, from discontinuing
and/or delaying the funding of plaintiff AOSI pending a final ruling on the merits, and (b) barring USAID from taking the following actions against any US NGO, solely on
the grounds that the US NGO has failed to comply with
the pledge requirement, or has taken action that USAID
deems to be inconsistent with the pledge requirement:
(i) denying funding to any person or entity, (ii) refusing to
enter into or unilaterally terminating a grant agreement,
cooperative agreement, or contract with any person or entity, or (iii) disciplining or seeking civil or criminal sanctions against any person or entity; and
(3) grant such other and further relief as the Court
shall deem proper, including the award of reasonable attorneys’ fees and costs.

151
Dated:

New York, New York
Sept. 23, 2005
/s/

BURT NEUBORN
BURT NEUBORN (BN 9092)
Rebekah Diller (RD 7791)
David S. Udell (DU 4762)
Laura K. Abel (LA 6831)
Aziz Huq (AH 3227)*
Brennan Center for Justice
at NYU School of Law
161 Avenue of the Americas, 12th Floor
New York, NY 10013
(212) 998-6730
Attorneys for Plaintiffs

*

Not admitted in this District.

152
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

05 Civ. 8209 (VM)(DF)
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.
AND OPEN SOCIETY INSTITUTE, PLAINTIFFS
v.
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT AND ANDREW S. NATSIOS, IN HIS
OFFICIAL CAPACITY AS ADMINISTRATOR OF THE
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, DEFENDANTS
Filed:

Sept. 28, 2005

NOTICE OF MOTION FOR
PRELIMINARY INJUNCTION

Burt Neuborne (BN 9092)
Rebekah Diller (RD 7791)
David S. Udell (DU 4762)
Laura K. Abel (LA 6831)
Aziz Huq (AH 3227)*
Brennan Center for Justice
at NYU School of Law
161 Avenue of the Americas, 12th Floor
New York, NY 10013
(212) 998-6730
Attorneys for Plaintiffs
*Not admitted in this District

153
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

05 Civ. 8209 (VM)(DF)
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.
AND OPEN SOCIETY INSTITUTE, PLAINTIFFS
v.
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT AND ANDREW S. NATSIOS, IN HIS
OFFICIAL CAPACITY AS ADMINISTRATOR OF THE
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, DEFENDANTS
NOTICE OF MOTION FOR
PRELIMINARY INJUNCTION

To:

Richard E. Rosberger, Esq.
Assistant United States Attorney
Office of the United States Attorney-Southern
District of New York
86 Chambers Street
New York, NY 10007
Attorneys for Defendants United States Agency
for International Development and Andrew
Natsios, Administrator, USAID

PLEASE TAKE NOTICE that plaintiffs Open Society

Institute (“OSI”) and Alliance for Open Society International (“AOSI”), pursuant to Federal Rule of Civil Procedure 65, upon the accompanying declarations of Burt
Neuborne, Rosanna Barbero, Chris Beyrer, Pedro Chequer, Rebekah Diller, Robert Kushen, Ruth Messinger,
Maurice Middleberg, and Aryeh Neier, and the exhibits

154
thereto, and for the reasons set forth in the accompanying
memoranda of law, will move before the Hon. Victor Marrero at a date and time to be set by the Court and the parties, at the Courthouse of the United States District Court
for the Southern District of New York, 40 Centre St., New
York, New York, 10007, for a preliminary injunction that
does each of the following:
(1) barring defendants United States Agency for
International Development (“USAID”) and Andrew
Natsios, Administrator of USAID, from discontinuing
and/or delaying the funding of plaintiff AOSI pending a
final ruling on the merits;
(2) barring USAID from unilaterally terminating
its Cooperative Agreement with AOSI or the Modifications of Assistance thereto, seeking a refund of moneys
disbursed under the cooperative agreement, debarring
AOSI, or otherwise taking action against AOSI, solely
on the grounds that AOSI or OSI has used their private
funding to engage in any privately funded actions protected by the First Amendment, including but not limited to:
(a) sponsoring or participating in a conference in
New York this October entitled, “Sex Work, Sexual
Rights and Countering the Conservative Sexual
Agenda,”
(b) publicizing Sex Work, HIV/AIDS, and Human
Rights in Central and Eastern Europe and Central
Asia, published by the Central and Eastern European Harm Reduction Network,
(c) operating a listserv that provides a forum for
participants to share information, opinions, and resources related to the health, safety and well­being

155
of sex workers in Eastern Europe and the former
Soviet Union, or
(d) providing funding and technical assistance to
non-profit organizations working with sex workers
to fight the spread of HIV/AIDS, including organizations that advocate for the most effective policies,
including—where appropriate—changes in the legal
treatment of sex workers in order to facilitate outreach to them and ensure their access to needed
health care and social services.
(3) granting such other and further relief as the
Court shall deem proper.
Plaintiffs also seek entry of a declaratory judgment
that they that the pledge requirement contained in
22 U.S.C. § 7631(f ) requires only that U.S.-based nonprofits receiving Global AIDS Act funding state that
sex work causes harm to the women involved, does not
in any way restrict the activities in which those nonprofits may engage with their non-government funding,
and does not impede the activities of plaintiff OSI in any
way. In the alternative, the plaintiffs seek entry of a declaratory judgment that that USAID's application of the
pledge requirement to the plaintiffs and other non-profit
organizations based in the United States is unconstitutional.
Unless defendants are restrained and enjoined by order of this Court, plaintiffs will suffer immediate and irreparable injury, loss and damages in that their constitutional rights are being violated. Plaintiffs have no adequate remedy at law. The immediate and irreparable injuries faced by plaintiffs are more fully described and set

156
forth in the Complaint, and the memoranda of law and accompanying declarations, and exhibits thereto, submitted
in support of this motion.
Dated: New York, New York
Sept. 28, 2005
/s/

REBEKAH DILLER
Burt Neuborne (BN 9092)
Rebekah Diller (RD 7791)
David S. Udell (DU 4762)
Laura K. Abel (LA 6831)
Aziz Huq (AH 3227)*
Brennan Center for Justice
at NYU School of Law
161 Avenue of the Americas, 12th Floor
New York, NY 10013
(212) 998-6730
Attorneys for Plaintiffs
*Not admitted in this District

157
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

Civil Action No. 05-CV-8209 (VM) (DF)
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.,
OPEN SOCIETY INSITUTE, PATHFINDER
INTERNATIONAL, GLOBAL HEALTH COUNCIL,
AND INTERACTION, PLAINTIFFS
v.
UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT AND HENRIETTA FORE, IN HER OFFICIAL
CAPACITY AS ADMINISTRATOR OF THE UNITED STATES
AGENCY FOR INTERNATIONAL DEVELOPMENT,
AND HER SUCCESSORS;
UNITED STATES DEPARTMENT OF HEALTH AND
HUMAN SERVICES AND MICHAEL O. LEAVITT, IN HIS
OFFICIAL CAPACITY AS SECRETARY OF THE U.S.
DEPARTMENT OF HEALTH AND HUMAN SERVICES,
AND HIS SUCCESSORS; AND
UNITED STATES CENTERS FOR DISEASE CONTROL
AND PREVENTION AND JULIE LOUISE GERBERDING,
IN HER OFFICIAL CAPACITY AS DIRECTOR OF THE U.S.
CENTERS FOR DISEASE CONTROL AND PREVENTION,
AND HER SUCCESSORS; DEFENDANTS
Filed: Aug. 18, 2008
SECOND AMENDED COMPLAINT
I.

INTRODUCTORY STATEMENT

1. This is a civil action arising under the First
Amendment to the United States Constitution, seeking

158
redress against three agencies of the United States on
behalf of entities whose constitutional rights are violated by a requirement that private organizations based
in the United States adopt the government’s ideology
opposing prostitution in exchange for the receipt of U.S.
government funding to stop the spread of HIV/AIDS.
2. Plaintiffs, all of which are based in the United
States, include two non-profit recipients of U.S. government funding, a not-for-profit charitable foundation affiliated with one of the recipients, and two non-profit
membership organizations representing a broad range
of U.S.-based recipients of government funding. Plaintiffs challenge the requirement that they adopt a policy
opposing prostitution (“the policy requirement”) as violative of the First Amendment in three ways: a) it is
unconstitutionally vague, b) it requires grantees to adopt
as their own organization-wide policy the ideologically
motivated position of the government regarding prostitution, and c) it bars grantees from using their own, nongovernment funding to engage in protected speech.
Plaintiffs also challenge the implementation of the policy requirement by the defendant agencies as being contrary to the governing law.
II.

JURISDICTION AND VENUE

3. Subject matter jurisdiction is conferred upon
the Court by 28 U.S.C. § 1331. Venue is proper pursuant to 28 U.S.C. § 1391(b), (e).

159
III.

THE PARTIES
The Plaintiffs

4. Plaintiff OPEN SOCIETY INSTITUTE (“OSI”)
is a charitable trust organized and existing under New
York law. It is a private foundation enjoying taxexempt status under section 501(c)(3) of the Internal
Revenue Code. Its primary office is located at 400
West 59th Street; New York, New York 10019.
5. Plaintiff OSI is the principal United Statesbased foundation of the philanthropist George Soros.
OSI works to support a network of more than 30 “Soros
Foundations,” which operate in more than 60 countries
worldwide.
6. In general, Plaintiff OSI and the Open Society
network promote democratic governance, human rights,
and economic, legal and social reform. On a local level,
members of the network implement a range of initiatives to support the rule of law, education, public health,
and independent media.
7. Plaintiff OSI has received United States Agency
for International Development funding in the past, and
is interested in preserving its eligibility to receive Global
AIDS Act funding from USAID in the future.
8. Plaintiff ALLIANCE FOR OPEN SOCIETY
INTERNATIONAL, INC. (“AOSI”) is a not-for-profit
corporation incorporated under Delaware law. It enjoys tax-exempt status under section 501(c)(3) of the Internal Revenue Code. Its primary office is located at
400 West 59th Street, New York, New York 10019. It
has a branch office in Almaty, Kazakhstan.

160
9. Plaintiff OSI established Plaintiff AOSI in July,
2003, as a separately incorporated not-for-profit organization. Among the reasons for AOSI’s separate existence are: 1) a desire to concentrate, in a separate vehicle, the expertise OSI and the Open Society network
in general have gained in implementing U.S. federal
grants, and 2) a desire to coordinate OSI and Open Society network programs in Central Asia.
10. In October, 2003, Plaintiff OSI agreed to provide
Plaintiff AOSI with a five-year grant in the amount of
$2,177,700 to support AOSI’s work in seeking and implementing U.S. government grants, as well as to support
the creation of a Central Asia office of AOSI that would
help coordinate Open Society network projects in that
region.
11. Plaintiff PATHFINDER INTERNATIONAL
(“Pathfinder”) is a non-profit corporation incorporated
under District of Columbia law. It enjoys tax-exempt
status under section 501(c)(3) of the Internal Revenue
Code. Its primary office is located at 9 Galen Street,
Suite 217, Watertown, Massachusetts, 02472-4501.
12. Pathfinder was founded in 1957 by Dr. Clarence
J. Gamble, a private philanthropist, and was one of
the first U.S.-based organizations to address international population issues. Working in nearly 30 countries throughout Africa, Latin America, Asia, and the
Near East, Pathfinder’s mission is to provide access to
quality family planning and reproductive health services
to women, men, and adolescents throughout the developing world. Pathfinder’s philosophy is to provide this
assistance with concern for human rights, for the status
and role of women, and from the perspective of the clients it serves. In addition to its family planning work,

161
Pathfinder also works to halt the spread of HIV/AIDS,
improve maternal and child health, and prevent unsafe
abortions. It accomplishes these goals by developing
partnerships with local non-governmental organizations, host country, governments, the private sector, and
health care providers.
13. Pathfinder’s annual budget, which in fiscal year
2005 totaled more than $76 million, is funded by grants
and donations from multiple sources, including Defendants United States Agency for International Development and the United States Centers for Disease Control
and Prevention, an operating agency of Defendant Department of Health and Human Services. Pathfinder
also receives funds from several agencies of the United
Nations, the Swedish, Canadian, British, and Dutch governments, the World Bank, and numerous foundations,
corporations and individual donors.
14. Plaintiff INTERACTION is a private, not-forprofit, membership organization incorporated in New
York and enjoying tax-exempt status under Section
501(c)(3) of the Internal Revenue Code. Its primary
office is at 1400 16th St. NW, Washington, DC.
15. InterAction was founded in 1984 with the purpose of convening and coordinating U.S.-based, nongovernmental organizations that work in the fields of international development and humanitarian work. InterAction’s mission is to assist its members in improving
their own practices and to advocate for policies that benefit its members and the millions of people they serve
worldwide. With one hundred and sixty members, InterAction is the largest alliance of U.S.-based international development and humanitarian non-governmental
organizations.

162
16. InterAction’s members, all of which are U.S.based, tax-exempt organizations under Section 501(c)(3)
of the Internal Revenue Code, are headquartered in
twenty-five states, including New York. InterAction’s
member organizations are both faith-based and secular
and operate in every country in the developing world.
InterAction’s members include Plaintiff Pathfinder.
17. InterAction’s member organizations receive
more than $1 billion annually from the United States
Government. Those funds come primarily through Defendant USAID, although they also come from Defendants United States Department of Health and Human
Services (“HHS”) and United States Centers for Disease
Control and Prevention (“CDC”) (collectively “HHS”).
InterAction member organizations also receive more
than $7 billion in annual contributions from private donors, primarily individuals but also foundations and corporations. Some also receive funds from United Nations agencies, the World Bank, the European Community Humanitarian Office, and national governments, including those of the United Kingdom and France.
18. As a membership organization, InterAction provides a means through which members can collectively
express concerns about U.S. policy. Sometimes, fear
of retaliation by U.S. government agencies from which
they receive funding prevents members from individually raising concerns about U.S. government policies.
Through their membership in InterAction, member organizations can collectively express objections to government policies in anonymity, and thus without such
fear.
19. Twenty of InterAction’s members both receive
funding subject to the policy requirement and desire to

163
receive that funding without being subject to the policy
requirement.
20. Plaintiff GLOBAL HEALTH COUNCIL
(“GHC”) is a private, not-for-profit, membership alliance incorporated in Delaware and enjoying tax-exempt
status under Section 501(c)(3) of the Internal Revenue
Code. GHC’s executive office is located at 15 Railroad
Row, White River Junction, VT 05001.
21. GHC was founded in 1972 under the name “National Council of International Health” as a U.S.-based,
nonprofit membership organization with the purpose of
identifying priority world health problems and reporting on them to the U.S. public, legislators, international
and domestic government agencies, academic institutions and the world health community.
22. GHC’s member organizations include many prominent U.S. non-profit and academic organizations working to alleviate the burden of disease and disability in
the middle­ and low-income countries. Individually
and collectively, these organizations work to strengthen
the ability of developing nations to address the critical
problems of HIV/AIDS, child health, women’s health,
reproductive health, and infectious disease. GHC’s
members also include for­profit institutions and individuals based inside and outside the U.S., as well as nonprofit organizations based outside the U.S.
23. As a membership organization, GHC provides a
means through which members can collectively express
concerns about U.S. policy. GHC members are often
reluctant to publicly criticize the policies of the U.S. government or government agencies from which they receive funding. Through their membership in GHC,

164
member organizations can collectively express objections to government policies and make recommendations for new or revised policies.
24. Many of GHC’s U.S.-based members administer
programs or provide health care services to people with
HIV/AIDS or at high risk of contracting the virus, and
more intend to administer such programs in the future.
Many of the members administering these programs receive funding to carry out HIV/AIDS work both from
Defendants and from other, private sources. Twentyeight of GHC’s members both receive funding subject to
the policy requirement and desire to receive that funding without being subject to the policy requirement.
The Defendants

25. Defendant UNITED STATES AGENCY FOR
INTERNATIONAL DEVELOPMENT (“USAID”) is
an agency of the United States government. Its primary office is located in the Ronald Reagan Building,
1300 Pennsylvania Avenue, NW, Washington, D.C.
20523.
26. Defendant USAID uses funding provided by
Congress for economic, development and humanitarian
assistance around the world.
27. Defendant HENRIETTA FORE is the Administrator of Defendant USAID. Her office is located at
Ronald Reagan Building, 1300 Pennsylvania Avenue,
NW, Washington, D.C. 20523.
28. Defendant Fore has responsibility for formulating and implementing USAID policies and practices.
She is sued in her official capacity.

165
29. Defendant U.S. DEPARTMENT OF HEALTH
AND HUMAN SERVICES (“HHS”) is an agency of the
United States government. Its primary office is located in the Hubert H. Humphrey Building, 200 Independence Avenue, SW, Washington, D.C. 20201.
30. Defendant HHS uses funding provided by Congress to develop programs for health protection and to
provide human services to Americans in need.
31. Defendant MICHAEL O. LEAVITT is the Secretary of Defendant HHS. His office is located at Hubert H. Humphrey Building, 200 Independence Avenue,
SW, Washington, D.C. 20201.
32. Defendant Leavitt has responsibility for developing and implementing HHS policies and priorities.
He is sued in his official capacity.
33. Defendant United States Centers for Disease
Control and Prevention (“CDC”) is an operating agency
of HHS. Its primary office is located at 1600 Clifton
Road, NE, Atlanta, GA, 30333.
34. Defendant CDC uses Congressional funding to
prevent and control infectious and chronic diseases and
environmental health threats.
35. Defendant JULIE LOUISE GERBERDING is
the Director of Defendant CDC. Her office is located
at 1600 Clifton Road, NE, Atlanta, GA 30333.
36. Defendant Gerberding is responsible for managing and directing the administrative and scientific activities of the CDC. She is sued in her official capacity.

166
IV.

THE GLOBAL AIDS ACT

37. In 2003, Congress passed, and the President
signed, the United States Leadership Against HIV/
AIDS, Tuberculosis, and Malaria Act of 2003 (“Global
AIDS Act” or “Act”), which is codified at 22 U.S.C.
§ 7601 et seq.
38. The Act implements the President’s Emergency
Plan for AIDS Relief, which is a five-year global strategy for fighting HIV/AIDS, focusing on education, research, prevention, treatment and care of persons living
with HIV/AIDS. The Act authorizes the appropriation
of $3 billion in funding for each of fiscal years 2004
through 2008. 22 U.S.C. § 7671(a).
39. The funds, which are distributed by Defendants
USAID, CDC, and HHS, and by other U.S. government
entities, go to many non-governmental organizations
based in the United States but doing work abroad (“US
NGOs”), including Plaintiffs AOSI and Pathfinder and
members of GHC and InterAction. The funds also go
to foreign non-governmental organizations (“foreign
NGOs”), which often receive the funds as subgrantees of
U.S. groups, and to foreign governments and multilateral organizations.
40. The Act imposes on recipients of funding distributed under the Act two restrictions regarding sex work.
The first provision (the “government funds restriction”)
prohibits funds made available under the Act from being
spent on activities that “promote or advocate the legalization or practice of prostitution and sex trafficking,”
although it allows for the provision of health care to a
sex worker. 22 U.S.C. § 7631(e).

167
41. Plaintiffs do not challenge either the government funds restriction or Defendants’ implementation
of it.
42. The second restriction (the “policy requirement”) provides, in pertinent part, that “no funds made
available to carry out this Act . . . may be used to
provide assistance to any group or organization that
does not have a policy explicitly opposing prostitution
and sex trafficking.” 22 U.S.C. § 7631(f ). The Act
does not define “opposing prostitution.”
43. During legislative debate on the scope of the policy requirement prior to passage of the Global AIDS
Act, Senate Majority Leader Bill Frist stated that “a
statement in the contract or grant agreement between
the U.S. Government and such organization that the organization is opposed to the practices of prostitution and
sex trafficking because of the psychological and physical
risks they pose for women . . . would satisfy the intent of the provision.” 149 Cong. Rec. S6457 (daily ed.
May 15, 2003) (statement of Sen. Frist).
44. While plaintiffs believe it is unconstitutional for
the government to force them to adopt a policy position
in order to qualify for Global AIDS Act funds, they do
not challenge either the requirement that they have a
“policy explicitly opposing . . . sex trafficking,” or
the Defendants’ implementation of that requirement.
V. USAID’S IMPLEMENTATION
OF THE POLICY REQUIREMENT

45. From February 2004 until June 2005, Defendant
USAID did not apply the policy requirement to US
NGOs on the advice of the federal Department of Justice
(“DOJ”), which had issued a draft opinion stating that

168
enforcement of the policy requirement against organizations based in the United States would be unconstitutional.
46. Then, in a letter dated September 20, 2004, the
DOJ’s Office of Legal Counsel withdrew its earlier draft
opinion that had declared enforcement of the policy requirement against US NGOs to be unconstitutional, and
stated that “there are reasonable arguments to support
[the] constitutionality” of the requirement.
47. USAID, in turn, began applying the policy requirement to US NGOs. USAID did this by issuing a
policy directive requiring grantees to have in place “a
policy explicitly opposing . . . prostitution and sex
trafficking.” See USAID Acquisition & Assistance Policy Directive 05-04 (June 9, 2005). Neither in this policy directive, nor in any other written document, does
USAID either define “explicitly opposing prostitution”
or provide clear guidance on what privately funded activities are permissible and impermissible under the policy requirement.
VI.

CDC AND HHS IMPLEMENTATION
OF THE POLICY REQUIREMENT

48. Until May 2005, Defendants HHS and CDC did
not apply the policy requirement to US NGOs. Instead, HHS and CDC required that “any foreign recipient” that received funding under the Global AIDS Act
have “a policy explicitly opposing, in its activities outside the United States, prostitution and sex trafficking.”
See, e.g., Implementation of Prevention of Mother to
Child Transmission Services in Kenya, 69 Fed. Reg.
35360, 35363 (June 24, 2004).

169
49. Beginning on or about May 2005, HHS and CDC
began applying the policy requirement to US NGOs.
They required that “any recipient” of funds under the
Global AIDS Act must have “a policy explicitly opposing
prostitution and sex trafficking.” See, e.g., Expansion
and Support of HIV/AIDS/STI/TB Information, Education, Communication and Behavioral Change Communication Activities in Ethiopia-Amendment, 70 Fed. Reg.
29759, 29759-29760 (May 24, 2005).
50. HHS and CDC have not defined the term “explicitly opposing prostitution” nor have they issued
guidance to the public explaining which types of activities are permissible and impermissible under this restriction.
51. HHS and CDC have required all recipients of
Global AIDS Act funding to “agree that HHS may, at
any reasonable time, inspect the documents and materials maintained or prepared by the recipient in the usual
course of its operations that relate to the organization’s
compliance [with the policy requirement].” See, e.g., Expansion and Support of HIV/AIDS/STI/TB Information,
Education, Communication and Behavioral Change Communication Activities in Ethiopia-Amendment, 70 Fed.
Reg. 29759, 29759-29760 (May 24, 2005).
VII. BROAD CONSTUCTIONS PLACED
ON THE POLICY REQUIREMENT

52. USAID officials and others have placed a number of broad interpretations on the policy requirement.
These interpretations all indicate how broadly observers can construe the policy requirement in the absence
of any guidance from USAID.

170
53. In a meeting with AOSI and OSI personnel in
April 2005, Kent Hill, the acting assistant administrator
for global health of Defendant USAID, articulated several broad, but vague, interpretations of the policy requirement, although he emphasized that he could not
provide official guidance on the policy. First, he stated
that he believed the policy requirement bars grantees
from advocating legalization of sex work, and might bar
advocating for too great a reduction in penalties for sex
work, or helping to unionize sex workers.
54. Second; he stated that he thought organizing sex
workers to prevent police from brutalizing them might
violate the requirement if USAID decided that the work
was merely a front for advocating the legalization of sex
work.
55. Third, he stated that he believed even if a group
adopted a policy statement that was compliant on its
face, that organization could be found to be in violation
of the policy requirement if USAID concluded that the
organization truly felt sex work should be legalized and
that the totality of statements made that clear.
56. In a subsequent fax from the Mission Director of
the USAID Mission to the Central Asia Republics
to Plaintiff AOSI, USAID repeated part of Hill’s interpretation. The October 7, 2005, fax stated that two
activities—“advocating for the legalization of the institution of prostitution” and “organizing or unionizing
prostitutes for the purposes of advocating for the legalization of prostitution, as distinct from organizing for
the purposes of deterring human rights abuses and addressing public health issues”—would indicate that an
organization “does not explicitly oppose prostitution.”

171
USAID has refused to confirm that these two activities
are the only activities barred by the policy requirement.
57. Even before USAID started applying the policy
requirement to Plaintiff AOSI, staff at the Central Asia
Republics mission of Defendant USAID cautioned AOSI
not to use the term “sex worker” in publicly available
documents because that might connote acceptance of
sex work. Plaintiffs do not know whether USAID will
construe all public use of the term “sex worker” as violating the policy requirement.
58. Senator Tom Coburn has construed the policy
requirement as barring Global AIDS Act grantees from
running a program providing educational materials and
health and safety training for sex workers. On May 19,
2005 he demanded that President Bush investigate
USAID grantee and GHC member Population Services
International for engaging in such activities. Sen. Coburn does not charge that the grantee promoted changes
in the legal status of sex work. Rather, his complaint
seems to be that the grantee uses non-traditional teaching methods to educate sex workers about HIV transmission. On information and belief, Defendant USAID
is delaying renewed funding of this program as a result
of Sen. Coburn’s complaint.
59. In still another far-reaching interpretation of
the policy requirement, on July 15, 2005, 28 members of
Congress wrote to Defendant USAID charging that an
HIV prevention project carried out by USAID grantee
CARE, an InterAction and GHC member, violates the
policy requirement because it has “a rights-based” approach to sex work, which the members of Congress interpret as advocating “the legalization of prostitution

172
and its cultural acceptance as a legitimate form of employment.” On information and belief, USAID has not
yet responded to this allegation.
60. Likewise, some members of Congress have
asserted that a debate program for high school and
university students run by the Soros Foundation Kazakhstan, which received USAID civic education funding, promoted the legalization of sex work. Defendant
USAID found this assertion to be unfounded.
61. In another Congressional interpretation of the
policy requirement, on December 7, 2005 Representative Mark Souder wrote a letter to the Hon. Andrew
Natsios, the then­Administrator of USAID, accusing
CARE, a member of both GHC and InterAction, of violating the policy requirement by using private funds to
support a tuberculosis prevention program run through
an Indian sex worker organization called the Durbar
Mahila Samanwaya Committee (“DMSC”). Representative Souder accused CARE of violating the policy requirement by working with and providing private funding to DMSC, which he stated advocates for the decriminalization of adult prostitution.
62. In June 2006, USAID officers contacted CARE’s
senior managers in India and Bangladesh to inquire
about CARE’s relationship with DMSC, which only receives private funds from CARE and is not connected
with CARE’s USAID- or CDC-funded HIV/AIDS work.
63. Upon information and belief, Defendants HHS
and CDC have made no effort to limit or define the scope
of the policy requirement.

173
VIII.

THE INTERIM GUIDELINES

64. In July 2007, Defendants USAID and HHS issued new guidelines purporting to allow recipients of
Global AIDS Act funding to use private funds to engage
in activities prohibited by the policy requirement, so
long as the recipients maintained sufficient separation
between those activities and activities funded by the
Global AIDS Act. USAID’s guidelines are contained in
Acquisition and Assistance Policy Directive 05-04,
Amendment 1 (July 23, 2007). HHS’s guidelines are
contained in a document entitled, Guidance Regarding
Section 301(f ) of the United States Leadership Against
HIV/AIDS, Tuberculosis and Malaria Act of 2003,
72 Fed. Reg. 41,076 (July 26, 2007).
65. The Interim Guidelines continue to require recipients of Global AIDS Act funds to adopt policies explicitly opposing prostitution.
66. The Interim Guidelines require recipients of cooperative agreements to “have objective integrity and
independence from any affiliated organization that engages in activities inconsistent with a policy opposing
prostitution and sex-trafficking (‘restricted activities’).”
According to the guidelines, a recipient will satisfy this
test if ” (1) The affiliated organization is a legally separate entity; (2) The affiliated organization receives no
transfer of Leadership Act funds, and Leadership Act
funds do not subsidize restricted activities; and (3) The
Recipient is physically and financially separate from the
affiliated organization.”
67. The Interim Guidelines do not provide clear
guidance regarding how a grantee can ensure that it is

174
physically and financially separate enough from an affiliate that engages in “restricted activities.” Rather,
they list five non-exclusive factors, warning that the
agencies “will determine, on a case-by-case basis and
based on the totality of the facts, whether sufficient
physical and financial separation exists. The presence
or absence of any one or more factors will not be determinative.”
68. The five factors that may be considered in determining physical and financial separation are: “(i) The
existence of separate personnel, management, and governance; (ii) The existence of separate accounts, accounting records, and timekeeping records; (iii) The degree of
separation from facilities, equipment and supplies used
by the affiliated organization to conduct restricted activities, and the extent of such restricted activities by the
affiliate; (iv) The extent to which signs and other forms
of identification which distinguish the Recipient from
the affiliated organization are present, and signs and
materials that could be associated with the affiliated organization or restricted activities are absent; and (v)
The extent to which USAID, the U.S. Government and
the project name are protected from public association
with the affiliated organization and its restricted activities in materials such as publications, conferences and
press or public statements.”
69. The July 2007 USAID and HHS guidelines were
issued without either notice or an opportunity for the
public to provide comments. Upon information and belief, Defendant HHS intends to begin a notice and comment process by April 2008.

175
IX. HOW THE POLICY REQUIREMENT AND
INTERIM GUIDELINES AFFECT THE PLAINTIFFS
The Effect of the Policy Requirement
on Plaintiffs AOSI and OSI

70. Plaintiffs AOSI and OSI are opposed to the
harms that sex work inflicts both on the individuals directly involved and to others in various ways.
71. Nonetheless, the policy requirement detrimentally affects Plaintiff AOSI and the clients it serves in
several ways. If Defendant USAID construes the policy requirement as covering Plaintiff OSI, then the policy requirement detrimentally affects OSI too.
72. Both AOSI and OSI have, as their principles of
governance, an adherence to the principles of an open
society, including opposition to adopting any policy positions that would lead to the stigmatization of socially
marginalized groups. Adopting a policy opposing sex
work violates this principle.
73. In addition to requiring USAID grantees and
contractors to adopt a policy, the policy requirement appears to also require USAID grantees and contractors,
including Plaintiff AOSI, to conform their activities to
the policy. The policy requirement applies both to activities conducted with government funding and to activities conducted with funding that comes from other
sources.
74. Consequently, the policy requirement places a
blanket ban on the use of the private, non-governmental
funds possessed by Plaintiff AOSI to do work that Defendant USAID construes as being insufficiently opposed to sex work.

176
75. Plaintiffs do not know whether USAID also construes the policy requirement as requiring Plaintiff OSI
to conform its activities—including its privately funded
activities—to any policy opposing sex work that AOSI
may adopt. On at least one occasion, USAID has indicated that it views OSI as a “partner” in AOSI’s USAIDfunded work.
76. AOSI and OSI engage in a significant amount of
privately funded activity that could be barred by the policy requirement. Both are at the forefront of efforts to
reduce the spread of HIV/AIDS by working with people
who are at particularly high risk of contracting HIV/AIDS
and passing it on to others.
77. In many regions, when the HIV/AIDS epidemic
begins it is concentrated in small populations of people,
including sex workers, drug users, and others. When
public health officials are able to focus their efforts on
those populations, they can stop the epidemic before it
spreads to the rest of the population.
78. In order to stop the epidemic among sex workers
it is necessary to approach sex workers and other people
at high risk of becoming infected with HIV in a nonjudgmental manner, in order to establish a trusting relationship with them and engage them in needed HIV
prevention efforts.
79. Efforts recognized as highly successful in fighting
the spread of HIV/AIDS have involved organizing, sex
workers, or working cooperatively with sex worker organizations.
80. In some regions, advocating for a change in the
legal regime surrounding sex work has been an essential
part of fighting the HIV/AIDS epidemic, because when

177
sex workers are subject to high fines, arrest, or violence,
they go underground, avoiding doctors, outreach workers, and others who want to provide them with the education, condoms, and other tools they need to avoid becoming infected and infecting others.
81. As discussed above, Plaintiffs do not know how
broadly USAID construes the policy requirement.
However, if USAID construes the policy requirement
broadly to bar advocating changes in the legal treatment
of sex workers; promoting community organizing among
sex workers; or working with, or talking about, sex
workers in a non-judgmental fashion, then advocacy of
the most successful tactics in the fight against HIV/
AIDS may well be forbidden.
82. For this reason, the government of Brazil, and a
number of highly respected US NGOs and foreign NGOs,
have turned down USAID funding since implementation
of the policy requirement. Other NGOs operating under the policy requirement have documented the ways
in which the requirement is impeding their efforts to
fight HIV/AIDS.
83. Plaintiffs AOSI and OSI are committed to using
their private funding to facilitate discussion among public health experts, doctors, social service providers, advocates, government officials, and others regarding the
most effective ways to fight the spread of the epidemic
in the populations at the highest risk for contracting
HIV/AIDS.
84. For example, OSI’s Sexual Health and Rights
Program attempts to foster debate regarding policies
designed to improve the sexual health and rights of socially marginalized populations, including sex workers,

178
and to encourage the adoption and implementation of
the most effective policies. It would be difficult for OSI
to advocate for a free debate regarding policies to improve sexual health if it had to stigmatize sex workers.
85. Likewise, a broad implementation of the policy
requirement could prevent OSI from continuing to promote a publication it has funded, titled Sex Work,
HIV/AIDS, and Human Rights in Central and Eastern
Europe and Central Asia, which recommends that sex
work be decriminalized as a means of protecting sex
workers from abuse by law enforcement personnel, traffickers, and pimps, thus making it easier for sex workers
to access the health and social services they require in
order to remain healthy and informed. OSI does not
itself take any position regarding the contents of the report, or regarding the desirability of changes in the legal
status of sex work. However, it did provide funding
and technical assistance for the Central and Eastern
European Harm Reduction Network, which wrote the
report, and it desires to continue assisting the Network
in distributing the report.
86. AOSI and OSI conduct many other activities potentially affected by a broad implementation of the policy requirement. These include:
a) co-sponsoring conferences in their New York offices, including an October 14, 2005 conference entitled, “Sex Work, Sexual Rights and Countering the
Conservative Sexual Agenda,” and a follow-up conference on September 19, 2006 entitled “Sex Work
and Human Rights: Promoting Rights-Based Perspectives on Sex Work.” The goal of these conferences is to bring together members of different advo-

179
cacy and service delivery communities—such as domestic and international groups, and groups working
with sex workers and victims of trafficking—to discuss key policy issues. Among the topics of discussion the legal status of sex work;
b) operating a listserv that provides a forum for
participants to share information, opinions, and resources related to the health, safety and well-being of
sex workers in Eastern Europe and the former Soviet Union. Participants post content regarding
best practices, service gaps, model legislation, advocacy strategies, and new initiatives; and
c) providing funding and technical assistance to a
number of other non-profit organizations working with
sex workers to fight the spread of HIV/AIDS. Several of these groups are studying the circumstances
in which sex workers work and developing policy recommendations. It is essential that these groups remain free to advocate for the most effective policies,
including—where appropriate—changes in the legal
treatment of sex workers in order to facilitate outreach to them and ensure their access to needed health
care and social services.
87. There exists a serious risk that AOSI and OSI
will be subject to intrusive and unwarranted governmental investigations regarding whether AOSI and OSI
are engaged in activities that the investigators construe
as insufficiently opposed to sex work.
88. Plaintiffs AOSI and OSI find the policy requirement to be vague and confusing. They do not know which
of their current or future activities Defendant USAID
will construe as running afoul of the policy requirement.

180
89. Under Acquisition & Assistance Policy Directive
05-04, if a recipient violates the policy requirement,
USAID will unilaterally terminate the funding agreement or contract.
90. Were Defendant USAID to find Plaintiffs AOSI
or OSI out of compliance with the policy requirement
and unilaterally terminate Plaintiff AOSI’s grant, AOSI’s
clients would suffer.
91. Were Defendant USAID to find Plaintiffs AOSI
or OSI out of compliance with the policy requirement, a
danger exists that civil or criminal penalties would be
imposed on Plaintiff AOSI for falsely certifying compliance with the requirement.
AOSI’s Decision to Sign the Pledge

92. AOSI is operating a highly successful, five-year
Drug Demand Reduction Program aimed at reducing
the use of heroin and other injectable opiates, and stopping the spread of HIV/AIDS, in a region of Central
Asia where drug use is rising as a result of rampant drug
trafficking and is fueling the spread of HIV/AIDS.
93. AOSI operates this program primarily with a
$16,507,402 five-year grant from Defendant USAID.
AOSI contributes some of its non-government funding,
and OSI contributes funding, technical assistance, and
administrative support.
94. OSI is not a party to, and has no legal obligations
under, the Cooperative Agreement with USAID establishing the Drug Demand Reduction Program.
95. Since USAID began implementing its policy requirement, the Plaintiffs have been torn between their
desire to continue this successful, life-saving work, and

181
their desire to avoid adopting an ideologically driven
government policy that will hurt their ability to do their
life-saving work with their own funding.
96. In the spring of 2004, when AOSI’s Drug Demand Reduction Program subgrantees based outside of
the United States were required to comply with the policy requirement, AOSI adopted the following statement:
AOSI and the Soros Foundations in Tajikistan and
Kyrgyzstan believe that trafficking and sex work do
harm both to the individuals directly involved and to
others in various ways. AOSI and the Soros Foundations in Tajikistan and Kyrgyzstan do not promote
or advocate such activities. Rather, our approach is
to try to reduce the harms caused by disseminating
credible information on questions such as the prevention of disease, and by providing direct public health
assistance to vulnerable populations. . . .
97. AOSI then wrote to USAID, asking whether this
policy statement satisfied the version of the policy requirement then in effect. USAID responded twice, both
times failing to indicate whether the policy was compliant. In the second response, however, USAID warned
AOSI that any failure to comply would be subject to investigation by USAID’s Inspector General.
98. In July 2005, after USAID imposed the policy
requirement on US NGOs, AOSI again wrote to USAID,
asking whether the policy statement AOSI had adopted
in the spring of 2004 satisfied the policy requirement, and
also whether USAID would take OSI’s activities into account in determining whether AOSI is in compliance.

182
99. After receiving that letter, USAID held up releasing the latest installment of funds for the Drug Demand Reduction Program for six weeks, throwing the
work of the Drug Demand Reduction Program into disarray.
100. AOSI finally received a response from USAID
on August 2, 2005, stating yet again that it could not provide any guidance regarding whether AOSI’s policy satisfies the policy requirement but that AOSI would be
subject to sanctions if it failed to comply.
101. The next day, USAID sent a grant agreement
to AOSI, obligating USAID to fund an additional
$542,300 for the Drug Demand Reduction Program, but
only if AOSI certified its compliance with USAID’s policy requirement.
In order to restart the flow of
USAID funding, and to avoid the harm that clients
would suffer if additional components of the Drug Demand Reduction Program were forced to shut down,
AOSI decided to sign the certification. It did so after
carefully reviewing its own policy and the language of
the policy requirement, and assuring itself that, according to its interpretation of the requirement, it was in
compliance.
102. On August 3, 2005, AOSI sent the signed grant
agreement to USAID, along with a cover letter reciting
the required pledge. In that letter, AOSI stated its belief that the policy it had implemented in the spring of
2004 complies with the policy requirement and that
OSI’s actions have no bearing on AOSI’s compliance or
noncompliance with the requirement. Additionally,
AOSI reserved its rights “to challenge the policy requirement as violative of the First Amendment and

183
other law.” USAID issued an agreement obligating itself to provide enough funding to AOSI to enable the
Drug Demand Reduction Program to operate through
the middle of 2006.
In subsequent agreements,
USAID obligated itself to provide continued funding for
the program.
The Effect of the Policy Requirement
on Plaintiff Pathfinder

103. In order to be eligible to continue receiving U.S.
government funds for HIV/AIDS work, Pathfinder
adopted the following policy in July 2005:
In order to be eligible for federal funding for
HIV/AIDS, Pathfinder opposes prostitution and sex
trafficking because of the harm they cause primarily
to women. Pathfinder’s HIV/AIDS programs seek
to promote effective ways to prevent the transmission of HIV/AIDS and to reduce the suffering caused
by HIV/AIDS. In order to achieve these goals, Pathfinder works with, and provides assistance and support to and for, many vulnerable groups, including
women who are commercial sex workers, who, if not
effectively reached by HIV/AIDS programs, will suffer and can become drivers of the HIV/AIDS epidemic.
104. Pathfinder adopted this policy solely in order to
remain eligible to receive U.S. government funding to
provide desperately needed HIV/AIDS prevention and
care work around the world. Pathfinder was required
to adopt the policy as a condition of receiving funds to
continue its U.S. government-funded work to provide
health services in Mozambique, Peru, Kenya, Tanzania,
Botswana, Nigeria and elsewhere.

184
105. The policy requirement detrimentally affects
Plaintiff Pathfinder and the clients it serves in several
ways.
106. First, Pathfinder has been forced to stake out a
policy position on an issue on which it wished to remain
neutral at this time. Were it not for the mandate in the
Global AIDS Act, Pathfinder would not have adopted
the above policy. As an international relief organization operating in multiple countries, each with their own
set of laws and cultures, Pathfinder is mindful of the
need to refrain from taking policy positions without
careful study and deliberation. With the exception of
the anti-prostitution policy it adopted to comply with the
policy requirement, its policy positions have been
formed only after deeply studying the issue, primarily
by examining its own experience promoting access to
health care in the developing world.
107. Second, Pathfinder has been forced to adopt a
policy to comply with a provision that is vague and confusing. Pathfinder believes it is in compliance with the
policy requirement. However, given the lack of guidance from USAID, HHS and CDC as to the requirement’s meaning, in the absence of an injunction against
operation of the policy requirement it will have to operate in constant fear that defendants USAID, HHS and
CDC will apply an overly broad interpretation of the
policy requirement to its activities and find it out of compliance with the policy requirement.
108. Third, Pathfinder engages in a significant amount
of privately funded activity that could be barred by an
overly broad construction of the policy requirement’s
blanket ban on the use of the private, non-U.S. government funds possessed by Plaintiff Pathfinder to do work

185
that Defendants construe as being insufficiently opposed
to sex work. Pathfinder firmly believes that it is complying with the policy requirement, but it does not know
whether defendants USAID, HHS, and CDC agree.
109. Much of Pathfinder’s HIV/AIDS prevention
work is aimed at vulnerable populations, including
sex workers. Pathfinder currently runs programs in
Mozambique, India and Brazil to prevent the spread of
HIV among sex workers and has in the past run similar
programs in Nigeria. Key to these programs are efforts to organize sex workers and to work cooperatively
with existing organizations composed of individuals involved in sex work to promote the health, human rights
and well-being of sex workers.
110. As is common among most international relief
organizations, Pathfinder works with local groups to
identify their needs and priorities. Pathfinder seeks to
assist local groups, including organizations composed of
sex workers, in achieving the goals they have identified
within the international framework of their right to
health.
111. For example, Pathfinder’s privately funded
“Mukta” program in India seeks to organize sex workers so that they will collectively agree to engage in HIV
prevention methods, such as using condoms. While
Pathfinder believes that its organizing of sex workers in
India complies with the policy requirement, it fears that
defendants USAID, HHS, and CDC may construe the
policy requirement in an overly broad manner and subject Pathfinder to penalties should sex worker organizations it has fostered or cooperated with then pursue
goals that Defendants view as being inconsistent with
opposition to prostitution.

186
112. Pathfinder’s Mukta program also conducts outreach to brothel owners and pimps in an attempt to foster safer sex practices. While Pathfinder conducts this
work for the purpose of promoting HIV prevention and
assisting the women in the brothels, it also must, at
times, secure the trust of brothel owners in order to gain
access to the women it is trying to help. Although
Pathfinder believes that this outreach does not violate
the policy requirement as set forth in the Global AIDS
Act, it fears that defendants USAID, HHS and CDC
might view this outreach as being insufficiently “opposed to prostitution.”
113. Similarly, Pathfinder employee Dr. Carlos
Laudari has previously worked with community organizations in Brazil that, as part of their efforts to limit exploitation of sex workers, have sought to change laws
and regulations surrounding commercial sex work so
that they do not serve as a pretext for brothel owners,
corrupt police and others to abuse sex workers.
114. Fourth, Pathfinder engages in a variety of
speech in the United States that it could be forced to
censor as a result of the policy requirement.
115. For example, Pathfinder has an active, privately funded advocacy program within the United
States that could be forced to censor itself as a result of
the policy requirement. Part of Pathfinder’s mission is
to improve the U.S. policy environment for international
family planning and reproductive health programs.
Pathfinder accomplishes this by educating U.S. policymakers and the general public about conditions facing
women and their families in developing countries and
the impact U.S. policies have on the effectiveness of fam-

187
ily planning and HIV/AIDS service delivery. Pathfinder now must ensure that any advocacy it undertakes
conforms to the policy requirement.
116. The policy requirement also affects Pathfinder’s ability to publish in the U.S.—on its website and
elsewhere—the results of the HIV/AIDS research it
conducts and the HIV/AIDS training material it creates.
117. Likewise, the policy requirement limits Pathfinder’s ability to describe its current and past work
overseas to potential donors and others in the U.S.
The Effect of the Policy Requirement on Plaintiff
InterAction and Global Health Council and Their Members

118. The policy requirement harms Plaintiffs InterAction, GHC, and their members in several ways.
119. First, the policy requirement forces U.S.-based
InterAction and GHC members, which generally prize
their independence from the government, to become a
mouthpiece for the U.S. government’s position on a
particular social issue, even when speaking with their
private funds. For these members, the adoption of a
government-mandated, organization-wide policy on this
or any issue violates dearly held principles of independence that are fundamental to their operation as nongovernmental organizations.
120. Second, the policy requirement forces InterAction and GHC members to make a policy statement on
an issue on which many wish to remain neutral. Many
members believe that prostitution causes serious health,
psychological, and physical risks for women, and they
work to address those risks and assist women in finding
alternatives. However, these members also believe

188
that by forcing them to explicitly oppose prostitution,
the policy requirement stigmatizes one of the very
groups whose trust they must earn to conduct effective
HIV/AIDS prevention and forces them to approach
those engaged in prostitution in what will be perceived
as a judgmental manner.
121. Third, the policy requirement restricts the ability of U.S.-based InterAction and GHC members to use
non-U.S. government funds to do work that Defendants
construe as being insufficiently opposed to prostitution.
For example, the policy requirement threatens the privately funded HIV/AIDS prevention work of U.S.-based
InterAction and GHC member CARE with sex worker
organizations and networks in India and Bangladesh.
Similarly, IntraHealth, a U.S.-based GHC member, has
been forced to refrain from developing new, privately
funded initiatives to remove barriers to health care for
sex workers for fear that such projects could risk defunding of their USAID- and CDC-funded projects.
122. Fourth, the policy requirement has caused massive confusion among U.S.-based InterAction and GHC
members over what constitutes compliance with the requirement. Many of these members are unsure of what
activities and speech they may and may not engage in
with private funds. Members have received a wide variety of responses by organizations and by USAID officials to the policy requirement.
123. Fifth, the policy requirement chills and precludes the policy debate essential to the functioning of
GHC and InterAction as professional associations that
depends on the free flow of evidence and opinion among
their members to carry out their respective missions of

189
promoting public health and promoting sound international development and humanitarian policy. The Policy Requirement precludes members of GHC and InterAction from freely discussing and sharing the lessons of
their HIV prevention work with sex workers at meetings convened by and in publications issued by GHC and
InterAction.
X.

THE EFFECT OF THE INTERIM GUIDELINES

124. The guidelines issued by Defendants USAID
and HHS in July 2007 only exacerbate the problems associated with the policy requirement. They do not answer any of the most basic questions about what Plaintiffs can and cannot say with their private funds and
they make the creation of an affiliate prohibitively burdensome.
A.

Vagueness

125. The guidelines have only increased Plaintiffs’
uncertainty about the speech and activities in which
they are permitted to engage under the policy requirement. Significantly, the guidelines offer no guidance
about which activities Plaintiffs and the members of
GHC and InterAction must conduct through a separate
entity.
126. Moreover, although the guidelines require that
Plaintiffs and the members of GHC and InterAction be
“physically and financially separate from the affiliated
organizations,” they do not provide clear guidance regarding how Plaintiffs can ensure that they are physically and financially separate enough.

190
B.

The Burdens of Creating a Legally Separate Entity

127. The guidelines place a prohibitive burden on the
ability of Plaintiffs and the members of GHC and InterAction to set up an affiliate that can use private funds to
engage in activities otherwise barred by the policy requirement.
128. By requiring the affiliate to be “a legally separate entity,” the Interim Guidelines would force Plaintiffs and the members of GHC and InterAction to register the affiliate in each of the countries in which they
operate. Obtaining approvals from multiple governments to run a second, affiliated organization would be
extraordinarily difficult, expensive, and time­consuming,
and, in some countries, it would be virtually impossible.
129. Additionally, Plaintiffs and the members of
GHC and InterAction will face difficulties securing visas
for American or other foreign employees of the new entity.
130. The guidelines’ requirement of separate management and governance will prevent Plaintiffs and the
members of GHC and InterAction from speaking through
any affiliate.
131. The Plaintiffs and members of GHC and InterAction will incur significant expenses of paying for new
and separate office space, local staff, foreign staff, necessary vehicles (including customs and tax costs as well
as vehicle costs), office equipment, security, telephone
and Internet access, and other services.
132. The Plaintiffs and members of GHC and InterAction will face problems opening new bank accounts in

191
many countries. Banks may require evidence of registration with and approval by the government, and national laws or regulations may limit the number of bank
accounts or even prohibit multiple accounts per organization, per donor, or per project. Plaintiffs and the
members of GHC and InterAction are also likely to face
tax burdens.
133. Plaintiffs and the members of GHC and InterAction will also face, as a consequence of complying the
guidelines, substantial risk of significantly enhanced
suspicion by government, security, intelligence and police authorities in countries concerned that new and separate affiliates are being created in order to evade tax,
customs, or other government regulations.
134. The guidelines will also make it more difficult
for Plaintiffs and the members of GHC and InterAction
to raise funds for two reasons. First, in a highly competitive fundraising environment, the newly-formed
separate affiliates would have no track record of accomplishment, which potential donors use to decide where
to allocate their charitable funds. Second, the increased administrative costs incurred from dividing the
work that a member does in dozens of countries into new
and separate affiliates would likely downgrade a member’s ranking by independent certification organizations
that rank charitable organizations, because those rankings are often largely predicated on how small a percentage of an organization’s budget goes into overhead.
XI.

CAUSES OF ACTION

135. The policy requirement contained in the Global
AIDS Act, 22 U.S.C. § 7631(f ); Acquisition & Assistance
Policy Directive 05-04; and as effectuated by CDC and

192
HHS, and the Interim Guidelines issued thereunder, are
unconstitutionally vague, in violation of the First Amendment and the Due Process Clause of the Fifth Amendment to the United States Constitution.
136. The policy requirement contained in the Global
AIDS Act, 22 U.S.C. § 7631(f ); Acquisition & Assistance
Policy Directive 05-04; and as effectuated by CDC and
HHS, and the Interim Guidelines issued thereunder, violate the rights of Plaintiffs under the First Amendment
to the United States Constitution by forcing them to
adopt an entity-wide policy opposing prostitution in exchange for the receipt of government funds.
137. The policy requirement contained in the Global
AIDS Act, 22 U.S.C. § 7631(f ); Acquisition & Assistance
Policy Directive 05-04, and as effectuated by CDC and
HHS, and the Interim Guidelines issued thereunder, violate the rights of Plaintiffs under the First Amendment
to the United States Constitution by imposing the policy
requirement on the funding that the Plaintiffs receive
from sources other than the U.S. government.
138. Any application by Defendants of the antiprostitution policy requirement contained in the Global
AIDS Act, 22 U.S.C. § 7631(f ), to require a policy statement broader than the policy statement that plaintiff
AOSI implemented in the spring of 2004 and plaintiff
Pathfinder International adopted in the summer of 2005
is not in accordance with the Global AIDS Act and
should be held unlawful pursuant to the Administrative
Procedures Act, 5 U.S.C. §§ 702, 706(2)(A).
139. Any application by Defendants of the antiprostitution policy requirement contained in the Global
AIDS Act, 22 U.S.C. § 7631(f ), to bar the Plaintiffs from

193
engaging in particular activities because they are perceived as being insufficiently opposed to sex work is not
in accordance with the Global AIDS Act and should be
held unlawful pursuant to the Administrative Procedures Act, 5 U.S.C. §§ 702, 706(2)(A).
WHEREFORE, Plaintiffs respectfully request the
Court to:
(1) declare that USAID’s application to Plaintiffs
AOSI and Pathfinder, the U.S.-based members of Plaintiffs InterAction and GHC, and other US NGOs of the
policy requirement contained in Acquisition & Assistance Policy Directive 05-04 and Interim Guidelines violate the First and Fifth Amendments to the United
States Constitution;
(2) declare that the application by HHS and CDC to
Plaintiff Pathfinder, the U.S.-based members of Plaintiffs InterAction and GHC, and other U.S.-based organizations of the policy requirement and Interim Guidelines violates the First and Fifth Amendments to the
United States Constitution;
(3) grant appropriate preliminary, and final, equitable relief
(a) barring Defendants from enforcing the Policy Requirement against Plaintiffs AOSI and Pathfinder
and the U.S.-based members of Plaintiffs InterAction
and GHC, and

(b) barring USAID, HHS and CDC from enforcing the policy requirement against any U.S.-based
organization; and

194
(4) grant such other and further relief as the Court
shall deem proper, including the award of reasonable attorneys’ fees and costs.
Dated: New York, New York
Feb. 8, 2008
/s/ REBEKAH DILLER
Rebekah Diller (RD 7791)
Laura K. Abel (LA 6831)
David S. Udell (DU 4762)
BRENNAN CENTER FOR JUSTICE
AT NYU SCHOOL OF LAW
161 Avenue of the Americas,
12th Floor
New York, NY 10013
(212) 992-8635
Richard A. Johnston*
Wilmer Cutler Pickering Hale and Dorr LLP
60 State Street
Boston, MA 02109
(617) 526-6000
David W. Bowker (DB 3029)
Wilmer Cutler Pickering Hale and Dorr LLP
399 Park Avenue
New York, NY 10022
(212) 230-8800
Attorneys for Plaintiffs
* admitted pro hac vice

195
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

Civil Action No. 05-CV-8209 (VM) (DF)
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.,
OPEN SOCIETY INSTITUTE, PATHFINDER
INTERNATIONAL, GLOBAL HEALTH COUNCIL,
AND INTERACTION, PLAINTIFFS
v.
UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT AND HENRIETTA FORE, IN HER OFFICIAL
CAPACITY AS ADMINISTRATOR OF THE UNITED STATES
AGENCY FOR INTERNATIONAL DEVELOPMENT,
AND HER SUCCESSORS;
UNITED STATES DEPARTMENT OF HEALTH AND
HUMAN SERVICES AND MICHAEL O. LEAVITT, IN HIS
OFFICIAL CAPACITY AS SECRETARY OF THE U.S.
DEPARTMENT OF HEALTH AND HUMAN SERVICES,
AND HIS SUCCESSORS; AND
UNITED STATES CENTERS FOR DISEASE CONTROL
AND PREVENTION AND JULIE LOUISE GERBERDING,
IN HER OFFICIAL CAPACITY AS DIRECTOR OF THE U.S.
CENTERS FOR DISEASE CONTROL AND PREVENTION,
AND HER SUCCESSORS; DEFENDANTS
Filed: Aug. 18, 2008
CERTIFICATE OF SERVICE

I, Christopher Carrion, certify that on August 18,
2008, I caused to be served, via hand delivery, one copy
of Second Amended Complaint upon:

196
Benjamin H. Torrance
Assistant United States Attorney
Office of the United States Attorney for the Southern
District of New York
86 Chambers Street,
New York, NY 10007
Attorney for Defendants
Dated:

Aug. 18, 2008
/s/

CHRISTOPHER CARRION
CHRISTOPHER CARRION

197
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

No. 05-CV-8209 (VM)(DF)
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.;
OPEN SOCIETY INSTITUTE, AND PATHFINDER
INTERNATIONAL, PLAINTIFFS
v.
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, ET AL., DEFENDANTS
DECLARATION OF HELENE GAYLE

I, Helene Gayle, hereby declare as follows:
1) I am President and Chief Executive Officer of
Cooperative for Assistance and Relief Everywhere, Inc.
(“CARE”).
2) I submit this declaration in support of both
Plaintiffs’ motion seeking leave to amend the Complaint
and the motion of InterAction and the Global Health
Council for a preliminary injunction.
CARE Mission and Work

3) CARE is a non-profit cooperative association incorporated as the Cooperative for Assistance and Relief
Everywhere, Inc. under the laws of the District of Columbia. It enjoys tax-exempt status under section
501(c)(3) of the Internal Revenue Code. Its primary
office is located at 151 Ellis Street, NE, Atlanta, Georgia 30303. CARE also has an office at 32 West 39th
Street, 3rd Floor, New York, New York 10018 where it

198
raised over five million dollars in private funding last
year. CARE is a member of CARE International
(“CI”), a federation of 12 other CARE nonprofit members incorporated separately in Australia, Austria, Belgium, Canada, Denmark, France, Germany, Japan, the
Netherlands, Norway, Thailand and the United Kingdom.
4) CARE is a member of InterAction, a network of
U.S.-based humanitarian organizations. Membership
in InterAction enables CARE to advance its mission and
goals through collaboration and advocacy with other organizations that also seek to eliminate poverty and improve the quality of life for people in developing countries. CARE is also a member of the Global Health
Council, through which it advances its interest in the
promotion of sound international public health policy
and practice.
5) Founded in 1945, CARE is one of the world’s
largest private international humanitarian organizations, committed to helping families in poor communities
improve their lives and achieve lasting victories over
poverty by promoting innovative solutions and advocating global responsibility.
CARE facilitates lasting
change by:
•

Strengthening capacity for self-help

•

Providing economic opportunity

•

Delivering relief in emergencies

•

Influencing policy decisions at all levels

•

Addressing discrimination in all its forms

199
6) In its last fiscal year (FY 06), CARE projects
reached 55 million people in 66 countries throughout Africa, Latin America, Asia, Europe and the Near East.
CARE accomplishes its mission by working closely with
local nongovernmental organizations, host country governments, governmental and private donors, other CI
members, health care providers and individuals in the
communities it serves. Among its programs, CARE
provides quality family planning and reproductive
health services, and works to halt the spread of HIV and
improve maternal and child health.
7) Last year, CARE expended $590 million toward
its work overseas, funded by grants and donations from
sources including Defendants United States Agency for
International Development (“USAID”) and the United
States Centers for Disease Control and Prevention
(“CDC”), an operating agency of Defendant Department of Health and Human Services (“HHS”). CARE
also receives funds from agencies of the United Nations,
European Union, foreign governments, and the World
Bank, and numerous foundations, corporations and individual donors.
The Global AIDS Act Restrictions

8) CARE carries out a number of programs funded
by Defendants USAID and CDC that are encumbered
by restrictions contained in the United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act
of 2003 (“Global AIDS Act”).
9) The Global AIDS Act contains a “government
funds restriction” prohibiting funds made available under the act from being spent on activities that “promote
or advocate the legalization or practice of prostitution or

200
sex trafficking,” although it allows for the provision
of health care and related services to prostitutes.
22 U.S.C. § 7631(e).
10) CARE rigorously complies with the government
funds restriction.
11) The Global AIDS Act also contains a “policy requirement” providing that “no funds made available to
carry out this Act . . . may be used to provide assistance to any group or organization that does not have a
policy explicitly opposing prostitution and sex trafficking.” 22 U.S.C. § 7631(f ).
12) Until 2005, CARE was not asked to comply with
the policy requirement.
13) In June 2005, USAID applied the policy requirement to U.S. nongovernmental organizations by issuing
USAID Acquisition & Assistance Policy Directive 05-04
dated June 9, 2005. Neither in this policy directive, nor
in any other written document, does USAID either define “explicitly opposing prostitution” or provide clear
guidance on what privately funded activities are permissible and impermissible under the policy requirement.
14) Similarly, beginning on or about May 2005, HHS
and CDC began applying the policy requirement to U.S.
nongovernmental organizations. HHS and CDC have
not defined the term “explicitly opposing prostitution.”
Nor have they issued formal guidance to the public explaining which types of activities are permissible and
impermissible under this restriction.
15) CARE must comply with the policy requirement
as a condition of engaging in programs overseen by
USAID and the CDC that draw HIV funding authorized

201
by the Global AIDS Act. These programs include assistance to orphans and vulnerable children, prevention
of mother-to-child transmission of HIV, and capacity
building to train indigenous nonprofits to implement
HIV and AIDS programs. CARE receives Global AIDS
Act funding for numerous projects including Strengthening and scaling up of the Hope for African Children
Initiative in Africa (“SSUH”), a project to provide services to children affected by and/or infected with HIV in
Ethiopia, Zambia, Senegal, Ghana, Cameroon, Kenya,
Mozambique, Malawi and Uganda; Local Links, a project that assists orphans and vulnerable children in
Kenya and South Africa; and two Associate Awards under the Communities Responding to the HIV/AIDS Epidemic (“CORE”) Initiative.
CARE also conducts
privately funded HIV and AIDS initiatives several countries including India, Rwanda, Burundi, Lesotho,
Mozambique, Bangladesh, and Mali.
16) Solely in order to comply with the policy requirement and to remain eligible to receive U.S. government
HIV funding to provide desperately needed HIV prevention, care and treatment work around the world,
CARE adopted a Policy on Working with Vulnerable
People Involved in Prostitution and Sex Trafficking.
Were it not for the requirement in the Global AIDS Act,
CARE would not have adopted a policy addressing prostitution.
How the Policy Requirement Harms CARE

17) The policy requirement harms CARE by covering activity not funded by the U.S. government.
Although CARE’s USAID and CDC funding is limited,
CARE’s HIV and AIDS work with private, non-US gov-

202
ernment, funding is also affected by the policy requirement. If an overly broad construction of the policy requirement were adopted, Defendants may construe
CARE’s non-U.S. Government funded activities as being insufficiently opposed to sex work. CARE believes
that it is complying with the policy requirement, but it
does not know whether Defendants USAID, HHS and
CDC agree.
18) For example, the policy requirement threatens
CARE’s privately funded HIV prevention work with sex
worker organizations and networks. Based on years of
responding to the onslaught of HIV and AIDS on the
most vulnerable groups, including sex workers, CARE
has learned that mobilizing community groups and
building collective strength is often the most effective
and sustainable way to fight HIV over the long-term in
high-risk communities. Individually, sex workers have
little leverage to turn society’s riskiest practices toward
safer sex. Collectively, networks of sex workers can be
empowered to influence those most at risk toward preventive behaviors.
19) With private funding, CARE helps develop these
sex worker organizations, in Bangladesh and India, for
example, with the purpose of achieving more effective
HIV prevention outcomes. While CARE believes that
this approach complies with the policy requirement, it
fears that defendants USAID, HHS and CDC may construe the policy requirement overly broadly and penalize CARE for the independent views of sex worker organizations with which it works.
20) CARE’s privately funded work with sex worker
organizations was questioned by former Rep. Mark
Souder in a letter dated December 7, 2005 to the Hon.

203
Andrew Natsios, then-Administrator of USAID. In
the letter, Rep. Souder used CARE’s privately funded
tuberculosis prevention work with the Durbar Mahila
Samanwaya Committee (“DMSC”) to impute the views
of DMSC to CARE. He then asserted that CARE’s association with DMSC constitutes a violation of the policy
requirement. The vagueness of the policy requirement
harms CARE because it makes possible such false allegations that can do considerable harm to CARE’s reputation.
21) On or about June 23, 2006, USAID officers contacted CARE’s senior managers in India and Bangladesh to inquire about CARE’s relationship with DMSC
which received only private funding from CARE and
was not connected with CARE’s USAID- or CDCfunded HIV and AIDS work.
22) In August 2006, USAID’s Acting General Counsel sent CARE a letter asking it to respond to allegations regarding CARE’s privately funded work with sex
worker groups in India and Bangladesh. CARE responded to the request but remains concerned that it is
at risk of continued intrusive and unwarranted governmental investigations regarding whether CARE is engaged in activities that government investigators may
construe as insufficiently opposed to prostitution.
23) CARE considers it essential to work with vulnerable populations, including sex workers, to combat
the spread of HIV. CARE expends great effort to gain
the trust of these individuals in order to educate individuals at high risk of contracting HIV about the prevention and treatment of HIV. In Bangladesh, for example, CARE has been recognized by UNAIDS and the
World Health Organization as a best practices leader for

204
its work in identifying effective prevention strategies
that involve sex workers as peer educators.
In
CARE’s experience, explicitly adopting a written policy
that opposes prostitution may be viewed by this vulnerable group, sex workers, as contrary to their interests
and could undermine their trust in CARE and hamper
CARE’s efforts to educate this vulnerable population
about HIV and AIDS. The policy requirement harms
CARE because it compels CARE to speak where CARE
would otherwise have remained silent.
24) CARE is a prominent advocate of humanitarian
best practices that regularly hosts and engages in vibrant discussion and debate on topics integral to HIV
and AIDS ranging from best practices aimed prevent
HIV transmission within high-risk groups, to reducing
stigma, and empowering women and girls.
These
strategies have been shown to be effective in reducing
HIV transmission in targeted communities. However,
out of caution and uncertainty, CARE has restricted its
media and public communication to raise awareness of
its work in India and Bangladesh, and has often declined
to share what it has learned regarding HIV prevention
strategies at conferences both in the United States, including New York, and abroad.
25) The policy requirement also harms CARE in
that it affects CARE’s active, privately funded advocacy
programs, both within the United States and within the
countries and communities where CARE works overseas. CARE actively seeks to improve the U.S. and
global policy environments to support effective international family planning, reproductive health and HIV
programs.
CARE accomplishes this by educating
policy-makers and the general public about conditions

205
facing women and their families in developing countries
and the impact of laws and policies on the delivery of
services related to family planning and HIV prevention,
care and treatment. CARE must ensure that any advocacy it undertakes conforms to the policy requirement. CARE fears that it may seem to violate the policy requirement if it broadly discusses alternative approaches to HIV prevention among high-risk groups, either in the United States or abroad, because it is not
clear which advocacy approaches are perceived by the
Defendants as compliant. The concern is that the advocacy itself may be seen to violate the policy, even
if CARE’s overseas program activities do not. Thus,
although CARE believes itself to be in compliance with
the U.S. government policy, the effect of the policy requirement is to inhibit substantially open discourse regarding innovative and effective approaches to reduce
the spread of HIV infection among high-risk groups.
26) Finally, a basic and explicit tenet of CARE’s
work in humanitarian assistance and disaster relief is
grounded in its efforts to aid exploited, disenfranchised,
or marginalized people without conveying a message of
condemnation or disrespect. CARE’s core values are
strongly grounded in an ethical commitment to ensure
that it stands with, and not above, the individuals it
serves. The policy requirement harms CARE by compelling it to speak in a manner that is inconsistent with
its mission and its core values. In exercising its right
to use its private funds to speak and advocate on behalf
of the world’s poorest people, CARE should not be constrained the judgmental approach adopted by the U.S.
government.

206
Why the new guidelines are burdensome to CARE

27) In July 2007, Defendants USAID and HHS issued new guidelines to allow recipients of Global AIDS
Act funding to use private funds to engage in activities
prohibited by the policy requirement so long as the recipients maintained sufficient separation between prohibited activities and activities funded by the Global
AIDS Act. The guidelines for USAID and HHS are
contained in Acquisition and Assistance Policy Directive
05-04, Amendment 1 (July 23, 2007) and in a document
entitled Guidance Regarding Section 301(f ) of the
United States Leadership Against HIV/AIDS, Tuberculosis and Malaria Act of 2003, 72 Fed. Reg. 41,076 (July
26, 2007), respectively.
28) The guidelines require contract, grant and cooperative agreement recipients like CARE to have “objective integrity and independence from any affiliated organization that engages in activities inconsistent with a
policy opposing prostitution and sex trafficking”. The
test of a recipients’ objective integrity and independence requires that (1) the affiliated organization is legally separate entity; (2) the affiliated organization receives no transfer of Leadership Act funds and the
Leadership Act funds do not subsidize restricted activities (i.e., activities inconsistent with a policy opposing
prostitution and sex trafficking); and (3) the recipient is
physically and financially separate from the affiliated
organization. With respect to this third requirement
mere bookkeeping separation of Leadership Act funds
from other funds will not satisfy the requirement.
Each agency will determine “on a case-by-case basis and
based on the totality of the facts, whether sufficient
physical and financial separation exists” based on five

207
enumerated factors will be relevant, the agency’s determination “will not be limited to” those factors.
29) The guidelines are burdensome because (1) the
guidelines are vague; (2) their vagueness makes implementation impractical for a non-profit organization like
CARE; and (3) even if CARE could abide by the guidelines, this would do not resolve CARE’s concern about
the harms generated by the policy requirement.
30) The guidelines are vague because they offer no
guidance as to what activities would be considered inconsistent with a policy opposing prostitution and sex
trafficking or “restricted activities”.
Based on its
years of field experience responding to the onslaught of
HIV and AIDS on the most vulnerable groups, including
sex workers, CARE seeks to implement an integrated
and holistic set of interventions designed to be most effective and sustainable to fight HIV and AIDS over the
long-term in high-risk groups. Under these guidelines, CARE is unable to determine which interventions
might be considered “restricted activities” required to
be conducted by an affiliate. CARE is concerned that
arbitrary parsing of activities and bifurcation of interventions designed to work as an integrated whole would
reduce CARE’s ability to implement effective HIV programs among the most vulnerable groups.
31) The vagueness of the five factor physical and financial separation test in the third requirement of the
guidelines make creation of an affiliate financially impracticable for a non-profit organization like CARE.
The guidelines provide that the agencies will determine
sufficient physical and financial separation “on a caseby-case basis . . . based on the totality of the facts”;
that “presence or absence of any one or more factors will

208
not be determinative”; and that factors relevant to the
determination “shall include but will not be limited to”
the five factors. In addition, three of the five factors
are qualified by the phrases “degree of separation” and
“the extent to which”. Given this, if CARE were to create an affiliate, it would be impossible for CARE to accurately predict how the agencies would evaluate physical and financial separation of the entity. Prudence
would require that such an affiliate meet all elements of
each factor in the guidelines. However, expending
CARE’s limited resources to create, fund, operate and
maintain a separate legal entity with separate personnel, separate management, separate governance, separate accounts, separate accounting records, separate
time keeping records, separate facilities, separate equipment, separate supplies and separate signs and forms of
identification solely in order to be able to carry out a
likely narrow but undetermined list of activities would
be impractical in light of CARE’s obligation as a nonprofit organization to carefully and responsibly steward
financial resources entrusted to it by donors.
32) In addition, the guidelines are impractical in the
context of CARE’s international organizational structure. CARE coordinate operations on behalf of CI in
the following countries: Burundi, Democratic Republic of Congo, Eritrea, Ethiopia, Rwanda, Somalia, Sudan, Tanzania, Uganda, Angola, Benin, Ghana, Ivory
Coast, Lesotho, Madagascar, Malawi, Mali, Mozambique, Niger, Sierra Leone, South Africa, Togo, Afghanistan, Bangladesh, India, Nepal, Pakistan, Philippines,
Sri Lanka, Tajikistan, Bolivia, Ecuador, El Salvador,
Guatemala, Haiti, Honduras, Nicaragua and Peru. In
many countries, CARE operates through registered
branch offices and CARE conducts privately funded

209
programs through all of its branch offices. In order to
be able carry out activities overseas, a CARE affiliate
may also be required to register branch offices. The
process of obtaining host government approval and
clearance to establish operations and carry out programming in a country can be lengthy, complicated and
fraught with bureaucratic hurdles.
33) In one of the countries in which CARE operates,
the law governing foreign NGOs has changed twice
since 2005, requiring all foreign NGOs to re-register
with relevant ministries. For CARE, the first reregistration effort took about nine months to complete,
while the second took about four months.
34) CARE’s presence in many of the countries
where it works is based on agreements with host governments negotiated decades ago. In some countries,
host governments are actively seeking to nurture and
promote the growth of indigenous NGOs, limiting the
space in which foreign NGOs can operate. If it were
required to obtain, from over 35 individual host governments, permission for a CARE affiliate to operate within
their borders, the sheer volume of time and resources
necessary to do this would likely make the proposition
prohibitive for CARE.
35) Even if a CARE affiliate were able to obtain the
necessary permissions, in order to maintain physical
and financial separateness prescribed in the guidelines,
country offices of the affiliate would likely have to maintain separate personnel, separate management, separate governance, separate accounts, separate accounting records, separate time keeping records, separate facilities, separate equipment, separate supplies and separate signs and forms of identification from the CARE

210
offices already operating in those countries. The process of establishing country office operations is akin to
opening a small business and includes, among other
things, locating and leasing office space, recruiting and
hiring local staff, obtaining work permits for international staff if necessary, obtaining bank accounts, obtaining import licenses for any number of items, ranging
from computers to cars. The level of resources required to create, fund, operate and maintain a duplicate
set of offices would likely make the affiliate option unviable for CARE.
36) The requirement to maintain separate signs and
forms of identification suggests that an affiliate may not
even be able to use the CARE name and brand.
CARE’s vast poverty fighting experience and reputation are inherent in its name and brand, and is a key to
attracting donor funding for its work. If the affiliate is
unable leverage CARE’s goodwill and reputation, it is
unclear how a new and unknown organization would be
able to attract the type of donor funding necessary to
develop effective and sustainable programs.
37) As a cooperative association organized under the
laws of Washington D.C., CARE is governed by a Board
of Overseers that also acts as its Board of Directors.
Because the guidelines require an affiliate to have separate governance and separate management from CARE,
it is unclear what type of control, if any, CARE would be
able to assert over such an entity. If the objective of
these guidelines is to un-encumber organizations like
CARE from the burdens on speech imposed by the policy requirement by offering an alternative route through
which they might speak, the degree of separation described in the guidelines do not appear to offer CARE a

211
viable alternative route. It is unclear that members of
the general public would even be able to discern a relationship between CARE and an affiliate created under
these guidelines.
38) Finally, the guidance adopted by USAID and
HHS in July 2007 does not absolve CARE of the requirement to adopt a policy explicitly opposing prostitution.
CARE is still being compelled to speak where CARE
would otherwise have remained silent.
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on Feb. 6, 2008
In Atlanta, Georgia

/s/ HELEN GAYLE
HELENE GAYLE

212
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

No. 05-CV-8209 (VM) (DF)
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.
ET AL., PLAINTIFFS
v.
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, ET AL., DEFENDANTS
DECLARATION OF DANIEL E. PELLEGROM

I, DANIEL E. PELLEGROM, hereby declare as
follows:
1. I am, and have been since 1984, the President of
Pathfinder International (“Pathfinder”).
2. I submit this declaration in support of the Plaintiffs’ motion for leave to amend the Complaint and the
motion of InterAction and Global Health Council for a
preliminary injunction.
I.

Pathfinder International

3. Pathfinder is a non-profit corporation incorporated under District of Columbia law. It enjoys taxexempt status under section 501(c)(3) of the Internal
Revenue Code. Its primary office is located at 9 Galen
Street, Suite 217, Watertown, Massachusetts 024724501.
4. Pathfinder was founded in 1957 by Dr. Clarence
J. Gamble, a private philanthropist, and it was one of

213
the first U.S.-based organizations to address international population issues. Pathfinder’s mission is to
provide access to quality family planning and reproductive health services to women, men, and adolescents
throughout the developing world. In addition to its
family planning work, Pathfinder also works to halt the
spread of HIV/AIDS, improve maternal and child
health, and prevent unsafe abortions. It accomplishes
these goals by developing partnerships with local nongovernmental organizations, host country governments, the private sector, and health care providers.
Pathfinder’s governing philosophy is to provide this assistance with concern for human rights, for the status
and role of women, and from the perspective of the clients it serves.
5. Pathfinder operates in the following 27 countries: Angola, Bangladesh, Bolivia, Botswana, Brazil,
Burundi, Colombia, Ecuador, Egypt, Ethiopia, Ghana,
Guatemala, Guinea, India, Kenya, Moldova, Mozambique, Nepal, Nigeria, Papua New Guinea, Peru, South
Africa, Southern Sudan, Tanzania, Uganda, Vietnam,
and Yemen.
6. Pathfinder’s Watertown, Massachusetts office
plays a significant role in conceiving of, funding, supervising, evaluating, and otherwise overseeing Pathfinder’s international work.
7. Pathfinder’s annual budget, which for fiscal
year 2008 totals $89 million, is funded by grants and donations from multiple sources, including Defendants
United States Agency for International Development
(“USAID”) and the United States Centers for Disease
Control and Prevention (“CDC”), an operating agency

214
of Defendant Department of Health and Human Services (“HHS”). Pathfinder also receives funds from
several agencies of the United Nations, the Swedish,
Canadian, and Dutch governments, the World Bank,
and numerous foundations, corporations and individual
donors.
8. In the following 18 countries, Pathfinder receives funding from sources other than the US government to operate projects that do not receive any Global
AIDS Act funding: Angola, Bangladesh, Bolivia, Brazil, Colombia, Ecuador, Ghana, India, Kenya, Mozambique, Nigeria, Papua New Guinea, Peru, South Africa,
Southern Sudan, Tanzania, Uganda and Vietnam.
II.

The Global AIDS Act Restriction

9. Pathfinder carries out a number of programs
funded by Defendants USAID and CDC that are encumbered by restrictions contained in the United
States Leadership Against HIV/AIDS, Tuberculosis,
and Malaria Act of 2003 (“Global AIDS Act”).
10. The Global AIDS Act contains a “government
funds restriction” prohibiting funds made available under the Act from being spent on activities that “promote
or advocate the legalization or practice of prostitution
and sex trafficking,” although it allows for the provision
of health care and related services to prostitutes.
22 U.S.C. § 7631(e).
11. Pathfinder rigorously complies with the government funds restriction and does not challenge it herein.
12. The Global AIDS Act also contains a “policy requirement” providing, in pertinent part, that “no funds
made available to carry out this Act . . . may be

215
used to provide assistance to any group or organization
that does not have a policy explicitly opposing prostitution and sex trafficking.” 22 U.S.C. § 7631(f ).
13. In June 2005, USAID applied the policy requirement to Pathfinder and other U.S. non-governmental organizations (“US NGOs”) by issuing USAID Acquisition
& Assistance Policy Directive 05-04 dated June 9, 2005.
Similarly, beginning on or about May 2005, HHS and
CDC began applying the policy requirement to Pathfinder and other US NGOs.
14. USAID, HHS, and CDC have not defined the
term “a policy explicitly opposing prostitution,” nor
have they issued guidance to the public explaining which
activities are permissible and impermissible under the
policy requirement.
15. HHS and CDC have required all recipients of
Global AIDS Act funding to “agree that HHS may, at
any reasonable time, inspect the documents and materials maintained or prepared by the recipient in the usual
course of its operations that relate to the organization’s
compliance [with the policy requirement].”
16. In July 2007, Defendants USAID and HHS issued new guidelines permitting recipients of Global
AIDS Act funding to transfer private funds to a legally,
financially, and physically separate entity over which
they exercise no control, which can then engage in activities that would otherwise run afoul of the policy requirement. USAID’s guidelines are contained in Acquisition and Assistance Policy Directive 05-04, Amendment 1 (July 23, 2007). HHS’ guidelines are contained
in a document entitled, Guidance Regarding Section
301(f ) of the United States Leadership Against

216
HIV/AIDS, Tuberculosis and Malaria Act of 2003,
72 Fed. Reg. 41,076 (July 26, 2007).
17. Although the guidelines purport to allow recipients such as Pathfinder to spend their private funds to
engage in speech free of the policy requirement’s restrictions, in fact they reserve the right to penalize recipients for speech of third party organizations over
which they exercise no control. The guidelines require
recipients to “have objective integrity and independence
from any affiliated organization that engages in activities inconsistent with a policy opposing prostitution and
sex-trafficking (‘restricted activities’).” According to
the guidelines, a recipient will satisfy this test only if:
“(1) The affiliated organization is a legally separate entity; (2) The affiliated organization receives no transfer
of Leadership Act funds, and Leadership Act funds do
not subsidize restricted activities; and (3) The Recipient
is physically and financially separate from the affiliated
organization.” As I describe below in further detail,
whether a recipient is sufficiently “physically and financially separate” depends on a five-factor test which assesses, among other things, whether the recipient exercises control over the other organization.
18. The July 2007 USAID and HHS guidelines were
issued without either notice or an opportunity for the
public to provide comments. On December 14, 2007,
counsel for the Defendants sent a letter to this Court
stating that HHS will provide a notice of proposed rulemaking regarding the policy requirement guidelines
“within four months, which will be followed by a public
comment period.”
19. Pathfinder must comply with the policy requirement, as modified by the guidelines, as a condition of

217
continuing its USAID-funded programs that include
HIV/AIDS components. Among these programs are
one project to increase the use of child survival and reproductive health services in Mozambique and another
to extend service delivery for reproductive health services globally.
20. Pathfinder must also comply with the policy requirement as a condition of subcontracts it holds with other
development organizations to carry out USAID-funded
work, for example a program to improve HIV/AIDS policies in Nigeria.
21. Pathfinder also must comply with the policy requirement as a condition of continuing its CDC-funded
work to implement a program to prevent mother-tochild HIV transmission in Kenya, to expand home-based
care programs for HIV-positive persons in Tanzania,
and to expand psychosocial and peer counseling services
in Botswana.
III.

Pathfinder’s Policy

22. Solely in order to comply with the policy requirement, and to remain eligible to receive U.S. government
funding to provide desperately needed HIV/AIDS prevention and care work around the world, in July 2005,
Pathfinder adopted the following policy:
In order to be eligible for federal funding for
HIV/AIDS, Pathfinder opposes prostitution and sex
trafficking because of the harm they cause primarily
to women. Pathfinder’s HIV/AIDS programs seek
to promote effective ways to prevent the transmission of HIV/AIDS and to reduce the suffering caused
by HIV/AIDS. In order to achieve these goals,
Pathfinder works with, and provides assistance and

218
support to and for, many vulnerable groups, including women who are commercial sex workers, who, if
not effectively reached by HIV/AIDS programs, will
suffer and can become drivers of the HIV/AIDS epidemic.
IV.

How the Policy Requirement Harms Pathfinder

23. The pledge requirement hurts Pathfinder and
the clients it serves, both by compelling Pathfinder to
espouse the government’s point of view and by limiting
Pathfinder’s speech and activities.
A.

Compelling Speech and Mandating Viewpoint

24. Pathfinder has been forced to stake out a policy
position on an issue on which it wished to remain neutral
at this time. As an international development organization operating in multiple countries, each with its own
set of laws and cultures, Pathfinder is mindful of the
need to refrain from taking policy positions without
careful study and deliberation. With the exception of
the anti-prostitution policy it adopted to comply with the
policy requirement, Pathfinder’s policy positions have
been formed only after deeply studying an issue, primarily by examining its own experience promoting access to health care in the developing world. Were it not
for the mandate in the Global AIDS Act, Pathfinder
would not have adopted its anti-prostitution policy.
25. Moreover, because the policy requirement is
vague and confusing, Pathfinder has no way of knowing
whether the policy it has adopted complies with the requirement.
To my knowledge, neither the Global
AIDS Act nor any of the Defendants has defined what it

219
means to have a policy “explicitly opposing prostitution.” I do not know what Defendants mean by this
phrase.
26. Pathfinder believes its policy does comply with
the policy requirement. However, given the lack of
guidance from USAID, HHS, and CDC as to the requirement’s meaning, Pathfinder fears that if the preliminary injunction is lifted Defendants USAID, HHS,
and CDC will apply an overly broad interpretation of the
policy requirement to Pathfinder’s policy and find Pathfinder out of compliance with the policy requirement.
27. The guidance adopted by Defendants USAID
and HHS in July 2007 does not absolve Pathfinder of the
requirement that it adopt a policy “explicitly opposing
prostitution.” Although it permits Pathfinder to transfer private funds to a legally, financially, and physically
separate entity over which Pathfinder exercises no control, which can then engage in activities that would otherwise run afoul of the policy requirement, Pathfinder
itself continues to remain obligated to maintain a policy
“explicitly opposing prostitution” so long as it accepts
any Global AIDS Act funds from Defendants.
28. That policy necessarily governs not only Pathfinder’s use of federal funds, but also the entire Pathfinder entity. Pathfinder must get funds from sources
other than Defendants, because Defendants require it to
do so to be eligible even to apply for funding. For example, a USAID regulation requires U.S.-based NGOs
such as Pathfinder to “solicit[ ] and receive[ ] cash contributions from the U.S. general public” in order to
be eligible to receive certain USAID funding. See.
22 C.F.R. § 203.3(b) (organization may register as a U.S.
private and voluntary organization, a requirement for

220
many cooperative agreement grants, only if it raises
funds from the U.S. public). USAID requires that
fully 20 percent of the support for Pathfinder’s international work come from non-US government sources.
See USAID, Frequently Asked Questions, available at
http://www.usaid.gov/pubs/sourcebook/usgov/faqs.html
(accessed Jan. 4, 2008), attached hereto as Exhibit A.
The policy requirement dictates how these private funds
can and cannot be used.
B.

Limiting Pathfinder’s Speech and Activities

29. Pathfinder engages in a significant amount of activity not funded by the U.S. government that could be
affected by an overly broad construction of the policy
requirement. Currently, this Court’s preliminary injunction allows Pathfinder to conduct this work. Pathfinder believes that even if the preliminary injunction is
lifted, a proper interpretation of the policy requirement
would permit it to continue engaging in this work. However, because the policy requirement itself uses vague
and confusing language, and because Defendants have
refused to clarify what it means, Pathfinder does not
know whether Defendants USAID, HHS, and CDC agree
that all of Pathfinder’s work is permissible under the
policy requirement. Consequently, if the preliminary
injunction is lifted, I will need to ensure that Pathfinder
refrains from engaging in any activities that could possibly be construed as insufficiently opposed to prostitution, even if Pathfinder itself does not view the activities
that way.
1)

Work with vulnerable populations

30. One category of activities Pathfinder engages in
that might be barred by an overly broad construction of

221
the policy requirement concerns Pathfinder’s HIV/AIDS
prevention work aimed at vulnerable populations, including sex workers. In Brazil, India, and Mozambique, Pathfinder currently uses funding solely from
sources other than the U.S. government to prevent the
spread of HIV among vulnerable groups including sex
workers. In the past, it has run similar programs in
Nigeria. One strategy that Pathfinder has found to be
highly effective is to organize sex workers and to work
cooperatively with existing sex worker organizations to
promote their health and human rights. Pathfinder
engages in this work because, like most international development organizations, it works with local groups, including organizations composed of sex workers, to identify their needs and priorities and then to achieve the
goals they have identified within the international
framework of their right to health.
a)

India

31. For example, Pathfinder’s privately funded Mukta
program in India seeks to organize sex workers so that
they will collectively agree to engage in HIV prevention
methods, such as using condoms. While Pathfinder believes that its organizing of sex workers in India complies with the policy requirement, it fears that Defendants USAID, HHS, and CDC may construe the policy
requirement in an overly broad manner and subject
Pathfinder to penalties should sex worker organizations
it has fostered or cooperated with then pursue goals that
Defendants view as inconsistent with opposition to prostitution.
32. In March 2007, Mukta held a convening that
brought together more than 1,800 sex workers from Maharashtra to discuss rights, empowerment, and HIV/AIDS

222
prevention. Among the topics the attendees discussed
were the human rights of sex workers and their interactions with the police and other government officials. If
the preliminary injunction were not in place, Pathfinder
could have faced possible charges that it was violating
the policy requirement for hosting a convening at which
the participants spoke so freely.
33. Pathfinder’s Mukta program also conducts outreach to brothel owners and pimps in an attempt to foster safer sex practices. While Pathfinder conducts this
work for the purpose of promoting HIV prevention and
assisting the women in the brothels, it also must at times
gain the trust of brothel owners in order to gain access
to the women it is trying to help. Although Pathfinder
believes that this outreach does not violate the policy requirement as set forth in the Global AIDS Act, it fears
that Defendants USAID, HHS and CDC might view this
outreach as being insufficiently “opposed to prostitution.”
b)

Brazil

34. A second project affected by the policy requirement is work performed by Pathfinder employee Dr.
Carlos Laudari in Brazil. In Brazil, Dr. Laudari provides technical assistance in capacity building. As part
of this work, he serves as a facilitator in strategic planning to various associations including some sex worker
associations. For example, in late February 2008, Dr.
Laudari plans to serve as a facilitator at Brazil’s National Consultation on Prostitution, HIV/AIDS and Human Rights. It is likely that participants in the meeting
will discuss the vulnerability of prostitutes to rights violations by the police, pimps and others. Participants
may well recommend that prostitution be de-penalized

223
in order to decrease this vulnerability. Were Pathfinder not under the protection of the preliminary injunction, Dr. Laudari would need to censor his speech at
the convening to ensure that his involvement did not
bring Pathfinder into violation of the policy requirement.
2)

Pathfinder’s speech and advocacy in the U.S.

35. In addition to inhibiting Pathfinder’s work with
vulnerable populations, including sex workers, the policy requirement would limit Pathfinder’s speech and advocacy within the U.S. if the preliminary injunction were
lifted. Pathfinder engages in a variety of types of speech
within the U.S.
36. For example, part of Pathfinder’s mission is to
improve the U.S. policy environment for international
family planning, reproductive health programs, and
HIV/AIDS service delivery. Pathfinder accomplishes
this by educating U.S. policy-makers and the general
public about conditions facing women and their families
in developing countries and the impact U.S. policies have
on the effectiveness of family planning and HIV/AIDS
service delivery.
37. As part of this work, Pathfinder has attended
two conferences sponsored by plaintiff the Alliance for
Open Society International and the Open Society Institute in the past few years to discuss the policy requirement, and its effect on the ability of Pathfinder and
other organizations to engage in HIV/AIDS prevention
abroad.
38. Also as part of this work, Pathfinder is a member
of the Global Health Council and InterAction. At meet-

224
ings, and through other Global Health Council and InterAction activities, Pathfinder is able to educate other
NGOs about its work, and to join with them in order to
further its advocacy goals.
39. Were the preliminary injunction lifted, Pathfinder would have to ensure that any advocacy it undertakes conforms to the policy requirement. For example, while Pathfinder may wish to discuss its experience
doing HIV/AIDS prevention work in Brazil and India,
because this program included work with local organizations that advocated to change the legal treatment of sex
work, Pathfinder could be barred from freely discussing
the lessons of this work.
40. There are two upcoming occasions at which
Pathfinder anticipates having to engage in such discussions. The first involves activity on Capitol Hill regarding the reauthorization of PEPFAR, which is due to
occur in 2008. Pathfinder staff anticipate participating
in meetings or briefings with other advocates and members of Congress and their staff, and possibly testifying
before Congress. The second occasion will come this
spring, when defendant HHS solicits public comment
regarding the affiliate guidelines at issue in this case.
Pathfinder anticipates submitting comments during
that process. In both instances, Pathfinder expects to
discuss its experience working with sex workers, and the
importance of allowing NGOs to work with sex workers
who advocate for changes in the legal regime regarding
sex work. Were the preliminary injunction not in place,
the policy requirement would chill Pathfinder’s ability
to engage in this work.

225
41. The policy requirement also affects Pathfinder’s
ability to publish in the U.S.—on its website and elsewhere—the results of the HIV/AIDS research it conducts and the HIV/AIDS training materials it creates.
For example, in 2004 Pathfinder produced a handbook
funded by the Canadian International Development
Agency, called “The Nigeria HIV/AIDS Responsive
Fund (NARF) Handbook on Incorporating Gender and
Human Rights in HIV/AIDS Training,” the relevant
pages of which are attached as Exhibit B. Pathfinder
continues to make the handbook available to interested
people in Nigeria, the U.S., and elsewhere through its
website. Were the preliminary injunction lifted, it is
possible that the Defendants would construe the policy
requirement broadly to bar Pathfinder from distributing this handbook, because it discusses “laws proscribing sex work” as a human rights factor making
women particularly vulnerable to HIV, and lists “legislation” and “government policies” as “possible contents
of HIV/AIDS mitigation training.” See Exhibit B,
pp. 34, 39.
42. Likewise, Pathfinder staff regularly attend conferences in the U.S., sponsored by Global Health Council, the American Public Health Association (“APHA”),
InterAction and other groups, at which they discuss
their ongoing work, including their HIV/AIDS prevention work and research among sex workers and their clients. For example, Pathfinder plans to present 14 papers at the upcoming 35th Annual International Conference on Global Health, sponsored by the Global Health
Council, which will be held in May, 2008. One of those
papers, titled “Condoms and Health Care: Sex Workers Need More,” will be based on the work of Pathfinder’s Mukta project with sex workers in India.

226
Pathfinder staff presented another paper based on the
work of the Mukta project at the November 2007 meeting of the APHA. An abstract of that paper, entitled,
“Men Behind the Menace: An Ethnographic Study of
Male Clients of Female Sex Workers in the Wake of the
HIV/AIDS Epidemic in India,” is attached as Exhibit C.
Were the preliminary injunction lifted, Pathfinder would
have to censor its speech at these conferences to ensure
that none of its presentations could be construed, even
inadvertently, as being insufficiently opposed to sex
work.
43. Finally, were the preliminary injunction not in
place, the policy requirement would affect Pathfinder’s
ability to describe its current and past work overseas to
potential donors and others in the United States. For
example, Pathfinder maintains an extensive website—
run out of its U.S. headquarters—describing the work
of its many overseas projects. This website plays a key
role in educating donors in the U.S. and elsewhere about
our ongoing and past work. Among other items on that
website is a detailed description of the organizing work
Pathfinder’s Mukta project does with sex workers, including the March 2007 conference I describe above and
a January 2007 meeting at which Mukta brought together policemen and sex workers to reduce the historically “tense relations” between sex workers and police
“[d]ue to the air of illegality surrounding the sex worker
profession.” These web pages are attached to this declaration as Exhibit D.
44. The website also posts Mukta’s newsletter,
which describes those meetings and Mukta’s other ongoing work with, and outreach to, sex workers, the po-

227
lice, brothel owners, and others. The most recent version of Mukta’s newsletter is attached as Exhibit E.
Were the preliminary injunction not in place, Pathfinder
could be required to censor all descriptions of Mukta’s
work on its website.
V.

The Burdens Imposed by the Guidelines

45. The guidelines issued by Defendants USAID
and HHS in July 2007 only exacerbate the problems associated with the policy requirement. They do not answer any of the most basic questions about what Pathfinder can and cannot say with our private funds and
they make the creation of an affiliate prohibitively burdensome.
A.

Vagueness

46. The guidelines have only increased Pathfinder’s
uncertainty about the speech and activities in which it is
permitted to engage under the policy requirement.
Significantly, the guidelines offer no guidance about
which activities Pathfinder must conduct through a separate entity.
47. Moreover, although the guidelines require that
Pathfinder be “physically and financially separate from
the affiliated organizations,” they do not provide clear
guidance regarding how Pathfinder can ensure that it is
physically and financially separate enough. Rather, they
list five factors, warning that the agencies “will determine, on a case-by-case basis and based on the totality
of the facts, whether sufficient physical and financial
separation exists. The presence or absence of any one
or more factors will not be determinative.” As President of Pathfinder, I recognize that, given the enormous
financial and even criminal penalties that may flow from

228
a violation of the policy requirement and its guidelines,
the only prudent course would be for Pathfinder to maintain very great separation between its activities and the
activities of any affiliate that engages in activities
barred by the policy requirement. Although Defendants might conceivably permit a lesser level of separation, I have no way of knowing that without risking
grave consequences for the entire organization.
48. The guidelines’ vagueness is exacerbated by the
vagueness of the individual factors the Defendants will
consider in deciding whether Pathfinder and any other
entity are “physically and financially separate,” many of
which use terms such as “the extent to which” and “the
degree of.” For example, among the five factors are:
a) “[t]he degree of separation from facilities, equipment
and supplies used by the affiliated organization to conduct restricted activities,” b) “the extent of such restricted activities by the affiliate,” c) “[t]he extent to
which signs and other forms of identification which distinguish the Recipient from the affiliated organization
are present, and signs and materials that could be associated with the affiliated organization are absent,” and
d) “[t]he extent to which [Defendants], the U.S. Government and the project name are protected from public association with the affiliated organization and its restricted activities in materials such as publications, conferences and press or public statements.” I do not
know how much of any of these factors is too much. As
a result, if the preliminary injunction is lifted I will need
to ensure that Pathfinder complies with each factor to
the maximum extent.

229
B.

Legally separate entity

49. In addition to being vague, the guidelines place
an extremely heavy burden on Pathfinder’s ability to set
up an affiliate to use private funds to engage in activities
otherwise barred by the policy requirement.
50. For example, the guidelines require that the
affiliate be “a legally separate entity.” Setting up an
affiliate in each of the 27 countries in which Pathfinder
operates—or even in each of the 18 countries in which
Pathfinder operates programs that receive no PEPFAR
funds—would be extraordinarily difficult, expensive,
and time-consuming.
51. In some of the countries where Pathfinder operates, it would be virtually impossible to obtain permission to set up a new affiliate, particularly one dedicated
to policy advocacy or to the always controversial activity
of working with sex workers, or one funded primarily
with money coming from the United States.
52. Even when Pathfinder is able to obtain legal permission to operate a new affiliate, it will be difficult
or impossible to obtain funding for such an affiliate.
Whether Pathfinder seeks government or private funds
for its initiatives, it must compete against other organizations also wishing to obtain the funding. Government and private funders alike favor organizations with
a proven track record—one that has experience both doing the types of work we seek funding to do, and operating in the countries in which we propose to operate.
53. Pathfinder tends to be highly competitive in this
regard because we have been operating worldwide for
over half a century. We have vast experience, and are
able to describe our significant successes, in providing

230
family planning and reproductive health services, halting the spread of HIV/AIDS, improving maternal and
child health, and preventing unsafe abortions. We also
have a long tenure, and extensive and close relationships, in most of the 27 countries in which we currently
operate. Whether Pathfinder continues receiving Global
AIDS Act funds and shifts its private funds to an affiliate, or whether Pathfinder continues using its private
funds itself and shifts its Global AIDS Act funds to a new
affiliate, the affiliate will lack Pathfinder’s proven substantive expertise and deep ties in the 27 countries
where Pathfinder operates.
54. Indeed, if Pathfinder tries to shift its Global
AIDS Act funds to an affiliate so that Pathfinder can
continue engaging in activities otherwise permitted by
the policy requirement, that affiliate will be statutorily
barred from receiving Global AIDS Act funds for at
least 18 months. The Foreign Assistance Act provides
that the United States’ foreign assistance programs
should be carried out “by such private and voluntary organizations and cooperatives as have demonstrated a capacity to undertake effective development activities.”
22 U.S.C. § 2151u(a). In accordance with this statutory
obligation, USAID bars non-profits from registering as
private voluntary organizations (as they must do to get
funded) until they have been incorporated for at least
18 months. 22 C.F.R. § 203.3(f )(4).
55. Even after the 18-month bar is over, the affiliate
will continue to be at a severe competitive disadvantage
in obtaining Global AIDS Act funding, because Defendants evaluate funding proposals from Pathfinder and
other entities based in part on the experience possessed
by the potential recipient.
USAID’s own internal

231
guidelines for grant distribution require USAID to take
“past performance” into account in evaluating a funding
proposal. USAID, ADS 303.3.6.3. Accordingly, every
USAID application requires us to describe our past performance on other, similar projects. See, e.g., USAID,
Request for Applications Number USAID-Tanzania-08001-RFA, pp. 5, 18. CDC also examines our past work.
56. So long as we are able to operate as Pathfinder,
our past performance will continue to make us highly
competitive. For example, in reviewing a proposal that
the CDC awarded to Pathfinder in 2004 to expand homebased care for people living with HIV/AIDS in Tanzania,
CDC lists as strengths Pathfinder’s experience working
in the country since 1995, engaging in similar work in
other parts of the country, and relationships with US
government partners and NGOs.
CDC, Summary
Statement, Program Announcement # 04208, pp. 2-5,
attached as Exhibit F. CDC relied on a similar evaluation of Pathfinder’s track record in awarding us a cooperative agreement to work in Botswana. CDC, Summary
Statement, Program Announcement 04256, pp. 1-3 (Aug.
24, 2004), attached as Exhibit G. A new affiliate, unable to rely on this track record, will be unable to compete
successfully for Defendants’ funding.
57. If Pathfinder keeps its Global AIDS Act funding,
its new affiliate will still be at a competitive disadvantage, this time in seeking non-U.S. government funding. Like Defendants, the private funders who underwrite Pathfinder’s work do so in large part because of
our proven track record. For example, in announcing
a $690,000 grant to Pathfinder for a new leadership
training program for individuals to help reduce maternal mortality and morbidity and improve young people’s

232
sexual and reproductive health in Nigeria, the John D.
and Catherine T. MacArthur Foundation wrote, “Pathfinder International, with its long track record in running successful training programs in the field, is wellpositioned to help Nigeria build leadership to ensure
this happens.” See Exhibit H.
C.

The Five-Factor Physical and Financial
Separation Test

58. As mentioned above, because it is impossible for
me to know how much weight Defendants will place on
each of the five factors to be weighed in determining
whether Pathfinder maintains sufficient physical and financial separation from an affiliate engaging in work
otherwise barred by the policy requirement, I would
need to ensure that Pathfinder maintains as much separation as possible from any such affiliate. This would
impose severe burdens on Pathfinder’s exercise of its
First Amendment rights.
1)

Separate personnel, management and governance

59. The first factor considered in assessing physical
and financial separation is “the existence of separate
personnel, management, and governance.”
a)

Separate personnel

60. The separate personnel requirement will, in
some instances, make it impossible for Pathfinder to do
its work and, in all instances, will make it prohibitively
more expensive for Pathfinder to operate.
i.

Duplicate headquarters staff

61. To understand the severe burdens the separate
personnel requirement would impose on Pathfinder it is
necessary to understand how Pathfinder operates. In

233
order to coordinate its worldwide operations, reduce its
worldwide overhead, and ensure that even its smallest
and most remote projects are as technically proficient
as possible, Pathfinder maintains personnel at its headquarters in Massachusetts who carry out the following
functions for, and in coordination with, our field offices:
human resources, resource development (including fundraising), accounting and other financial administration,
information technology services, and substantive technical expertise. For example, our headquarters human
resources staff hire senior staff for the field offices, and
also any employees who are not residents of the country
in which the field office is located. For small field offices, the human resources staff sometimes does all or
part of local hires as well, including by reviewing resumes of local job applicants, checking references, conducting interviews, and making job offers. The human
resources staff also does the following for the field offices: a) drafts job descriptions, b) conducts countryspecific compensation surveys, c) puts together countryspecific salary and benefits packages for senior staff and
often for other staff too, d) reviews the local employment
laws, e) creates country-specific employment handbooks, and f ) administers benefits. When necessary,
headquarters human resources staff travel to the field
offices to do such tasks as recruiting, conducting job interviews, and counseling local employees.
62. Similarly, our headquarters information technology staff run a worldwide computer network in which
the field offices participate. They protect the network
against spam and viruses, and do other necessary work
to ensure that it runs smoothly. They also arrange for
wiring in the field offices, set up computer equipment in

234
those offices, arrange for software licenses, and do whatever trouble-shooting is necessary on an ongoing basis.
When necessary, they travel to the field offices to perform these tasks.
63. Our headquarters technical services staff, which
consists of highly trained professionals with expertise in
the substantive work carried out by our field offices,
provide substantive assistance to our field offices. For
example, we employ: a) a nurse midwife who trains health
care providers in our field offices about how to conduct
trainings, b) monitoring and evaluations experts who
help field office staff design and implement monitoring
and evaluation programs to assess the success of their
own projects, c) HIV/AIDS experts, and d) an adolescent reproductive health specialist.
64. Other headquarters staff review and approve all
office leases, help open and monitor bank accounts, raise
funds from government and private sources, and administer our contract and grant relationships with our funders, subgrantees, and suppliers.
65. By providing such extensive support to our field
offices, we are able to operate high quality programs
with very little overhead. This is essential to our ability to carry out our mission, because if we had to spend
more of our funding on overhead we would have less
available for our programmatic goals.
66. Moreover, keeping our overhead low is essential
to our ongoing fundraising efforts. Fundraising is a
competitive business. Given a choice between an organization with high overhead and one with lower overhead, both government and private donors will choose
the latter. For this reason, many potential donors ask

235
us how we calculate our overhead, and why it is as high
as it is. We hear particular concerns about high overhead from our smaller funders, who want their funding
to go to achieving program goals, not to overhead.
67. Indeed, in my experience raising funds for Pathfinder, I have seen that non-profit ratings published by
websites such as Charity Navigator and Charity Watch
play an increasing role in our donors’ funding decisions.
On those websites, the percentage of budget going to
overhead plays a large role in determining how a nonprofit will be rated.
68. Accordingly, we have worked hard to bring our
overhead down as low as possible. Approximately
seven years ago, our overhead was almost 23 percent.
At the time, we heard from many funders that our overhead was too high. Today, in large part because of the
process efficiencies implemented at our headquarters
and increased program support funds, our overhead is
13 percent. This has made it far easier for us to compete for funding.
69. One measure of this is the ratings we have received. We have received four stars—the highest possible score—from Charity Navigator, whose rating of
Pathfinder is attached as Exhibit I. We have received
an A+—the top rating—from the Charity Watch program run by the American Institute of Philanthropy,
whose rating of Pathfinder is attached as Exhibit J.
The Better Business Bureau, whose rating of Pathfinder
is attached as Exhibit K, has certified that we meet all
20 of its Standards for Charity Accountability. The low
percent of budget we spend on overhead plays a large
role in each of those designations.

236
70. If we had to establish a separate affiliate program, we would be faced with a terrible choice, either of
which would impose enormous burdens on the organization. One option would be for us to replicate all of the
functions of our headquarters in a second headquarters,
leaving us with two duplicative headquarters, each of
which would serve fewer (or smaller) programs. Salary costs alone would make it prohibitively expensive to
operate two separate sets of headquarters staff, but
there would be other costs too. For example, our headquarters staff frequently travel to the field offices to attend regional meetings of senior staff, to establish computer networks and bank accounts, to help with computer problems, employee hiring or other personnel issues, or to provide substantive technical assistance. If
we had two sets of headquarters staff, each serving a
separate but parallel set of field offices, we would have
to pay for twice as many trips abroad by our headquarters staff, which would be extremely expensive. In
these ways, the overhead costs of each organization
would be significantly increased.
71. The other option would be to reduce the size of
the headquarters staff for each organization, and require the field offices to take on the tasks that headquarters currently does. This, too, would increase our overhead, because we would lose the efficiencies we currently gain by centralizing so many functions. Moreover, we simply could not afford to replicate each headquarters function in each field office, and so we would
have to function without much of the expertise our field
offices currently benefit from.

237
ii.

Duplicate field offices staff

72. In addition to duplicating our headquarters
staff, we would have to duplicate our field office staff.
Duplicating the head of each field office (called the
“country representative”) would be difficult or impossible in most instances. For each country, we try to hire
as our representative and senior management the people with the best experience both working in that particular country or region, and carrying out the particular
types of programs that field office runs. This is the
only way to make our funding applications competitive,
because we must state on our funding applications who
our country representative and other key people will be,
and funders place great weight on their qualifications.
If another organization has a country representative
and other key personnel who are more experienced than
ours, they are likely to be funded instead of us.
73. For example, in its funding application guidelines, Defendant USAID asks applicants to designate
the “Project Director/Chief of Party” for that project, as
well as several other positions that it deems “key positions.” It designates the specific expertise needed
for those positions, and warns that USAID reserves the
right to approve those personnel.
According to
USAID, the skills, expertise and experience of the key
personnel are one factor in evaluating applications.
Attached to this declaration, as Exhibit L, are the relevant pages from an example of one such set of funding
guidelines, for a USAID project in Tanzania.
74. Likewise, in evaluating an application we submitted in 2004 for a program in Tanzania that we were
eventually awarded, and that is still underway, Defend-

238
ant CDC designated the qualifications of our key personnel as strengths, writing, “Proposed staff members
are local with a wide range of skills and a wealth of experience working with other United States Government
partners and NGOs. Professional personnel involved
with this project have 5-18 plus years of experience in
the HIV/AIDS universe of OI/HIV/STD.” The relevant pages of this CDC document are attached as Exhibit M.
75. Moreover, our country representatives and
other senior staff must be able to implement a program
the moment it is funded, because our funders will not
pay for training or start-up time. As a result, if either
Pathfinder or a new affiliate were unable to use our current country representatives and senior staff, and had
to hire new ones, it would be at a severe fundraising disadvantage.
76. In some of the countries in which Pathfinder operates, maintaining two sets of personnel is impossible.
As a general matter, Pathfinders’ field offices try to employ residents of the country in which they operate (“local residents”), because they have greater knowledge
about and contacts within their country, no visa or work
permit restrictions, and are more likely to be acceptable
to the local government. However, in many of the countries where we operate there is no professional level
workforce from which we can hire senior managers.
Consequently, many of our country representatives are
either United States expatriate or third party nationals
(collectively, “expatriates”). Sometimes we also have
to hire expatriates to fill other senior staff or technical
positions.

239
77. It can be extremely difficult, and is sometimes
impossible, to get both a visa and a work permit for noncitizens in the countries in which we operate. In many
countries, the process requires us to hire a local attorney, advertise the position locally to see if any local residents apply, and then demonstrate that none of the local
applicants are qualified. This can take several months, at
best. Often, we are unsuccessful. For example, last year
we were unable to obtain an Indian work permit for a
Bangladeshi employee with extensive expertise in working to prevent HIV/AIDS transmission among men who
have sex with men—expertise we needed for that particular position. To take another example, for the past
five months we have been trying, without success, to get
a Tanzanian visa for one of our employees. If we had
to try to get two sets of non-citizens into each country
where we work, we would have to do twice the work to
get visas and work permits (including paying double the
attorneys’ fees), and—because it would be difficult to explain why we need to bring in so many non-citizens—
would have even more difficulty getting the permissions
we need.
78. Even when we are able to get permission to
bring expatriates into a country, bringing them in is an
expensive proposition. In order to be attractive to
qualified potential applicants, we match the salary (generally in the six-figure range for our top managers) provided by the State Department in the countries in which
we work. On top of the base salary, we provide a “post
differential,” to compensate employees serving in areas
where the U.S. Department of State considers living
conditions to be particularly difficult, demanding, or unhealthful. In Ethiopia, the current post differential is

240
30 percent of the base salary. We also provide a “danger pay allowance,” to compensate employees in foreign
areas where civil insurrection, civil war, terrorism or
wartime conditions threaten physical harm or imminent
danger to the health or well-being of our employees.
In Khartoum, Sudan, for example, the danger pay rate
is currently 25 percent of base salary.
79. We also match the benefits packages provided
by the State Department. This is an expensive package, and takes a good deal of work by headquarters staff
to implement. For example, we provide non-citizens
with housing. If we do not have enough information
about the cost of comparable housing in that country,
the employee must obtain multiple bids before entering
into a lease, which can be time-consuming. Suitable
housing stock is extremely limited in most of the countries in which we work, so we are forced to pay the exorbitant rents generally charged to non-nationals, which
can run between $30,000 and $50,000 annually. Additionally, the shortage of suitable housing allows landlords in many countries to require us to pay not only a
security deposit, but also the first and last months rent
up front. In some countries we must even pay rent in
full a year or two in advance. This vastly increases the
up-front cost of hiring new employees, and also increases our financial risks, because if the employee
stops working for us before the end of the lease term we
generally cannot recover the rent we have pre-paid.
80. We also pay for and ensure that our employees
have access to electricity and other utility services in
their residences. In many countries where we work,
the electrical grid is unreliable, so we have to pay as

241
much as $20,000 to purchase a generator for each residential unit.
81. Where necessary, we provide security for our
staff living overseas. For example, because of the ongoing turmoil in Kenya we are currently providing 24hour security for each employee in that country.
82. We also pay for education for the children of our
expatriate employees. For older children in countries
where the local educational system is insufficient, we
pay to send the child to a boarding school abroad. This
can be extremely expensive: $48,300 per child annually for education abroad for employees based in India,
and $54,950 per child annually for education abroad for
employees based in Mozambique.
83. We pay for one trip home each year for all expatriate employees and their immediate family. For a
family of four this can be as much as $8,000 annually.
We also cover the cost of round-trip airfare for expatriates and their families in the event of serious illness or
death in their immediate family.
84. Finally, we pay for our expatriate employees to
move to the countries where they will be working, and
then to move home again at the end of their employment.
The amount varies depending on the size of the family,
but can cost as much as $15,000 for each move, in addition to airfare.
85. If we had to maintain two field offices in each
country instead of one, we would need a separate expatriate country representative for each, instead of the one
we currently have. We also might need duplicate expatriate senior management and technical staff. For

242
each of these duplicate employees, we would incur all of
the costs outlined above.
86. In addition to duplicating expatriates, we would
also have to duplicate staff who are citizens of the country in which the field office operates. In many cases,
this would be difficult or impossible, because in many of
the countries in which we operate there are few people
with the education and experience we require. For example, we often need senior staff with experience in how
to prevent the spread of HIV/AIDS among particular
populations, or in non-profit or governmental capacitybuilding. Finding one local person with such expertise
is difficult. In many instances, finding two would be
next to impossible.
87. In many countries in which we operate, cultural
norms require us to hire large staffs of local residents.
This is in part because local employees expect that we
will provide various basic services for them, and in part
because the local community expects foreign non-profits
to provide employment for as many people as possible.
Consequently, in our offices we normally hire administrative assistants, security guards, drivers, cooks, and
janitors. Were we required to employ two separate
sets of staff, we would have to duplicate each of these
employee positions, costing us twice as much in salary
and benefits.
88. A requirement that we maintain two sets of our
local and third-party national staff would also increase
the time and expense of getting them into the U.S. We
frequently bring field office staff to the U.S. for trainings, strategy meetings, board meetings, or other events
at our headquarters or elsewhere in the country. Since

243
September 11, 2001,, we have been increasingly encountering great difficulty in bringing non-U.S. citizens into
the U.S. For example, we held a week-long training in
the U.S. for our international financial staff in May 2007.
However, one of our junior finance employees from India was simply unable to get a visa to attend. Again, in
November 2007, a Bangladeshi employee was unable to
get a visa to attend an international staff meeting at our
headquarters. In both instances, our headquarters
staff engaged in vigorous, time-consuming efforts to get
the necessary permissions. If we had to hold duplicate
meetings in the U.S., and fly two sets of employees here,
we would have to pay not only for duplicate air fare
and lodging, but also for the extra expense of working to
try to get visas for all of these employees.
b)

Separate management and governance

89. The requirement of separate management and
governance would make it impossible for Pathfinder to
exercise its First Amendment rights through any affiliate. Pathfinder’s By-Laws, which are attached as Exhibit N, vest the corporation’s governance in a Board of
Directors. If Pathfinder’s board were unable to control the board or senior staff of an affiliate, it could not
use Pathfinder’s non-U.S. government funds to speak
through that affiliate.
2)

Separate accounts, accounting records,
and timekeeping records

90. The second factor Defendants’ guidelines consider in assessing physical and financial separation is
“the existence of separate accounts, accounting records,
and timekeeping records.” In some instances, it would
be simply impossible for Pathfinder to satisfy the dual

244
accounts requirement. India, for example, exercises
close controls over the bank accounts of foreign NGO’s
in order to control terrorism and the movement of funds
across its borders. As a foreign NGO, the Foreign
Contribution (Regulation) Act limits us to maintaining
only one bank account that receives funds from abroad
or receives U.S. currency. Foreign Contribution (Regulation) Act, § 6 (India). In order to open that account,
and to add or remove signatories, we must get government permission, which can be extremely slow. It recently took us almost an entire year—and a pile of paperwork almost an inch think—to get permission to have
a local Indian employee added as a signatory to an existing account. On some occasions, we have been unable to get former employees removed as signatories for
months after we requested that they be removed. It
would be extremely difficult and time-consuming for us
to seek permission to open a second bank account for a
new affiliate and there is no guarantee that we would
ultimately obtain approval.
91. Even where we are able to obtain permission to
open two separate accounts, doing so would be quite expensive. Pathfinder’s policy is that a member of the
headquarters staff should be a signatory on every bank
account, in case there is a revolution or other reason for
headquarters to need direct access to the account. In
many countries, each potential signatory must appear in
person at the bank in order to obtain permission to act
as a signatory. As a result, if we had to maintain two
bank accounts in each country, and if we had to have two
separate headquarters employees as signatories, we
would have to send each of those headquarters employees to each country, instead of sending just one.

245
3)

Separate facilities, equipment and supplies,
and extent of affiliates’ restricted activities

92. The third factor Defendants’ guidelines consider
in assessing physical and financial separation is “the degree of separation from facilities, equipment and supplies used by the affiliated organization to conduct restricted activities, and the extent of such restricted activities by the affiliate.” Opening a physically separate
office in each country, and every part of each country, in
which Pathfinder operates will be extremely difficult in
some places, and impossible in others, because some of
the countries in which we operate require us to obtain
permission before we open a new office.
93. Additionally, opening and maintaining an office
abroad is an extremely expensive proposition for Pathfinder. Having to duplicate those costs would be exorbitant. For example, our office rents are often quite
expensive. Moreover, just as often we must prepay a
year or two of rent on our residential leases, often we
must prepay rent on our office leases. That increases
our financial risks, because if we have to close an office
before the end of the lease term we lose the remainder
of the rent we have prepaid.
94. In many of the countries in which we work, we
must install and maintain our own telephone and internet data lines, and satellite dishes, which we would need
to duplicate in a second office. We also install and
maintain a computer server for each of our offices with
at least six employees. For offices with more than one
employee, we purchase at least two printers, and use one
only for confidential financial and personnel information.
We would have to duplicate all of these resources for a
second country office.

246
95. Maintaining two offices would also require us to
maintain two separate insurance policies. We operate in
countries where war, civil unrest, crime, car accidents, and
disease are all serious threats. We try to minimize our exposure to risk by buying extensive insurance coverage—as
many as 8 to 10 different policies in some countries. Buying a second set would be extremely expensive.
96. We maintain a fleet of cars for most of our offices, because a car and a driver is a security necessity.
Also for security reasons, and because of the generally
poor conditions of the roads, we tend to buy four-wheel
drive, all-terrain SUV’s. Buying two separate fleets of
cars would, consequently, be extremely expensive.
97. We must purchase generators for many of our offices, because the electrical grid is unreliable. Because
our offices rely heavily on computers for communication,
our power needs are extensive. Generators large enough
to meet our power needs can cost as much as $50,000.
98. The guidelines’ third factor also takes into account
“the extent of such restricted activities by the affiliate.” I
have no way of knowing how many restricted activities
would be too many. But this factor seems to require that
I ensure that each affiliate engage in a substantial amount
of activities that are permissible under the policy requirement. Those activities could not, of course, be funded by
the Global AIDS Act, because the affiliate could not receive any Global AIDS Act funding. So I would need to
ensure that we have some other source of funding for
those activities. In effect, this factor permits Pathfinder
to use an affiliate to carryout privately funded activities
otherwise barred by the policy requirement only if we
have funds for those activities, and for a substantial number of activities that would be permissible under the policy

247
requirement, and to establish and maintain a separate affiliate. This amounts to an extra, unnecessary tax on our
ability to engage in constitutionally protected speech and
activities with purely private funds.
99. I declare under penalty of perjury that the foregoing is true and correct.
Executed on Feb. 7, 2008
Washington, District of Columbia
/s/ DANIEL E. PELLEGROM
DANIEL E. PELLEGROM

248
DEPARTMENT OF HEALTH AND HUMAN SERVICES
45 CFR Part 89
RIN 0991-AB60
Organizational Integrity of Entities That Are Implementing Programs and Activities Under the Leadership
Act

U.S. Department of Health and Human

AGENCY:

Services.

ACTION:

Final rule.

The Department is issuing a final rule establishing the organizational integrity requirements for
Federal funding recipients under the United States
Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003 (Leadership Act). This rule requires
that funding announcements and agreements with
funding recipients include a clause that states that the
recipient is opposed to prostitution and sex trafficking
because of the psychological and physical risks they
pose for women, men and children. This rule also
modifies the requirements for recipient-affiliate separation and eliminates the requirement for an additional
certification by funding recipients.
SUMMARY:

DATES:

This rule is effective May 13, 2010.

John
Monahan, Office of Global Health Affairs, Hubert H.
Humphrey Building, Room 639H, 200 Independence
Avenue, SW., Washington, DC 20201, Tel: 202-6906174, E-mail: ogha.os@hhs.gov.
FOR FURTHER INFORMATION CONTACT:

249
SUPPLEMENTARY INFORMATION:
I.

Background

A. Statutory Background
Congress enacted the United States Leadership
Against HIV/AIDS, Tuberculosis, and Malaria Act of
2003 (‘‘Leadership Act’’) in May 2003. Public Law 10825 [22 U.S.C. 7601-7682]. The Leadership Act contains
limitations on the use of funds provided to carry out
HIV/AIDS activities under the Act.
Subsection
7631(f ) prohibits the use of Leadership Act HIV/AIDS
funds ‘‘to provide assistance to any group or organization that does not have a policy explicitly opposing prostitution and sex trafficking.’’ Subsection 7631(f ) was
amended in 2004 to exempt certain public international
organizations.
Consolidated Appropriations Act of
2004, Public Law 108-199, Div. D, Title II (2004).
The United States government is opposed to prostitution and sex trafficking. In enacting the Leadership
Act, Congress specifically found ‘‘Prostitution and other
sexual victimization are degrading to women and children and it should be the policy of the United States to
eradicate such practices. The sex industry, the trafficking of individuals into such industry, and sexual violence are additional causes of and factors in the spread
of the HIV/AIDS epidemic.’’ Leadership Act § 2(23)
Public Law 108-25. Congressional hearings at the
time of the Act showed a high incidence of HIV among
prostitutes and that prostitution fueled the demand
for sex trafficking. Accordingly, Congress unambiguously called for the elimination of prostitution and sextrafficking as part of the United States’ fight against
HIV/AIDS.

250
Section 301(f ) [22 U.S.C. 7631(f )] of the Leadership
Act requires that funding recipients have a policy explicitly opposing prostitution and sex trafficking. Additionally, recipients of Leadership Act funds cannot engage in activities that are inconsistent with their opposition to prostitution and sex trafficking.
Congress did not dictate the means by which the Department would implement the policy and the Congressional intent of the Act was not to overburden applicants
with unnecessary requirements. For example, during
legislative debate on the Leadership Act, in response to
a question from Senator Leahy on the Senate floor regarding section 301(f ), Senator Frist stated that ‘‘a
statement in the contract or grant agreement between
the U.S. Government and such organization that the organization is opposed to the practices of prostitution and
sex trafficking because of the psychological and physical
risks they pose for women * * * would satisfy the
intent of the provision.’’ 149 CONG. REC. S6,457
(daily ed. May 15, 2003) (statement of Sen. Frist).
B. Litigation and Regulatory Background
The Leadership Act was challenged on constitutional
grounds in two separate lawsuits after its enactment.
In a case filed in the U.S. District Court for the District
of Columbia, plaintiffs claimed the anti-prostitution provision compelled speech when the organization had no
policy either opposing or supporting prostitution.
DKT Int’l v. United States Agency for Int’l Dev.
(USAID), 435 F. Supp. 2d 5 (D.D.C. 2006). Ultimately,
the U.S. Court of Appeals for the District of Columbia
Circuit upheld the anti-prostitution provision, holding
that the government had a legitimate interest in ensur-

251
ing that organizations chosen to communicate its particular viewpoint did so in an efficient and effective fashion.
DKT Int’l v. USAID, 477 F.3d 758 (DC Cir. 2007). In
upholding this provision, the DC Circuit relied in part
on the fact that nothing prevented the plaintiff from itself remaining neutral and setting up a subsidiary that
had a policy opposing prostitution to receive government funds.
A second case was filed in the U.S. District Court for
the Southern District of New York, which granted an injunction against the Government on the basis that the
statute was unconstitutional because it did not leave
open ‘‘adequate alternative channels for communication.’’ Alliance for Open Soc’y Int’l (AOSI) v. USAID,
430 F. Supp. 2d 222 (S.D.N.Y. 2006). On appeal, the
U.S. Court of Appeals for the Second Circuit remanded
the case, in light of newly issued guidance by the Government providing for organizations to work with affiliates that would not be subject to the Leadership Act’s
requirements. AOSI v. USAID, 254 Fed. Appx. 843
(2d Cir. 2007). Upon remand, however, the District
Court maintained the injunction and allowed additional
plaintiffs to join the suit. AOSI v. USAID, 570 F. Supp.
2d 533 (S.D.N.Y. 2008). The Government has appealed
that decision.
Prior to and concurrent with the litigation, the Department took a number of steps to implement the prostitution policy requirement under the statute. By December 2003, HHS had begun including a requirement
in all of its grant and cooperative agreement funding announcements that all recipients under the Leadership
Act of HIV/AIDS funds have a policy explicitly opposing
prostitution and sex trafficking. On July 23, 2007,

252
HHS published ‘‘Organizational Integrity Guidance’’ in
the Federal Register to clarify the scope of the policy requirement.
The guidance allowed Leadership Act
HIV/AIDS funding recipients to have relationships with
organizations that engage in activities inconsistent with
a policy against prostitution and sex trafficking. 72 FR
41,076 (7/26/2007). HHS followed the issuance of this
guidance with a notice of proposed rulemaking (NPRM)
on April 17, 2008, 73 FR 29,096, which initiated the noticeand-comment rulemaking process. The final rule was
published on December 24, 2008, 73 FR 78,997, corrected on January 16, 2009, 74 FR 2,888 (codified at
45 CFR part 89), and took effect on January 20, 2009.
The final rule established the legal, financial, and organizational standards for determining whether a funding
recipient had objective integrity and independence from
an affiliated organization that engaged in activities
inconsistent with a policy opposing prostitution and
sex trafficking. The final rule also required all Leadership Act HIV/AIDS funding recipients, including subrecipients, to certify compliance with the rule.
On November 23, 2009, the Department again issued
a notice of proposed rulemaking to modify the final rule
of January 20, 2009. 74 FR 61096 (11/23/2009). The
proposed amendment to the present rule modifies the
criteria for evaluating the separation between recipients
and affiliated organizations, while complying with the
statutory requirement regarding opposition to prostitution and sex trafficking. It is essential to the Leadership Act that recipients of funds who implement
HIV/AIDS programs and activities do not create confusion as to the U.S. Government’s message opposing
prostitution and sex trafficking by undertaking activities or advocating positions that conflict with this policy.

253
However, as noted above, the Department has determined that the Congressional intent of the Leadership
Act can be effectuated through the application of standards that allow more flexibility for funding recipients
than the present guidelines.
II. Description of Final Rule and Response to Comments

The Department received twenty-seven comments in
response to the proposed rule, including one comment
filed after the close of the comment period which was
also considered. Comments came from individuals and
organizations both opposed to and in favor of changes to
the previous rule. Several comments were not responsive to the proposed rule and therefore are not addressed.
Several commenters stated the policy requirement was
inconsistent with the Leadership Act or improperly conflated prostitution with sex trafficking. However, the
final rule is consistent with section 301(f ) of the Act
which requires organizations receiving funds to have a
policy opposing ‘‘prostitution and sex trafficking.’’
Other comments are discussed under applicable headings.
Section 89.1

Applicability

This section provides that the policy requirement applies to all funding recipients not exempted by the Leadership Act. Currently, those organizations exempted
are the Global Fund to Fight AIDS, Tuberculosis, and
Malaria, the World Health Organization, the International AIDS Vaccine Initiative and any other United Nations agency.

254
This section also states what is required of HIV/AIDS
funding recipients under the Leadership Act. The Department shall include in any HIV/AIDS public funding
announcement under the Leadership Act the requirement that recipients agree that they are opposed to the
practices of prostitution and sex trafficking because of
the psychological and physical risks they pose for
women, men and children. This statement will also be
included in any Leadership Act HIV/AIDS funding instrument entered into with the recipient.
As explained, the Department believes this statement is consistent with the anti-prostitution provision and the Congressional intent behind it, as well as other goals of the
Act.
The Department will work with the Department of
State and with other agencies implementing the Leadership Act to ensure consistent application of its requirements.
Section 89.2

Definitions

This section defines terms used in this rule. It retains several terms from the previous iteration of the
rule such as ‘‘commercial sex act’’ and ‘‘prostitution.’’
However, given the regulation now requires the antiprostitution statement only in the announcement and
the awarding instrument to the ‘‘recipient,’’ it deletes
the terms ‘‘prime recipient’’ and ‘‘subrecipient.’’ A definition of ‘‘recipient’’ that mirrors the former ‘‘prime recipient,’’ directly funded entity, is included. While the
section deletes the definition of subrecipient, any organization receiving Leadership Act HIV/AIDS funds must
comply with the statutory requirements.

255
Several commenters objected to the lack of definition
for a number of terms such as ‘‘affiliate,’’ ‘‘restricted activities,’’ and ‘‘to the extent practicable.’’ As explained
below, the Department’s commitment to a case-by-case
approach in this area will allow flexibility based on the
circumstances presented. Some organizations may be
better able to separate themselves from an affiliate ‘‘in
the circumstances.’’ Conditions in some countries may
make it difficult for organizations to meet certain factors
relevant to determining whether sufficient separation
exists. Therefore, any attempt to strictly prescribe the
degree of separation would undermine the purpose of
the regulation.
Similarly, the Department does not define the term
‘‘affiliated organizations.’’ In common usage, ‘‘affiliate’’ means ‘‘to bring into close connection as a member
or branch.’’ Merriam-Webster’s Collegiate Dictionary
at 21 (11th ed. 2007). Legal affiliation is only one aspect of this relationship. The use of separate personnel, accounting, timekeeping, space and identifying
signage are also factors, among others. In determining whether there is sufficient separation, the Department will not base its decision solely on whether an entity is a legally separate ‘‘affiliate,’’ but instead will consider the likelihood that the degree of separation between a recipient of Leadership Act HIV/AIDS funds
and other connected organizations that are not required
to have a policy opposing prostitution and sex trafficking will not undermine or confuse the Government’s position in opposition to prostitution and sex trafficking.
As noted by multiple comments, the proposed rule
did not define ‘‘restricted activities.’’ Several comments expressed concerns that organizations that work

256
with the victims of prostitution and sex trafficking would
stop providing services that could prevent HIV/AIDS
because of their fear that the Government would determine the activities were ‘‘restricted activities,’’ and revoke Federal funding. Several comments also sought
approval of particular hypotheticals. The Department
does not believe it should provide opinions on hypothetical scenarios because information may be incomplete.
While the Department does not define restricted activities in the rule, working with other agencies implementing the Leadership Act, the U.S. Government intends to
provide broad information on types of activities that illustrate what would be covered.
Section 89.3
ents

Organizational Integrity of the Recipi-

This section sets forth the separation requirements
for funding recipients who wish to affiliate with organizations that do not have a policy opposing prostitution
and sex trafficking. Specifically, the final rule no
longer requires that an affiliate be a legally separate entity. As stated in the November 23, 2009, NPRM, separate legal incorporation in each of the host countries
where a recipient might work could prove complicated.
Additionally, the inherent difficulty of the Department
analyzing multiple foreign legal requirements makes
this factor unworkable as a determinative criterion.
The rule also allows greater flexibility for funding recipients to demonstrate organizational separation from
entities which do not have a policy opposing sex trafficking and prostitution. As noted in the NPRM, these
changes include changing separate personnel requirements to allocation of personnel requirements, and the

257
deletion of separate management and governance requirements.
Many commenters believe that the proposed rule,
even with modification, unlawfully compels speech in violation of the First Amendment, and therefore cannot
be enforced against domestic entities. The Department disagrees. As explained above, the DC Circuit
Court of Appeals upheld the Leadership Act against
constitutional claims even prior to the promulgation of
implementing regulations. The court in that case specifically relied on the fact that entities were free to set
up affiliates which ‘‘would qualify for government funds
as long as the two organizations’ activities were kept
sufficiently separate.’’ DKT Int’l v. USAID, 477 F.3d
at 763. Likewise, the Supreme Court and the Second
Circuit Court of Appeals have upheld more burdensome
regulations where funding recipients had ‘‘adequate alternative channels for protected expression.’’ Brooklyn Legal Servs. Corp. v. Legal Serv’s Corp., 462 F.3d
219, 231 (2d Cir. 2006); Rust v. Sullivan, 500 U.S. 173
(1991).
The goal in implementing the revised rule on the
prostitution policy provision is to ensure that the Government’s position opposing prostitution and sex trafficking is not undermined while allowing Leadership Act
funding recipients greater flexibility in finding alternative channels for protected expression in diverse areas
for diverse populations. Given the numerous factual
situations that may arise, the Department has deliberately adopted a case-by-case approach in this area, recognizing that circumstances in some countries may
make it difficult for organizations to satisfy some of the

258
factors demonstrating objective integrity and independence. The Department also plans to work with recipients to address individual questions regarding the separation criteria, and to help remedy violations before
taking enforcement action. We believe these steps will
ensure recipients have adequate channels for engaging
in protected speech while still adhering to the requirement of the Leadership Act that recipient organizations
be opposed to the practices of prostitution and sex trafficking because of the psychological and physical risks
they pose for women, men and children.
Several commenters also objected to the Department’s listing of only five factors relevant to the integrity analysis when the regulation allows that other unlisted factors may be taken into account. Again, the
relevant inquiry will not be the presence or absence of
any particular factor, but the ‘‘totality of circumstances,’’
under which the recipient organization is shown to be
sufficiently separate from an affiliate organization that
does not have a policy opposing prostitution. The court
decisions previously discussed all upheld similar regulations where the Government specifically stated the factors were ‘‘not limited to’’ those set forth in regulation.
Several commenters expressed concern that the extent of restricted activities by the affiliated organization
would be a factor considered by the Department. Given
that the purpose of affiliate separation requirements is
to determine when an affiliated organization is so closely
tied to the funding recipient that a reasonable observer
would attribute its activities to the funding recipient, the
Department agrees that the extent of restricted activities by a separate entity should not be considered, and
therefore has deleted that part of Subsection 89.3(b)(4).

259
Several commenters believed the proposed rule
should mirror the Department’s non-discrimination regulations for faith based organizations. Under these
regulations, the commenters insist, ‘‘religious activities’’
require only time or space separation. However, the
faith based regulations rely on different statutory and
constitutional foundations. The faith based regulations allow religious and non-religious organizations to
compete equally in applying for Federal funds as long as
time, place and other restrictions on religious activities
are met consistent with the Establishment Clause of the
U.S. Constitution. By contrast, the Leadership Act requires all funding recipients, regardless of the character
of their organization, to have a policy against prostitution and sex trafficking. The Leadership Act requires
that HIV/AIDS funding recipients act consistently with
their opposition to prostitution and sex trafficking.
This requirement necessitates greater separation between funding recipients and organizations that engage
in activities inconsistent with an opposition to prostitution and sex trafficking, than the faith based regulations
require between governmental programs operated by a
faith based organization and its religious activities.
The Department believes this rule best meets the goals
of the Leadership Act’s anti-prostitution provision without infringing upon the constitutional rights of recipients.
Deleted Section 89.3

Certification

As proposed, former section 89.3 requiring annual
certification of compliance with the anti-prostitution
provision by both recipients and sub-recipients has been
deleted. The Department does not believe such proce-

260
dures are necessary for compliance under the Leadership Act. Recipients are still required to follow the dictates of the Leadership Act and maintain the required
separation from affiliates that engage in activities inconsistent with an opposition to prostitution and sex trafficking. The required notice in the public announcement and awarding instrument will provide notice to funding recipients of the Leadership Act’s anti-prostitution
requirements and allow an opportunity to engage the
Department in further dialogue on the issue if an applicant desires.
Those commenting on this deletion suggested the
lack of certification would make the Leadership Act unenforceable, adding that the negligible cost of certification is far outweighed by its benefits. The Department
disagrees. The Department is not hampered in its
monitoring or enforcement by the lack of certification,
and may still conduct audits of discretionary grant programs whenever they are warranted to ensure compliance with program requirements.
Nothing in the
Leadership Act requires certification by recipients or
prevents enforcement when those requirements are not
met. Given the cost to the public of administering the
certification and the negligible benefit to the Department, deleting the requirement comports with the goals
of the Paperwork Reduction Act to ‘‘minimize the paperwork burden * * * from the collection of information by and for the Federal Government.’’ 35 U.S.C.
3501.

261
III. Impact Analysis

Executive Order 12866 and Paperwork Reduction Act
As explained in the NPRM to this final rule, this rule
is a ‘‘significant regulatory action’’ under Executive Order 12866, section 3(f )(4), because it raises novel legal or
policy issues that arise out of legal mandates and the
President’s priorities, and accordingly, the Office of
Management and Budget has reviewed it.
This rule modifies a previously issued final rule on
the same subject, published on December 24, 2008, in
the Federal Register. The modification reduces the
burden on applicants and funding recipients in complying with the policy. The December 24, 2008, final
rule required statements and formal documentation
from recipients before they could receive Leadership
Act HIV/AIDS funds. The Impact Analysis and the
Paperwork Reduction Act in the December 24, 2008, final rule estimated the burden and cost of writing the additional documentation. This rule no longer requires
this additional documentation. As a result, applicants
for Leadership Act HIV/AIDS funds will no longer have
to incur the costs outlined in the December 24, 2008, impact analysis and paperwork burden analysis.
Therefore, the rule should relieve regulated entities
by the amounts specified in the December 24, 2008, final
rule. We are republishing the impact table from the
December 24, 2008, final rule. The burden estimate
was $7,337 calculated by assuming an additional half
hour of clerical work to prepare documentation on behalf of 555 grantees at an hourly rate of $26.44.

262

List of Subjects in 45 CFR Part 89

Administrative practice and procedure, Federal aid programs, Grants programs, Grants administration.
Dated:

January 22, 2010.

John Monahan,

Interim Director, Office of Global Health Affairs.
Dated:

January 22, 2010.

Kathleen Sebelius,

Secretary.

■ Therefore, under the authority of section 301(f ) of
the Leadership Act, as amended, and for the reasons
stated in the preamble, the Department revises 45 CFR
part 89 to read as follows:
PART 89—ORGANIZATIONAL INTEGRITY OF ENTITIES IMPLEMENTING PROGRAMS AND ACTIVITIES
UNDER THE LEADERSHIP ACT

Sec.
89.1 Applicability and requirements.
89.2 Definitions.
89.3 Organizational integrity of recipients.
Authority: Section 301(f ) of the Leadership Act,
Pub. L. 108-25, as amended (22 U.S.C. 7631(f )) and
5 U.S.C. 301.

263
§ 89.1

Applicability and requirements.

(a) This regulation applies to all recipients unless
they are exempted from the policy requirement by the
Leadership Act or other statute.
(b) The Department of Health and Human Services
(HHS) components shall include in the public announcement of the availability of the grant, cooperative agreement, contract, or other funding instrument involving
Leadership Act HIV/AIDS funds the requirement that
recipients agree that they are opposed to the practices
of prostitution and sex trafficking because of the psychological and physical risks they pose for women, men,
and children. This requirement shall also be included
in the award documents for any grant, cooperative
agreement or other funding instrument involving Leadership Act HIV/AIDS funds entered into with the recipient.
§ 89.2

Definitions.

For the purposes of this part:
Commercial sex act means any sex act on account of
which anything of value is given to or received by any
person.
Leadership Act means the United States Leadership
Against HIV/AIDS, Tuberculosis, and Malaria Act of
2003, Public Law 108-25, as amended (22 U.S.C. 76017682).
Prostitution means procuring or providing any commercial sex act.
Recipients are contractors, grantees, applicants or
awardees who receive Leadership Act funds for HIV/AIDS
programs directly or indirectly from HHS.

264
Sex trafficking means the recruitment, harboring,
transportation, provision, or obtaining of a person for
the purpose of a commercial sex act.
§ 89.3

Organizational integrity of recipients.

A recipient must have objective integrity and independence from any affiliated organization that engages
in activities inconsistent with the recipient’s opposition
to the practices of prostitution and sex trafficking because of the psychological and physical risks they pose
for women, men and children (‘‘restricted activities’’).
A recipient will be found to have objective integrity and
independence from such an organization if:
(a) The affiliated organization receives no transfer
of Leadership Act HIV/AIDS funds, and Leadership Act
HIV/AIDS funds do not subsidize restricted activities;
and
(b) The recipient is, to the extent practicable in the
circumstances, separate from the affiliated organization. Mere bookkeeping separation of Leadership Act
HIV/AIDS funds from other funds is not sufficient.
HHS will determine, on a case-by-case basis and based
on the totality of the facts, whether sufficient separation
exists. The presence or absence of any one or more
factors relating to legal, physical, and financial separation will not be determinative. Factors relevant to this
determination shall include, but not be limited to, the
following:
(1) Whether the organization is a legally separate
entity;

265
(2) The existence of separate personnel or other allocation of personnel that maintains adequate separation of the activities of the affiliated organization from
the recipient;
(3) The existence of separate accounting and timekeeping records;
(4) The degree of separation of the recipient’s facilities from facilities in which restricted activities occur;
and
(5) The extent to which signs and other forms of
identification that distinguish the recipient from the affiliated organization are present.

266

Acquisition & Assistance Policy Directive (AAPD)
From the Director, Office of Acquisition & Assistance
Issued: Apr. 13, 2010
AAPD 05-04 Amendment 3
Implementation of the United States Leadership Against
HIV/AIDS, Tuberculosis, and Malaria Act of 2003, as
amended—Eligibility Limitation on the Use of Funds
and Opposition to Prostitution and Sex Trafficking

Subject Category: ASSISTANCE, ACQUISITION
MANAGEMENT
Type:

POLICY See Also AAPD 05-04,
issued June 9,

AAPDs provide information of significance to all agency
personnel and partners involved in the Acquisition and
Assistance process. Information includes (but is not
limited to): advance notification of changes in acquisition or assistance regulations; reminders; procedures;
and general information. Also, AAPDs may be used to
implement new requirements on short-notice, pending
formal amendment of acquisition or assistance regulations.

267
AAPDs are EFFECTIVE AS OF THE ISSUED DATE
unless otherwise noted in the guidance below; the directives remain in effect until this office issues a notice of
cancellation.

(signature on file)
Gary Juste
Acting Director

268
1.

PURPOSE:

This Acquisition & Assistance Policy Directive (AAPD)
amendment:
(A) replaces all previous versions of the provisions titled “Prohibition on the Promotion or Advocacy of
the Legalization or Practice of Prostitution or Sex Trafficking” with the revised versions in Attachments A
through C. Agreement Officers (AOs) and Contracting
Officers (COs) must include the revised standard provisions for assistance agreements (Attachments A and B).
They must also include the revised special provisions
for contracts (Attachment C) in awards that include
FY04-FY13 funds that are made available for HIV/AIDS
activities, regardless of the program account;
(B) clarifies that a USAID recipient or contractor that
receives funds for HIV/AIDS activities meets the statutory requirement to have a policy opposing prostitution
and sex trafficking by signing a statement in its award
that the recipient or contractor is opposed to the practices of prostitution and sex trafficking because of the
psychological and physical risks they pose for women,
men, and children. The USAID recipient or contractor
is not required to adopt a separate organizational policy
opposing prostitution and sex trafficking;
(C) eliminates the requirement that a prime recipient
must provide a separate document certifying compliance with applicable standard provisions for assistance
agreements that include funds for HIV/AIDS activities.
The certification requirement was established in Section
3.A.III of the original AAPD 05-04;

269
(D) modifies the criteria AOs and COs use for determining whether or not there is sufficient separation between a USAID recipient or contractor that receives
funds for HIV/AIDS activities and an affiliate organization that engages in activities that are not consistent
with a policy opposing prostitution and sex trafficking
as set forth in Section 4 below; and
(E) clarifies that AAPD 05-04 as amended through
this Amendment No. 3 applies, effective as of the date of
the AO/CO signature, to awards that include FY04FY13 funds that are made available for HIV/AIDS activities, regardless of the program account. 1
See the Actions Required in Section 2 below for specific
steps for implementation.
2.

ACTIONS REQUIRED:

(A) Assistance to Non-Governmental Organizations
(NGOs) and Non-Exempt Public International Organizations 2 (PIOs)

(1) Standard Provisions
AOs must include the provisions in Attachment A in
each of the following when obligating or intending to
obligate (in the case of solicitations) FY04-FY13
FY04-FY13 funds that are made available to the President in the
Foreign Operations, Export Financing, and Related Programs Appropriations Act under the heading “Bilateral Economic Assistance”
and that are allocated or used, in whole or in part, for the purposes
of combating HIV/AIDS should be considered potentially affected
by the restrictions in AAPD 05-04 and its amendments. Consult
the Office of the General Counsel (GC) or your Regional Legal Advisor (RLA) to seek legal advice on whether the restrictions apply to
the funds in question.
2
The list of statutorily exempt PIOs is included in Section 2.B.
1

270
funds made available for HIV/AIDS activities, regardless of the program account:

(2)

(a)

any new Request for Applications (RFA)
and Annual Program Statement (APS);

(b)

any new grant or cooperative agreement
to a U.S. NGO, a non-U.S. NGO, or a nonexempt PIO that meets the conditions set
forth in Section 4.A below; and

(c)

any modification to an existing grant or cooperative agreement to a U.S. NGO, a nonU.S. NGO, or a non-exempt PIO that meets
the conditions set forth in Section 4.A below.

Assistance Awards to Alliance for Open Society
International (AOSI), Pathfinder or a member of
Global Health Council (“GHC”) or InterAction 3
(with the exception of DKT International, Inc.)

AOs must include the language in Footnote #9 in Attachment A in each of the following when obligating
or intending to obligate (in the case of solicitations)
FY04-FY13 funds made available for HIV/AIDS activities, regardless of the program account:
(a)

any new grant or cooperative agreement to
AOSI, Pathfinder or a member of GHC or
InterAction (with the exception of DKT International, Inc.) that meets the conditions
set forth in Section 4.A below; and

(b)

any modification to an existing grant or cooperative agreement to AOSI, Pathfinder

3
The lists of members of GHC and InterAction can be found at:
http://www.usaid.gov/business/business_opportunities/cib/pdf/

271
or a member of GHC or InterAction (with
the exception of DKT International, Inc.)
that meets the conditions set forth in Section 4.A below.
(3) Certification
AOs no longer need to obtain the certification set
forth in Section 3.A.III of AAPD 05-04, dated June 9,
2005.
(4) Organizational Integrity Guidance
AOs must consider the “Organizational Integrity
Guidance” in Section 4.B below when determining a
prospective or existing assistance recipient’s eligibility or compliance with the provisions in Section 4.B
below. AOs must also obtain clearance from Agency
legal counsel before issuing any written determination relating to the organizational integrity pertaining to USAID awards.
(B) Assistance to the Global Fund to Fight AIDS, Tuberculosis and Malaria, the World Health Organization, the
International AIDS Vaccine Initiative and any United
Nations agency

(1) Standard Provisions
AOs must include the provisions in Attachment B in
each of the following when obligating or intending to
obligate (in the case of solicitations) FY04-FY13 funds
made available for HIV/AIDS activities, regardless
of the program account:
(a)

new Request for Applications (RFA) and
Annual Program Statement (APS);

272
(b)

any new grant or cooperative agreement
that meets the conditions set forth in Section 4.A below to:
• the Global Fund to Fight AIDS, Tuberculosis and Malaria;
• the World Health Organization;
• the International AIDS Vaccine Initiative; or
• any United Nations agency; and

(c)

any modification to an existing grant or cooperative agreement that meets the conditions set forth in Section 4.A below to:
• the Global Fund to Fight AIDS, Tuberculosis and Malaria;
• the World Health Organization;
• the International AIDS Vaccine Initiative; or
• any United Nations agency.

(2) Organizational Integrity Guidance
As these statutorily exempted PIOs are not required
to state in their awards that they oppose the practices
of prostitution and sex trafficking because of the psychological and physical risks they pose for women,
men, and children, AOs will not need to consider the
“Organizational Integrity Guidance” in Section 4.B
below.

273
(C) Contracts:
(1) Special Provisions
COs must include the special provisions in Attachment C in each of the following when obligating or
intending to obligate (in the case of solicitations)
FY04-FY13 funds made available for HIV/AIDS activities, regardless of the program account:
(a)

any new acquisition solicitation;

(b)

any new contract that meets the conditions
set forth in Section 4.A below; and

(c)

any amendment to an existing contract that
meets the conditions set forth in Section
4.A below.

(2) Indefinite Quantity Contracts (IQC)
COs must include the special provisions in Attachment C in each of the following when obligating or
intending to obligate (in the case of solicitations)
FY04-FY13 funds made available for HIV/AIDS activities, regardless of the program account:
(a)

any new IQC solicitation;

(b)

any new IQC award that meets the conditions set forth in Section 4.A below 4; and

4
The special provisions in Attachment C must be included in the
IQC award. Such provisions will be deemed to apply to any order
placed under the IQC for HIV/AIDS activities.

274
(c)

any existing IQC when an order is placed
that meets the conditions set forth in Section 4.A below 5.

(3) Contracts to AOSI, Pathfinder or a member of
Global Health Council (“GHC”) or InterAction 6
(with the exception of DKT International, Inc.)
COs must include the bracketed footnote in Attachment C in each of the following when obligating or
intending to obligate (in the case of solicitations)
FY04-FY13 funds made available for HIV/AIDS activities, regardless of the program account:
(a)

any new contract or IQC award to AOSI,
Pathfinder or a member of GHC or InterAction (with the exception of DKT International, Inc.) that meets the conditions set
forth in Section 4.A below; and

(b)

any modification to an existing contract or
IQC award to AOSI, Pathfinder or a member of GHC or InterAction (with the exception of DKT International, Inc.) that meets
the conditions set forth in Section 4.A below.

(4) Personal Services Contracts (PSCs)
The special provisions in Attachment C do not apply
to PSCs. During their tour of duty, PSC contractors
The IQC award need not be modified until a new order requiring
additional funding for HIV/AIDS activities is placed. At that time,
the IQC award should be modified. The modification will be deemed
to apply to any order placed under the IQC for HIV/AIDS activities.
6
The lists of members of GHC and InterAction can be found at:
http://www.usaid.gov/business/business_opportunities/cib/pdf/
5

275
are considered federal employees for the purposes of
18 USC 202(A), 5 CFR part 2635, and the USAID General
Notice entitled “Employee Review of the New Standards of Conduct.” ,

(5) Grants under Contracts
If a contract provides for the contractor to execute
grants to NGOs (not-for-profits or for-profits) when
obligating or intending to obligate (in the case of solicitations) FY04-FY13 funds that are made available
for HIV/AIDS activities, regardless of the program
account, then the contractor must comply with the requirement to use the assistance provisions in Section
2.A.I of this AAPD amendment. The contractor
must do this when awarding grants or cooperative
agreements under its contract (in compliance with
ADS 302.3.5.6(b)).
(6) Organizational Integrity Guidance
COs must consider the “Organizational Integrity
Guidance” in Section 4.B below when determining a
prospective or existing organization’s eligibility or
compliance with the provisions in Section 4.B below.
COs must also obtain clearance from Agency legal
counsel before issuing any written determination relating to organizational integrity pertaining to
USAID awards.
3.

BACKGROUND:

Attachment D includes the legislative and litigation
background of this AAPD 05-04 Amendment No. 3 and
a brief summary of the history of the Organizational Integrity Guidance and the limited contracting exception
for providers of certain commercial items or services

276
contained in AAPD 05-04 Amendment No. 1 and AAPD
05-04 Amendment No. 2, respectively. AAPD 05-04
Amendment No. 1, AAPD 05-04 Amendment No. 2, PEB
No. 2005-08, and PEB 2008-04 have been superseded in
their entirety by this AAPD 05-04 Amendment No.3.
4.

GUIDANCE:

The provisions in this AAPD are funding restrictions
that enable USAID to exercise administrative remedies
should the awardee violate the United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act
of 2003, as amended, by not complying with the terms of
the award.
A. AOs and COs must use the provisions as prescribed
in Attachments A, B, or C.
All new contracts, grants, and cooperative agreements
that are (1) funded with FY04-13 funds made available
for HIV/AIDS activities, regardless of the program account and (2) executed on or after April 13, 2010, the effective date of AAPD 05-04 Amendment No. 3, AOs and
COs must include the provisions as prescribed in Attachments A, B, or C.
Under certain conditions AOs and COs must replace all
previous versions of the provisions titled “Prohibition on
the Promotion or Advocacy of the Legalization or Practice of Prostitution or Sex Trafficking” with the revised
versions in Attachments A, B, or C.
These conditions are when contracts, grants, and cooperative agreements are (1) funded with FY04-13 funds
that are made available for HIV/AIDS activities, regardless of the program account; (2) modified on or after

277
April 13, 2010, the effective date of AAPD 05-04 Amendment No. 3; and (3) when the modification requires additional funding.
This modification must be bilateral (i.e., must be signed
by the USAID AO or CO and by the contractor, grantee,
or recipient). By signing the modification, the contractor, grantee, or recipient agrees to be bound by the
clause requirements.
Current contracts, grants, and cooperative agreements
need not be modified to include the new clauses if they
are not modified to add funds.
B. The restriction set forth in Sections A.3(b) and
C.3(b) in Attachments A and C, respectively, no longer
requires organizations to adopt a separate organizational policy opposing prostitution and sex trafficking.
Instead, the restriction requires organizations to state
in the award that they oppose the practices of prostitution and sex trafficking because of the psychological and
physical risks they pose for women, men, and children.
AOs and COs must consider the below guidance when
evaluating whether a recipient’s agreement that it opposes prostitution and sex trafficking because of the
psychological and physical risks they pose for women,
men, and children may be adversely implicated by the
statements or activities of an affiliate of the recipient. 7

7
The Federal Acquisition Regulation (FAR) subpart 2.101 defines
“Affiliates” as follows:
“Affiliates” means associated business concerns or individuals
if, directly or indirectly—
(1) Either one controls or can control the other; or
(2) A third party controls or can control both.

278
Organizational Integrity of Recipient.

Contractors, grantees, and recipients of cooperative
agreements (“Recipients”) must have objective integrity and independence from any affiliated organization
that engages in activities inconsistent with the Recipient’s opposition to the practices of prostitution and sex
trafficking because of the psychological and physical
risks they pose for women, men, and children (“restricted
activities”). A Recipient will be found to have objective
integrity and independence from such an organization
if:
(1) The affiliated organization receives no transfer
of Leadership Act funds, and Leadership Act funds
do not subsidize restricted activities; and
(2) The Recipient is, to the extent practicable in the
circumstances, separate from the affiliated organization. Mere bookkeeping separation of Leadership
Act funds from other funds is not sufficient. USAID
will determine, on a case-by-case basis and based on
the totality of the facts, whether sufficient separation
exists. The presence or absence of any one or more
factors relating to legal, physical, and financial separation will not be determinative. Factors relevant
to this determination shall include, but are not limited to:
(a) Whether the affiliated organization is a legally separate entity;
(b) The existence of separate personnel or other
allocation of personnel that maintains adequate
There is no corresponding definition of “affiliates” in USAID assistance regulations.

279
separation of the activities of the affiliated organization from the recipient;
(c) The existence of separate accounting and
timekeeping records;
(d) The degree of separation of the Recipient’s facilities from facilities in which restricted activities
occur; and
(e) The extent to which signs and other forms of
identification that distinguish the Recipient from
the affiliated organization are present.
5.

POINTS OF CONTACT:

USAID Contracting Officers and Agreement Officers
may direct their questions about this AAPD to Jacqueline L. Taylor, M/OAA/P, Phone: (202) 712-0492 email:
jltaylor@usaid.gov.
Contractors, recipients, and prospective offerors for
contracts or assistance awards must direct their questions to the cognizant Contracting Officer or Agreement
Officer for the award.
All other inquiries about this AAPD may be addressed
to Diane Bui, GC/GH & EGAT, Phone: (202) 712-0529
e-mail: dbui@usaid.gov or to Diana Weed, GC/GH &
EGAT, Phone: (202) 712-5245 e-mail: dweed@usaid.gov.

280
ATTACHMENT
A—Assistance
Provisions—NonGovernmental Organizations (NGOs) and Non-Exempt
Public International Organizations (PIOs) 8
A.1 Organizations Eligible for Assistance (Assistance)
(June 2005)

Prescription. This AAPD amendment does not amend
the provision titled “Organizations Eligible for Assistance (Assistance) (June 2005)” set forth in Section 3.A.I
of the original AAPD 05-04, dated June 9, 2005. Agreement Officers (AOs) must include that Standard Provision, found at: http://www.usaid.gov/business/business_
opportunities/cib/pdf/aapd05_04.pdf, in any new assistance award, or amendment to an existing award (if not
already incorporated into the agreement), to U.S. NGOs,
non-U.S. NGOs, or non-exempt PIOs. The prime recipient must flow this provision down in all subawards, procurement contracts or subcontracts.
A.2

Condoms (Assistance) (June 2005)

Prescription. This AAPD amendment does not amend
the provision titled “Condoms (Assistance) (June 2005)”
set forth in Section 3.A.I of the original AAPD 05-04,
dated June 9, 2005. AOs must include that Standard
Provision, found at:
http://www.usaid.gov/business/
business_opportunities/cib/pdf/aapd05_04.pdf, in any
new assistance award, or amendment to an existing
award (if not already incorporated into the agreement),
to U.S. NGOs, non-U.S. NGOs, or non-exempt PIOs.
The prime recipient must flow this provision down in all
subawards, procurement contracts or subcontracts.

8

The list of statutorily exempt PIOs is included in Attachment B.

281
A.3 Prohibition on the Promotion or Advocacy of the
Legalization or Practice of Prostitution or Sex Trafficking (Assistance) (April 2010)

Prescription. This AAPD amendment replaces the
provision titled “Prohibition on the Promotion or Advocacy of the Legalization or Practice of Prostitution or
Sex Trafficking (Assistance) (June 2005)” set forth in
Section 3.A.II of the original AAPD 05-04, dated June 9,
2005. AOs must include the following revised Standard
Provision A.3 in any new assistance award or amendment to an existing award to U.S. NGOs, non-U.S.
NGOs, or non-exempt PIOs. The prime recipient must
flow this provision down in all subawards, procurement
contracts or subcontracts.
“PROHIBITION ON THE PROMOTION OR ADVOCACY OF THE LEGALIZATION OR PRACTICE OF PROSTITUTION OR SEX TRAFFICKING (ASSISTANCE) (APRIL 2010)
(a) The U.S. Government is opposed to prostitution
and related activities, which are inherently harmful
and dehumanizing, and contribute to the phenomenon of trafficking in persons. None of the funds
made available under this agreement may be used to
promote or advocate the legalization or practice of
prostitution or sex trafficking. Nothing in the preceding sentence shall be construed to preclude the
provision to individuals of palliative care, treatment,
or post-exposure pharmaceutical prophylaxis, and
necessary pharmaceuticals and commodities, including test kits, condoms, and, when proven effective,
microbicides.

282
(b)(1)
Except as provided in (b)(2) and (b)(3),
by accepting this award or any subaward, a nongovernmental organization or public international organization awardee/subawardee agrees that it is opposed to the practices of prostitution and sex trafficking because of the psychological and physical risks
they pose for women, men, and children.[9]
(b)(2) The following organizations are exempt from
(b)(1): the Global Fund to Fight AIDS, Tuberculosis and Malaria; the World Health Organization; the
International AIDS Vaccine Initiative; and any
United Nations agency.
(b)(3) Contractors and subcontractors are exempt
from (b)(1) if the contract or subcontract is for commercial items and services as defined in FAR 2.101,
such as pharmaceuticals, medical supplies, logistics
support, data management, and freight forwarding.
(b)(4) Notwithstanding section (b)(3), not exempt
from (b)(1) are recipients, subrecipients, contractors,
and subcontractors that implement HIV/AIDS programs under this assistance award, any subaward, or
procurement contract or subcontract by:

The following footnote should only be included in awards to Alliance for Open Society International (AOSI), Pathfinder, or a member of the Global Health Council (GHC) or InterAction (with the exception of DKT International, Inc.):
“Any enforcement of this clause is subject to Alliance for Open
Society International v. USAID, 05 Civ. 8209 (S.D.N.Y., orders
filed on June 29, 2006 and August 8, 2008) (orders granting
preliminary injunction) for the term of the Orders.”
The lists of members of GHC and InterAction can be found at:
http://www.usaid.gov/business/business_opportunities/cib/pdf/
9

283
(i) providing supplies or services directly to the final populations receiving such supplies or services in
host countries;
(ii) providing technical assistance and training directly to host country individuals or entities on the
provision of supplies or services to the final populations receiving such supplies and services; or
(iii) providing the types of services listed in FAR
37.203(b)(1)-(6) that involve giving advice about substantive policies of a recipient, giving advice regarding the activities referenced in (i) and (ii), or making
decisions or functioning in a recipient’s chain of command (e.g., providing managerial or supervisory services approving financial transactions, personnel actions).
(c) The following definitions apply for purposes of
this provision:
“Commercial sex act” means any sex act on account
of which anything of value is given to or received by
any person.
“Prostitution” means procuring or providing any
commercial sex act and the “practice of prostitution”
has the same meaning.
“Sex trafficking” means the recruitment, harboring,
transportation, provision, or obtaining of a person
for the purpose of a commercial sex act. 22 U.S.C.
7102(9).
(d) The recipient shall insert this provision, which is
a standard provision, in all subawards, procurement
contracts or subcontracts.

284
(e) This provision includes express terms and conditions of the award and any violation of it shall be
grounds for unilateral termination of the award by
USAID prior to the end of its term.
(End of Provision)”

285
ATTACHMENT B—Assistance Provisions—The Global
Fund to Fight AIDS, Tuberculosis and Malaria, the World
Health Organization, the International AIDS Vaccine Initiative, and any United Nations agency
B.1 Organizations Eligible for Assistance (Assistance)
(June 2005)

Prescription. This AAPD amendment does not amend
the provision titled “Organizations Eligible for Assistance (Assistance) (June 2005)” set forth in Section 3.A.I
of the original AAPD 05-04, dated June 9, 2005.
Agreement Officers (AOs) must include that Standard
Provision, found at:
http://www.usaid.gov/business/
business_opportunities/cib/pdf/aapd05_04.pdf, in any
new assistance award, or amendment to an existing
award (if not already incorporated into the agreement),
to the Global Fund to Fight AIDS, Tuberculosis and Malaria, the World Health Organization, the International
AIDS Vaccine Initiative, and any United Nations
agency. The prime recipient must flow this provision
down in all subawards.
B.2

Condoms (Assistance) (June 2005)

Prescription. This AAPD amendment does not amend
the provision titled “Condoms (Assistance) (June 2005)”
set forth in Section 3.A.I of the original AAPD 05-04,
dated June 9, 2005. AOs must include that Standard
Provision, found at http://www.usaid.gov/business/business
_opportunities/cib/pdf/aapd05_04.pdf, in any new assistance award, or amendment to any existing award (if not
already incorporated into the agreement), to the Global
Fund to Fight AIDS, Tuberculosis and Malaria, the
World Health Organization, the International AIDS
Vaccine Initiative, and any United Nations agency.

286
The prime recipient must flow this provision down in all
subawards.
B.3 Prohibition on the Promotion or Advocacy of the
Legalization or Practice of Prostitution or Sex Trafficking (Assistance—the Global Fund to Fight AIDS, Tuberculosis and Malaria, the World Health Organization, the
International AIDS Vaccine Initiative and any United
Nations agency) (April 2010)

Prescription. This AAPD amendment replaces the
provision titled “Prohibition on the Promotion or Advocacy of the Legalization or Practice of Prostitution or
Sex Trafficking (Assistance) (June 2005)” set forth in
Section 3.A.II of the original AAPD 05-04, dated June 9,
2005. AOs must include the following revised Standard
Provision B.3 in any new assistance award, or amendment to an existing award, to the Global Fund to Fight
AIDS, Tuberculosis and Malaria, the World Health Organization, the International AIDS Vaccine Initiative,
and any United Nations agency. The prime recipient
must flow this provision down in all subawards.
“PROHIBITION ON THE PROMOTION OR ADVOCACY OF THE LEGALIZATION OR PRACTICE OF PROSTITUTION OR SEX TRAFFICKING (ASSISTANCE—THE GLOBAL FUND TO
FIGHT AIDS, TUBERCULOSIS AND MALARIA,
THE WORLD HEALTH ORGANIZATION, THE
INTERNATIONAL AIDS VACCINE INITIATIVE, AND ANY UNITED NATIONS AGENCY)
(APRIL 2010)
(a) The U.S. Government is opposed to prostitution
and related activities, which are inherently harmful

287
and dehumanizing, and contribute to the phenomenon of trafficking in persons. None of the funds
made available under this agreement may be used to
promote or advocate the legalization or practice of
prostitution or sex trafficking. Nothing in the preceding sentence shall be construed to preclude the
provision to individuals of palliative care, treatment,
or post-exposure pharmaceutical prophylaxis, and
necessary pharmaceuticals and commodities, including test kits, condoms, and, when proven effective,
microbicides.
(b) The following definitions apply for purposes of
this provision:
“Commercial sex act” means any sex act on account
of which anything of value is given to or received by
any person.
“Prostitution” means procuring or providing any
commercial sex act and the “practice of prostitution”
has the same meaning.
“Sex trafficking” means the recruitment, harboring,
transportation, provision, or obtaining of a person
for the purpose of a commercial sex act. 22 U.S.C.
7102(9).
(c) The recipient shall insert this provision, which is
a standard provision, in all subawards.
(d) This provision includes express terms and conditions of the award and any violation of it shall be
grounds for unilateral termination of the award by
USAID prior to the end of its term.
(End of Provision)”

288
ATTACHMENT C—Acquisition Provisions
C.1 Organizations Eligible for Assistance (Acquisition)
(June 2005)

Prescription. This AAPD amendment does not amend
the provision titled “Organizations Eligible for Assistance (Acquisition) (June 2005)” set forth in Section
3.B.I of the original AAPD 05-04, dated June 9, 2005.
Contracting Officers (COs) must include that Special
Provision, found at http://www.usaid.gov/business/
business_opportunities/cib/pdf/aapd05_04.pdf, in any
new acquisition award, or amendment to an existing
award (if not already included in the agreement), to contractors. The prime contractor must flow this provision down in all subcontracts.
C.2

Condoms (Acquisition) (June 2005)

Prescription. This AAPD amendment does not amend
the provision titled “Condoms (Acquisition) (June 2005)”
set forth in Section 3.B.I of the original AAPD 05-04,
dated June 9, 2005. COs must include that Special
Provision C.2, found at http://www.usaid.gov/business/
business_opportunities/cib/pdf/aapd05_04.pdf, in any
new acquisition award, or amendment to an existing
award (if not already included in the agreement), to contractors. The prime contractor must flow this provision down in all subcontracts.
C.3 Prohibition on the Promotion or Advocacy of the
Legalization or Practice of Prostitution or Sex Trafficking (Acquisition) (April 2010)

Prescription. This AAPD amendment replaces all previous versions of the provision titled “Prohibition on the

289
Promotion or Advocacy of the Legalization or Practice
of Prostitution or Sex Trafficking (Acquisition)”.
These previous versions include the June 2005 version
in Section 3.B.II of the original AAPD 05-04, dated June
9, 2005, and the October 2007 version in Section 3 of
AAPD 05-04 Amendment No.2, dated October 16, 2007.
COs must include the following Special Provision C.3 in
any new acquisition award, or amendment to an existing
award, to contractors. The prime contractor must flow
this provision down in all subcontracts.
“PROHIBITION ON THE PROMOTION OR ADVOCACY OF THE LEGALIZATION OR PRACTICE OF PROSTITUTION OR SEX TRAFFICKING (ACQUISITION) (APRIL 2010)
(a) This contract is authorized under the United
States Leadership Against HIV/AIDS, Tuberculosis,
and Malaria Act of 2003 (Pub. L. No. 108-25), as
amended. This Act enunciates that the U.S. Government is opposed to prostitution and related activities, which are inherently harmful and dehumanizing, and contribute to the phenomenon of trafficking
in persons. The contractor shall not use any of the
funds made available under this contract to promote
or advocate the legalization or practice of prostitution or sex trafficking. Nothing in the preceding
sentence shall be construed to preclude the provision
to individuals of palliative care, treatment, or postexposure pharmaceutical prophylaxis, and necessary
pharmaceuticals and commodities, including test
kits, condoms, and, when proven effective, microbicides.

290
(b)(1) Except as provided in (b)(2) and (b)(3), by its
signature of this contract or subcontract for HIV/AIDS
activities, a non-governmental organization or public
international organization awardee/subawardee agrees
that it is opposed to the practices of prostitution and
sex trafficking because of the psychological and physical risks they pose for women, men, and children.[10]
(b)(2) The following organizations are exempt from
(b)(1): the Global Fund to Fight AIDS, Tuberculosis and Malaria; the World Health Organization; the
International AIDS Vaccine Initiative; and any
United Nations agency.
(b)(3) Contractors and subcontractors are exempt
from (b)(1) if the contract or subcontract is for commercial items and services as defined in FAR 2.101,
such as pharmaceuticals, medical supplies, logistics
support, data management, and freight forwarding.
(b)(4) Notwithstanding section (b)(3), not exempt
from (b)(1) are contractors and subcontractors that
implement HIV/AIDS programs under this contract
or subcontract by:

10
The following footnote should only be included in awards to Alliance for Open Society International (AOSI), Pathfinder, or a member of GHC or InterAction (with the exception of DKT International,
Inc.):
“Any enforcement of this clause is subject to Alliance for Open
Society International v. USAID, 05 Civ. 8209 (S.D.N.Y., orders
filed on June 29, 2006 and August 8, 2008) (orders granting
preliminary injunction) for the term of the Orders.”
The lists of members of GHC and InterAction can be found at:
http://www.usaid.gov/business/business_opportunities/cib/pdf/

291
(i) providing supplies or services directly to the final populations receiving such supplies or services in
host countries;
(ii) providing technical assistance and training directly to host country individuals or entities on the
provision of supplies or services to the final populations receiving such supplies and services; or
(iii) providing the types of services listed in FAR
37.203(b)(1)-(6) that involve giving advice about substantive policies of a recipient, giving advice regarding the activities referenced in (i) and (ii), or making
decisions or functioning in a recipient’s chain of command (e.g., providing managerial or supervisory services approving financial transactions, personnel actions).
(c) The following definitions apply for purposes of
this provision:
“Commercial sex act” means any sex act on account
of which anything of value is given to or received by
any person.
“Prostitution” means procuring or providing any
commercial sex act and the “practice of prostitution”
has the same meaning.
“Sex trafficking” means the recruitment, harboring,
transportation, provision, or obtaining of a person
for the purpose of a commercial sex act. 22 U.S.C.
7102(9).
(d) The contractor shall insert this provision in all
subcontracts.
(e) Any violation of this provision will result in the
immediate termination of this award by USAID.

292
(f ) This provision does not affect the applicability of
FAR 52.222-50 to this contract.
(End of Provision)”

293
ATTACHMENT D—Background

A. Leadership Act Statutory Provisions:
The United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003, Pub. L. No. 108-25
(2003) (the “Leadership Act”) authorized funds to be appropriated for HIV/AIDS activities for the fiscal years
2004-2008. The Leadership Act was reauthorized by
the Tom Lantos and Henry J. Hyde United States
Global Leadership Against HIV/AIDS, Tuberculosis,
and Malaria Reauthorization Act of 2008, Pub. L. No.
110-293 (2008) (the “Reauthorization Act”), which authorized funds to be appropriated for HIV/AIDS activities for the fiscal years 2009-2013. The Leadership
Act, as amended, includes, among other things, certain
restrictions on the use of funds for HIV/AIDS activities,
and requires recipients of those funds to have certain
policies in place.
The Leadership Act was amended by the Consolidated
Appropriations Act of 2004, Division D—Foreign Operations, Export Financing, and Related Programs Appropriations (“FY 04 Appropriations Act”), Title II—
Bilateral Economic Assistance, United States Agency
for International Development, Child Survival and
Health Programs Fund to exempt the Global Fund to
Fight AIDS, Tuberculosis and Malaria, the World
Health Organization, the International AIDS Vaccine
Initiative, and any United Nations agency from certain
requirements.
Section 301 of the Leadership Act, as amended, entitled
“Assistance to Combat HIV/AIDS,” includes the following provisions:

294
“(e) LIMITATION.—No funds made available to
carry out this Act, or any amendment made by this Act,
may be used to promote or advocate the legalization or
practice of prostitution or sex trafficking. Nothing in
the preceding sentence shall be construed to preclude
the provision to individuals of palliative care, treatment,
or post-exposure pharmaceutical prophylaxis, and necessary pharmaceuticals and commodities, including test
kits, condoms, and when proven effective, microbicides.
LIMITATION.—No funds made available to
(f )
carry out this Act, or any amendment made by this Act,
may be used to provide assistance to any group or organization that does not have a policy explicitly opposing
prostitution and sex trafficking, except that this subsection shall not apply to the Global Fund to Fight AIDS,
Tuberculosis and Malaria, the World Health Organization, the International AIDS Vaccine Initiative or to any
United Nations agency.”
During legislative debate on the Leadership Act, in response to a question from Senator Leahy on the Senate
floor regarding provision (f ) above, Senator Frist stated
that “a statement in the contract or grant agreement between the U.S. Government and such organization that
the organization is opposed to the practices of prostitution and sex trafficking because of the psychological and
physical risks they pose for women . . . would satisfy the intent of the provision.” 149 Cong. Rec. S6457
(daily ed. May 15, 2003) (statement of Sen. Frist).
The Statement of Managers of the FY 04 Appropriations Act states that the conferees “intend that for purposes of this provision, the World Health Organization
includes its six regional offices:
The Americas
(PAHO); South-East Asia (SEARO); Africa (AFRO);

295
Eastern Mediterranean (EMRO); Europe (EURO); and
Western Pacific (WPRO).”
Although the above-named public international organizations are exempt from section 301(f ) of the Leadership
Act, they are subject to the AAPD 05-04 provision that
implements section 301(e) of the Leadership Act, as
amended.
B. Leadership Act Litigation
Alliance for Open Society International (“AOSI”)/
Pathfinder International (“Pathfinder”)—U.S. District
Court for the Southern District of New York:

On June 29, 2006, the District Court for the Southern
District of New York issued a preliminary injunction order, pending a final judgment on the merits, prohibiting
Defendants USAID and HHS from enforcing the statutory requirement to have a policy opposing prostitution
and sex trafficking against AOSI or Pathfinder.
Defendants also were prohibited from investigating or
auditing AOSI or Pathfinder regarding compliance with
this statutory requirement.
On August 7, 2008, the Court granted the request of two
associations, Global Health Council (“GHC”) and InterAction, to be added as plaintiffs in the AOSI suit and extended the reach of the preliminary injunction to cover
the members of those associations as well.
Therefore, in addition to being prohibited from enforcing the statutory requirement to have a policy opposing
prostitution and sex trafficking against AOSI or Pathfinder, USAID and HHS are now prohibited from enforcing this statutory requirement against any member
of GHC or InterAction. They are likewise forbidden

296
from investigating or auditing members of GHC or InterAction regarding compliance with this statutory requirement.
GHC and InterAction have provided USAID with lists
of member organizations, and these lists can be found at:
http://www.ujsaid.gov/business/business_opportunities/
cib/pdf/
DKT International, Inc. (“DKT”)—D.C. Circuit Court of
Appeals:

Although DKT is a member of GHC, the D.C. Circuit
Court of Appeals previously held in a separate lawsuit
that USAID may enforce the statutory requirement to
have a policy opposing prostitution and sex trafficking
against DKT. In its order, the District Court for the
Southern District of New York specifically barred DKT
from benefiting from the preliminary injunction. Therefore, USAID continues to enforce the statutory requirement against DKT.
C. Organizational Integrity Guidance
In July 2007, USAID issued guidance designed to provide additional clarity for COs and AOs regarding the
application of Section 301(f ) of the Leadership Act.
This clarifying guidance was also issued to Contracting
Specialists, Contracting Officers’ Technical Representatives (COTRs) and Agreement Officers’ Technical Representatives (AOTRs), Health Officers, and USAID’s
implementing partners (e.g., grantees, recipients and
contractors).
The guidance noted that in enacting the Leadership Act,
Congress developed a framework to combat the global
spread of HIV/AIDS, tuberculosis, and malaria. The

297
Leadership Act provides that all HIV/AIDS funding recipients, subject to limited exceptions, must have a policy explicitly opposing prostitution and sex trafficking.
The guidance noted it is critical to the effectiveness of
Congress’s plan and to the U.S. Government’s foreign
policy underlying this effort, that the integrity of Leadership Act HIV/AIDS programs and activities implemented by organizations receiving Leadership Act
HIV/AIDS funds is maintained, and that the U.S. Government’s message opposing prostitution and sex trafficking is not confused by conflicting positions of implementing organizations.
Accordingly, USAID provided Organizational Integrity
Guidance in AAPD 05-04 Amendment No. 1, and this
Amendment No. 3 to AAPD 05-04 modifies that Organizational Integrity Guidance.
This guidance clarifies that the Government’s organizational partners that have agreed that they oppose prostitution and sex trafficking because of the psychological
and physical risks they pose for women, men, and children, may, consistent with the policy requirement,
maintain an affiliation with separate organizations that
do not satisfy the policy requirement, provided that such
affiliations do not threaten the integrity of the Government’s programs and its message opposing prostitution
and sex trafficking, as specified in this guidance. To
maintain program integrity, adequate separation as outlined in this guidance is required between any federally
funded partner organization and an affiliate that engages in activities inconsistent with a policy against
prostitution and sex trafficking.
The criteria for affiliate independence in this guidance
are modeled on criteria upheld as constitutional by the

298
U.S. Court of Appeals for the Second Circuit in Velazquez v. Legal Services Corporation, 164 F.3d 757, 767
(2d Cir. 1999), and Brooklyn Legal Services Corp. v. Legal Services Corp., 462 F.3d 219, 229-33 (2d Cir. 2006),
cases involving similar organization-wide limitations applied to recipients of federal funding.
This guidance clarifies that a recipient of Leadership
Act HIV/AIDS funds may maintain an affiliation with an
independent organization that engages in activities inconsistent with an opposition to prostitution and sex
trafficking because of the psychological and physical
risks they pose for women, men, and children while remaining in compliance with the policy requirement.
The independent affiliate’s position on these issues will
have no effect on the recipient organization’s eligibility
for Leadership Act HIV/AIDS funds, so long as the affiliate satisfies the criteria for objective integrity and independence, as detailed in the guidance. By ensuring
adequate separation between the recipient and affiliate
organizations, these criteria guard against a public perception that the affiliate’s views on prostitution and sex
trafficking may be attributed to the recipient organization and thus to the Government, thereby avoiding the
risk of confusing the Government’s message opposing
prostitution and sex trafficking.
D. Limited Contracting Exception for Providers of
Certain Commercial Items or Services:
In October 2007, the contract provision implementing
Sections 301(e) and 301(f ) of the Leadership Act was
amended in AAPD 05-04 Amendment No. 2 to provide a
limited exemption from the policy requirement contained in Section 301 (f ) (the “policy requirement”) for

299
certain contracts and subcontracts for specific types of
items and services. The provision exempts from the
policy requirement contractors and subcontractors who
are providing commercial items or services and where
such activities do not involve any HIV/AIDS programmatic activities per se.
The Leadership Act policy requirement remains applicable to all contractors and subcontractors who directly
implement HIV/AIDS programs by providing:
(1) Supplies or services directly to the final populations receiving such supplies or services in host countries:
(2) Technical assistance and training directly to
host country individuals or organizations on how supplies or services are provided to the final populations receiving such supplies and services; or
(3) The types of services listed in FAR 37.203(b)(1)-(6)
that involve:
•

giving advice about substantive policies of a recipient,

•

giving advice regarding the activities referenced
in (1) and (2), or

•

making decisions or functioning in a recipient’s
chain of command.

300

Acquisition & Assistance Policy Directive (AAPD)
From the Director, Office of Acquisition & Assistance
Issued: Sept 12, 2014
AAPD 14-04
Implementation of the United States Leadership
Against HIV/AIDS, Tuberculosis and Malaria Act of
2003, as amended—Conscience Clause Implementation,
Medically Accurate Condom Information and
Opposition to Prostitution and Sex Trafficking

Subject Category:

ASSISTANCE, ACQUISITION
MANAGEMENT

Type:

POLICY

AAPDs provide information of significance to all
agency personnel and partners involved in the Acquisition and Assistance process. Information includes
(but is not limited to): advance notification of changes
in acquisition or assistance regulations; reminders;
procedures; and general information. Also, AAPDs
may be used to implement new requirements on shortnotice, pending formal amendment of acquisition or
assistance regulations.
AAPDs are EFFECTIVE AS OF THE ISSUED
DATE unless otherwise noted in the guidance below;

301
the directives remain in effect until this office issues
a notice of cancellation.
This AAPD: Is New

Replaces/

Applicable to:
Existing awards;
Modification required

Amends
CIB/AAPD No: 12-04

Precedes change to:
AIDAR Part(s) Appendix

USAID Automated DiNo later than
rectives System (ADS)
As noted in guidance Chapters 302, 303, and
308
below

RFPs/RFAs issued on
or after the effective
date of this AAPD; all
other Pending Awards,
i.e., 8(a), sole source,
IQC

Code of Federal Regulations
Other

No change to regulations

Other or N/A
New Provision/Clause Provided Herein X
/s/
Aman S. Djahanbani

302
1.

PURPOSE:

This Acquisition & Assistance Policy Directive (AAPD):
A.

Advises contracting officers (COs) and agreement officers (AOs) that ADS 302—USAID Direct Contracting, ADS 303—Grants and Cooperative Agreements to Non-Governmental Organizations, and ADS 308—Awards to Public International Organizations and the relevant Mandatory Reference documents, have been updated to
incorporate revised contract clauses and assistance provisions previously contained in Acquisition & Assistance Policy Directive (AAPD)
12-04 and ADS 303, including:
– Conscience Clause
(February 2012);

Implementation

– Condoms (September 2014) (revised
from AAPD 12-04 and ADS 303); and
– Prohibitions on Promotion or Advocacy
of the Legalization or Practice of Prostitution or Sex Trafficking (September
2014) (revised from AAPD 12-04 and
ADS 303).
B.

Informs COs and AOs that while all contract
clauses and assistance provisions have been incorporated into the relevant ADS chapters and
Mandatory Reference documents, they are also
provided in attachments A, B and C of this
AAPD.

C.

Clarifies that:
(1) a U.S. non-governmental organization
(NGO) that is a USAID recipient or contractor

303
that receives funds for HIV/AIDS activities,
whether a prime recipient or subrecipient, is exempt from the statutory requirement to have a
policy opposing prostitution and sex trafficking;
(2) a non-U.S. NGO that is a USAID recipient
or contractor that receives funds for HIV/AIDS
activities, whether a prime recipient or subrecipient, is subject to the statutory requirement to
have a policy opposing prostitution and sex trafficking unless exempted pursuant to Sections
A.4(b), B. 2.(b) and C.4(b) in Attachments A, B
and C; and
(3) a USAID recipient or contractor that receives funds for HIV/AIDS activities and is still
subject to the statutory requirement to have a
policy opposing prostitution and sex trafficking
meets that requirement by signing a statement
in its award that the recipient or contractor is
opposed to the practices of prostitution and sex
trafficking. The USAID recipient or contractor is not required to adopt a separate organizational policy opposing prostitution and sex trafficking.
D.

Replaces and supersedes AAPD 12-04, in its entirety.

The clauses and provisions in the relevant Mandatory
Reference documents of ADS 302, ADS 303 and ADS
308 impose funding restrictions that enable USAID to
exercise administrative remedies should the awardee violate the United States Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Act of 2003, as amended, by
not complying with the terms of the award.

304
Required Actions:

(1) Solicitations: COs and AOs must include the
solicitation provisions as prescribed in the applicability statement of the relevant Mandatory
Reference documents in ADS 302, ADS 303 and
ADS 308 in new acquisition or assistance solicitations that are issued on or after the effective
date of this AAPD.
(2) New awards: COs and AOs must include the contract clauses and assistance provisions as prescribed in the applicability statement of the relevant Mandatory Reference documents in ADS
302, ADS 303 and ADS 308 in new contracts,
grants, and cooperative agreements that are executed on or after the effective date of this
AAPD.
COs and AOs
(3) Modifications/Amendments:
must replace all previous versions of the contract
clauses and assistance provisions in existing instruments as prescribed in the applicability
statement of the relevant Mandatory Reference
documents in ADS 302, ADS 303 and ADS 308,
when such instruments are bilaterally modified/
amended for any reason on or after the effective
date of this AAPD.
This modification/amendment must be bilateral
(i.e., must be signed by the USAID CO/AO and
the awardee).
By signing the modification/
amendment, the contractor or recipient agrees
to be bound by the clause/provision requirements.
Current contracts, grants, and cooperative agreements need not be modified/amended to include

305
the new clauses or provision until they are bilaterally modified/amended for any purpose.
(4) COs and AOs must consider the guidance regarding “Conscience Clause Objections” in Section 2.D.
(5) COs and AOs must comply with the “Organizational Integrity Guidance” in Section 2.E.
2.

GUIDANCE:

A. Conditions
COs and AOs must include the clauses/provisions as prescribed in the applicability statements of the relevant
Mandatory Reference documents in ADS 302, ADS 303
and ADS 308 when obligating or intending to obligate
(in the case of solicitations) FY04 or later funds made
available for HIV/AIDS activities, regardless of the program account.
B.

Personal Services Contracts (PSCs)
The special provisions in Attachment C do not
apply to PSCs. During the period of their contracts, PSCs are considered federal employees
for the purposes of 18 USC 202(A), 5 CFR part
2635, and the USAID General Notice entitled
“Employee Review of the New Standards of Conduct.”

C.

Grants under Contracts
In accordance with ADS 302.3.5.16, when a contract provides for the contractor to execute
grants to NGOs (not-for-profits or for-profits),
the CO must provide in the solicitation that the
contractor must comply with the requirement to

306
use the assistance provisions of this AAPD.
The contractor must do this when awarding
grants under its contract (in compliance with
ADS 302.3.5.6(b)).
D.

Conscience Clause Objections

Operating units design solicitations following evidencebased and country-specific approaches to create the
most effective program with the most efficient use of resources. Linkages and referrals—across HIV/AIDS
services and between HIV/AIDS programs and other
health or development programs—to create multisectoral or comprehensive programs are frequently programmatically appropriate in order to achieve desired
health outcomes.
Under Sections A.1, A. 2, C.1 and C.2 in Attachments A
and C, respectively, organizations shall not be required
to endorse or utilize a multisectoral or comprehensive
approach to combating HIV/AIDS or to endorse, utilize,
make a referral to, become integrated with, or otherwise
participate in any program or activity to which the organization has a religious or moral objection. For example, for moral or religious reasons, some organizations choose not to provide condoms or other contraceptives. To accommodate an organization’s moral or religious objection as described in these sections, solicitations for HIV/AIDS programs must specify that an organization is eligible to compete for any funding opportunity as a prime partner, or as a leader or member of a
consortium that comes together to compete for an
award, even where the organization has a religious or
moral objection to a specific activity or activities contemplated under the award. In organizing a consor-

307
tium, members have flexibility to determine how to combine forces to provide comprehensive or integrated services.
Ultimately, an organization with a religious or moral objection may choose to submit an offer that does not respond to all of the specified activities. If such organization has properly notified the cognizant CO or AO of a
religious or moral objection pursuant to the procedures
set forth under Sections A.1(b) or C.1(b) in Attachments
A and C, respectively, the offeror’s proposal will be evaluated based on the activities for which a proposal is submitted, and will not be evaluated favorably or unfavorably due to the absence of a proposal addressing the activity(ies) to which it objected and which it thus omitted.
The cognizant CO or AO must consult GC/A&A immediately after receiving notification of a religious or moral
objection to activities in a solicitation. Depending on
the specific nature of the religious or moral objection,
which activities the applicant has an objection to implementing, and the design of the particular solicitation,
GC will work with the relevant CO/AO and technical
staff to identify an appropriate approach.
E. Organization Issues
Sections A.4(b), B.2(b) and C.4(b) in Attachments A, B
and C, respectively, require certain organizations to
state in the award that they oppose the practices of prostitution and sex trafficking. COs/AOs must therefore
consider the “Organizational Integrity Guidance” below
when determining a prospective or existing organization’s eligibility or compliance with these sections.
COs/AOs must also obtain clearance from the General
Counsel’s office or their Regional Legal Advisor before

308
issuing any written determination relating to organizational integrity pertaining to USAID awards.
Organizational Integrity Guidance
In accordance with Sections A.4(b), B.2(b) and C.4(b) in
Attachments A, B and C, respectively, certain organizations must state in the award that they oppose the practices of prostitution and sex trafficking. Due to organizational affiliations, such statement may be adversely
implicated by the statements or activities of an affiliate
of the awardee. In such cases, COs and AOs must consider the below guidance to assess whether there is such
a risk. The Federal Acquisition Regulation (FAR) subpart 2.101 defines “Affiliates” as follows:
“Affiliates” means associated business concerns
or individuals if, directly or indirectly—
(1) Either one controls or can control the
other; or
(2) A third party controls or can control both.
There is no corresponding definition of “affiliates” in
USAID assistance regulations.
The affected contractors and recipients of grants and cooperative agreements (hereafter collectively referred to
as “Recipients”) must have objective integrity and independence from any affiliated organization that engages
in activities inconsistent with the Recipient’s opposition
to the practices of prostitution and sex trafficking (“restricted activities”). A Recipient will be found to have
objective integrity and independence from such an organization if:

309
(1) The affiliated organization receives no transfer
of Leadership Act funds, and Leadership Act funds
do not subsidize restricted activities; and
(2) The Recipient is, to the extent practicable in the
circumstances, separate from the affiliated organization. Mere bookkeeping separation of Leadership
Act funds from other funds is not sufficient. USAID
will determine, on a case-by-case basis and based on
the totality of the facts, whether sufficient separation
exists. The presence or absence of any one or more
factors relating to legal, physical, and financial separation will not be determinative. Factors relevant
to this determination shall include, but are not limited to:
(a) Whether the affiliated organization is a legally separate entity;
(b) The existence of separate personnel or other
allocation of personnel that maintains adequate
separation of the activities of the affiliated organization from the recipient;
(c) The existence of separate accounting and
timekeeping records;
(d) The degree of separation of the Recipient’s facilities from facilities in which restricted activities
occur; and
(e) The extent to which signs and other forms of
identification that distinguish the Recipient from
the affiliated organization are present.
Sections A.4(b), B.2.(b) and C.4(b) in Attachments A, B
and C, respectively, provide exemptions to certain categories of organizations from the requirement to state in

310
their awards that they oppose the practices of prostitution and sex trafficking. As such, for awards to exempt
organizations, COs and AOs will not need to consider the
“Organizational Integrity Guidance” above.
3.

BACKGROUND:

Attachment D includes the legislative and litigation
background of this AAPD and its predecessor AAPDs,
and a summary of the history of the Organizational Integrity Guidance and the limited contracting exception
for providers of certain commercial items or services.
4.

POINTS OF CONTACT:

USAID Contracting Officers and Agreement Officers
may direct their questions about this AAPD to Lyudmila
Bond, M/OAA/P, Phone: (202) 567-4753: email:
lbond@usaid.gov.
Contractors, recipients, and prospective offerors for
contracts or assistance awards must direct their questions to the cognizant Contracting Officer or Agreement
Officer for the award.
All other inquiries about this AAPD may be addressed
to Diana Weed, GC/GH, Phone: (202) 712-5245 e-mail:
dweed@usaid.gov.

311
ATTACHMENT A—Assistance Provisions
Governmental Organizations (NGOs)

for Non-

The provisions in this attachment have been incorporated into the following mandatory references to ADS
Chapter 303:
•

303maa, Standard Provisions for US
Governmental Organizations (NGOs),

Non-

•

303mab, Standard Provisions for Non-U.S. NGOs,

•

303mat, Standard Provisions for Fixed Obligation
Grants to Nongovernmental Organizations,

•

303mav, Certifications, Assurances, Other Statements of the Recipient and Solicitation Standard
Provisions.

A.1 Conscience Clause Implementation (Assistance)—
Solicitation Provision (February 2012)

APPLICABILITY: This provision must be included
in any new Request for Applications (RFA) or Annual
Program Statement (APS) that intends to obligate
FY04 or later funds made available for HIV/AIDS activities, regardless of the program account. Further
guidance is found in AAPD 14-04, Section 2.D.
“CONSCIENCE CLAUSE IMPLEMENTATION
(ASSISTANCE)—SOLICITATION PROVISION
(FEBRUARY 2012)
(a) An organization, including a faith-based organization, that is otherwise eligible to receive funds
under this agreement for HIV/AIDS prevention,
treatment, or care—
1)

Shall not be required, as a condition of receiving such assistance—

312

2)

(i)

to endorse or utilize a multisectoral or
comprehensive approach to combating
HIV/AIDS; or

(ii)

to endorse, utilize, make a referral to,
become integrated with, or otherwise
participate in any program or activity
to which the organization has a religious or moral objection; and

Shall not be discriminated against in the solicitation or issuance of grants, contracts,
or cooperative agreements for refusing to
meet any requirement described in paragraph (a)(1) above.

(b) An applicant who believes that this solicitation
contains provisions or requirements that would
require it to endorse or use an approach or participate in an activity to which it has a religious
or moral objection must so notify the cognizant
Agreement Officer in accordance with the Mandatory Standard Provision titled “Notices” as
soon as possible, and in any event not later than
15 calendar days before the deadline for submission of applications under this solicitation. The
applicant must advise which activity(ies) it could
not implement and the nature of the religious or
moral objection.
(c) In responding to the solicitation, an applicant
with a religious or moral objection may compete
for any funding opportunity as a prime partner,
or as a leader or member of a consortium that
comes together to compete for an award. Al-

313
ternatively, such applicant may limit its application to those activities it can undertake and must
indicate in its submission the activity(ies) it has
excluded based on religious or moral objection.
The offeror’s proposal will be evaluated based on
the activities for which a proposal is submitted,
and will not be evaluated favorably or unfavorably due to the absence of a proposal addressing
the activity(ies) to which it objected and which it
thus omitted. In addition to the notification in
paragraph (b) above, the applicant must meet
the submission date provided for in the solicitation.
(End of Provision)”
A.2
Conscience Clause Implementation (Assistance)
(February 2012)

APPLICABILITY: This provision must be included
in any new assistance award or amendment to an
existing award (if not already incorporated into the
agreement) obligating FY04 or later funds made available for HIV/AIDS activities, regardless of the program
account. Further guidance is found in AAPD 14-04,
Section 2.D.
“CONSCIENCE CLAUSE IMPLEMENTATION
(ASSISTANCE) (FEBRUARY 2012)
An organization, including a faith-based organization, that is otherwise eligible to receive funds under
this agreement for HIV/AIDS prevention, treatment,
or care—
(a) Shall not be required, as a condition of receiving
such assistance—

314
(1) To endorse or utilize a multisectoral or
comprehensive approach to combating
HIV/AIDS; or
(2) To endorse, utilize, make a referral to, become integrated with, or otherwise participate in any program or activity to which the
organization has a religious or moral objection; and
(b) Shall not be discriminated against in the solicitation or issuance of grants, contracts, or cooperative agreements for refusing to meet any requirement described in paragraph (a) above.
(End of Provision)”
A.3

Condoms (Assistance) (September 2014)

APPLICABILITY: This provision must be included
in any new Request for Applications (RFA) or Annual
Program Statement (APS), and any new assistance
award or amendment to an existing award obligating
or intending to obligate (in the case of solicitations)
FY04 or later funds made available for HIV/AIDS activities, regardless of the program account.
“CONDOMS (ASSISTANCE) (SEPTEMBER 2014)
Information provided about the use of condoms as
part of projects or activities that are funded under
this agreement shall be medically accurate and shall
include the public health benefits and failure rates of
such use and shall be consistent with USAID’s fact
sheet entitled “USAID HIV/STI Prevention and
Condoms”. This fact sheet may be accessed at:

315
http://www.usaid.gov/sites/default/files/documents/
1864/condomfactsheet.pdf
The prime recipient must flow this provision down in
all subawards, procurement contracts, or subcontracts for HIV/AIDS activities.
(End of Provision)”
A.4 Prohibition on the Promotion or Advocacy of the Legalization or Practice of Prostitution or Sex Trafficking
(Assistance) (September 2014)
APPLICABILITY: This provision must be included in
any new Request for Applications (RFA) or Annual
Program Statement (APS), and any new assistance
award or amendment to an existing award obligating
or intending to obligate (in the case of solicitations)
FY04 or later funds made available for HIV/AIDS activities, regardless of the program account. Further
guidance is found in AAPD 14-04, Section 2.E.

“PROHIBITION ON THE PROMOTION OR ADVOCACY OF THE LEGALIZATION OR PRACTICE OF PROSTITUTION OR SEX TRAFFICKING (ASSISTANCE) (SEPTEMBER 2014)
(a) The U.S. Government is opposed to prostitution
and related activities, which are inherently
harmful and dehumanizing, and contribute to the
phenomenon of trafficking in persons. None of
the funds made available under this agreement
may be used to promote or advocate the legalization or practice of prostitution or sex trafficking. Nothing in the preceding sentence shall be
construed to preclude the provision to individuals of palliative care, treatment, or post-

316
exposure pharmaceutical prophylaxis, and necessary pharmaceuticals and commodities, including test kits, condoms, and, when proven effective, microbicides.
(b)(1) Except as provided in (b)(2), by accepting this
award or any subaward, a non-governmental
organization or public international organization awardee/subawardee agrees that it is opposed to the practices of prostitution and sex
trafficking.
(b)(2) The following organizations are exempt from
(b)(1):
(i)

the Global Fund to Fight AIDS, Tuberculosis and Malaria; the World Health
Organization; the International AIDS
Vaccine Initiative; and any United Nations agency.

(ii)

U.S. non-governmental organization recipients/subrecipients and contractors/
subcontractors.

(iii) Non-U.S. contractors and subcontractors if the contract or subcontract is for
commercial items and services as defined
in FAR 2.101, such as pharmaceuticals,
medical supplies, logistics support, data
management, and freight forwarding.
(b)(3) Notwithstanding section (b)(2)(iii), not exempt
from (b)(1) are non-U.S. recipients, subrecipients, contractors, and subcontractors that
implement HIV/AIDS programs under this

317
assistance award, any subaward, or procurement contract or subcontract by:
(i)

Providing supplies or services directly to
the final populations receiving such supplies or services in host countries;

(ii)

Providing technical assistance and training directly to host country individuals
or entities on the provision of supplies or
services to the final populations receiving such supplies and services; or

(iii) Providing the types of services listed in
FAR 37.203(b)(1)-(6) that involve giving
advice about substantive policies of a recipient, giving advice regarding the activities referenced in (i) and (ii), or making decisions or functioning in a recipient’s chain of command (e.g., providing
managerial or supervisory services approving financial transactions, personnel
actions).
(c) The following definitions apply for purposes of
this provision:
“Commercial sex act” means any sex act on account
of which anything of value is given to or received by
any person.
“Prostitution” means procuring or providing any
commercial sex act and the “practice of prostitution”
has the same meaning.
“Sex trafficking” means the recruitment, harboring,
transportation, provision, or obtaining of a person

318
for the purpose of a commercial sex act (22 U.S.C.
7102(9)).
(d) The recipient must insert this provision, which is
a standard provision, in all subawards, procurement contracts or subcontracts for HIV/AIDS
activities.
(e) This provision includes express terms and conditions of the award and any violation of it shall be
grounds for unilateral termination of the award
by USAID prior to the end of its term.
(End of Provision)”

319
ATTACHMENT B—Assistance Provisions incorporated
into mandatory reference to ADS 308 entitled “Standard
Provisions for Cost-Type Awards 1 to Public
International Organizations (PIOs)
B.1

Condoms (Assistance) (September 2014)

This provision must be included in
any new Request for Applications (RFA) or Annual
Program Statement (APS), and any new assistance
award or amendment to an existing award obligating
or intending to obligate (in the case of solicitations)
FY04 or later funds made available for HIV/AIDS activities, regardless of the program account. If a PIO
objects to the reference to the USAID fact sheet in the
provision below, please consult with GC/GH.
APPLICABILITY:

“CONDOMS (ASSISTANCE) (SEPTEMBER 2014)
Information provided about the use of condoms as
part of projects or activities that are funded under
this award shall be medically accurate and shall include the public health benefits and failure rates of
such use and shall be consistent with USAID’s fact
sheet entitled “USAID HIV/STI Prevention and
Condoms”. This fact sheet may be accessed at:
http://www.usaid.gov/sites/default/files/documents/
1864/condomfactsheet.pdf

1
As under AAPDs 05-04 and AAPD 12-04, this AAPD 14-04 does
not apply to USAID contributions to capital of multidonor trust
funds, such as to the Trust Fund for the Global Fund to Fight AIDS,
Tuberculosis and Malaria.

320
The prime recipient must flow this provision down in
all subawards, procurement contracts, or subcontracts for HIV/AIDS activities.
(End of Provision)”
B.2 Prohibition on the Promotion or Advocacy of the
Legalization or Practice of Prostitution or Sex Trafficking (Standard) (September 2014)
APPLICABILITY: This provision is applicable to

awards with public international organizations other
than the Global Fund to Fight AIDS, Tuberculosis and
Malaria, the World Health Organization, and any
United Nations agency. This provision must be included in any new Request for Applications (RFA) or
Annual Program Statement (APS), and any new assistance award, or amendment to an existing award obligating or intending to obligate (in the case of solicitations) FY04 or later funds made available for
HIV/AIDS activities, regardless of the program account
with the exception of the International Disaster Assistance (IDA) account. Further guidance is found in
AAPD 14-04, Section 2.E.
“PROHIBITION ON THE PROMOTION OR ADVOCACY OF THE LEGALIZATION OR PRACTICE OF
PROSTITUTION OR SEX TRAFFICKING (ASSISTANCE) (STANDARD) (SEPTEMBER 2014)
(a) The U.S. Government is opposed to prostitution
and related activities, which are inherently
harmful and dehumanizing, and contribute to
the phenomenon of trafficking in persons.
None of the funds made available under this
award may be used to promote or advocate the

321
legalization or practice of prostitution or sex
trafficking. Nothing in the preceding sentence
shall be construed to preclude the provision to
individuals of palliative care, treatment, or postexposure pharmaceutical prophylaxis, and necessary pharmaceuticals and commodities, including test kits, condoms, and, when proven effective, microbicides.
(b)(1) Except as provided in (b)(2), by accepting this
award or any subaward, a non-governmental
organization or public international organization awardee/subawardee agrees that it is opposed to the practices of prostitution and sex
trafficking.
(b)(2) The following organizations are exempt from
(b)(1):
(i)

the Global Fund to Fight AIDS, Tuberculosis and Malaria; the World Health
Organization; the International AIDS
Vaccine Initiative; and any United Nations agency.

(ii)

U.S. non-governmental organization
recipients/subrecipients and contractors/
subcontractors.

(iii) Non-U.S. contractors and subcontractors if the contract or subcontract is for
commercial items and services as defined
in FAR 2.101, such as pharmaceuticals,
medical supplies, logistics support, data
management, and freight forwarding.

322
(b)(3) Notwithstanding section (b)(2)(iii), not exempt from (b)(1) are non-U.S. recipients, subrecipients, contractors, and subcontractors
that implement HIV/AIDS programs under
this assistance award, any subaward, or procurement contract or subcontract by:
(i)

Providing supplies or services directly to
the final populations receiving such supplies or services in host countries;

(ii)

Providing technical assistance and training directly to host country individuals
or entities on the provision of supplies or
services to the final populations receiving such supplies and services; or

(iii) Providing the types of services listed in
FAR 37.203(b)(1)-(6) that involve giving
advice about substantive policies of a recipient, giving advice regarding the activities referenced in (i) and (ii), or making decisions or functioning in a recipient’s chain of command (e.g., providing
managerial or supervisory services approving financial transactions, personnel
actions).
(c) The following definitions apply for purposes of
this provision:
“Commercial sex act” means any sex act on account
of which anything of value is given to or received by
any person.

323
“Prostitution” means procuring or providing any
commercial sex act and the “practice of prostitution”
has the same meaning.
“Sex trafficking” means the recruitment, harboring,
transportation, provision, or obtaining of a person for
the purpose of a commercial sex act (22 U.S.C.
7102(9)).
(d) The recipient must insert this provision, which is
a standard provision, in all subawards, procurement contracts or subcontracts for HIV/AIDS
activities.
(e) This provision includes express terms and conditions of the award and any violation of it shall be
grounds for unilateral termination of the award
by USAID prior to the end of its term.
(End of Provision)”
B.3 Prohibition on the Promotion or Advocacy of the
Legalization or Practice of Prostitution or Sex Trafficking (Assistance) (Alt I—the Global Fund to Fight AIDS,
Tuberculosis and Malaria, the World Health Organization, and any United Nations agency) (September 2014)
APPLICABILITY: This provision is applicable to

awards to the Global Fund to Fight AIDS, Tuberculosis
and Malaria, the World Health Organization, and any
United Nations agency. This provision must be included in any new Request for Applications (RFA) or
Annual Program Statement (APS), and any new assistance award, or amendment to an existing award obligating or intending to obligate (in the case of solicitations) FY04 or later funds made available for HIV/
AIDS activities, regardless of the program account with

324
the exception of the International Disaster Assistance
(IDA) account.
“PROHIBITION ON THE PROMOTION OR ADVOCACY OF THE LEGALIZATION OR PRACTICE OF PROSTITUTION OR SEX TRAFFICKING (ASSISTANCE ) (Alt I– THE GLOBAL FUND
TO FIGHT AIDS, TUBERCULOSIS AND MALARIA, THE WORLD HEALTH ORGANIZATION, AND ANY UNITED NATIONS AGENCY)
(SEPTEMBER 2014)
(a) The U.S. Government is opposed to prostitution
and related activities, which are inherently harmful
and dehumanizing, and contribute to the phenomenon of trafficking in persons. None of the funds
made available under this award may be used to promote or advocate the legalization or practice of prostitution or sex trafficking. Nothing in the preceding
sentence shall be construed to preclude the provision
to individuals of palliative care, treatment, or postexposure pharmaceutical prophylaxis, and necessary
pharmaceuticals and commodities, including test
kits, condoms, and, when proven effective, microbicides.
(b) The following definitions apply for purposes of
this provision:
“Commercial sex act” means any sex act on account
of which anything of value is given to or received by
any person.
“Prostitution” means procuring or providing any
commercial sex act and the “practice of prostitution”
has the same meaning.

325
“Sex trafficking” means the recruitment, harboring,
transportation, provision, or obtaining of a person for
the purpose of a commercial sex act (22 U.S.C.
7102(9)).
(c) The recipient must insert this provision, which is
a standard provision, in all subawards for HIV/AIDS
activities.
(d) This provision includes express terms and conditions of the award and any violation of it shall be
grounds for unilateral termination of the award by
USAID prior to the end of its term.
(End of Provision)”

326
ATTACHMENT C—Acquisition Provisions and Clauses

The clauses in this attachment have been incorporated
into the Mandatory Reference to ADS 302 entitled “Special Provisions for Acquisitions”.
C.1 Conscience Clause Implementation (Acquisition)—
SOLICITATION PROVISION (February 2012)

For use in any new acquisition solicitation intending to
obligate FY04 or later funds available for HIV/AIDS activities, regardless of the program account. Please refer to ADS 302.3.5.16.a and AAPD 14-04, Section 2.D for
additional guidance.
“302.3.5.16(a)(1) CONSCIENCE CLAUSE IMPLEMENTATION (ACQUISITION)—SOLICITATION
PROVISION (FEBRUARY 2012)
(a) An organization, including a faith-based organization, that is otherwise eligible to receive funds
under this agreement for HIV/AIDS prevention,
treatment, or care—
(1)

Shall not be required, as a condition of
receiving such assistance—
(i) to endorse or utilize a multisectoral or
comprehensive approach to combating
HIV/AIDS; or
(ii) to endorse, utilize, make a referral to,
become integrated with, or otherwise
participate in any program or activity
to which the organization has a religious or moral objection; and

327
(2)

Shall not be discriminated against in the solicitation or issuance of grants, contracts,
or cooperative agreements for refusing to
meet any requirement described in paragraph (a)(1) above.

(b) An offeror who believes that this solicitation contains provisions or requirements that would require it to endorse or use an approach or participate in an activity to which it has a religious or
moral objection must so notify the cognizant
Contracting Officer in accordance with AIDAR
752.7006 (Notices) as soon as possible, and in any
event not later than 15 calendar days before the
deadline for submission of applications under
this solicitation. The offeror must advise which
activity(ies) it could not implement and the nature of the religious or moral objection.
(c) In responding to the solicitation, an offeror with
a religious or moral objection may compete for
any funding opportunity as a prime partner, or
as a leader or member of a consortium that comes
together to compete for an award. Alternatively,
such offeror may limit its proposal to those activities it can undertake and should indicate in
its submission the activity(ies) it has excluded
based on religious or moral objection. The offeror’s proposal will be evaluated based on the
activities for which a proposal is submitted, and
will not be evaluated favorably or unfavorably
due to the absence of a proposal addressing the
activity(ies) to which it objected and which it
thus omitted. In addition to the notification in

328
paragraph (b) above, the offeror must meet the
submission date provided for in the solicitation.
(End of Provision)”
C.2
Conscience Clause Implementation (ACQUISITION) (February 2012)

(For use in any new acquisition award or modification of
an existing acquisition award (if not already incorporated into the award) obligating FY04 or later funds
available for HIV/AIDS activities, regardless of the
program account. In case of an Indefinite DeliveryIndefinite Quantity Contract (IDIQ), the CO must insert the clause in the basic IDIQ contract at the time of
executing the IDIQ, or by a bilateral modification, if not
already incorporated into the contract. Such provision
shall be deemed to apply to any order placed under the
IDIQ for HIV/AIDS activities. Please refer to ADS
302.3.5.16.a and AAPD 14-04, Section 2.D for additional
guidance.)
“302.3.5.16(a)(2) CONSCIENCE CLAUSE IMPLEMENTATION (ACQUISITION) (FEBRUARY
2012)
An organization, including a faith-based organization, that is otherwise eligible to receive funds under
this agreement for HIV/AIDS prevention, treatment,
or care—
(a) Shall not be required, as a condition of receiving
such assistance—
(1)

to endorse or utilize a multisectoral or
comprehensive approach to combating
HIV/AIDS; or

329
(2)

to endorse, utilize, make a referral to, become integrated with, or otherwise participate in any program or activity to which the
organization has a religious or moral objection; and

(b) Shall not be discriminated against in the solicitation or issuance of grants, contracts, or cooperative agreements for refusing to meet any requirement described in paragraph (a) above.
(End of Provision)”
C.3

Condoms (Acquisition) (September 2014)

(For use in any new acquisition solicitation, and any new
acquisition award or modification to an existing award
obligating or intending to obligate FY04 or later funds
available for HIV/AIDS activities, regardless of the
program account. In case of an Indefinite DeliveryIndefinite Quantity Contract (IDIQ), the CO must insert the clause in the basic IDIQ contract at the time of
executing the IDIQ or by a bilateral modification. Such
provision shall be deemed to apply to any order placed
under the IDIQ for HIV/AIDS activities. Please refer
to ADS 302.3.5.16 for additional guidance.
“302.3.5.16(a)(3)
CONDOMS
(SEPTEMBER 2014)

(ACQUISITION)

Information provided about the use of condoms as
part of projects or activities that are funded under
this contract shall be medically accurate and shall include the public health benefits and failure rates of
such use and shall be consistent with USAID’s fact
sheet entitled “USAID HIV/STI Prevention and
Condoms”. This fact sheet may be accessed at:

330
http://www.usaid.gov/sites/default/files/documents/
1864/condomfactsheet.pdf
The contractor agrees to incorporate the substance
of this clause in all subcontracts under this contract
for HIV/AIDS activities.
(End of Provision)”
C.4 Prohibition on the Promotion or Advocacy of the
Legalization or Practice of Prostitution or Sex Trafficking (September 2014)

(For use in any new acquisition solicitation, and any new
acquisition award or modification to an existing award
obligating or intending to obligate FY04 or later funds
available for HIV/AIDS activities, regardless of the
program account. In case of an Indefinite DeliveryIndefinite Quantity Contract (IDIQ), the CO must insert the clause in the basic IDIQ contract at the time
of executing the IDIQ or by a bilateral modification.
Such provision shall be deemed to apply to any order
placed under the IDIQ for HIV/AIDS activities.
Please refer to ADS 302.3.5.16 and AAPD 14-04, Section
2.E for additional guidance.
“302.3.5.16(a)(4) PROHIBITION ON THE PROMOTION OR ADVOCACY OF THE LEGALIZATION
OR PRACTICE OF PROSTITUTION OR SEX
TRAFFICKING (SEPTEMBER 2014)
(a) This contract is authorized under the United
States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003 (Pub. L. No. 108-25),
as amended. This Act enunciates that the U.S.
Government is opposed to prostitution and related activities, which are inherently harmful

331
and dehumanizing, and contribute to the phenomenon of trafficking in persons. The contractor shall not use any of the funds made available under this contract to promote or advocate
the legalization or practice of prostitution or sex
trafficking. Nothing in the preceding sentence
shall be construed to preclude the provision to
individuals of palliative care, treatment, or postexposure pharmaceutical prophylaxis, and necessary pharmaceuticals and commodities, including test kits, condoms, and, when proven effective, microbicides.
(b)(1) Except as provided in (b)(2), by its signature
of this contract or subcontract for HIV/AIDS
activities, a non-governmental organization
or public international organization awardee/
subawardee agrees that it is opposed to the
practices of prostitution and sex trafficking.
(b)(2) The following organizations are exempt from
(b)(1):
(i)

the Global Fund to Fight AIDS, Tuberculosis and Malaria; the World Health
Organization; the International AIDS
Vaccine Initiative; and any United Nations agency.

(ii)

U.S. non-governmental organization recipients/subrecipients and contractors/
subcontractors

(iii) Non-U.S. contractors and subcontractors are exempt from (b)(1) if the contract or subcontract is for commercial
items and services as defined in FAR

332
2.101, such as pharmaceuticals, medical
supplies, logistics support, data management, and freight forwarding.
(b)(3) Notwithstanding section (b)(2)(iii), not exempt from (b)(1) are non-U.S. contractors and
subcontractors that implement HIV/AIDS programs under this contract or subcontract by:
(i)

Providing supplies or services directly to
the final populations receiving such supplies or services in host countries;

(ii)

Providing technical assistance and training directly to host country individuals
or entities on the provision of supplies or
services to the final populations receiving such supplies and services; or

(iii) Providing the types of services listed in
FAR 37.203(b)(1)-(6) that involve giving
advice about substantive policies of a recipient, giving advice regarding the activities referenced in (i) and (ii), or making decisions or functioning in a recipient’s chain of command (e.g., providing
managerial or supervisory services approving financial transactions, personnel
actions).
(c) The following definitions apply for purposes of
this provision:
“Commercial sex act” means any sex act on account
of which anything of value is given to or received by
any person.

333
“Prostitution” means procuring or providing any
commercial sex act and the “practice of prostitution”
has the same meaning.
“Sex trafficking” means the recruitment, harboring,
transportation, provision, or obtaining of a person for
the purpose of a commercial sex act (22 U.S.C.
7102(9)).
(d) The contractor must insert this provision in all
subcontracts for HIV/AIDS activities.
(e) Any violation of this provision will result in the
immediate termination of this award by USAID.
(f ) This provision does not affect the applicability of
FAR 52.222-50 to this contract.
(End of Provision)”

334
ATTACHMENT D—Background

A. Leadership Act Statutory Provisions:
The United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003, Pub. L. No. 108-25
(2003) (the “Leadership Act”) authorized funds to be appropriated for HIV/AIDS activities for the fiscal years
2004-2008. The Leadership Act was reauthorized by
the Tom Lantos and Henry J. Hyde United States
Global Leadership Against HIV/AIDS, Tuberculosis,
and Malaria Reauthorization Act of 2008, Pub. L. No.
110-293 (2008) (the “Reauthorization Act”), which authorized funds to be appropriated for HIV/AIDS activities for the fiscal years 2009-2013. The Leadership Act
was further amended by the PEPFAR Stewardship and
Oversight Act of 2013, Pub. L. No. 113-56 (2013). The
Leadership Act, as amended, includes, among other
things, certain restrictions on the award and use of
funds for HIV/AIDS activities, and requires recipients
of those funds to have certain policies in place.
The Leadership Act was amended by the Consolidated
Appropriations Act of 2004, Division D—Foreign Operations, Export Financing, and Related Programs Appropriations (“FY 04 Appropriations Act”), Title II—
Bilateral Economic Assistance, United States Agency
for International Development, Child Survival and
Health Programs Fund to exempt the Global Fund to
Fight AIDS, Tuberculosis and Malaria, the World
Health Organization, the International AIDS Vaccine
Initiative, and any United Nations agency from certain
requirements.

335
Section 301 of the Leadership Act, as amended, entitled
“Assistance to Combat HIV/AIDS,” includes the following provisions:
“(d) ELIGIBILITY FOR ASSISTANCE.—An organization, including a faith-based organization, that is otherwise eligible to receive assistance under section 104A
of the Foreign Assistance Act of 1961, under this Act, or
under any amendment made by this Act or by the Tom
Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS, Tuberculosis, and Malaria
Reauthorization Act of 2008, for HIV/AIDS prevention,
treatment, or care—
(1) shall not be required, as a condition of receiving
such assistance—
(A) to endorse or utilize a multisectoral or comprehensive approach to combating HIV/
AIDS; or
(B) to endorse, utilize, make a referral to, become integrated with, or otherwise participate in any program or activity to which the
organization has a religious or moral objection; and
(2) shall not be discriminated against in the solicitation or issuance of grants, contracts, or cooperative agreements under such provisions of law for
refusing to meet any requirement described in
paragraph (1).
(e) LIMITATION.—No funds made available to carry
out this Act, or any amendment made by this Act, may
be used to promote or advocate the legalization or practice of prostitution or sex trafficking. Nothing in the

336
preceding sentence shall be construed to preclude the
provision to individuals of palliative care, treatment, or
post-exposure pharmaceutical prophylaxis, and necessary pharmaceuticals and commodities, including test
kits, condoms, and when proven effective, microbicides.
(f ) LIMITATION.—No funds made available to carry
out this Act, or any amendment made by this Act, may
be used to provide assistance to any group or organization that does not have a policy explicitly opposing prostitution and sex trafficking, except that this subsection
shall not apply to the Global Fund to Fight AIDS, Tuberculosis and Malaria, the World Health Organization,
the International AIDS Vaccine Initiative or to any
United Nations agency.”
During legislative debate on the Leadership Act, in response to a question from Senator Leahy on the Senate
floor regarding provision (f ) above, Senator Frist stated
that “a statement in the contract or grant agreement between the U.S. Government and such organization that
the organization is opposed to the practices of prostitution and sex trafficking because of the psychological and
physical risks they pose for women . . . would satisfy the intent of the provision.” 149 Cong. Rec. S6457
(daily ed. May 15, 2003) (statement of Sen. Frist).
The Statement of Managers of the FY 04 Appropriations Act states that the conferees “intend that for purposes of this provision, the World Health Organization
includes its six regional offices:
The Americas
(PAHO); South-East Asia (SEARO); Africa (AFRO);
Eastern Mediterranean (EMRO); Europe (EURO); and
Western Pacific (WPRO).”

337
Although the above-named organizations are exempt
from section 301(f ) of the Leadership Act, they are subject to the AAPD 14-04 provisions that implement section
301(e) of the Leadership Act, as amended. However, as
under AAPD 05-04 and AAPD 12-04, this AAPD 14-04
does not apply to USAID contributions to capital of multidonor trust funds, such as to the Trust Fund for the
Global Fund to Fight AIDS, Tuberculosis and Malaria.
B. Leadership Act Litigation
In 2005, section 301(f ) of the Leadership Act was challenged as unconstitutional, and in 2013, the Supreme
Court affirmed a Second Circuit decision that upheld a
lower court’s preliminary injunction prohibiting the application of the policy requirement to U.S. organizations, finding that such a condition of federal funding violates the First Amendment. Consistent with the Supreme Court’s decision, the requirement to have a specific policy as stated in section 301(f ) no longer applies
to U.S. organizations.
In coordination with The Office of the Global Coordinator at the State Department and The Department of
Health and Human Services, USAID has ceased applying the section 301(f ) requirement to U.S. NGOs,
whether they are prime recipients or subrecipients, of
Leadership Act HIV/AIDS funds. However, the requirement remains applicable to non-U.S. NGOs and
PIOs that receive funds for HIV/AIDS activities,
whether a prime recipient or subrecipient, unless exempted pursuant to Sections A.4(b), B.2(b) and C.4(b) in
Attachments A, B and C.

338
C. Organizational Integrity Guidance
In July 2007, USAID issued guidance designed to provide additional clarity for COs and AOs regarding the
application of Section 301(f ) of the Leadership Act.
This clarifying guidance was also issued to Contracting
Specialists, Contracting Officers’ Representatives (CORs)
and Agreement Officers’ Representatives (AORs),
Health Officers, and USAID’s implementing partners
(e.g., grantees, recipients and contractors).
The guidance noted that in enacting the Leadership Act,
Congress developed a framework to combat the global
spread of HIV/AIDS, tuberculosis, and malaria. The
Leadership Act provides that all HIV/AIDS funding recipients, subject to limited exceptions, must have a policy explicitly opposing prostitution and sex trafficking.
The guidance noted it is critical to the effectiveness of
Congress’s plan and to the U.S. Government’s foreign
policy underlying this effort, that the integrity of Leadership Act HIV/AIDS programs and activities implemented by organizations receiving Leadership Act
HIV/AIDS funds is maintained, and that the U.S. Government’s message opposing prostitution and sex trafficking is not confused by conflicting positions of implementing organizations.
Accordingly, USAID provided Organizational Integrity
Guidance in AAPD 05-04 Amendment No. 1, and Amendment No. 3 to AAPD 05-04 modified that Organizational
Integrity Guidance.
The guidance clarified that the Government’s organizational partners that have agreed that they oppose prostitution and sex trafficking, may, consistent with the policy requirement, maintain an affiliation with separate

339
organizations that do not satisfy the policy requirement,
provided that such affiliations do not threaten the integrity of the Government’s programs and its message opposing prostitution and sex trafficking, as specified in
this guidance. To maintain program integrity, adequate separation is required between any federally
funded partner organization and an affiliate that engages in activities inconsistent with a policy against
prostitution and sex trafficking.
The criteria for affiliate independence are modeled on
criteria upheld as constitutional by the U.S. Court of Appeals for the Second Circuit in Velazquez v. Legal Services Corporation, 164 F.3d 757, 767 (2d Cir. 1999), and
Brooklyn Legal Services Corp. v. Legal Services Corp.,
462 F.3d 219, 229-33 (2d Cir. 2006), cases involving similar organization-wide limitations applied to recipients
of federal funding.
A recipient of Leadership Act HIV/AIDS funds may
maintain an affiliation with an independent organization
that engages in activities inconsistent with an opposition
to prostitution and sex trafficking while remaining in
compliance with the policy requirement.
The independent affiliate’s position on these issues will
have no effect on the recipient organization’s eligibility
for Leadership Act HIV/AIDS funds, so long as the affiliate satisfies the criteria for objective integrity and independence, as detailed in the guidance. By ensuring
adequate separation between the recipient and affiliate
organizations, these criteria guard against a public perception that the affiliate’s views on prostitution and sex
trafficking may be attributed to the recipient organization and thus to the Government, thereby avoiding the

340
risk of confusing the Government’s message opposing
prostitution and sex trafficking.
Although the U.S. Government no longer applies Section 301(f ) to U.S. organizations after the decision of the
Supreme Court, the Organizational Integrity Guidance
still remains valid guidance with respect to non-U.S. organizations.
D. Limited Contracting Exception for Providers of
Certain Commercial Items or Services:
In October 2007, the contract provision implementing
Sections 301(e) and 301(f ) of the Leadership Act was
amended in AAPD 05-04 Amendment No. 2 to provide a
limited exemption from the policy requirement contained in Section 301(f ) (the “policy requirement”) for
certain contracts and subcontracts for specific types of
items and services. The provision exempts from the
policy requirement contractors and subcontractors who
are providing commercial items or services and where
such activities do not involve any HIV/AIDS programmatic activities per se. As the U.S. Government no
longer applies Section 301(f ) to U.S. organizations after
the decision of the Supreme Court, the practical relevance of this limited exemption for contractors and subcontractors is for non-U.S. contractors and subcontractors.
Notwithstanding the preceding paragraph, the Leadership Act policy requirement remains applicable to all
non-U.S. contractors and subcontractors who directly
implement HIV/AIDS programs by providing:
(1) Supplies or services directly to the final populations receiving such supplies or services in host countries:

341
(2) Technical assistance and training directly to
host country individuals or organizations on how supplies or services are provided to the final populations receiving such supplies and services; or
(3) The types of services listed in FAR 37.203(b)(1)(6) that involve:
•

giving advice about substantive policies of a recipient,

•

giving advice regarding the activities referenced
in (1) and (2), or

•

making decisions or functioning in a recipient’s
chain of command.

342

Issuance Date:
April 14, 2014
RFA Clarification Questions Due:
23:59 East African Time (EAT) on April 21, 2014
Past Performance References Due:
16:00 EAT on April 28, 2014
Closing Date:
12:00 EAT on May 19, 2014
Subject: Request for Applications (RFA) No. RFA621-14-000008 Community Health and Social
Welfare Systems Strengthening Activity
The United States Government, as represented by the
United States Agency for International Development
(USAID) Mission to Tanzania, is seeking applications
(proposals for assistance funding) from U.S. nongovernmental and non-U.S. non-governmental organizations for implementation of the Community Health
and Social Welfare Systems Strengthening Activity in
the United Republic of Tanzania (URT). The authority
for the RFA is found in the Foreign Assistance Act of
1961, as amended, and the U.S. Leadership Against
HIV/AIDS, Tuberculosis and Malaria Act of 2003 (the
“Leadership Act”).
*

*

*

*

*

343
D.

Applicability OF 22 CFR 226

The following provision will be included in any award to
a U.S. entity resulting from this RFA:
APPLICABILITY OF 22 CFR PART 226 (May 2005)

(a) All provisions of 22 CFR Part 226 and all Standard Provisions attached to this agreement are applicable to the recipient and to sub-recipients which
meet the definition of “Recipient” in Part 226, unless
a section specifically excludes a sub-recipient from
coverage. The recipient shall assure that sub-recipients have copies of all the attached standard provisions.
(b) For any sub-awards made with Non-US subrecipients the recipients shall include the applicable
“Standard Provisions for Non-US Nongovernmental
Grantees.” Recipients are required to ensure compliance with sub-recipient monitoring procedures in
accordance with OMB Circular A-133.
*

*

*

*

*

SECTION III—ELIGIBILITY INFORMATION
A. Eligible Applicants

Qualified applicants may be U.S. private voluntary organizations (U.S. PVOs), Tanzanian or other non-U.S.
non-governmental organizations (NGOs) or private,
non-profit organizations (or for-profit companies willing
to forego profits), including universities, research organizations, professional associations, and relevant special interest associations. Public International Organ-

344
izations (PIOs) and faith-based and community organizations are also eligible for award. In support of the
Agency’s interest in fostering a larger assistance base
and expanding the number and sustainability of development partners, USAID encourages applications from
potential new partners, particularly if they are joined
with a more experienced organization.
B. Local Registration

All local institutions or affiliates of international organizations must be registered as a legal entity of Tanzania.
Local registration is not a requirement at application
time, but it is required prior to the launch of program intervention.
C. System for Award Management (SAM) Registration

All federal award recipients must maintain current registrations in the System for Award Management (SAM)
database. Recipients must maintain accurate and upto-date information in www.SAM.gov until all program
and financial activity and reporting have been completed. Recipients must review and update the information at least annually after the initial registration and
more frequently if required information changes or another award is granted. Failure to register in SAM will
render applicants ineligible to receive funding.
D. Cost Sharing or Matching

Though a cost-share is not required, the program design
should demonstrate how local investment and sustainability will be fostered amongst beneficiary local governments, civil society and communities. Proposed strategies may include cash or in-kind cost share (e.g. dedicated staff-time to program activities, free office space

345
for implementing staff ) or innovative public-private partnerships. In the current climate of declining donor
funding, mobilizing and maintaining national resources
and exploring opportunities to partner with and/or leverage from the private sector and other stakeholders is
essential to achieving the proposed results in a sustainable way.
Contributions can be either cash or in-kind and can include contributions from the applicant, local counterpart
organizations, program clients, and other donors (but
not other U.S. government funding sources). Cost sharing contributions must be in accordance with OMB Circular A-122—Cost Principles for Non-Profit Organizations which can be found at the following link http://www.
whitehouse.gov/omb/circulars/a122/a122.html Information regarding the proposed cost share, if any, should be
included in the SF 424 and the Budget as indicated on
those documents. The cost sharing plan should be discussed in the Budget Notes to the extent necessary to
demonstrate its feasibility and applicability to the program.
In addition, USAID strongly encourages applicants to
actively leverage funds and in-kind contributions from
all available and interested local funding sources, including, but not limited to, government and public institutions, individuals, corporations, NGOs foundations, etc.
*

*

*

*

*

(1) TECHNICAL APPLICATION FORMAT

The technical application will be the most important
item of consideration in selection for award of the proposed program. The application should demonstrate

346
the applicant’s capabilities and expertise with respect to
achieving the goals of this program. Therefore, it should
be specific, complete and concise and arrange in the order of the evaluation criteria contained in Section V.
Technical applications should not exceed 27 pages in
length, exclusive of the three annexes. However, each
annex has its own page limit (see below).
The technical application shall consist of the following:
1.

Cover page (1 page)

2.

Application Summary (2 pages)

3.

Technical Narrative (24 pages)
a.

Technical Approach

b.

Implementation Plan

c.

Institutional Capacity

Annexes
1.

Illustrative First Year Implementation Plan
(2 pages or less)

2.

Illustrative Award Monitoring and Evaluation
Plan (2 pages or less)

3.

Past Performance References (3 pages or less)
*

*

*

*

*

Technical Narrative (24 pages or less):

The narrative should contain the following elements:
a.

Technical Approach

The Technical Approach must set forth the conceptual
approach, methodology, techniques, and results—the

347
“what”, the “how”, and the “resulting in”—for accomplishment of the stated results/objectives. The purposes of this approach is to allow the applicant creative
freedom to develop a plan for resource organization and
use. It should: (1) reflect a thorough understanding
of the current context and policy environment in Tanzania; (2) described what the applicant will achieve and
how the applicant will design, implement, monitor, and
evaluate interventions to help achieve USAID, GHI,
PEPFAR, URT, and other strategy health objectives;
and, (3) describe a plan with benchmarks/indicators that
will enable activities to continue after the award has
ended.
Applications must detail how the applicant will achieve
the prospective award’s expected results. Applicants
should propose innovative interventions to achieve desired results. The application should outline links between the proposed results, conceptual approach, performance milestones, and a realistic timeline for achieving the semi-annual, annual, and end of program results.
The logical framework must highlight the logical linkages between intended inputs, planned activities and expected results. The framework shall adequately reflect the approaches and principles described in the program description and detail intended inputs and illustrative performance indicators to measure program outputs.
The application should discuss specific gender equality
and women’s empowerment objectives. The recipient
will promote gender considerations under this program.
Gender is not a euphemism for “women.” It means examining the constraints and opportunities for both men

348
and women—particularly as they may differ. Including gender means, for example: (1) assessing how the
problems or challenges of men and women may be different, (2) how the impact of activities may affect them
differently, and (3) how men and women may contribute
to results in different ways. Gender inclusion in program planning will result in better-targeted and more
effective programs. Award recipients should address
the need for increased gender balance in areas such as
training, access to information, and other activities as
appropriate. The recipient should demonstrate knowledge about gender issues and illustrate how that knowledge will be translated into effective program implementation. As appropriate and feasible, impact and indicator data will be disaggregated by gender.
b.

Implementation Plan

The application must provide an Implementation Plan
for achieving expected program results. The Implementation Plan should clearly outline links between the
proposed results, conceptual approach, and performance milestones, and should include a realistic timeline
for achieving the annual and end-of-program results.
The Plan should also layout the proposed geographic areas of implementation; describe the beneficiary groups;
and describe the timeline and process for project startup.
The Implementation Plan must demonstrate how program outcomes will be sustained when the program
ends. It must also describe how all components of the
work can be handled without additional external intervention. The application can also describe how costshare, if any or other strategies demonstrate local buy-

349
in and anticipated sustainability of program interventions.
Applications must demonstrate the ability to mobilize
and deploy core staff on the ground, and start actual activity implementation within four to six weeks of award.
Applicants are also encouraged to demonstrate that
they have contingency plans to provide the necessary interim staff so that rapid implementation begins regardless of the speed of local staff recruitment.
The application should specify the organizational structure of the entire program team, including home office
support and implementing partners, if any, and describe
how each of the components will be managed. The application should propose an overall staffing pattern that
demonstrates the breadth and depth of technical expertise and experience required to achieve results. The
application should demonstrate a solid understanding of
key technical and organizational requirements and an
appropriate mix of skills, while avoiding excessive staffing. Applications should also describe approaches to
maximize cost-efficiency and streamline technical integration.
“Sub-recipients” are organizations that will have substantial implementation responsibilities. The application should identify any potential sub-recipients and
clearly state the responsibilities of each proposed subpartner in achieving the proposed results and the unique
capacities/skills they bring to the program. If subrecipients are proposed, applications should describe
how the partnership will be organized and managed to
use the complementary capabilities of partners most effectively and to minimize duplication of home office and
local office management structures. Please note that

350
documentation that reflects an “exclusive” relationship
between sub-recipients is not requested and should not
be submitted.
c.

Institutional Capacity

Applications must offer evidence of available institutional, technical and managerial resources and technical
expertise. Information in this section should include
(but is not limited to) the following information:
• Brief description of organizations history
and experience
• Examples of accomplishments in developing
and implementing similar programs
• Relevant experience with proposed approaches
• Institutional strength as represented by
breadth and depth of experienced personnel
in activity relevant disciplines and areas
• Sub-recipient or subcontractor capabilities
and expertise, if applicable
• Description of field management structure
and financial controls;
• Home office backstopping, if any, and its purpose
• Description of any tools, approaches and
other resources developed through previous
institutional experience that will be applied
to the program

351
Annexes
1)

Illustrative First Year Implementation Plan Matrix (2 pages or less): Outlines the anticipated

activities, outputs, and completion dates for the
first year of program implementation.
2)

Illustrative Award Monitoring and Evaluation
Plan (2 pages or less): Brief description of how

the recipient will program will monitor interventions, measure results, ensure data quality, and
use data to inform on-going implementation
and/or changes in direction.
a. Brief description of plans for baseline data
collection, mid-term or final evaluations
b. Propose critical outputs, anticipated outcomes and performance targets, indicators
and benchmarks
c. Propose potential areas for program research and learning
However, this plan will be considered illustrative for the purposes of evaluating applications;
however, once the award is made, finalizing this
plan will be a key program. Within 90 days of
the effective date of the award, the successful
applicant will be required to submit a revised
final Monitoring and Evaluation Plan, which
will be approved by the USAID Agreement Officer’s Representative (AOR). Baseline data
must be finalized no late than 180 days after the
award is made. See Section VI,D.(b).
3)

Past Performance References (3 pages or less):

Describe all contracts, grants and cooperative

352
agreements which the organization has implemented involving similar or related programs
over the past three years. Please include the
following: name and address of the organization for which the work was performed; current
telephone number and e-mail address of a responsible representative of the organization for
which the work was performed; contract/grant
name and number (if any); annual amount received for each of the last three years; beginning
and ending dates; and a brief description of the
project/assistance activity.
USAID will contact references and use the past
performance data regarding the organization,
along with other information to determine the
applicant’s responsibility. The Government reserves the right to obtain information for use in
the evaluation of past performance from any and
all sources inside or outside the Government.
*

*

*

*

*

SECTION V—APLICATION REVIEW INFORMATION
A.

Basis for Award

Award will be made to the responsible Applicant whose
application offers the greatest value, cost and other factors considered. The final award decision is made by
the Grant Officer, with consideration of the Technical
Evaluation Committee recommendations.
B.

Technical Evaluation

The criteria presented below have been tailored to the
requirements of this particular RFA. Applicants should

353
note that these criteria serve to: (a) identify the significant matters which applicants should address in their
applications and (b) set the standard against which all
applications will be evaluated.
The technical applications will be evaluated in accordance with the Technical Evaluation Criteria set forth below. Subcriteria are listed in descending order of importance.
1.

Technical Approach—25%

a)

The extent to which the causal model (i.e.
inputs, outputs and outcomes) is logical,
well-conceived, evidence based and demonstrates innovation and best practice to
achieve the program’s objectives.

b) The extent to which the proposed program
approach is clear, technically sound and
demonstrates a comprehensive understanding of the technical matter, responds to the
critical gaps, and aligns with national policy frameworks.
2.

Implementation Approach—35%

a)

The extent to which the application reflects the Programming Principles described in the solicitation as follows: gender equity and a focus on women and girls;
country ownership and sustainability; program coordination and partnership; engagement of PLHTV; and learning and accountability.

b) The extent to which the application describes approaches (including cost share if

354
proposed) that promote sustainability, local buy-in and ownership.
c)

3.

The extent to which the application promotes a robust learning agenda and other
interventions to inform national policy and
strategies.

Institutional Capacity—20%

a)

The extent to which the application demonstrates the necessary experience and resources to implement proposed activities
(e.g. existence of capacity building tools,
formative assessments, programmatic evidence of prior experience with proposed
interventions).

b) The extent to which the application
demonstrates capacity to implement large
multi-faceted programs of similar size and
scope in a comparable country context
with similar resource constraints and challenges.
4.

Past Performance—20%

a)

Past performance in successfully implementing social service and community systems strengthening interventions in a comparable country context with similar resource constraints and challenges.

b) Past performance in maintaining effective
relationships with donors, host governments
and other development partners.
Total:

100%

355
Key Personnel

The Minimum Requirements for key personnel are detailed in the solicitation (Attachment C) and will be included in the award. Key personnel will not be considered during the evaluation of applications. However,
USAID must approve key personnel prior to the start of
the award. The Apparently Successful Applicant will
be required to submit the resumes for the key personnel. Resumes should use a common format, not exceed
two pages and should include at least three references
with telephone numbers and e-mail addresses for each
reference. Please note that documentation that reflects an “exclusive” relationship between an individual
and an applicant is not requested and should not be submitted. Each resume shall be accompanied by a signed
letter of commitment (not included in page limit) indicating his/her availability and commitment to serve in
the stated position for at least one-year post award.
C.

Cost Evaluation

Cost has not been assigned a weight but will be evaluated for realism, reasonableness, allocability, allowability, and cost-effectiveness. Cost-sharing, if any, will be
evaluated on the level of financial participation proposed
and the added value it represents to the program.
Cost realism will be performed as part of the evaluation
process to:
•

Assess the accuracy with which proposed costs represent the most probable and realistic cost of performance;

•

Reflect a clear understanding of the requirements;
and

356
•

Ensure costs are consistent with the various elements of the applicant’s technical application.

Cost applications should be submitted under separate
cover from the technical application.
The budget
should also reflect all cost sharing, if any, to be provided
by the applicant. Actual funding for this cooperative
agreement will be negotiated based on the cost of the
proposed approach and staff over the five-year period,
subject to the availability of funds. While there is no
page limit for this portion of the application, applicants
are encouraged to be as concise as possible but still provide the necessary detail to enable USAID to perform a
meaningful cost analysis. The cost section of the application should be supported by documentation and budget
notes.
D.

Review and Selection Process

The technical applications will be evaluated in accordance with the Technical Evaluation Criteria set forth
above. Thereafter, the cost application of all applicants submitting a technically acceptable application
will be opened. To the extent that they are necessary,
negotiations will then be conducted with all applicants
whose application, after discussion and negotiation, has
a reasonable chance of being selected for award. The
Grant Officer will then select an Apparently Successful
Applicant.
The Apparently Successful Applicant
means the applicant recommended for an award after
evaluation, but who has not yet been awarded a grant,
cooperative agreement or other assistance award by the
Grant Officer. The Grant Officer will request that the
Apparently Successful Applicant submit resumes of proposed key personnel (see Section V, B. and Attachment

357
C). The Grant Officer will also request that the Apparently Successful Applicant submit and negotiate a
Marking a Branding Strategy and Marking Plan that
addresses the details of the public communications,
commodities, program materials that will visibly bear
the USAID Identity. The Marking Plan will be customized for the particular program and will be included
in and made a part of the resulting cooperative agreement. USAID and the Apparently Successful Applicant will negotiate the Branding Strategy and Marking
Plan within the time specified by the Grant Officer.
Failure to submit and negotiate the Branding Strategy
and the Marking Plan will make the applicant ineligible
for award of a cooperative agreement. The applicant

must include an estimate of all costs associated with
branding and marking USAID activities, such as plaques,
labels, banners, press events, promotional materials,
and so forth in the budget portion of its application.
These costs are subject to revision and negotiation with
the Grant Officer upon submission of these plans and
will be incorporated into the Total Estimated Amount of
the cooperative agreement.
The templates for the
Branding Strategy and Marking Plan will be attached to
a notice of making an award to the Apparent Successful
Applicant under this RFA.
The Grant Officer will review the Marking Plan for adequacy and reasonableness, ensuring that it contains sufficient detail and information concerning public communications, commodities, and program materials that will
visibly bear the USAID Identity. The Grant Officer
will evaluate the plan to ensure that it is consistent with
the stated objectives of the award; with the applicant’s
cost data submissions; with the applicant’s actual pro-

358
gram performance plan; and with the regulatory requirements of 22 CFR 226.91. The Grant Officer will
approve or disapprove any requested Presumptive Exceptions (see paragraph (d)) on the basis of adequacy
and reasonableness. The Grant Officer may obtain advice and recommendations from technical experts while
performing the evaluation.
E.

Anticipated Announcement and Award Dates

An award is anticipated in August 2014.
*

*

*

*

*

SECTION VIII—OTHER INFORMATION

*
2.

*

*

*

*

HIV/AID activities provisions:
a) The following provision is applicable to this

RFA:

*

*

*

*

*

PROHIBITION ON THE PROMOTION OR ADVOCACY
OF THE LEGALIZATION OR PRACTICE OF PROSTITUTION OR SEX TRAFFICKING (APRIL 2010)

a. The U.S. Government is opposed to prostitution and
related activities, which are inherently harmful and dehumanizing, and contribute to the phenomenon of trafficking in persons. None of the funds made available
under this agreement may be used to promote or advocate the legalization or practice of prostitution or sex
trafficking. Nothing in the preceding sentence shall be
construed to preclude the provision to individuals of palliative care, treatment, or post-exposure pharmaceutical

359
prophylaxis, and necessary pharmaceuticals and commodities, including test kits, condoms, and, when proven
effective, microbicides.
b.
(1) Except as provided in (b)(2) and (b)(3), by accepting this award or any subaward, a non-governmental
organization or public international organization
awardee/subawardee agrees that it is opposed to the
practices of prostitution and sex trafficking because
of the psychological and physical risks they pose for
women, men, and children.
(2) The following organizations are exempt from
(b)(1): the Global Fund to Fight AIDS, Tuberculosis and Malaria; the World Health Organization;
the International AIDS Vaccine Initiative; and any
United Nations agency.
(3) Contractors and subcontractors are exempt
from (b)(1) if the contract or subcontract is for commercial items and services as defined in FAR 2.101,
such as pharmaceuticals, medical supplies, logistics
support, data management, and freight forwarding.
(4) Notwithstanding section (b)(3), not exempt from
(b)(1) are recipients, subrecipients, contractors, and
subcontractors that implement HIV/AIDS programs
under this assistance award, any subaward, or procurement contract or subcontract by:
(i) Providing supplies or services directly to the
final populations receiving such supplies or services in host countries;
(ii) Providing technical assistance and training
directly to host country individuals or entities on

360
the provision of supplies or services to the final
populations receiving such supplies and services;
or
(iii) Providing the types of services listed in
FAR 37.203(b)(1)-(6) that involve giving advice
about substantive policies of a recipient, giving
advice regarding the activities referenced in (i)
and (ii), or making decisions or functioning in a
recipient’s chain of command (e.g., providing managerial or supervisory services approving financial transactions, personnel actions).
(c) The following definitions apply for purposes of
this provision:
“Commercial sex act” means any sex act on account
of which anything of value is given to or received by
any person.
“Prostitution” means procuring or providing any
commercial sex act and the “practice of prostitution” has the same meaning.
“Sex trafficking” means the recruitment, harboring,
transportation, provision, or obtaining of a person
for the purpose of a commercial sex act. 22 U.S.C.
7102(9).
d. The recipient shall insert this provision, which is a
standard provision, in all subawards, procurement contracts or subcontracts.
e. This provision includes express terms and conditions of the award and any violation of it shall be grounds
for unilateral termination of the award by USAID prior
to the end of its term.

361
*
4.

*

*

*

*

The following provisions
are applicable to this RFA and will be incorporated
into award made hereunder:
Branding and Marking:

MARKING AND PUBLIC COMMUNICATIONS UNDER
USAID-FUNDED ASSISTANCE (AUGUST 2013)

a. The USAID Identity is the official marking for
USAID, comprised of the USAID logo and brandmark
with the tagline “from the American people.” The
USAID Identity is on the USAID Web site at http://
www.usaid.gov/branding Recipients must use the USAID
Identity, of a size and prominence equivalent to or
greater than any other identity or logo displayed, to
mark the following:
(1) Programs, projects, activities, public communications, and commodities partially or fully funded
by USAID;
(2) Program, project, or activity sites funded by
USAID, including visible infrastructure projects or
other physical sites;
(3) Technical assistance, studies, reports, papers,
publications, audio-visual productions, public service announcements, Web sites/Internet activities,
promotional, informational, media, or communications products funded by USAID;
(4) Commodities, equipment, supplies, and other
materials funded by USAID, including commodities
or equipment provided under humanitarian assistance or disaster relief programs; and
(5) Events financed by USAID, such as training
courses, conferences, seminars, exhibitions, fairs,

362
workshops, press conferences and other public activities. If the USAID Identity cannot be displayed, the recipient is encouraged to otherwise
acknowledge USAID and the support of the American people.
b. The recipient must implement the requirements of
this provision following the approved Marking Plan in
the award.
c. The AO may require a preproduction review of program materials and “public communications” (documents and messages intended for external distribution,
including but not limited to correspondence; publications; studies; reports; audio visual productions; applications; forms; press; and promotional materials) used
in connection with USAID-funded programs, projects or
activities, for compliance with an approved Marking
Plan.
d. The recipient is encouraged to give public notice of
the receipt of this award and announce progress and accomplishments. The recipient must provide copies of
notices or announcements to the Agreement Officer’s
Representative (AOR) and to USAID’s Office of Legislative and Public Affairs in advance of release, as practicable. Press releases or other public notices must include a statement substantially as follows:
“The U.S. Agency for International Development administers the U.S. foreign assistance program providing economic and humanitarian assistance in more
than 80 countries worldwide.”
e. Any “public communication” in which the content
has not been approved by USAID must contain the following disclaimer:

363
“This study/report/audio/visual/other information/
media product (specify) is made possible by the generous support of the American people through the United
States Agency for International Development (USAID).
The contents are the responsibility of [insert recipient
name] and do not necessarily ref lect the views of
USAID or the United States Government.”
f. The recipient must provide the USAID AOR with
two copies of all program and communications materials
produced under this award.
g. The recipient may request an exception from USAID
marking requirements when USAID marking requirements would:
(1) Compromise the intrinsic independence or neutrality of a program or materials where independence or neutrality is an inherent aspect of the program and materials;
(2) Diminish the credibility of audits, reports, analyses, studies, or policy recommendations whose data
or findings must be seen as independent;
(3) Undercut host-country government “ownership” of constitutions, laws, regulations, policies, studies, assessments, reports, publications, surveys or
audits, public service announcements, or other communications;
(4) Impair the functionality of an item;
(5) Incur substantial costs or be impractical;
(6) Offend local cultural or social norms, or be considered inappropriate; or
(7) Conflict with international law.

364
h. The recipient may submit a waiver request of the
marking requirements of this provision or the Marking
Plan, through the AOR, when USAID-required marking
would pose compelling political, safety, or security concerns, or have an adverse impact in the cooperating
country.
(1) Approved waivers “flow down” to subagreements, including subawards and contracts, unless
specified otherwise. The waiver may also include
the removal of USAID markings already affixed, if
circumstances warrant.
(2) USAID determinations regarding waiver requests are subject to appeal by the recipient, by submitting a written request to reconsider the determination to the cognizant Assistant Administrator.
i. The recipient must include the following marking
provision in any subagreements entered into under this
award:
“As a condition of receipt of this subaward, marking
with the USAID Identity of a size and prominence
equivalent to or greater than the recipient’s, subrecipient’s, other donor’s, or third party’s is required. In the
event the recipient chooses not to require marking with
its own identity or logo by the subrecipient, USAID
may, at its discretion, require marking by the subrecipient with the USAID Identity.”
[END OF PROVISION]
*

*

*

*

*

365
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

05-CV-8209 (VM) (DF)
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.,
ET AL., PLAINTIFFS
v.
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, ET AL., DEFENDANTS
DECLARATION OF PURNIMA MANE

I, Purnima Mane, hereby declare as follows:
1. I am, and have been since 2012, the President
and Chief Executive Officer of Pathfinder International
(“Pathfinder”).
2. I submit this declaration in support of Plaintiffs’
arguments at the October 16, 2014 conference in this action.
Pathfinder International

3. Pathfinder is a non-profit corporation incorporated under District of Columbia law. It enjoys taxexempt status under section 501(c)(3) of the Internal
Revenue Code. Its primary office is located at 9 Galen
Street, Suite 217, Watertown, Massachusetts 024724501.
4. Pathfinder was founded in 1957 by Dr. Clarence
J. Gamble, a private philanthropist, and it was one of the
first U.S.-based organizations to address family planning issues. Pathfinder’s mission is to provide access

366
to quality reproductive health services to women, men,
and youth throughout the developing world. In addition to its family planning work, Pathfinder also works
to halt the spread of HIV/AIDS and improve maternal
and child health. Pathfinder’s governing philosophy is
to provide this assistance with concern for human rights,
for the status and role of women, and from the perspective of the clients it serves.
5. Pathfinder currently operates in the following
22 countries: Angola, Bangladesh, Burkina Faso, Burundi, Cameroon, Democratic republic of Congo, Egypt,
Ethiopia, Ghana, Guinea, Haiti, India, Kenya, Mozambique, Niger, Nigeria, Pakistan, Peru, South Africa,
Tanzania, Uganda, and Vietnam.
6. Pathfinder’s annual budget, which for fiscal year
2014 totals $100 million, is funded by cooperative agreements, contracts, and donations from multiple sources,
including Defendants United States Agency for International Development (“USAID”) and the United States
Centers for Disease Control and Prevention (“CDC”),
an operating agency of Defendant Department of Health
and Human Services (“HHS”).
Since its passage,
Pathfinder has receive numerous cooperative agreements and contracts under the United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act
of 2003 (the “Leadership Act’). Pathfinder intends to
continue to apply for cooperative agreements and contracts under the Leadership Act, when appropriate.
Pathfinder also receives funds from agencies of the
United Nations, foreign governments, the World Bank,
and numerous foundations, corporations and individual
donors.

367
Pathfinder’s Organization

7. To operate in 22 countries around the globe,
Pathfinder uses two types of entities. First, Pathfinder uses branch offices of its U.S.-based organization.
These branch offices, while ordinarily registered in the
country in which they are located, are part of Pathfinder’s formal corporate structure. Second, Pathfinder also uses foreign affiliates. These entities share
important bonds with Pathfinder, but are legally distinct, incorporated in the countries in which they are located.
Foreign Affiliates Are Important To Pathfinder’s Work

8. The fulfillment of Pathfinder’s mission and objectives in certain countries depends on its alliance with
its foreign affiliates. It is only by working through
these affiliates that Pathfinder is able to have the magnitude of global reach that it does. There are a few reasons for the importance of Pathfinder’s foreign affiliates.
9. First, USAID affirmatively encourages Pathfinder and other U.S.-based NGOs to operate through
foreign affiliates. USAID has made public its preference for giving cooperative agreement and contract
money, including Leadership Act funds, to NGOs that
are incorporated in the country where the program will
be operated, and HIV/AIDS programs are most often
operated outside of the United States. Therefore, in
order to best position itself to have access to competitive, limited Leadership Act funds, Pathfinder must
work with its foreign affiliates that are incorporated in

368
foreign countries, such as Pathfinder International India and Pathfinder South Africa, to apply for and implement Leadership Act programs.
10. Second, and related, certain Leadership Act programs, whether funded by USAID or HHS, are openly
open to NGOs that are incorporated in the country in
which the program will be run. In those instances,
Pathfinder can simply be disqualified from applying.
Despite having branch offices in more than a dozen
countries, because those offices are not locally incorporated, Pathfinder would still be excluded from opportunities in countries where it has a branch office.
11. Third, certain local governments require that
NGOs be incorporated in their country in order to do
public health work there. In those situations, even if
the funding for an HIV/AIDS project is coming from the
U.S. Government, only a locally incorporated Pathfinder
entity would be permitted by the host government to implement the program. For example, Pathfinder has a
foreign affiliate in Egypt because regulations of the
Egyptian government made that the only feasible way
for Pathfinder to initiate operations in that country.
Pathfinder Is Clearly Identified
With Its Foreign Affiliates

12. Pathfinder shares a number of important bonds
with its foreign affiliates.
13. First, all entities within the Pathfinder family,
including foreign affiliates, share a name and brand.
This sharing extends to the use of common trademarks
and the use of “Pathfinder” in entity names.

369
14. For example, foreign affiliate offices, marketing
materials, and signage are indistinguishable from the offices, literature, and signage of Pathfinder—this arrangement furthers Pathfinder’s goal of ensuring that
every entity within the Pathfinder family, regardless of
where it is incorporated, speaks as part of a common entity with a common voice. Exhibits 1-3 to this declaration illustrate this point. Exhibit 1 shows signage from
the Pathfinder affiliate incorporated in South Africa.
Similarly, Exhibit 2 shows signage from Pathfinder’s
separately incorporated affiliate in Egypt. Finally,
Exhibit 3, from Pathfinder’s U.S. headquarters, shows
that the branding of the U.S. entity is identical to that
used by Pathfinder’s foreign affiliates.
15. Through the use of the Pathfinder brand, Pathfinder’s international reputation is imputed to each of its
entities. Pathfinder understands, however, that this is
a two-way street and that negative action by any foreign
affiliate—such as taking a public position at odds with
other Pathfinder entities—can be imputed to the whole.
That understanding drives Pathfinder’s desire to ensure
that all entities within the Pathfinder family speak with
one voice and share common values.
16. Second, Pathfinder requires that all foreign affiliates have charters, by-laws, and/or articles of incorporation that uphold and obey Pathfinder’s own publicly
stated mission and values and provide Pathfinder with
adequate controls over the affiliate to ensure unity between the entities.
17. Third, Pathfinder operates under a unitary management model. That means that Pathfinder maintains control over its foreign affiliates, even though
those entities are separately incorporated. This helps

370
ensure the close relationship between the entities. In
addition, in the event that a foreign affiliate speaks or
acts in a way that is inconsistent with Pathfinder’s mission and/or values, this model gives Pathfinder the ability to shut down its foreign affiliates.
18. Fourth, Pathfinder employees often serve on the
boards of their foreign affiliates. This further strengthens the unity between Pathfinder and its affiliates.
Pathfinder Seeks To Speak Globally
With Only One Voice

19. Pathfinder goes to great lengths to ensure that
its foreign affiliates are completely aligned with its message and values and that all members of the Pathfinder
family speak with one voice. In Pathfinder’s experience, any Pathfinder entity, whether separately incorporated in a foreign country or not, is viewed by the public as part of a single entity. Pathfinder’s speech and
actions are likely imputed to its foreign affiliates and the
speech and actions of its foreign affiliates are likely imputed to Pathfinder.
20. If all affiliates do not speak with one voice in a
way that underscores the same values, it diminishes
Pathfinder’s ability to be a respected voice in the public
health field. For an NGO in this field, one’s reputation
and the respect accorded to it by its peers goes a long
way to determining the NGO’s ability to make its desired impact. If affiliates communicate divergent messages, it would hurt Pathfinder’s ability to be an influential voice on public health policy and to have its brand
recognized globally as standing for certain key values.
21. Moreover, Pathfinder’s fundraising hinges in
part on the global continuity of its message. Many of

371
Pathfinder’s private donors have issues that are of particular importance to them. If Pathfinder and any one
of its affiliates were to have differing views on an issue,
many donors for whom that issue was important would
likely scale back their donations or cease them altogether.
22. Because of the severe downside from not speaking in one voice, Pathfinder undertakes extraordinary
efforts to ensure the continuity of its message with both
its foreign affiliates and its branch offices.
23. As an initial matter, Pathfinder has a senior level
position, Director of Public Affairs, that is tasked with,
among other things, ensuring that Pathfinder and its
foreign affiliates maintain one message. The Director
of Public Affairs also formulates strategies to strengthen Pathfinder’s brand and helps to educate all Pathfinder entities about implementation of those strategies.
24. Pathfinder also maintains strict controls over
messaging. If a foreign affiliate wants to take a public
position on a public health issue, that affiliate must first
vet the position with Pathfinder. Use of the Pathfinder
brand is contingent on observation of that policy.
25. Pathfinder also invests in maintaining a unified
message and unified values. Each year, Pathfinder
brings in the head of each office, including its foreign
affiliates, to its Watertown headquarters. During this
multi-day meeting, the executives discuss the evolution
of Pathfinder’s objectives, message, and strategic focus
from the previous year. The goal of the meeting is to
help each office feel closer to and more invested in Pathfinder’s values and the messaging around those values.

372
26. Finally, Pathfinder signage and other means of
branding are normally prominently displayed in the
physical office space of the foreign affiliates. See Ex. 1
(photographs of Pathfinder South Africa signage); Ex. 2
(photograph of Pathfinder Egypt signage); Ex. 3 (photographs of Pathfinder USA signage).
Imposition Of The Policy Requirement On
Pathfinder’s Foreign Affiliates Will Harm Pathfinder

27. Despite the the Supreme Court decision in this
action, it is Pathfinder’s understanding that the U.S.
Government intends to continue applying the Policy Requirement to all of Pathfinder’s affiliates that are not incorporated in the United States. Pathfinder will be
harmed by imposition of the Policy Requirement in this
manner.
28. As explained above, Pathfinder puts in significant time and expense to ensure that all of its entities
speak with one voice. If certain entities were forced to
take the Policy Requirement, then Pathfinder would not
have a coherent message with its affiliates on the issue
of sex workers, a controversial issue in the public health
arena. In that situation, if Pathfinder presented a public message on sex workers that deviated from the message imposed on its foreign affiliates, including if it said
nothing at all, Pathfinder’s would be seen as a hypocrite.
Such perception would both negatively affect Pathfinder’s ability to be a thought leader in the public health
community, its ability to raise private funds, and its ability to implement programs serving this vulnerable
group.
29. Moreover, Pathfinder invests significant time
and resources into investigating an issue before it takes

373
a public position. One division within Pathfinder, the
Technical Services Unit, is tasked with much of the legwork behind the formulation of Pathfinder’s policy positions. Policy formulation is the Unit’s principal task
and it undertakes this role for both Pathfinder and the
foreign affiliates, including for issues specific to the
home country of an affiliate. If the Policy Requirement is enforced against certain Pathfinder entities, it
will undercut the careful review process that ordinarily
precedes Pathfinder or its affiliates taking a public position of that nature. Enforcement of the Policy Requirement would require Pathfinder to either take the
position forced upon its affiliate to ensure that it speaks
in unison with its affiliates, or take a different view and
be seen as a hypocrite in the public health community.
30. The U.S. Government’s positions force Pathfinder to relinquish its recently vindicated First Amendment rights. The U.S. Government has made clear
that for many Leadership Act cooperative agreements
and contracts, preference will be given to NGOs that are
incorporated outside of the United States. USAID,
through its USAID Forward program, has made a major effort to shift a significant portion of its funding opportunities to organizations incorporated abroad. See
Ex. 4, USAID, USAID Forward Progress report 2013 at
14 (describing the “critical shift” in funding to “local
governments and organizations”). As the agency explained, “USAID has embarked on an ambitious set of
reforms, USAID Forward. One aspect will be increasing direct partnerships with local organizations for
greater sustainability and long-term effectiveness.”
Ex. 5, USAID USAID Forward—Working with Local
Organizations (Sept. 30, 2014).

374
31. The agency has been outspoken about this policy shift. In a January 19, 2011 speech, Rajiv Shah,
Administrator of USAID, stated affirmatively, “USAID
is aggressively doing its part to usher in this new era.
This agency is no longer satisfied with writing big
checks to big contractors and calling it development.
We’ve already accelerated our funding to local NGOs
and local entrepreneurs. . . . ” Ex. 6, Rajiv Shah,
Administrator of USAID, The Modern Development
Enterprise at 22 (Jan 19, 2011) (discussing USAID’s renewed focus on “local NGOs and local entrepreneurs”).
In a March 20, 2013 speech, Mr. Shah also announced,
“In a world where great ideas and inspirational leadership come from everywhere . . . we have to renew
our commitment to find and support local solutions that
will lead to sustainable change.” Ex. 7, Rajiv Shah,
Administrator of USAID, Remarks by Administrator
Rajiv Shah at the USAID Forward Progress Event
(Mar. 20, 2013) (describing how USAID is “going local”
with its funding). He continued, “Today, we’re embracing a responsible path to replace our efforts over
time with those of local change-agents in accountable
institutions, thriving markets, and vibrant civil societies,” and noted that funding to local institutions has experienced “a 50 percent increase since 2010 . . .
halfway to our five-year goal of 30 percent of our resources supporting local solutions.” Id.
32. This funding shift at USAID is being applied directly to PEPFAR funds. Accordingly to PEPFAR’s
website, “PEPFAR has always insisted that funds be
spent as efficiently and as close to the field level as possible. . . . PEPFAR is promoting transition of service delivery responsibility to the local level, supporting
leadership by governments and indigenous NGO.”

375
Ex. 8 U.S. PEPFAR, PEPFAR: Making Smart Investments to Increase Impact and Efficiency and Save
More Lives.
33. USAID bolsters this policy by strictly limiting a
substantial number of RFAs and RFPs to organizations
incorporated outside of the United States. See, e.g.,
Ex. 9, Request for Proposal No. SOL-386-14-000001 (issuance date Aug. 7, 2014) (limiting eligible organizations to “qualified local Indian entities”); Ex. 10, Request for Application No. RFA-611-14-000005 (issuance
date July 16, 2014) (limiting eligible organizations to
“local (indigenous) Zambian organizations”); Ex. 11,
Request for Application No. USAID-Vietnam-SOL-44014-000002 (issuance date June 6, 2014) (limiting eligible
organizations to “local Vietnamese organizations” for a
program entitled “Strengthen in-country Strategic Information Capacity for Sustainable HIV Response”);
Ex. 12, Annual Program Statement No. APS-386-13000004 (issuance date Apr. 10, 2013) (limiting eligible
organizations to “local organizations registered in India” for projects entitled “Scaling Up Interventions in
Reproductive, Maternal, Neonatal, and Child Health”
and “Scaling Up Interventions for HIV/AIDS Orphans
and Vulnerable Children”).
34. Consequently, Pathfinder is blocked from the
funds offered by those RFAs and RFPs unless it applies
through and words with its foreign affiliates.
As
USAID makes more and more funds available exclusively to non-U.S. organizations—the direction USAID
is moving—Pathfinder will be excluded from more and
more funding opportunities unless it works through the
foreign affiliates that are able to apply for an accept
those funds. In effect then, an ever increasing amount

376
of USAID’s funds will be encumbered by the Policy Requirement, despite our victory at the Supreme Court in
this case.
35. To have a meaningful opportunity to receive
Leadership Act funds, Pathfinder must partner with its
foreign affiliates to apply for and implement these
HIV/AIDS programs. In that circumstance, however,
the foreign affiliate will be compelled to adopt the Policy
Requirement. Pathfinder is thus forced to choose between fully exercising its First Amendment rights,
thereby speaking in conflict with its own foreign affiliates and jeopardizing its government funding, and
working with its foreign affiliates, thereby speaking in
conflict with its own policies an sacrificing its hardearned reputation.
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on [29] Oct., 2014
/s/

PURNIMA MANE
PURNIMA MANE
President and Chief Executive Officer
Pathfinder International

377

Exhibit 1

378
Pathfinder South Africa Signage

379

Exhibit 2

380
Pathfinder Egypt Signage

381

Exhibit 3

382
Pathfinder USA Signage

383
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

05-CV-8209 (VM) (DF)
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.,
ET AL., PLAINTIFFS
v.
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, ET AL., DEFENDANTS
DECLARATION OF HELENE D. GAYLE

I, Helene D. Gayle, hereby declare as follows:
1. I am, and have been since 2006, the President
and Chief Executive Officer of the Cooperative for Assistance and Relief Everywhere, Inc. (“CARE USA”).
2. I submit this declaration in support of Plaintiffs’
arguments at the October 16, 2014 conference in this
action.
CARE USA

3. CARE USA is a member of Plaintiff InterAction,
a network of U.S.-based humanitarian organizations.
4. CARE USA is a District of Columbia non-profit
corporation, originally incorporated in 1945, with headquarters located at 151 Ellis Street, NE, Atlanta, Georgia
30303. It is recognized as a tax-exempt organization
under section 501(c)(3) of the Internal Revenue Code.

384
5. In support of its mission to fight global poverty
and injustice, CARE USA and its branch offices around
the world support development and humanitarian aid
projects to help empower women and girls, improve
basic education, and advance healthcare, including improving sexual, reproductive and maternal health and
fighting the spread of HIV/AIDS.
6. CARE USA’s annual support and revenue
reached $489 million in fiscal year 2013. CARE USA’s
funding is derived from grants and donations from multiple sources, including Defendants United States
Agency for International Development (“USAID”) and
the United States Centers for Disease Control and Prevention (“CDC”), an operating agency of Defendant Department of Health and Human Services (“HHS”), as
well as other U.S. Government agencies and agencies of
the United Nations, European Union, foreign governments, the World Bank, and numerous foundations, corporations, and individual donors.
7. Since the passage of the United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act
of 2003 (the “Leadership Act”) in 2003, CARE USA has
received numerous grants under the Leadership Act to
fight HIV/AIDS in various countries. CARE USA intends to continue to apply for grants under the Leadership Act, when appropriation.
Corporate Structure of CARE International and
the Common Identity of Its Members

8. CARE USA is a member of CARE International
(“CI”), an international federation consisting of 13 separately incorporated nonprofit member organizations
called CARE Member Partners (“CMPS”), as well as

385
several affiliate members that are working toward full
membership. CI is headquartered in Geneva, Switzerland and is one of the world’s largest charitable international relief and development non-governmental organizations.
9. CI has a Board comprised of an independent
Chairperson (elected by the CI Board), the national director (often known as the CEO), and a board representative of each CMP.
10. In 2013, CI and its member organizations pooled
their resources and expertise to support nearly 1000
poverty-fighting projects reaching more than 97 million
people across 87 countries. The other 12 CMPs are located and incorporated separately in Australia, Austria,
Canada, Denmark, France, Germany, India, Japan, the
Netherlands, Norway, Thailand, and the United Kingdom. The recently approved Working for Poverty Reduction and Social Justice: The CARE 2020 Program
Strategy highlights CARE’s unified, aspirational approach to our work, a copy of which is attached hereto
as Exhibit 2.
11. Every member organization of CARE is required to adopt and abide by the CARE International
Code (“CI Code”), relevant excerpts of which are attached hereto as Exhibit 1. It is a document that sets
forth the guiding principles and framework for CARE
and its members. The CI Code contains CI’s common
practices and policies in such areas as governance, vision, mission, programming principles, humanitarian
mandate, and our common Codes of Ethics and Conduct.
All CMPs, therefore, share a common vision, mission,
programming principles, and brand as part of the CARE
family.

386
12. Importantly, § 10(c) of the CI Code requires that
CMPs follow certain defined practices and permission
requirements before they publicly take policy and advocacy positions. See Ex. 1 at 194. These procedures allow the CARE global confederation to ensure a coherent
message, and to “manag[e] the legal and reputations
risks” associated with, among other things, possibly divergent advocacy positions and associated speech by its
members. Id. As the CI Code emphasizes, “[a]ll advocacy conducted in CARE . . . has the potential to
affect other parts of the organization . . . [i]t is therefore important for all advocacy in CARE to comply with
a single set of sign-offs” and other collaborative mechanisms agreed to by members. Id. (emphasis added).
Further, § 12 of the CI Code cautions CMPs that “CARE
can and does engage in advocacy and communications on
controversial or sensitive issues, but this must only be
done after following a process of due diligence and adhering to [CI] guidance.” Id. at 201. CI thus has
mechanisms in place that ensure coordinated approaches
to its policy and advocacy positions, especially in areas
of particular sensitivity.
13. Day to day, CARE takes great efforts to ensure
effective, unified and appropriately sensitive voice across
the membership. An example of the importance of unified public communication is the CI Communications
Working Group led by CI and staffed by various communications, media and advocacy personnel from across
CARE. That group convenes regularly to ensure adherence to CI communication standards, and address issues of concern and specific sensitivity. Among those
sensitive areas are those relating to gender-based violence, which may include CARE’s work with prostitutes
in various countries where we work. CARE also works

387
in some of the most complex and dangerous environments in the world. The importance of unified speech
across the membership, both what is said and unsaid,
has very real life and death security implications for our
staff and partners.
14. If the Policy Requirement was imposed on various CMPs, it would force CMPs to publicly take a policy
position without following CARE’s standard practice of
developing and implementing policy and advocacy efforts
consistent with CARE’s mission, expansive experience
and desire for impact. For example, § 12 of the CI Code
directs CMPs to consider whether their speech, actions,
and/or advocacy is “grounded in CARE’s expertise/
programming and is . . . aligned with CARE’s vision, mission and mandate.” Ex. 1 at 201. Controlled
speech contradicts this key approach to our work.
15. The CMPs work collaboratively to implement programming, fundraise, and create policies and structures.
Using CARE’s brand, reputation and experience, CMPs
individually and collectively educate and advocate for
policy positions with governments, multilateral institutions, corporations, donors, and others, all consistent
with CARE’s mission. In addition, employees from one
CMP are often loaned or “seconded” to another CMP.
16. Through the use of the common CARE brand,
the historical success and reputation of CARE is imputed to all CARE entities. Among other things, this
common brand provides enormous benefits to every CMP,
such as increased ability to fundraise, recruit highly
qualified personnel, and build credibility when meeting
with government and industry leaders around the world,
and—most importantly—when meeting with the women
and men with whom we work.

388
17. CARE’s name and registered trademarks are
also actively monitored and enforced globally, both internally and externally. The CARE brand is owned by
CARE USA and licensed to CI and the other CMPs
through a licensing agreement. An example of the licensing agreement commonly used is the one between
CARE USA and CARE India attached as Exhibit 3 (“License Agreement”). The terms of the License Agreement include “operat[ing] . . . in accordance with
CARE International’s policies, guidelines and procedures,” including the CI Code, and “meet[ing] and maintain[ing] the standards of quality . . . prescribed by
CARE USA from time to time.” Ex. 3, §§ 1(A), 4. Importantly, a CMP’s use of the CARE brand can be revoked if a CMP fails to follow the terms of a License
Agreement, including provisions of the CI Code.
18. CMPs and country offices around the world make
consistent use of the CARE name and brand. Offices,
marketing materials, and signage are indistinguishable.
Exhibit 4 shows the CARE USA offices in Atlanta, Georgia; Exhibit 5 shows the CARE Cambodia office; Exhibit
6 shows signage from CARE Bolivia; Exhibit 7 shows
signage from CARE Ghana; and Exhibit 8 shows signage from CARE Jordan. As these exhibits show, CMPs
and country offices do not brand themselves distinctly
as “CARE Cambodia” or “CARE Bolivia”—CMPs and
country offices simply brand themselves as “CARE” so
that they remain strongly identified with CI.
19. Even though CI and each CMP are separate legal entities incorporated under the laws of each member’s respective country, globally CI and CMPs are
known as “CARE” or “CARE International”, and are
viewed by the public as one CARE entity speaking in a

389
single global voice aligned to achieve a common mission.
Internally, “CARE USA” and “CARE UK” identify
CMPs; externally, country offices refer to themselves as
“CARE International in Egypt” or “CARE International in Peru”. Publicly, few distinguish between CMPs.
The public sees and hears CARE as one entity operating
through a common identity to achieve a common mission.
CARE USA’s Foreign Affiliates (CMPs) Are
Essential to Achieving Its Mission

20. Several CMPs (CARE Australia, CARE Canada,
CARE France, CARE Germany, and CARE USA) are
responsible for implementing CI’s humanitarian and development work, including CARE USA’s work fighting
HIV/AIDS, through branch offices in the 87 countries in
which CI works. These branch offices are not separate
legal entities of a CMP.
21. Under the CI Code, only one CMP may have a
branch office in each country in which CI works. If a
CMP wishes to support the work that CARE France
does in Cameroon, for example, the funding CMP must
enter into a legal agreement with CARE France (through
its branch office known as CARE Cameroon) and provide those funds to CARE France to either implement
the programming directly or to subgrant the funds to
local non-CARE implementing partners.
22. The CI Code also provides that only the CMP located in a specific country may raise funds within that
country. For example, only CARE USA can solicit and
obtain funding directly from the U.S. Government. As
a result, CARE USA is the only CMP that can directly
obtain Leadership Act funds. If it does so for programming in Cameroon, for example, CARE USA must enter

390
into an agreement with CARE France to implement the
Leadership Act programming.
23. The fulfillment of CARE USA’s mission and objectives, including its fight against HIV/AIDS, depends
on its membership in CI and providing funding to other
CMPs that operate in a given country through their
branch offices. By virtue of CI’s operating structure,
CARE USA is able to rely on a common mission, vision,
programming principles, governance, and other accountabilities. It is only by working through its CMPs that
CARE USA is able to successfully implement its programs and policies in countries where CARE USA is not
itself operational.
24. Many HIV/AIDS programs are based outside
the United States. Therefore, in order to best position
itself to have access to competitive, limited Leadership
Act funds in countries where CARE USA is not itself
operational, CARE USA must work with other CMPs
such as CARE France, CARE Canada, and CARE India, among others, to apply for and implement Leadership Act programs. USAID has also in recent years encouraged working through non U.S.-based entities, a
practice that will impact CARE as it very likely sees a
further localization of its membership. This is true in
Peru, where CARE Peru, an affiliate CI member that is
working toward full CI membership, is a locally incorporated entity. It is also true in India, where CARE India, a full CI member, is also locally incorporated. Neither CARE Peru nor CARE India are branch offices of
other CMPs.

391
Imposition of the Policy Requirement of CARE USA’s
Foreign Affiliates Will Harm CARE USA

25. At issue is the requirement under the Leadership Act that organizations receiving funds under that
act adopt a policy opposing prostitution (the “Policy Requirement”) and the implementation of this requirement
by U.S. Government funding agencies. Despite a contrary decision from the Supreme Court, it is CARE USA’s
understanding, and strong evidence suggests, that the
U.S. Government intends to continue applying the Policy Requirement to all members of the CI federation
that are not incorporated in the United States. This application continues to impose the Policy Requirement on
all CARE entities other than CARE USA.
26. CARE’s strength and effectiveness as an organization is its collective, global identity and approach.
Requiring CMPs incorporated outside of the United
States to continue to adhere to the Policy Requirement
results in inconsistent messaging by the CARE global
federation, dilution of our brand and its collective voice,
destruction of our common approach, and impairment of
our ability to collaboratively accomplish our mission. A
common voice and approach is critical to CARE’s success, and coordinated policy-making and communications
ensure CARE’s global effectiveness, and, importantly,
even the safety and security of our staff.
27. Application of the Policy Requirement on foreign
CMPs harms CARE USA’s First Amendment rights.
Our rights would be compromised if a CMP publicly espouses a controversial viewpoint on an issue of public
health, including the Policy Requirements, and CARE
USA takes a different view. Additionally, CARE USA
may wish to express a protected right while also policing

392
the speech of critically important members of the CARE
family. Imposition of the Policy Requirement results
in mixed and inconsistent messaging which in turn minimizes CARE’s overall effectiveness as a global organization and harms CARE USA’s First Amendment rights.
28. The CI Code illustrates the importance of a common identity and voice. Imposition of the Policy Requirement requiring conflicting positions on an important issue of public health policy would diminish the
impact of CARE’s common voice, and could inflict exactly the type of “reputational harm” the CI Code seeks
to avoid. See Ex. 1 at 194. The “CI [a]pproval processes
for media and communications” requires that CMPs consult with CI and its members when they are “[t]alking
about an issue addressed by CI through a coordinated
global advocacy initiative,” including potentially such
areas as how best to engage sex workers in the fight
against HIV/AIDS. Id. at 204-05.
29. The CI Code demands that CMPs “[p]romote the
dignity of the people with whom [they] work” and “that
the dignity of beneficiaries is upheld.” Ex. 1 at 205,
310. This is among CARE’s core tenets, and makes
CARE the effective organization that it is. Adopting
the Policy Requirement mandating opposition to prostitution contravenes these mandates by forcing foreign
entities to publicly take a disapproving view of a CI’s
beneficiary group, in this case the sex worker community. This undermines CARE’s ability to build trust,
engage relationally, and ultimately succeed in its work
with marginalized groups.

393
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on [30] Oct., 2014
/s/

HELENE D. GAYLE
HELENE D. GAYLE, MD, MPH
President and Chief Executive Officer
Cooperative for Assistance and Relief
Everywhere, Inc.

394

Exhibit 1

395

396

397

Assembled herewith, are current policy papers, guidelines and constitutional documents, relating to the
work of CARE International.
The Code is envisaged as a living document. Its
scope and content to be expanded or altered as
indicated by the Board of Directors.
New or revised documents to be appropriately indexed
and added to this loose-leaf binder.
Original Nov. 1996
Updated Mar. 2004
Updated Oct. 2011

398

Section 1 – Introduction .................................................. 1
Background ................................................................ 2
Index – Table of Contents ......................................... 3
Index – Table of Figures ........................................... 5
Index – Table of Annexes.......................................... 5
List of Approved Amendments ................................ 7
Section 2 – Fundamentals............................................. 12
Statutes of CARE International ............................ 12
CARE International Governance .......................... 26
CARE Vision and Mission ...................................... 39
CI Programming Principles ................................... 41
Humanitarian Mandate ........................................... 43
Section 3 – CARE International Codes of
Conduct ........................................................................ 46
Code of Ethics .......................................................... 47
Code of Conduct ....................................................... 49
Section 4 – New CI Membership ................................. 57
New Membership in CARE International
Criteria and Procedures .................................... 58
Criteria ...................................................................... 58
Affiliate Membership............................................... 63
Section 5 – Country Presence ...................................... 66
Policy ......................................................................... 67
Criteria ...................................................................... 71

399
Procedures ................................................................ 76
Sample Basic Country Agreement ...................... 104
Section 6 – Definitions, Roles &
Responsibilities ......................................................... 109
Lead Member, Developing Country Member,
Country Office and CARE Member
Partner ............................................................... 110
Country Director ................................................... 141
Chairperson ............................................................ 151
Treasurer ................................................................ 155
Secretary General .................................................. 157
Section 7 – CARE International and the
European Union ........................................................ 162
CARE’s Relations with the European Union ..... 163
Policy on Shared Administrative Costs on
EU Projects....................................................... 166
Section 8 – Emergency Response Coordination ...... 168
Humanitarian Mandate ......................................... 171
Mandates, Roles and Responsibilities ................. 172
CARE’s Commitment to International
principles and standards .................................. 180
Key Protocols ......................................................... 181
Section 9 – Personnel Policy & Guidelines ............... 189
Section 10 – Advocacy ................................................. 190
Advocacy Procedures and Sign-offs .................... 191
Section 11 – Conflict Resolution ................................ 196
CI Conflict Resolution Guidelines........................ 197
Section 12 – Media and Communications.................. 198
Overview ................................................................. 199

400
Principles and Procedures for Communication and Advocacy ............................................. 199
CARE and the Media ............................................ 205
Section 13 – Reference Papers ................................... 207
CI Project Standards ............................................ 208
Rationale and Definition for Program
Approaches ........................................................ 209
Policy for Engaging in Private Fundraising
Activities in Countries with No CI
Presence ............................................................ 212
Policy Framework for CI’s Relations with
Military Forces ................................................. 217
Gender Policy ......................................................... 235
Policy on Prevention and Response to Sexual
Exploitation and Abuse.................................... 243
CI Safety and Security Principles ....................... 243
Guidelines & Procedures for Safe Travel to
Country Offices ................................................. 243
Managing Staff Detention Abduction and
Similar Incidents .............................................. 243
Section 14 – CI Internal Agreements ....................... 243
CI Inter-Member Memorandum of Understanding Template ............................................ 243
Individual Project Implementation
Agreement ......................................................... 243
Pre-Individual Project Implementation
Agreement ......................................................... 243
Section 15 – Commercial Contracting ....................... 243
Background ............................................................ 243
Proposed Protocol .................................................. 243

401
Section 16 – Marketing ............................................... 243
Fundraising Code of Ethics and Standards
of Practice .......................................................... 243
Standards of Practice for Private Donor
Fundraising ....................................................... 243
Ethical Guidelines on Engagement with
Corporations ..................................................... 243

Section 2 – Fundamentals............................................. 12
Figure 1: CI Governance & Board Committee arrangements................................................ 27
Figure 2: CI Board Standing Committees ......... 31
Figure 3: Executive Committee (Excom)
sub-committees ................................................... 31
Figure 4: Proposed Calendar of Meetings ......... 32
Section 8 – Emergency Response Coordination ...... 168
Figure 5: Member Responsibilities in an
Emergency ........................................................ 177
Figure 6: What determines emergency
type? ................................................................... 182
Section 13 – Reference Papers ................................... 207
Figure 8: Gender Equality & Diversity and
the CARE Programming Principles .............. 242

Section 2 – Fundamentals............................................. 12

402
Annex A: Terms of Reference of the CI
Board .................................................................... 33
Annex B: Terms of Reference of the
Executive Committee (Excom) ......................... 34
Annex C: Terms of Reference of the
Finance, Audit & Risk Committee (FAR) ....... 35
Annex D: Terms of Reference of the H.R.
Safety and Security Committee (HRSSC) ...... 36
Annex E: Terms of Reference of the
Governance and Nominations Committee
(G&N)................................................................... 37
Section 3 – CARE International Codes of
Conduct ........................................................................ 46
Annex A: Recommendations to the Government of Disaster-Affected Countries ............... 54
Annex B: Recommendations to the Donor
Government ......................................................... 55
Annex C: Recommendations to the
Intergovernmental Organisations .................... 56
Section 13 – Reference Papers ................................... 207
Annex A: Operating scenarios ........................... 225
Annex B: References .......................................... 229
Annex C: Field Office Checklist ........................ 234
Annex A: Gender Policy ..................................... 238
Annex A: SAMPLE TEMPLATE –
Record of Emergency Data (RED) ................ 243
Annex B: SAMPLE TEMPLATE –
Acceptance of personal responsibility ............ 243

403
Annex C: SAMPLE TEMPLATE –
Travel Checklist ................................................ 243
Annex D: SAMPLE TEMPLATE –
Country Office Briefing ................................... 243

404

405

This paper describes the processes that guide and support coordinated advocacy, conducted jointly or separately by multiple parts of CARE International, around
issues, events and programmes that the CARE International membership identifies as mission-critical or otherwise of current priority 28.
Advocacy is the deliberate influencing of policy and its
implementation by international and national level institutions or organizations so as to support tangible improvements in the lives of the poor and marginalized.
It is a means by which CARE helps to raise the voices
of the poor and defend their dignity.
Advocacy is often supported by “positioning”—usually
through the issuing of public statements and policy
papers—which are public expressions of our perspective
on an issue or an event. “Talking points” are an aid to
spoken communication on or around CARE’s advocacy
and related statements.

28
CARE International is defined as the sum of the CARE International membership, its country of fices, and the Secretariat and
its sub-of fices. In this paper, CARE International, CI, and CARE
are used interchangeably.

406

CARE’s advocacy can be focused on changing a broader
policy agenda or on changing the approach taken by policy makers on a particular issue within that agenda.
Our advocacy is rooted in our program experience and
necessarily is supported by clear policy objectives,
research and analysis. The tone we take in our messaging is serious, authoritative and generally nonconfrontational.
Ordinarily, there are three different categories of advocacy, which are described below. Note, however, that
the extent of global advocacy activity taking place at any
given time is determined by available capacities at the
CI member and country office levels.
1.

Coordinated CI-wide advocacy conducted in support of CARE’s country office programs and/or
events in relation to countries in which CARE has a
presence
At any given time, most CI country offices are routinely engaged in advocacy in support of their programs. However, there are occasions when it is
advantageous or necessary for CI to undertake coordinated global advocacy in support of our country
programmes or in relation to events taking place in
countries where we maintain a presence. These
may be short-term responses to local crises, or
longer-term initiatives which seek to address more
systemic causes of poverty. On these occasions, it
is the responsibility of the country office, with support from the lead member, to lead the development

407
of CI’s advocacy objectives, policy positions and advocacy messages, and in doing so to ensure that all
CI members participating in the country program
are sufficiently consulted. The Secretariat can
support the country office and lead member in
meeting these responsibilities, especially in cases
where there is increased CI member interest in the
country program, or when events are receiving high
levels of media attention and/or are unfolding very
rapidly.
In some complex emergencies or other instances,
potential controversy or possible consequences arising from CARE’s proposed advocacy and/or public
positioning may justify a more formal consultation
with all CI members. Note, however, that any advocacy (and related positioning) by CARE conducted in support of country office programmes,
and/or around events and issues at the country office level, by definition require the sign off of the
Country Office Director and his/her line manager29. 3
With policy positions and objectives agreed and advocacy messages developed, CI members engaged
in the country programme will identify opportunities to communicate these to relevant audiences in
their national contexts. In cases of high humanitarian risk and/or international interest, ideally all
CI members will engage in this way. The Secretariat, as capacities and opportunities allow, will do
likewise for UN and EU institutions in Geneva,
Brussels and New York.
29
See Part C of this paper for “sign of f ” procedures that support
the development of advocacy messaging and positioning.

408
This coordinated advocacy will be supported by the
issuing of public statements and talking points, as
appropriate, through the Communications Working
Group (COMWG). Again, the country office and
lead member is responsible (with support from the
Secretariat as appropriate) for ensuring that such
statements and talking points are produced in a
timely manner, thereby enabling the CI membership to maintain an appropriate presence in debates
relating to CARE’s advocacy priorities.
Advocacy activity conducted by CI members and
the Secretariat will be reported to the country office
line manager, which will provide the wider membership with periodic updates on progress and achievements. As before, and as appropriate, the Secretariat will assist the lead member in this process.
2.

Advocacy conducted in relation to global events or
issues.
This level of advocacy, which is usually a longerterm undertaking, follows a process similar to that
outlined above for advocacy conducted in support of
CARE’s country office programmes or around
events at the country office level.
Based on proposals received from CI members and
country offices, the Advocacy & Media Communications (AMC) Subcommitte will identify time-bound
opportunities for CARE to influence global events
or priority issues that bear directly on causes of
poverty and humanitarian suffering and which our
analysis shows should best be addressed at the
global level. Examples of events could include a
meeting of the G-8 or the International Women’s

409
Day. Examples of issues could include climate
change and the food price crisis.
Opportunities identified will be recommended by
the AMC Subcommittee to the CI Executive Committee, along with an advocacy coordinator for the
global event or issue—“Coordinator” (usually a CI
member, more rarely a country office or the Secretariat), which will take responsibility for leading coordinated advocacy in response to the given event
or issue. In order to maximize our impact and
avoid our becoming spread too thinly, CI would not
ordinarily implement more than a limited number of
these initiatives of coordinated advocacy at any one
time.
Following formal approval by the Executive Committee, the Coordinator works with other interested
CI members to develop an advocacy strategy—
which will include policy positions, research and
analysis needs, critical path, etc.—and an action and
resourcing plan for the strategy30. 4 The Secretariat
will support the Coordinator in this process.
Through the action plan, CI Members and country
offices will commit to undertake advocacy and communications that is appropriate to their national
contexts and capacities. For its own part, the Secretariat will do likewise for UN and EU institutions
in Geneva, Brussels and New York.
This coordinated advocacy will be supported by the
issuing of public statements and talking points, as
appropriate, through the Communications Working
30
See Part C of this paper for “sign of f ” procedures that support
the development of advocacy messaging and positioning.

410
Group (COMWG), and reflected in other CI member
communications. Again, the Coordinator is responsible, with support from the Secretariat and other
interested CI members and country offices, for ensuring that such statements and talking points are
produced in a timely manner, thereby enabling the
CI membership to maintain an appropriate public
presence in relation to important events and issues.
The Coordinator will monitor and document the implementation of these advocacy and communications commitments, and will provide the wider membership with periodic updates on progress and
achievements. A report summarizing the initiative
—its activities and achievements—will be prepared
and circulated by the Coordinator once the advocacy activity is considered complete.
3.

Advocacy conducted in response to rapidly unfolding or unexpected events that occur at the global
level or in countries where CARE has no presence
From time to time, CARE is faced by rapidly unfolding or unexpected events either in a country
where it has no presence (e.g. an earthquake), or at
the global level (e.g. a summit of world leaders convened to address a global crisis), upon which the CI
membership may wish to express a public position.
In such cases, the Secretary General or a CI member requested by the Secretariat will lead a process
of rapid consultation with other CI members in order to formulate a CARE statement and/or talking

411
points, which will be circulated to the CI membership through COMWG31. 5

The previous section described how CARE develops and
implements coordinated or joint advocacy in a variety of
situations. What follows is a description of the permissions, or “sign-off,” that need to be obtained during this
process. Sign-off procedures are an important way to
ensure that the safety and security risks to our country
office staff, the risks to our operations, and the sensitivities of individual CI members have been taken into account in our advocacy. They are also a means of managing the legal and reputational risks (which can arise
from both the tone and content of our messaging) and
improving the quality as well as the policy coherence of
our advocacy efforts.
Note however that these sign-offs are not restricted to
the type of coordinated or joint advocacy outlined above.
All advocacy conducted in CARE—whether conducted
individually or jointly—has the potential to affect other
parts of the organization. It is therefore important for
all advocacy in CARE to comply with a single set of signoffs. The sign-offs apply both to public and private advocacy. Although the risks associated with the latter
are somewhat lower, it is prudent to assume that our
private advocacy could inadvertently (or otherwise) become public. Only advocacy messaging and positioning
across CARE taking place within existing, approved
31
Again, see Part C of this paper for “sig of f ” procedures that support the development of advocacy messaging and positioning.

412
policy (whether CI or CI member or country office) does
not require sign-off.
Sign-off will be guided by the following:
1.

Does the potential exist for impact on country office
operations, including the safety and security of
staff?
Advocacy or positioning that contains substantial
reference to a country in which CARE is operating,
or which concerns CARE’s operations in those
countries, must be signed-off by the country office
director and his/her line manager. CI members
may request and/or the Secretariat may offer to
work with the country office and its line manager to
modify the advocacy position, but country office and
line manager sign off must always be obtained in
these cases.

2.

Does the advocacy or positioning contain sensitive
or potentially controversial messaging concerning
another CI member or aspects of its national operating environment, such as the national government
or private sector?
Advocacy or positioning that contains sensitive or
potentially controversial messaging concerning another CI member or its national operating environment (government, private sector, etc.) must be
signed-off by that member’s national director.

413
3.

Is the advocacy or positioning potentially controversial for CI?
Any advocacy or positioning that contains sensitive
or potentially controversial messaging should be referred to the Secretariat. The Secretary General32 consults with CI members to develop CI’s
advocacy position. Approval of advocacy or positioning is obtained with the support of three quarters of CI members.
6

If there is a minority of CI members which dissents
strongly from the approved advocacy or positioning,
they may appeal to the Secretary General, who will
then determine if vital interests of CARE International are at stake. In doing so, the Secretary General can seek to reduce the areas of disagreement
and/or footnote the advocacy or positioning to the
effect that certain CI members have abstained from
or chosen not to endorse its content.
4.

Is the advocacy or positioning being conducted in
the name of CARE International?
If the answer to this question is ‘yes’, then the advocacy messaging or positioning must be signed off by
the Secretary General.

5.

Is the advocacy or positioning targeted at a multilateral institution or partner (UN, EU, World Bank,
etc)
Substantive advocacy messaging or positioning that
targets a multilateral institution must be signed off

32
The Secretary General may delegate authority for the sign-offs
contained in this paper to senior staff in the Secretariat (Head
Global Advocacy, Deputy Secretary General).

414
by the CI Secretary General or Deputy Secretary
General. In the case of controversial policy, messaging or positioning that targets the European Union, additional sign off is required by the majority of
the European CARE national directors. If a minority of European CAREs dissents strongly from
the approved advocacy or positioning, they may appeal to the Secretary General, who will then determine if vital interests of European CARE members
are at stake. In doing so, the Secretary General
can seek to reduce the areas of disagreement and/or
footnote the advocacy or positioning to the effect
that certain European CAREs have abstained from
or chosen not to endorse its content.
6.

Does the advocacy concern subject matter that is
the acknowledged specialization of another member
of CI (for example, a CI Centre of Expertise) or an
issue that CI has agreed to address as a coordinated
CI global advocacy initiative?
If the answer to this question is ‘yes’, CI Members
should consult with the national director (or designate) of the specializing CI Member, or in the case
of an issue agreed to be addressed through coordinated CI global advocacy, with CI advocacy coordinator for that issue33, 7as well as with the CI Secretariat Head Global Advocacy.

33

See Part B.2.

415

416

All CARE communications and media work are subject
to the procedures and protocols outlined in the CI Communications Handbook and the CARE Brand Identity
Standards. Effective communications about CARE’s
work requires not only media/communications specialists, but also the support of all levels of the organization
including headquarters, regional offices, country offices
and sub-offices. Specific roles and responsibilities of
CARE offices regarding media and communications are
explained in Chapter 5 of the CI Code.
The CARE International Communications Working
Group (COMWG) is a working group that includes all
communications, media, public relations, editorial writing, information, and online communications staff across
CARE International. Coordinated by the CI Media
and Communications Coordinator, COMWG’s mission is
to coordinate communications across all CI members
and country offices to ensure CARE speaks with one
voice to effectively communicate CARE’s development
and humanitarian mandate to the public. COMWG
seeks to maintain and build CARE’s reputation as a
well-known, transparent and respected agency fighting
global poverty, and create an environment where all
CARE staff have the knowledge and skills needed to
communicate CARE’s vision and mission to the public.
The CI Secretariat, in coordination with COMWG and
relevant stakeholders, is responsible for setting and implementing global media and communications policies

417
and training modules within CARE and developing and
maintaining standard communications materials for use
by the CARE confederation. The CI Media and Communications Coordinator provides coordination of CIwide media work, particularly in support of the CI secretariat’s humanitarian emergency, advocacy and representation functions, and within the broader context of
promoting and supporting CARE’s global vision, mission and the objectives of the CI strategic plan.

This section 2 is extracted from a joint communications/
advocacy chapter in the CI Communications Handbook.
The complete advocacy procedures and sign-offs are presented in Chapter 9 of the CI Code. Thus, in case of need
for guidance concerning advocacy, please refer to Chapter 9.
2.1

INTRODUCTION

Communications and advocacy are among our most powerful tools. Through our advocacy and communications work, we influence policy makers and donors to develop policy to help fight poverty, and we urge the media
and public to bring attention to the causes and issues
that form the basis of our work. Every choice of word,
metaphor, visual or statistic conveys meaning, affecting
what our target audiences will think about CARE and
the issues we address. These guidelines are not meant
to constrain communications or advocacy work, but to
help create relevant, responsible, consistent messaging

418
throughout the CARE confederation. These procedures apply to all CARE offices, including CI members,
affiliate members, and Country Offices.
2.1.i

CARE’s approach

CARE’s communications and advocacy should reflect
that CARE is an independent, non-political, non-sectarian
organization dedicated to ending poverty and providing
humanitarian assistance. CARE communications and
advocacy should:
•

As much as possible not endanger lives, relationships, programs or funding.

•

Respect CARE’s values, mission and brand and
the CI Code of Conduct, which is based on the
Code of Conduct for the International Red
Cross and Red Crescent Movement and
NGOs in Disaster Relief.

•

Be grounded in CARE’s expertise and program
experience, and based on a thoughtful, credible and supportable analysis of what we know
about the issue and impact on the people we
serve in the country/situation. Advocacy in
particular should also be based on clear policy
objectives, analysis and research.

•

Use a serious, authoritative and generally nonconfrontational tone.

•

Have the goal of helping/benefiting the people
we serve in the country/situation.

•

Follow approved guidance and procedures.

The following principles and guidelines are a summary
of existing policy. For more detail and guidance about

419
advocacy and communications policy, please see chapter
9 of this CI Code, the Advocacy Procedures and SignOffs in CARE International approved by the CI board
in 2009 and revised in 2011. For detail on developing
CARE messaging and CARE’s communications principles, please see the CARE Brand Identity Standards
(2011) and the CI Communications Handbook (2011).
2.1.ii.

Definitions

Advocacy: Advocacy is the deliberate influencing of
policy and its implementation so as to support tangible
improvements in the lives of the poor and marginalized.
Advocacy is often supported by positioning—usually
through policy papers, policy recommendations and
statements, letters to decision makers, and talking lobby
points—and communications. Advocacy can be private
or public, through activities such as closed-door meetings with government officials, or by using some of the
above tools. It is a means by which CARE helps to raise
the voices of the poor and defend their dignity.

CARE communicates to inform/
educate the public and stakeholders about CARE’s work,
important issues and emergencies; give voice to beneficiaries; support advocacy efforts to influence policy decisions; raise funds; and strengthen CARE’s reputation.
Examples of public communications include but are not
limited to press statements/releases, press conferences,
media interviews, speeches, website updates, talking
points, printed materials such as brochures, social media posts, online campaigns, human interest stories or
blogs, reports or studies.

Communications:

420
Questions to ask when choosing whether or not to engage
in advocacy or communications:

•

What is the purpose of our message?

•

Is this grounded in CARE’s expertise/programming and is it aligned with CARE’s vision,
mission and mandate?

•

If used for advocacy, is it based on clear policy
objectives and supported by research and
analysis?

•

Do we add value by commenting on the topic?

•

Who is the target audience? Which of public or
private messaging is the best way to reach
them?

•

What are the risks? (security, government/
donor relations, community feedback in-country,
implications for countries nearby etc.) Does
the importance of the message outweigh the
risks, or can we mitigate the risks?

2.1.iii

Sensitive or controversial issues

Sensitive or controversial issues for CARE can vary
from country to country and depend on the context, but
in general they include anything that could have a negative impact on staff safety, programs, beneficiaries, government, partner or donor relations, or CARE’s global reputation. CARE generally handles sensitive/controversial
issues through private advocacy or joint messaging with
other agencies. CARE can and does engage in advocacy and communications on controversial or sensitive issues, but this must only be done after following a pro-

421
cess of due diligence and adhering to the guidance below. This also applies to joint messaging with other
agencies.
2.1.iv

Identifying sensitive issues and countries

The following list is not exhaustive and can change quickly,
but includes issues and countries that CARE considers
particularly sensitive. For explanation on why the below issues/countries are sensitive and existing CARE
approaches and public messaging, see Annex 1: Explanation and potential risks regarding messaging around
sensitive issues/countries.
Examples of sensitive issues Examples
countries
Social/cultural:

o Abortion
o Gender-based violence,
rape
o Harmful practices such
as Female Genital
Cutting or early marriage
o Sexual orientation
Conflict or war:

o Civil-military relations
o Military leaders, coups
or actions
o Terrorist acts or groups
Security:

o Kidnappings or security incidents

o
o
o
o
o
o
o
o
o

of

sensitive

Afghanistan
Iraq
Myanmar
Pakistan
Somalia
Sri Lanka
Sudan
West Bank and Gaza
Zimbabwe

422
o National staff names
o Sexual exploitation or
abuse
Political:

o Elections or political
events
o Government
actions,
political leaders
Negative statements regarding UN, governments,
donors, NGOs Official declarations:

o Cholera or epidemics
o Famine
o Genocide, human rights
abuses, war crimes
Additional questions to ask to identify a sensitive issue:

•

Could this impact staff safety or programs in the
country or other countries?

•

Could this affect donor relations or relations
with governments?

•

Does this violate CARE’s position of being independent, non-political and non-sectarian?

•

Does this represent a new policy position for
CARE?

•

Are there conflicting views within the membership on the issue?

If you answer yes to any of the above, you are dealing
with a sensitive issue.

423
2.2

PROCEDURES

2.2.i

Approval Processes348

All advocacy and communications—whether conducted
locally, nationally or internationally—have the potential
to affect other parts of the organization. It is therefore
important for all advocacy and communications to adhere to the following approval procedures. This applies to both public and private messaging; although the
risks associated with private messaging are lower, it can
be assumed that private messaging could become public.
Communications and advocacy materials/positions require approval in order to:
•

ensure it is factually correct and is of the highest
quality and relevance;

•

ensure it protects CARE’s name, integrity of its
program and safety of its staff;

•

ensure it is in line with CARE’s values, mission
and brand and CI Code of Conduct;

•

ensure it takes into account sensitivities of individual CI members and COs;

•

allow us to manage legal and reputational risks;

•

ensure it serves its purpose.

While approval processes are important, we must remember that timing is crucial, especially for media releases. Material to be approved should be provided in
writing if possible; quick translations into English can

34
These approval procedures are in addition to any internal approval processes within a CARE office.

424
be done using online translation tools such as Google
Translate.
There are different categories of communications and
advocacy that require different levels of scrutiny and approvals:
Category 1:

not requiring further approval:

•

national issues not related to another CI member or CO (e.g., a CIM press release commenting on its own national government policy or a new donation);

•

material that has been previously approved and
clearly is not out of date.

Category 2:

requiring further approval or consultation:

•

issues related to another CI member or CO (e.g.,
position paper about a CO, a press release
quoting a CO staff or about another CIM government policy);

•

sensitive or controversial issues outlined above;

•

anything issued in the name of CARE International;

•

issues related to a country in which CARE has
no presence;

•

advocacy or communications targeted at a multilateral institution or partner (UN, EU, World
Bank etc.);

•

emergency response;

•

material that was previously approved but may
be out of date;

425
•

2.2.ii

advocacy or communications work related to
global events or issues that CI has agreed to
address through coordinated advocacy or that
are related to the acknowledged specialization
of another CIM.
Sharing information with CI

Communications or advocacy materials released by a
CARE office may be picked up by media or seen by
stakeholders around the world. Once communications
or advocacy positions/materials are approved, it is important to alert the rest of CI and provide any necessary
guidance (e.g., talking points, key messages, and/or
Q&As if appropriate) regarding how to handle inquiries
from stakeholders or any additional action required.
Please see Section X of the CI Communications Handbook for how to share information using CARE internal
e-mail distribution lists.
2.2.iii

Follow-up

It is important that the office that issued the advocacy
or communications initiative monitor the global response
(e.g., media coverage; reaction from stakeholders such
as beneficiaries, government, donors). A CO, Lead
Member or other CI Member may issue subsequent
statements to keep CARE’s point of view clearly understood or to build on the work already done. Follow-up
initiatives should respect the above procedures.
2.2.iv

Arbitration

In case of disagreement regarding advocacy or communications issues or any of the procedures outlined in this
document, the CI Secretariat will seek a consensus as
per the CI Advocacy Procedures and Sign-Offs 2011.

426

9 10 11

Lead member point people are Media/Communications Manager for communications materials; Advocacy or Line Manager for
advocacy positions and associated communications. It is their responsibility to consult with/obtain approval from the relevant Lead
Member senior staff, such as Head of Program, Security Director,
Legal Advisor, etc. and regional offices, where these exist.
36
CI Secretariat point people are CI Media and Communications
Coordinator for communications; CI Head, Global Advocacy for advocacy. It is their responsibility to consult with/obtain approval
from relevant staff in the CI Secretariat if necessary.
37
For additional details, please see the CI Advocacy Procedures
and Sign-Offs 2011.
35

427

Working with traditional and new media is extremely
important. Journalists deliver CARE’s message to the
world through newspapers, radio, television and social/
online media. CARE staff have expertise and knowledge
which is in high demand by the media. The development of professional working contacts with journalists
locally, nationally and internationally is crucial to the
success of any media strategy. CARE staff should have
an understanding of the media, how it functions, and the
roles of print, broadcast and social media/online journalists. 1213
Issues addressed by CI as global advocacy initiatives and leads
can be found in the 2-year CI Global Advocacy Strengthening Strategy.
39
Usually, communications related to multilateral institutions
should be part of an advocacy initiative.
38

428
CARE works with the media to:

•

Raise awareness and motivate donors, partners,
policy makers and the public about CARE’s
work and issues related to global poverty.

•

Enhance and protect CARE’s reputation, messaging and advocacy work.

•

Give voice to communities with whom we work.

•

Increase acceptance at CO level.

•

Support fundraising efforts: earned media is
free, keeping advertising costs low. Donors are
more likely to respond favourably to project proposals or appeals from CARE when positive and
frequent reports on the work of the organisation
appear in the media.

In our media work, CARE seeks to:

•

Be a resource. We have information and knowledge that is useful to journalists.

•

Be honest, open and transparent.

•

Promote the dignity of the people with whom we
work.

•

Provide journalists access to the communities,
so they can see problems and solutions for themselves.

•

Educate and inform.

•

Maintain good relations.
Just as we work
closely with donors and partners, we do the same
with journalists.

429
Media policies and training

All CARE offices should appoint a Media Focal Point
who will be the point person to receive media requests
or manage media initiatives such as press releases. In
most COs, this will be the CD or communications officer
(if available). COs, particularly high-risk countries or
large COs, should have at least one experienced and
dedicated communications/media officer on staff to handle media requests, facilitate media visits, build relations with local and international media, produce communications materials, monitor media for issues relevant to CARE or mentions of CARE, provide training to
staff, and other communications-related activities to
promote CARE’s work and advocacy messages, support
the CO and protect CARE’s reputation.
All CARE offices should have a Media Policy, including
the approved spokespeople; the Media Focal Point; and
guidance on what staff should do if they are contacted
by a journalist. All media contact and resulting coverage should be reported to the Media Focal Point and
lead member for CARE’s records and follow-up if
needed. Doing media interviews and supporting CARE
media/communications initiatives should be included in
the job descriptions and responsibilities of all senior
staff. All CARE spokespeople should receive media
training following CARE’s global media training curriculum.
Media in emergencies and crises

Emergency media protocols, roles and responsibilities
are explained in detail in Chapter 22 of the CARE
Emergency Toolkit. Crisis Communications Guidelines are included in the CI Communications Handbook.

430

431

All CARE International Members must adhere to the
CARE International Code of Ethics. In so doing,
Members pursue the highest professional standards of
accuracy, truth, integrity and good faith.
The following excerpts from the general CARE International Code of Ethics guide the actions of all Members
with reference to private donor fundraising:
Members shall

. . . .

•

act in accord with all relevant statutory requirements of their respective countries.

•

exercise all due and proper responsibility in all financial matters, including accuracy of fundraising
literature, application of funds only in pursuance of
the organization’s stated objectives, and the practicing of complete and accurate public financial disclosure.

•

audit accounts in accordance with nationally recognized accounting principles and practices.

•

acknowledge the necessity of timely, accurate and
relevant reports as required under agreement with
donors and donor agencies.

•

ensure fundraising and administrative costs are consistent with respective national codes.

•

seek to maximize the proportion of donated funds
used in support of projects and programs, and to ensure that all expenditure on fundraising and administration is cost effective.

432
•

allocate and spend designated funds, raised by specific appeals for particular objectives, in accordance
with the stated purpose of the appeal.

•

employ responsible media and marketing techniques;
promotion and advertising must be truthful and accurate and meet applicable advertising standards
within their respective countries.

To ensure adherence to the principles of the CI Code of
Ethics, Members shall follow the Standards of Practice
outlined below.
Portrayal of Beneficiaries

In all public information Members shall ensure that the
dignity of beneficiaries is upheld.
Treatment of Donor Information

Members shall keep all information confidential and
shall not disclose privileged information to unauthorized
parties.
Members shall give donors the opportunity to have their
names removed from lists which are sold to, rented to,
or exchanged with other organizations.
Communication with Donors

Members shall be prompt, truthful and forthright in
providing answers to donors’ questions.
Members shall acknowledge and recognize specific donors where required and appropriate.

433
Where appropriate, Members shall ensure the timely
acknowledgment and receipting of a gift.
Where requested by the donor, they shall ensure timely
reporting on the use and management of funds and obtain the explicit consent of the donor before altering the
conditions of a gift.
Members shall ensure that donors receive informed and
ethical advice about the value and tax implications of
their gifts, according to national law and custom.
When asked, Members will inform donors whether those
seeking donations are volunteers, employees of the organization or hired solicitors.
Administration

Members shall not remunerate their fundraising staff
on a commission basis but through an annual salary.
All fundraising agreements with outside firms or individuals shall be put into writing and these shall be in
compliance with National fund raising law and custom.
Public Communication

Members shall make accurate public statements about
the volume of funds raised and transparently account
for their use using accepted national accounting standards.
Members shall not use the symbols, names or slogans of
other international or national non-governmental organizations improperly.
Consequences of Non-Compliance

The CI Marketing Committee shall be responsible for selfmonitoring compliance to the Code and Standards of

434
Practice. Alleged violations may be brought to the attention of the CI Marketing Chairperson in confidence.
If, following an investigation by the Chairperson, the allegations are substantiated, the Chairperson will refer
the matter to the Secretary-General and the Cl Board of
Directors for further action.

435

Exhibit 3

436
CARE USA AND CARE INDIA
LICENSE AGREEMENT
THIS LICENSE AGREEMENT (hereinafter referred to as “Agreement”), made as of the 1st day of
January, 2011 by and between COOPERATIVE FOR
ASSISTANCE AND RELIEF EVERYWHERE, INC.,
a District of Columbia non-profit corporation, having its
principal place of business at 151 Ellis Street, N.E. Atlanta, Georgia 30303 (hereinafter referred to as “CARE
USA”); and CARE India Solutions for Sustainable Development d/b/a/ CARE India, an Indian Section 25 Not
for Profit Company with its principal place of business
at 27 Hauz Khas Village, New Delhi 110 016, India (hereinafter referred to as “CARE India”).
WHEREAS, the parties hereto acknowledge that CARE
USA owns, is using and has registered its ownership of
trademarks and service marks for the word “CARE” in
countries throughout the world (all of which marks,
wheresoever registered, are hereinafter referred to as the
“CARE Marks”), and has registered the ‘CARE’ mark in
India;
WHEREAS, CARE India desires to use CARE Marks
attached on Annex 1 in India in its corporate name and
in conjunction with its charitable and humanitarian operations, and in activities in support of such operations;
WHEREAS, CARE USA and CARE India both agree
to operate in compliance with the policies, guidelines
and regulations of CARE International (“CARE International”), a Swiss nonprofit that provides operational
and administrative standards for entities utilizing the
CARE name and marks;

437
WHEREAS, CARE USA desires to grant and CARE
India desires to accept a license of CARE Marks for use
in its corporate name and in conjunction with its charitable and humanitarian operations, and in activities in
support of such operations, under the terms and conditions prescribed by CARE USA herein.
NOW THEREFORE, for an in consideration of the mutual promises and conditions herein set forth, the parties hereby agree as follows:
1.

GRANT OF LICENSE.

A. License. Subject to the terms hereof, CARE
USA hereby grants to CARE India, and CARE India
hereby accepts, the non-exclusive, nontransferable, and
non-assignable license on a royalty-free basis to use the
CARE Marks set forth on Annex 1 in the form supplied
in the graphic standards from CARE USA, as revised
from time to time, solely for use in its corporate name
and for the purpose of conducting charitable and humanitarian operations and activities in support of such operations in India in accordance with CARE International’s
policies, guidelines and procedures, as revised from time
to time. The parties recognize that CARE International and its members are updating the standards applicable to new CARE entities, and that therefore this
license shall be of relatively short duration as described
in Section 5(A) and shall be superseded by a subsequent
license containing the new, revised terms of license.
The rights granted herein shall be referred to as the
“License”.
B. Standards and Conditions. This License is conditioned upon CARE India’s agreement to abide by the
policies governing CARE International and CARE USA

438
as amended or supplemented from time to time. CARE
USA or its designated representative shall have the
right to approve all use by CARE India or CARE Marks,
including in promotional and advertising material, and
all such uses must conform to the requirements of CARE
USA. CARE USA or its designated representative shall
have the right to obtain upon request samples of any use
or intended use of CARE Marks and, upon providing
reasonable prior notice, to review CARE India’s books
and records for the purpose of inspecting CARE India’s
compliance with the terms hereof. The usage of CARE
Marks shall be in accordance with and aligned to the applicable Indian Laws and Regulations.
C. Exclusions. CARE India will not make or authorize any use, direct or indirect of the CARE Marks
(i) outside India or (ii) for any unauthorized purpose inside or outside India. CARE USA specifically reserves
all rights not granted under this Agreement.
2.

OWNERSHIP RIGHTS

A. Ownership. CARE India acknowledges CARE
USA’s exclusive right, title and interest in and to CARE
Marks. CARE India agrees not to challenge such right,
title and interest during or subsequent to the term of
this Agreement. CARE India acknowledges that use
of CARE Marks shall not create in CARE India’s favor
any right, title or interest in or to CARE Marks. All
uses of CARE Marks by CARE India shall inure to the
benefit of CARE USA. In connection with the use of
CARE Marks hereunder, CARE India shall not represent that it has rights of ownership in CARE Marks by
seeking registration of any mark incorporating the term
“Care” or otherwise.

439
B. Extent of License. CARE India shall not: (i)
grant, transfer, assign or sublicense any right or license
hereunder to any party; or (ii) delegate any of its duties
hereunder.
3.

PROTECTION

A. Generally. CARE India shall provide full cooperation and execute any document that may be, in the
sole opinion of CARE USA and in accordance with Indian laws and regulations, necessary or advisable in connection with the ownership, protection, registration, prosecution and /or defense of CARE Marks. In the event
of litigation or the threat of litigations, CARE India
shall provide full support to CARE USA, shall assist in
implementing CARE USA’s litigation strategy and shall
exercise its best efforts to mitigate potential damages or
settlement amounts. CARE India shall promptly notify in writing and keep CARE USA advised of any conflict, potential risk or threat to or infringement of CARE
Marks of which it is aware or becomes aware during the
term hereof, including renewals and extensions.
B. Protection of CARE Marks. The parties acknowledge that CARE Marks have established prestige
and goodwill and are well recognized in the mind of the
public, and that any use of CARE Marks by CARE India
must maintain the high standard and reputation of CARE
Marks. CARE India shall not permit or allow to be
done, any act or thing that impairs, weakens or dilutes,
or may impair, weaken or dilute, the ownership rights of
CARE USA or the validity, value or goodwill associated
with any CARE Mark.

440
C. Registration of CARE India. CARE USA or
its duly authorized representative shall register, renew
the registration, provide documentation of use and take
such other action as may be necessary or desirable regarding the CARE Marks, and if required by local law
to register CARE India as a Permitted or Registered
User or CARE Marks. CARE India, if the law permits
and if necessary, shall join in such application and take
such action as may be necessary or requested by CARE
USA to implement such application or retain, enforce or
defend CARE Marks. CARE USA shall assume the
reasonable expenses incurred in connection with retaining, enforcing and defending the CARE Marks in accordance with the terms of this Agreement; provided
however that CARE India must receive CARE USA’s
prior written approval of any individual or aggregate
costs in excess of USD $100 and original invoices and
receipts must be presented for reimbursement.
D. Litigation. In the event of a threatened or
pending dispute, the parties shall consult closely with
each other regarding what action, if any, should be taken
by either party, legal strategies, costs and other matters
associated with the litigation. The parties shall assume
their own legal expenses relating to litigation, unless they
otherwise agree in writing. CARE India shall not take
any legal action regarding CARE Marks, including without limitation registration, renewal of a registration or litigation, without the prior written consent of CARE USA.
4.

QUALITY CONTROL

CARE India recognizes the value of the CARE
Marks and CARE USA’s interest in maintaining the quality and reputation of the services provided in connection
with the CARE Marks. CARE India shall meet and

441
maintain the standards of quality for the services prescribed by CARE USA from time to time. CARE USA
shall have the right, during reasonable business hours,
to inspect CARE India’s offices, Error! Hyperlink reference not valid. quality control records in a form acceptable to CARE USA. CARE India shall promptly implement any resulting recommendations made by CARE
USA, or alternative measures satisfactory to CARE USA,
to ensure CARE USA standards of quality are maintained.
5.

TERM & TERMINATION

A. General. Except as otherwise provided herein,
this Agreement shall commence on CARE India’s first
use of the CARE marks, and shall continue through and
including the Parallel Operating Period, as defined in
the that certain India Organizational Evolution Framework Agreement dated March 7, 2011, unless the parties
otherwise agree in writing. Notwithstanding the terms
of this paragraph, either party may terminate this Agreement upon sixty (60) days written notice to the other
party.
B. Termination of Membership in CARE International. Notwithstanding the provisions of Article 5(A)
hereinabove, the License granted herein shall immediately terminate without prior notice or legal action by
CARE USA in the event that (i) CARE USA is no longer
a member of CARE International or (ii) in the event
that CARE India becomes a member of CARE International but its membership is thereafter discontinued; or
(iii) CARE International withdraws its affiliation with
CARE India or (iv) CARE India fails to comply with
CARE International’s and CARE USA’s policies, guidelines and procedures as described in Article 1(B) hereof;

442
or (v) CARE India consents to or institutes bankruptcy
or insolvency proceedings, or offers a compromise or extension to its creditors or admits its inability to pay its
debts as they become due or takes any action in furtherance of the foregoing.
C. Survival of Provisions. The provisions of this
Article and Articles 2, 3, 6 and 7 shall survive any termination or expiration of this Agreement.
6. REMEDIES. Upon termination of this Agreement
for any reason, CARE India shall change its name to a
name not incorporating CARE Marks or the word CARE,
shall cease and desist from all use of CARE Marks, and
CARE India shall at no time adopt or use, without
CARE USA’s prior written consent, any word or mark
which is similar to or confusing with any of the CARE
Marks. CARE India acknowledges that there would
be no adequate remedy at law for its failure to abide by
this provision at the expiration or termination of the License, and CARE India agrees that in the event of such
failure, CARE USA shall be entitled to equitable relief
including temporary and permanent injunction and other
appropriate remedies. Such relief shall be in addition
to other remedies available to CARE USA pursuant to
this Agreement or otherwise.
7.

MISCELLANEOUS

A. Governing Law. This Agreement shall be construed and enforced in accordance with, and governed
by the laws of the State of Georgia, USA, without regard
to its conflicts of law provisions. The parties hereby
submit to the non-exclusive jurisdiction of Atlanta, Georgia in the United States of America.

443
B. Notices. Any notice or other communication
hereunder shall be deemed sufficiently given if delivered in person or sent by fax and first-class mail, postage prepaid, addressed to the party to be notified at its
address shown at the beginning of this Agreement, or at
such other address as may be furnished in writing to the
notifying party.
C. Entire Agreement; Waiver. This Agreement
contains the entire understanding of the parties hereto
with respect to the subject matter contained herein.
This Agreement supersedes all prior agreements, licenses, and understandings between the parties with respect to such subject matter and may only be modified
or discharged by a written document executed by the
parties hereto. No terms hereof may be waived or
modified except by written amendment. The failure or
delay of either party hereto to enforce any right hereunder shall not be deemed a waiver or modification. All
rights and remedies hereunder shall be cumulative and
shall supplement other rights or remedies at law or in
equity. Article headings herein are included for convenience of reference only and shall not affect the construction or interpretation of this Agreement.
D. Severability. In the event that a provision of
this Agreement shall be held invalid, illegal or unenforceable, the remaining provisions hereof will not in
any respect be affected or impaired hereby.
E. Binding Effect. This Agreement shall be binding
upon and inure to the benefits of the parties, their respective legal representatives, successors and permitted assigns.

444
IN WITNESS WHEREOF, parties have duly executed
this Agreement effective as of the date and year first
written above.
COOPERATIVE FOR ASSISTANCE
AND RELIEF EVERYWHERE, INC.
/s/ STEVE HOLLINGSWORTH
Name: [STEVE HOLLINGSWORTH]
Title:
[Chief Operating Officer]
CARE INDIA SOLUTIONS FOR
SUSTAINABLE DEVELOPMENT
/s/ MUHAMMAD MUSA
Name: [MUHAMMAD MUSA]
Title:
[Chief Executive Officer]

445

ANNEX 1

446

Exhibit 4

447
CARE USA Signage

448

Exhibit 5

449
CARE Cambodia Signage

450

Exhibit 6

451
CARE Bolivia Signage

452

Exhibit 7

453
CARE Ghana Signage

454

Exhibit 8

455
CARE Jordan Signage

456
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

05-CV-8209 (VM) (DF)
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.,
ET AL., PLAINTIFFS
v.
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, ET AL., DEFENDANTS
DECLARATION OF CARLOS CARRAZANA
ON BEHALF OF SAVE THE CHILDREN
FEDERATION, INC.

I, Carlos Carrazana, hereby declare as follows:
1. I am, and have been since 2012, the Executive
Vice President and Chief Operating Officer of Save the
Children Federation, Inc. (“SCUS”).
2. I submit this declaration on behalf of SCUS in
support of Plaintiffs’ arguments at the October 16, 2014
conference in this action.
SCUS

3. SCUS is a member of Plaintiff InterAction, a
network of U.S.-based humanitarian organizations.
4. SCUS is a Connecticut non-stock corporation,
with headquarters located at 501 Kings Highway East,
Fairfield, Connecticut 06825. It is recognized as a taxexempt organization under section 501(c)(3) of the Internal Revenue Code.

457
5. Through its predecessor, the Save the Children
Fund of America, SCUS has operated in the United
States since 1932, and is a member of the global Save
the Children moment, which began with the establishment of Save the Children Fund (“SCUK”) in the United
Kingdom in 1919.
6. Since its founding, SCUS has worked to give
children in the United States a healthy start, the opportunity to learn, and protection from harm, and since
World War II, it has expanded these efforts on behalf of
children around the world.
7. SCUS’s operating revenue reached $676 million
in fiscal year 2013. SCUS’s funding is derived from
grants and donations from multiple sources, including
Defendants United States Agency for International Development (“USAID”) and Department of Health and
Human Services (“HHS”), as well as other United
States government agencies, multilateral institutions,
foundations, corporations, and individual donors.
Save the Children Association and
Save the Children International

8. There are currently national Save the Children
organizations, such as SCUS and SCUK, incorporated
in 30 countries around the world (“SC Members”). In
addition to the United States and the United Kingdom,
SC Members are located in Australia, Brazil, Canada,
Denmark, Dominican Republic, Fiji, Finland, Germany,
Guatemala, Honduras, Hong Kong, Iceland, India, Italy,
Japan, Jordan, Korea, Lithuania, Mexico, Netherlands,
New Zealand, Norway, Romania, South Africa, Spain,
Swaziland, Sweden, and Switzerland. All SC Members
share a mission to inspire breakthroughs in the way the

458
world treats children and to achieve immediate and lasting change in their lives.
9. Prior to 2011, SCUS and the other SC Members
were loosely linked through a Switzerland-based organization, the International Save the Children Alliance,
which controlled use of the Save the Children name and
logo. SCUS and thirteen other SC Members had each
carried out international programs during this period,
and in some countries, various Save the Children organizations (e.g. SCUS, SCUK, and others) operated independently from one another.
10. In 2011, in order to achieve greater efficiency in
their international programs, SC Members formed the
Save the Children Association (“SCA”), a non-profit Swiss
Association that owns the Save the Children logo and
maintains criteria for SC Members, and its subsidiary,
Save the Children International (“SCI”), a registered
charity in the United Kingdom, which coordinates SCA
Members’ collective advocacy and programming around
the world.
11. Following this reorganization, the overseas offices and foreign operations of all SC Members—those
offices and operations located in the more than 50 countries where no SC Member is located, such as Afghanistan, Bangladesh, Bolivia, Egypt, Ethiopia, Haiti, South
Sudan, and West Bank/Gaza—were transferred to a unified management structure under SCI, though individual SC Members continued to manage programs within
their own respective countries. As such, with few exceptions, SCUS no longer maintains offices or directly
manages projects outside the United States.

459
12. By design, all funding for the operations of SCA
and SCI is provided by the SC Members, and SCUS continues to raise funds for international programs, including from the U.S. government. Those funds are then
provided to SCI for program implementation pursuant
to a set of legal agreements between SCI and SCUS.
13. In 2013, with the efficiencies gained from this
model, SC Members and SCI collectively worked in
120 countries around the world and reached more than
143 million children through humanitarian, health and
nutrition, education, child protection, and governance
programs.
SCI Implementation of SCUS AIDS Relief Efforts

14. Since the passage of the United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act
of 2003 (the “Leadership Act”) in 2003, SCUS has received numerous grants under the Leadership Act to
fight HIV/AIDS in various countries. Since 2011, SCI
has carried out these programs on SCUS’s behalf. Using this model, SCUS intends to continue to apply for
grants under the Leadership Act, when appropriate.
15. For example, SCUS currently has funding from
USAID, either through direct grants or subgrants from
other organizations, for AIDS relief efforts in the Democratic Republic of the Congo, Ethiopia, Haiti, Malawi,
Nigeria, South Sudan, and Zambia. In each case, SCUS
transfers funds for the project to SCI, which then implements the project on behalf of SCUS.
16. At issue is the requirement under the Leadership Act that organizations receiving funds under that
act adopt a policy opposing prostitution (the “Policy Requirement”) and the implementation of the requirement

460
by U.S. government funding agencies. SCUS opposes
this requirement based on well-founded concerns that it
would alienate and impede our ability to serve the needs
of the most vulnerable children, their families, and others affected by HIV/AIDS.
17. Despite a contrary decision from the Supreme
Court, it is SCUS’s understanding, and strong evidence
suggests, that the United States government intends to
continue applying the Policy Requirement to SCI as a
foreign organization, including its dozens of country offices around the world, despite SCI’s affiliation with
SCUS.
18. As SCUS’s implementing partner for overseas
AIDS relief efforts, SCI is the mechanism through which
SCUS puts into practice and communicates its position
on issues such as prostitution within the countries where
it operates. Any position adopted and communicated
by SCI in these countries will be imputed to SCUS, even
if SCUS has no position or a contrary position. In the
countries where it matters most, this requirement would
effectively mute SCUS’s voice.
SCUS and SCI Joint Advocacy Efforts

19. Notwithstanding the legal distinctions between
them, SCI, SCUS, and the other SC Members are globally known as “Save the Children”, and are viewed by
the public as speaking in a single global voice aligned to
their common mission.
20. Together, SCUS, SCI, and other SC Members
develop coordinated policy positions, based on evidence
and operational experience, and they engage in coordi-

461
nated policy and advocacy work aimed at the public, governments, and multilateral institutions around the
world.
21. Within the Save the Children Movement, SCUS
is responsible for communications with the United States
public and government institutions, while other SC Members are responsible for similar efforts in their own countries. Advocacy to the United Nations, the Global Fund
to Fight, AIDS, Tuberculosis, and Malaria, and other
multilateral institutions is coordinated between SCUS,
SCUK, SCI, and other SC Members.
22. If SCI were required to adopt a policy opposing
the legalization of prostitution, it could jeopardize SCUS’s
credibility in the public debate within the United States
about best practices in the global fight against HIV/AIDS.
It could appear, for example, that SCUS was advocating
one view domestically while espousing and complying
with an opposing policy outside the United States.
23. Save the Children’s strength and effectiveness
as a global movement is in its collective, global identity
and approach. Requiring SCI to continue to adhere to
the Policy Requirement could result in inconsistent policy positions by SCUS and SCI or restriction of our ability to speak on specific policy issues, dilution of the Save
the Children brand and its collective voice, destruction
of our common approach, and impairment of our ability
to collaboratively accomplish our mission.

462
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on the 30th of Oct., 2014
/s/

CARLOS CARRAZANA
CARLOS CARRAZANA
Executive Vice President and
Chief Operating Officer
Save the Children Federation, Inc.

463
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

05-CV-8209 (VM) (DF)
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.,
ET AL., PLAINTIFFS
v.
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, ET AL., DEFENDANTS
DECLARATION OF MARK SIDEL

1. This Declaration addresses the legal and practical difficulties of establishing, registering, and operating new nonprofit organizations overseas, in light of the
guidelines issued by the government (U.S. Agency for
International Development and Department of Health
and Human Services) under the U.S. Leadership Against
HIV/AIDS, Tuberculosis, and Malaria Act of 2003 (the
“Guidelines”). The Guidelines prohibit grant recipients to from engaging in protected expression unless
they do so through newly created, privately funded separate organizations that would not be required to follow
the Act’s policy requirement. 1 I submit this declaration as an expert on international and comparative law.
1
See Acquisition & Assistance Policy Directive (AAPD) 05-04
Amendment 1, Implementation of the United States Leadership
Against HIV/AIDS, Tuberculosis and Malaria Act of 2003—Eligibility
Limitation on the Use of Fund and Opposition to Prostitution and
Sex Trafficking, issued July 23, 2007 (U.S. AID Guidelines); Guidance issued by the Office of Global Health Affairs, Department of
Health and Human Services, implementing Section 301(f ) of the

464
2. The Guidelines do not allow American charitable
organizations working abroad adequate alternative channels for protected expression because it is simply too
burdensome for non-profit organizations to create, establish, register, and operate new such organizations
everywhere they work overseas.
3. In particular, the extraordinarily stringent requirements for organizational separation and independence
—mandating “legally separate entit[ies],” that are completely “physically and financially separate,” judged on
factors that include “the existence of separate personnel, management, and governance,” “the existence of
separate accounts, accounting records, and timekeeping
records,” 2 and separate signage and identification, are
exceptionally burdensome for the Plaintiffs and for
other American charitable and nonprofit organizations
seeking to provide critical relief and development services that literally keep people alive in some of the
world’s most challenging countries.
4. This Declaration addresses whether, and the extent to which, the Guidelines impose burdens on the establishment of affiliates in all of the countries in which
these organizations operate, whether with US or private
funds. By way of example, this Declaration establishes
and details the legal and practical burdens in registering
a new and separate nonprofit in five of the countries
where Pathfinder International and CARE, which are

United States Leadership Against HIV/AIDS, Tuberculosis and Malaria Act of 2003, issued July 23, 2007.
2
Id. This wording appears in both the U.S. AID and Department
of Health and Human Services guidance.

465
members of InterAction and Global Health Council, operate outside the United States: India, Bangladesh,
Mozambique, Ethiopia, and Peru.
I.

Background and Statement of Qualifications

5. I currently serve as Professor of Law and Faculty Scholar at the University of Iowa, where I teach,
conduct research and publish scholarly work on the law
affecting nonprofit organizations and philanthropy, particularly in international and comparative perspective.
6. I am President-elect of the International Society
for Third Sector Research (ISTR), the international
scholarly association promoting research and education
on the nonprofit sector, philanthropy and civil society,
and will serve as President in 2009-2011. In 2009-2010,
I will also serve as Chair of the Section on Nonprofit and
Philanthropic Law of the American Association of Law
Schools (AALS), the group of law professors and legal
scholars teaching, conducting research, and publishing
scholarly work on the law of nonprofit and philanthropic
institutions.
7. I have conducted research and published on the
law affecting nonprofit and philanthropic institutions,
particularly in international and comparative perspective, for many years. My publications in this area, detailed in my Curriculum Vitae, which is attached hereto
as Exhibit A, include work published in the Michigan
Law Review, UC Davis Law Review, Pittsburgh Law
Review, Voluntas: International Journal of Voluntary
and Nonprofit Organizations, and other major journals.
In 2008 I will publish a scholarly volume on the impact
of counter-terrorism law and policy on nonprofit organizations titled Regulation of the Voluntary Sector:

466
Freedom and Security in an Era of Uncertainty
(Routledge, forthcoming 2008).
8. I have consulted for government agencies, international agencies, foundations and charitable organizations, and other institutions on law and policy affecting
nonprofit and philanthropic institutions. These institutions include the Ford Foundation, World Bank,
United Nations Development Programme, Asia Foundation, Luce Foundation, Oxfam, and other institutions.
In other areas I have served as a consultant for the U.S.
Department of Justice (human trafficking); U.S. Department of State (human trafficking and forced labor
in Asia, and other matters); the U.K. Serious Organized
Crime Agency (SOCA); the Refugee Legal Centre
(U.K.); the Vietnamese Ministry of Justice; Vietnamese
Union of Science and Technology Associations; and
other institutions.
9. I hold the A.B. degree from Princeton University, the M.A. degree from Yale University, and the J.D.
degree from Columbia Law School, where I studied
Asian law. I read and speak Chinese and read Vietnamese. Earlier I served in senior program positions
with the Ford Foundation in Beijing, Bangkok, Hanoi,
and New Delhi, including directing and managing the
Ford Foundation’s programs in Vietnam, and developing a regional program to strengthen the nonprofit sector and philanthropy in South Asia.
10. I have worked very extensively in several of the
countries discussed in detail in this Declaration. In India, I served as Program Officer for the Nonprofit Sector and Philanthropy with the Ford Foundation, developing and managing a regional program to strengthen
the nonprofit sector and philanthropy in South Asia,

467
based at the Ford Foundation’s regional office in New
Delhi. In Bangladesh, I served as consultant to the
Ford Foundation with full responsibility for the establishment of Bangladesh’s first national private foundation, the Bangladesh Freedom Foundation. I have
written and published extensively on the nonprofit sector and philanthropy in India and Bangladesh, including
co-editing a volume titled Philanthropy and Law in
South Asia 3 and publishing several scholarly law articles and book chapters. 4
Philanthropy and Law in South Asia (Mark Sidel and Iftekhar
Zaman (eds.), Asia Pacific Philanthropy Consortium, 2004), updated as Philanthropy and Law in South Asia: Recent Developments in Bangladesh, India, Nepal. Pakistan, and Sri Lanka (Asia
Pacific Philanthropy Consortium, 2007, www.asianphilanthropy.
org).
4
These include Mark Sidel, Recent Research on Philanthropy
and the Nonprofit Sector in India and South Asia, 12 Voluntas:
International Journal of Voluntary and Nonprofit Organizations
171 (2001); Mark Sidel, Resource Mobilization and the New Indian
Philanthropy, in Richard Holloway (ed.), Towards Financial SelfReliance: Resource Mobilisation for Citizens’ Organisations in
the South (Earthscan, 2001); Mark Sidel, Philanthropy in India’s
High Technology Communities and the Complex Search for Social
Innovation, Harvard Asia Quarterly (Summer 2001); Mark Sidel,
Courts, States, Markets alld the Nonprofit Sector: Judiciaries
and the Struggle for Capital in Comparative Perspective,
78 Tulane Law Review 1611 (2004); Mark Sidel, The Guardians
Guarding Themselves: Nonprofit Self-Regulation in Comparative Perspective, 80 Chicago-Kent Law Review 803 (2005); Mark
Sidel and Iftekhar Zaman, Philanthropy and Law in South Asia:
Key Themes and Key Choices, International Journal of Not-forProfit Law 7:2 (2005); Mark Sidel, Diaspora Philanthropy to India: An American Perspective, in Geithner, Johnson and Chen
(eds.), Diaspora Philanthropy and Equitable Development in China
and India (Global Equity Initiative, Harvard University, 2005);
3

468
II.

The Guidelines Impose Substantial Burdens on the
Establishment and Operations of U.S.-based Nonprofit Organizations that Operate Abroad

11. The burdens of providing humanitarian assistance in most of the countries in which the members of
InterAction and Global Health Council (collectively
“members”) operate become exceptionally burdensome
when they must be shouldered twice, for new and separate organizations. In virtually every country abroad,
including those in which the members operate, those
burdens include those described below.
A.

Burdens of Registering a New, Legally Separate
Entity in Multiple Countries

12. The Guidelines would impose significant, often
exceptional difficulties in securing permission to register and operate a new nonprofit entity in a foreign country. These difficulties are substantially exacerbated
by the fact that organizations will have to explain to local
government authorities (often multiple authorities, and
at different levels) why a second, separate and new registration for another entity is necessary.
13. In many countries in which the members operate, for example, approval and registration of a new and
separate foreign affiliated organization is a long, cumbersome and exceptionally difficult procedure, involving
substantial costs. It will be even longer, more cumbersome and difficult where it involves the second, new, and
separate organization related to an American charitable
Mark Sidel, Focusing on the State: Government Responses to
Diaspora Philanthropy and Implications for Equity, in Merz,
Geithner and Chen (eds.), Diasporas and Development 25-54
(Global Equity Initiative, Harvard University, 2007).

469
organization and where the American parent must
shoulder the additional burden of explaining to the foreign government why this arrangement is necessary.
In some countries, government agencies responsible for
approval and registration of foreign charities or their local counterparts may only allow each organization to
have one address, or only to work in defined, preapproved areas of the country. As the International
Center for Not-for-Profit Law (ICNL) has noted, there
is currently “a regulatory backlash against NGOs that
has caused growing concern among commentators and
practitioners throughout the world. In the past 2 years
alone, more than twenty countries have introduced restrictive regulations aimed at undermining civil society.
These countries join scores of others with existing laws,
policies, and practices that stifle the work of civil society
organizations.” 5
B.

Difficulties Securing Visas and Work Permits for
Foreign Employees of New Entity

14. Members will face difficulties securing visas
and/or work permits for American or other foreign employees of the new entity, difficulties exacerbated because many countries may not issue visas or work permits for additional foreign personnel in a new and sepa-

5
David Moore, Safeguarding Civil Society in Politically Complex Environments, 9:3 International Journal of Not-for-Profit
Law (July 2007), at www.ijnl.org. On the government-caused
problems of registration in a disaster-ridden nation, see also International Federation of Red Cross and Red Crescent Societies
(IFRC), Law and Legal Issues in International Disaster Response:
A Desk Study (2007), at 13.

470
rate entity—and where the government Guidelines appear clearly to prohibit the “dual use” of personnel across
both affiliates.
15. As the International Red Cross has found, governments frequently limit the number of visas and/or
work permits that can be given to foreign nongovernmental organizations, impose substantial waiting times
or approval procedures, and require that the organizations to whom such foreign individuals will be assigned
be fully registered and approved. In fact, some 77% of
international humanitarian organizations responding to
an International Red Cross survey reported significant
difficulties in this area. 6 All of these processes would
become considerably more difficult and complex under
the Guidelines.
C.

Expenses of Paying for Separate Office Space,
Staff, and Equipment

16. Members will face expenses—sometimes exorbitant expenses—of paying for new and separate office
space, local staff, foreign staff, necessary vehicles (including customs and tax costs as well as vehicle costs), 7

See International Federation of Red Cross and Red Crescent
Societies (IFRC), Law and Legal Issues in International Disaster
Response: A Desk Study (2007), Sec. 10.1, p. 116, at http://www.
reliefweb.int) (attached in relevant portion as Exhibit C hereto).
7
For example, the same International Red Cross study cited
above noted that 40% of international humanitarian organization
headquarters reported that customs problems with importing telecommunications equipment were “always or frequently present.”
Id. at 199.
6

471
office equipment, security, telephone and Internet access, and other services. 8 These expenses would be exacerbated because, according to the Guidelines, they
cannot be shared by the organizations, which must remain separate in all ways.
D.

Problems Opening Bank Accounts

17. Members will face particular problems associated with opening bank accounts by nonprofit and nongovernmental organizations in many countries. Banks
may require evidence of registration with and approval
by the government, and national laws or regulations
may limit the number of bank accounts or even prohibit
multiple accounts per organization, per donor, or per
project (as has been the case in India under the Foreign
Contribution (Regulation) Act). 9 These already complex and difficult provisions would be exacerbated by
implementation of the Guidelines.
E.

Tax Burdens

18. The procedural tax burdens on branches, affiliates or grantees of American charitable organizations in
developing countries are already burdensome, and the
addition of a requirement for new and separate organizations is likely to significantly confuse the issues of tax
exemption and tax deductibility for domestic affiliates,
and to re-raise with government officials the question of
In yet another example, the Red Cross study found that 85% of
international humanitarian organization headquarters reported
barriers to hiring local staff. Id. at 120.
9
The International Red Cross also reported that 85% of international humanitarian organization headquarters had difficulties in
opening bank accounts in the countries where they work. Id. at
126.
8

472
the tax treatment of organizations related to American
charities and nongovernmental organizations, resulting
in substantial additional burdens. In certain cases, national governments may even question whether existing
organizations, operating on a tax exempt basis, should
be re-classified or reexamined, causing exceptional burdens not only for the new and separate affiliate but potentially for the existing organization as well. 10
F.

Additional Political and Security Suspicion of
New and Separate Establishments in Foreign
Jurisdictions

19. Members will face substantial risk of significantly enhanced suspicion by government, security, intelligence and police authorities in countries concerned
that new and separate organizations are being created
in order to evade tax, customs, or other government regulations. In a number of countries, government authorities, service providers, the media and other institutions are likely to believe that new and separate groups
are being established in order to separate grantmaking
and programs from advocacy, and thus to substantially
increase advocacy activities, support for dissidents, and
other activities that may be highly unpopular to government authorities.
20. Such “doubling up” would also cause, in many
countries, increased foreign country intelligence targeting of the American organizations, and increased suspicion in some countries that the new and separate groups

10
For examples of the significant tax burdens and difficulties
that can be encountered, see the International Red Cross study, id.
at secs. 12.1, 12.3, pp. 125-29.

473
are being formed to engage in destabilizing activities or
activities in support of armed or other dissidents.
G.

Fundraising Difficulties

21. The Guidelines will also make it more difficult—
perhaps considerably more difficult—for institutions to
raise funds for two reasons.
22. First, in a highly competitive fundraising environment, the newly-formed separate organizations
would have no track record of accomplishment on the
ground on which to raise funds. Because of the exceptionally detailed separation requirement, the new and
separate affiliates are unlikely to be able to rely on the
track record in effective work on the ground established
by the already-existing organization.
23. Second, the increased administrative costs incurred from dividing the work that a member does in
dozens of countries into new and separate organizations
would likely downgrade a member’s ranking by independent certification organizations that rank charitable
organizations.
24. In response to concerns about effectiveness and
efficiency in the American charitable sector, a number
of rating and ranking organizations evaluate non-profit
administrative costs and the ratio of administrative to
program costs. This burgeoning sector includes the
Better Business Bureau Wise Giving Alliance (www.
give.org), Charity Navigator (www.charitynavigator.
org), Guidestar (www.guidestar.org), Charity Watch
(American Institute of Philanthropy) (www.charitywatch.
org), and others.

474
25. Less favorable rankings or ratings, in turn, can
have a distinctly negative impact on the ability of organizations to raise funds from the public. They may even
impact the ability to obtain funds from the government.
In my own experience as a grantmaker with a major private foundation, and as a consultant to other foundations
and scholar of philanthropy as documented earlier in
this Declaration, I am of the opinion that the requirements of the Guidelines and the implications of those requirements for administrative expenses, ratings and related issues would negatively impact fundraising by affected institutions.
H.

All of These Factors Impose Substantial Burdens
on Members’ Operations in the United States

26. The cumulative effect of these burdens in multiple countries is likely to be very substantial. But beyond the burdens on the new and existing related organizations in many developing countries, the various burdens, in dozens of countries, will in turn cause substantial burdens for the home offices of American charitable
institutions, adding substantial administrative costs that
neither government funding nor private donors are likely
to cover because these expenses do not contribute directly
to the resolution of hunger, poverty, illness and other
problems in developing countries, but must be managed
solely in response to the government’s Guidelines.
III. Examples of the Burdens the Guidelines Impose in
Five Key Identified Countries in Which Plaintiffs
are Active
A.

India

27. Requiring American charitable organizations to
establish new and separate affiliates in India, in addition

475
to the operations that they have established through
long and assiduous effort, is likely to be exceptionally
burdensome and result in long delays, expensive processes, and government refusal to allow the registration
and establishment of new and separate organizations.
28. The process for registering and establishing Indian affiliates of foreign charitable organizations, or foreign branches of charitable organizations, in India is already exceptionally complex and cumbersome, beginning with a difficult choice between registering and establishing as a society, trust, company or in some other
form.
29. Registration and establishment in India takes
months or years of application and seeking government
approval, including consideration of the activities that
the organization will carry out, examination of the proposed board, and other procedures. For foreign organizations establishing affiliated organizations in India,
these processes are complicated by the required clearances that must be obtained from the Indian Intelligence Bureau (IB), Ministry of Foreign Affairs, and
other government authorities.
30. Beyond the complexities and cumbersome process, it is possible or even likely that the Indian authorities, concerned with tracking and understanding the activities of foreign charitable and nonprofit affiliates in
India, will merely refuse to allow the registration and
establishment of parallel organizations. Such refusals
are likely to take place on an organizational basis, and it
would be in keeping with past Indian government practice for the government to make such decisions based in
part on the advocacy activities of specific organizations.

476
31. Visas for foreign personnel are always complex
and time-consuming to obtain. The government often
imposes limits on the number of foreign personnel that
can be employed by the affiliate of a foreign charitable
organization, and it may well be impossible to convince
the government to loosen that limit for new and separate
affiliates of American charitable organizations.
32. The burdens of operations are particularly problematic in India. Affiliates and branches of foreign charitable and nonprofit organizations must engage in the
highly cumbersome and time-consuming process of obtaining government authorization for duty-free import
of vehicles and office equipment (because the government may not permit duty-free purchase of existing
goods held by other charities in the country), and it may
well be very difficult to obtain those permissions for two
affiliates of the same foreign organization. Securing
appropriate office space, telephone and Internet access
and other necessary services can take months or longer.
Accomplishing these tasks twice, for separate affiliates
of the same American organization, is likely to be exceptionally difficult and spark suspicion that cheating,
fraud, illicit or anti-government activities are at work.
33. There are other restrictions at work as well.
The U.S. State Department noted in the most recent
(March 2007) Country Reports on Human Rights Practices that “NGOs must secure approval from the Ministry of Home Affairs before organizing international conferences. Human rights groups contended that this
provided the government with substantial political control over the work of NGOs and restricted their freedom
of assembly and association. NGOs alleged that some

477
members from abroad were denied visas arbitrarily.” 11
In addition, “[s]ome domestic NGOs and human rights
organizations faced intimidation and harassment by local authorities.” 12
34. There is a long history of government suspicion
of the foreign charitable sector in India, documented by
the U.S. Department of State as recently as March 2007
in the most recent annual Country Reports on Human
Rights Practices. 13 These historical influences increase
the burdens on organizations establishing new and separate organizations, for the Indian government authorities at central and state levels will be suspicious that the
new organization is being established to evade tax or
customs requirements, or to engage in advocacy or political activities. The government ministries most likely
to hold and act on these suspicions include the Ministry
of Home Affairs, the Intelligence Bureau, and the Ministry of Finance. 14
35. The establishment of new and separate affiliates
of American charitable organizations in India would also
See the India section of the U.S. Department of State, Country
Reports on Human Rights Practices 2006 (issued March 2007), at
www.state.gov/g/drl/rls/hrrpt/2006/78871.htm.
12
Id.
13
For extensive information on suspicion of foreign religious and
human rights organizations in India, for example, see the India section of the U.S. Department of State, County Reports on Human
Rights Practices (2006), at www.state.govlgldrVrls/hrrptJ2006/78
871.htm.
14
The U.S. Department of State has extensively tracked and documented these issues. See, e.g. the India section of the U.S. Department of State, Country Reports on Human Rights Practices
2006 (issued March 2007), at www.state.govlgldrVrlslhrrptl200617
8871.htm.
11

478
almost certainly cause havoc and long delays in the receipt of funds from abroad for charitable work in India.
This is because India has a long-standing and strictly
applied process by which Indian nonprofits and charitable affiliates can receive and use foreign charitable donations, known in India as foreign contributions. The
strict Foreign Contribution (Regulation) Act (FCRA)
(attached as Exhibit C hereto), first adopted during the
Indian Emergency in the mid-1970s, governs the receipt
and use of foreign donations and requires organizations
based in India to apply for approval as a foreign donationreceiving entity or to apply for special permission to receive funds on a one time basis.
36. Each of these alternatives—approval of organizations to receive foreign charitable donations, or
approval of donations on a one-time basis—is exceptionally difficult and cumbersome. Indian government
authorities—particularly the Ministry of Home Affairs,
which administers the FCRA system, and the Intelligence Bureau, which conducts FCRA-related investigations of charitable and nonprofit organizations for the
Indian government—remain suspicious that foreign
charitable funds will be used for destabilizing religious,
political, corrupt or other purposes in India. The U.S.
State Department has noted multiple instances in which
these suspicions have resulted in denials of approval for
foreign charitable funds to be used in India. 15

15
See the India section of the U.S. Department of State, Country
Reports on Human Rights Practices 2006 (issued March 2007), at
www.state.gov/g/drl/rls/hrrpt/2006/78871.htm. I have discussed
this problem in India (as well as in Bangladesh) extensively in

479
37. In addition, as the most recent State Department country report on human rights in India points out,
“[i]n February [2006], the Ministry of Home Affairs
barred 8,673 organizations from seeking foreign funds
under the Foreign Contribution and Regulation Act
(FCRA), reportedly for failing to provide the proper paperwork. Under the ruling, these organizations need
government approval before seeking aid from abroad.
NGOs called the FCRA flawed and extremely restrictive and claimed that the government failed to notify organizations when the requisite paperwork was needed.
Some human rights groups contended that FCRA was a
means of intimidation and substantial political control
by the government over the work of NGOs. NGOs expressed concern that the Home Ministry, which is normally not responsible for financial matters, was tasked
with monitoring the finances of NGOs. The act has a
clause that states the NGOs must also secure approval
from the government before organizing international
conferences, and some NGOs alleged that the government has denied visas to prevent members from holding
conferences paid for with foreign funds.” 16 The State
Department report also pointed out that “[i]nternational
human rights organizations were restricted, and foreign
human rights monitors historically have had difficulty

Sidel, Courts, States, Markets and the Nonprofit Sector: Judiciaries and the Struggle for Capital in Comparative Perspective,
78 Tulane Law Review 1611 (2004).
16
See the India section of the U.S. Department of State, Country
Reports on Human Rights Practices 2006 (issued March 2007), at
www.state.gov/g/drl/rls/hrrpt/2006/78871.htm.

480
obtaining visas to visit the country for investigative purpose.” 17
B.

Bangladesh

38. Requiring American charitable and nonprofit organizations to establish new and separate organizations
in Bangladesh, under a system in which even the normal,
seemingly uncontroversial establishment of a single
charitable affiliate can cause enormous burdens and delays, is likely to be exceptionally burdensome and to result in long delays, expensive processes, and even government refusal to allow the registration and establishment of the new and separate organizations.
39. American charitable organizations have spent
decades negotiating the byzantine and conflict-filled
processes of government regulation of the foreign charitable sector in Bangladesh, and remain concerned that
a conflict-ridden, often violent political culture marked
by an impasse between two powerful political parties
and military rulers will result in further erosion of the
work that charitable organizations can do in Bangladesh. 18 Under these tenuous and difficult circumstances, where “the relationship between nonprofits and
the government has nearly always been characterized
by tension and mistrust,” 19 requiring that American
Id.
See, e.g., the discussion of charitable activities and dangers in
Philanthropy and Law in South Asia: Recent Developments in
Bangladesh, India, Nepal, Pakistan, and Sri Lanka (Asia Pacific
Philanthropy Consortium, 2007, www.asianphilanthropy.org). See
also The World Bank, Economics and Governance of Nongovernmental Organizations in Bangladesh (World Bank, April 2006, at
www.worldbank.org.bd).
19
Philanthropy and Law in South Asia, supra note 21, p. 5.
17
18

481
charities establish parallel organizations in Bangladesh
is likely to prove exceptionally burdensome.
40. Registration and establishment in Bangladesh,
as in India, takes months or years of application and
seeking government approval, including consideration
of the activities that the organization will carry out, examination of the proposed board, and other procedures.
For foreign organizations establishing groups in Bangladesh, these processes are complicated by the required
clearances that must be obtained from multiple government agencies, including the bureaucratic and politically
driven NGO Affairs Bureau (NGOAB) and other government institutions. A report funded partly by U.S.
AID found that “delays by NGOAB are frequent and often prolonged . . . NGOAB lacks capacity in the
most fundamental aspects of its ability to perform its
functions.” 20
41. Beyond the complexities and cumbersome process, it is likely that the Bangladesh authorities, as in
India, concerned with tracking and understanding the
activities of foreign charitable and nonprofit organizations, will merely refuse to allow the registration and establishment of parallel organizations. Such refusals are
likely to take place on an organizational basis, and it
would be in keeping with past Bangladeshi government
practice for the government to make such decisions
based in part on the advocacy activities of specific organizations. A 2005 report partly funded by U.S. AID
commented on the “much bad will and suspicion . . .
20
Leon Irish, Karla Simon, and Fawzia Karim Feroze, Legal and
Regulatory Environment for NGOs in Bangladesh (17 April 2005),
funded by NORAD, SIDA, and U.S. AID and contracted by UNDP,
at http://www.iccsl.org/pubs/bangladeshfinalreportmay15.pdf, p. 10.

482
between the NGOs and the GOB [Government of Bangladesh].” 21
42. The U.S. State Department, in its most recent
report (March 2007) on human rights practice in Bangladesh, noted that “[t]here were many examples of harassment [of foreign and domestic NGOs] by the [Bangladeshi] intelligence agencies.” 22 “In September [2006],
according to local human rights organizations, in anticipation of opposition protests in Dhaka, the government
indiscriminately arrested hundreds of persons, including opposition activists and NGO supporters, on old
cases or false charges such as theft. Most detainees
were released within a few days. . . . In mid-September police throughout the country arrested 172 workers at different offices of the NGO Proshika, according
to press reports.” 23
43. Visas for foreign personnel are usually complex
and time-consuming to obtain, as the U.S. Department
of State has documented with respect to foreign religious personnel in Bangladesh as recently as March
2007. 24 The government often imposes limits on the
number of foreign personnel that can be employed by an
Id., p. 19.
See the Bangladesh section of the U.S. Department of State,
Country Reports on Human Rights Practices 2006 (issued March
2007), at www.state.gov/g/drl/rls/hrrpt/2006/78869.htm.
23
Id. The State Department also reported that ‘‘No action was
taken nor charges filed related to the July 2005 deaths of two employees of the Christian Life Bangladesh NGO who were allegedly
killed because they showed an evangelical film. Police initially arrested several suspects for the killing, but they were later released,
and no charges had been filed at year’s end.”
24
Id.
21
22

483
organization related to a foreign charitable organization, and it may well be impossible to convince the government to loosen that limit for new and separate affiliates of American charitable organizations.
44. The burdens of operations are particularly problematic in Bangladesh. Affiliates of foreign charitable
and nonprofit organizations must often engage in a
highly cumbersome and time-consuming process of obtaining government authorization for duty-free import
of vehicles and office equipment (since the government
may not permit foreign charities or their local affiliates
to purchase existing, in-country goods on a duty-free basis), and it may well be very difficult to obtain those permissions for two groups related to the same foreign organization. Securing appropriate office space, telephone and Internet access and other necessary services
can take months or longer. Accomplishing these tasks
twice, for separate affiliates of the same American organization, is likely to be exceptionally difficult and spark
suspicion that cheating, fraud, illicit or anti-government
activities are at work.
45. Given the already heightened suspicions of the
Bangladeshi authorities toward foreign charitable and
nonprofit organizations, the authorities in Dhaka, like
those in India, are likely to be highly suspicious that attempts to establish parallel groups in Bangladesh are
being undertaken to evade tax or customs requirements,
or to engage in advocacy or political activities. The
government bodies most likely to hold and act on these
suspicions are the NGO Affairs Bureau, Ministry of

484
Home Affairs, and ministries and agencies concerned
with security and intelligence. 25
46. As in India, the establishment of new and separate related organizations of American charitable organizations in Bangladesh would also almost certainly
cause havoc and long delays in the receipt of funds from
abroad for charitable work in Bangladesh. Bangladesh
has a regulated system for approval of receipt and use
of foreign charitable donations by Bangladeshi affiliates
of foreign charities, and a separate system of approval
of the activities of foreign charitable and nonprofit organizations working directly in Bangladesh.
47. The Foreign Donation (Voluntary Activities)
Regulation Act 1978, revised in 1982 (attached hereto as
Exhibit D), provides the legislative framework for this
intensive regulation. The Act has been used to deny
release of foreign donated funds to Bangladeshi NGOs
allegedly because they were “involved in political activities” among other alleged transgressions, according to
the government of Bangladesh. 26 Recently, the government has proposed strengthening and tightening the
Act on several occasions. To cite but one example, the
government proposed prohibiting ‘‘political activity” by
nonprofits, defined so broadly that advocacy activities

See the Bangladesh section of the U.S. Department of State,
Country Reports on Human Rights Practices 2006 (issued March
2007), at www.state.gov/g/drl/rls/hrrpt/2006/78869.htm, for further
information on suspicion of foreign NGOs.
26
PRIP Trust Signs Undertaking to Get Back Fund, New Age
(Dhaka), April 25, 2005, at http://www.newagebd.com/2005/apr/25/
front.html.
25

485
by charitable organizations could well be included if government authorities disapproved of such activities. 27
48. Bangladeshi government authorities remain
suspicious that foreign charitable funds will be used for
destabilizing religious, political, corrupt or other purposes in Bangladesh.
C.

Mozambique

49. In Mozambique, requiring American charitable
organizations to establish new and separate organizations for work there would be a highly burdensome task.
The situation for American charitable organizations
seeking to register and work in Mozambique is already
very difficult. As the U.S. State Department recently
reported, “[a] government decree regulates the registration and activities of foreign NGOs. Nonpolitical
foreign NGOs and religious groups must register with
the Ministry of Foreign Affairs and Cooperation and are
required to provide significant details on their organization’s projects, staffing, and finances. . . . The registration process for foreign NGOs and religious groups
reportedly involved significant discretion on the part of
government officials and regularly took several months.”28
50. Human Rights Watch has documented that authorization under this decree, Decree 55/98 (attached
hereto as Exhibit E), “is provided to NGOs whose activities conform with the Government program. . . .
Philanthropy and Law in South Asia: Recent Developments
in Bangladesh, India, Nepal, Pakistan, and Sri Lanka (Asia Pacific
Philanthropy Consortium, 2007, www.asianphilanthropy.org), pp. 5-7.
28
U.S. Department of State, Country Reports on Human Rights
Practices 2006 (March 2007), at www.state.gov/g/drl/rls/hrrpt/
2006/78748.htm.
27

486
The Ministry issues two-year renewable permits to
those NGOs who are authorized to register.” 29 Under
these difficult circumstances—where registration and
establishment of a single foreign charitable office is
risky and complex at best—expecting and requiring foreign charitable organizations to establish new and separate organizations in Mozambique under Mozambican
law would be exceptionally difficult to well-nigh impossible.
51. Beyond the complexities and cumbersome process, it is likely that the Mozambican authorities concerned with tracking and understanding the activities of
foreign charitable and nonprofit groups, will, at least in
some cases, merely refuse to allow the registration and
establishment of parallel organizations. Such refusals
are likely to take place on an organizational basis, perhaps penalizing those charitable organizations more involved with advocacy activities that challenge the government.
52. Permission to work and visas for foreign personnel are complex and time-consuming to obtain. As Human Rights Watch has reported, “Foreign employees
working for foreign NGOs must conform with the Labor
Law, Decree 8/98 [attached in relevant part hereto as
Exhibit F]. Inter alia, the partner organization and
the foreign NGO must verify that no Mozambican has
the necessary qualifications before an expatriate may be

29
Human Rights Watch, NGO Laws: Malawi, Mozambique, Namibia, South Africa and Tanzania, at http://hrw.org/backgrounder/
africa/Zimbabwe/2004/12/6.htm.

487
hired. . . . ” 30 Under these already difficult circumstances it may be difficult or impossible to convince the
government to loosen those limits for new and separate
affiliates of American charitable organizations.
53. The burdens of operations are particularly problematic in Mozambique. Securing appropriate clearances for import of vehicles and office equipment, and
securing office space, telephone and Internet access and
other necessary services can take months or longer.
Accomplishing these tasks twice, for separate groups
related to the same American organization, is likely to
be exceptionally difficult and spark suspicion that cheating, fraud, illicit or anti-government activities are at
work. 31
54. Given the already heightened suspicions of the
Mozambican authorities toward foreign charitable and
nonprofit organizations, the authorities in Maputo are
likely to be highly suspicious that attempts to establish
parallel related organizations in Mozambique are being
undertaken to evade tax or customs requirements, to engage in advocacy or political activities. The government agencies most likely to hold and perhaps act on
these suspicions include the Ministry of Interior, Ministry of Planning and Finance, Ministry of Foreign Affairs
Human Rights Watch, NGO Laws: Malawi, Mozambique,
Namibia, South Africa and Tanzania, at http://hrw.org/
backgrounder/africa/aimbabwe/2004/12/6.htm.
31
For multiple examples of these difficulties in Mozambique in
the customs and import context as recently as 2007, see International Federation of Red Cross and Red Crescent Societies
(IFRC). Law and Legal Issues in International Disaster Response: A Desk Study (2007), at 99, 100, 109, 112 (attached in relevant part as Exhibit B hereto).
30

488
and Cooperation, and government bodies responsible
for security and intelligence.
55. The establishment of new and separate related
organizations of American charitable organizations in
Mozambique would also almost certainly cause significant problems and long delays in the receipt of funds
from abroad for charitable work in Mozambique.
56. For each of these reasons, requiring American
charitable and nonprofit organizations to establish new
and separate groups in Mozambique, under a system in
which even the normal, seemingly uncontroversial establishment of a single charitable affiliate can cause enormous burdens and delays, is likely to be exceptionally
burdensome to the American organizations.
D.

Ethiopia

57. The situation for American charitable organizations seeking to register and work in Ethiopia is already
very difficult, as it is for Ethiopian organizations seeking to carry out autonomous civil society activities.
The U.S. State Department has reported in recent years
on government “limitations on freedom of association.” 32
In such an environment, requiring American organizations to entirely double their establishment and registration activities would be both very difficult and makes
no sense, mandating significant new establishment, reg-

32
See the Ethiopia report in U.S. Department of State, Country
Reports on Human Rights Practices 2005 (March 2006), at www.
state.gov/g/drl/rls/hrrpt/2005/61569.htm; U.S. Department of State,
Country Reports on Human Rights Practices 2006 (March 2007),
www.state.gov/g/drl/rls/hrrpt/2006/78734.htm.

489
istration and operating expenses while causing government suspicions of the motivations behind dual organizational arrangements.
58. Since the Ethiopian elections in 2005, the Ethiopian civil society and nongovernmental sector has been
“fragmented and weakened.” 33 In recent years, the
U.S. State Department as well as reputed American and
international organizations such as Freedom House
(U.S.), the Christian Relief and Development Agency
(CRDA) and the International Center for Not-for-Profit
Law (U.S.), have reported increasing interference with
the registration of charitable and nonprofit organizations.
59. The International Center for Not-for-Profit Law
reports, for example, that in Ethiopia, “regulations governing the registration process are vague and leave
great discretion to the registration officials. As a result, CSOs [civil society organizations] have difficulty
registering—they are sometimes denied registration
and other times experience long delays or repeated requests for information. 34 The Christian Research and
Development Agency (CRDA), an international aid
agency working actively in Ethiopia, reported in a
lengthy study of the operating environment for nonprofit and charitable organizations in Ethiopia that the
“registration process [is] onerous, subjective and open
Christian Relief and Development Agency, Assessment of the
Operating Environment for CSO/NGOs in Ethiopia (December
2006), at www.crdaethiopia.org, p. 4.
34
International Center for Not-for-Profit Law, Recent Laws and
Legislative Proposals to Restrict Civil Society and Civil Society
Organizations, 8:4 International Journal or Not-for-Profit Law
(August 2006), at www.ijnl.org.
33

490
for abuse and provides ample room for denial of registration.” 35
60. The problems, in fact, well exceed registration.
The Christian Relief and Development Association reported as recently as December 2006, for example, that
“[i]n Ethiopia . . . the mandate of the government
. . . has gone beyond registration as far as closing
down organizations, dictating what goes or does not go
into an organization’s Memo of Association . . . thus
contravening the very principle of ‘freedom of associational life’. There is also concern that . . . NGOs/
CSOs will soon have to first present project documents
from regions prior to seeking basic agreements. . . .
In other words, Government now wants to know what
precisely NGOs/CSOs want to do before providing legal
certificates. Furthermore, there was strong feeling
that the government is monitoring the ‘political’ actions
of NGOs /CSOS.” 36
61. The U.S. State Department has also reported on
restrictions on foreign NGO electoral observers, domestic human rights organizations, and foreign religious
workers, among other groups. The State Department
states: “The government generally was distrustful and
wary of domestic human rights groups and some international observers. After the November [2005] protests the government restricted human rights groups from
visiting or investigating detention camps. In April [2005]
Christian Relief and Development Agency, Assessment of the
Operating Environment for CSOINGOs in Ethiopia (December
2006), at www.crdaethiopia.org, p. 14.
36
Christian Relief and Development Agency, Assessment of the
Operating Environment for CSOINGOs in Ethiopia (December
2006), at www.crdaethiopia.org, p. 12.
35

491
the government expelled representatives of several
foreign-based NGOs conducting electoral work.” 37 The
situation remained problematic when the most recent
State Department human rights report on Ethiopia was
issued in March 2007: “The government generally was
distrustful and wary of domestic human rights groups
and some international observers. NGOs continued to
complain of restrictions on their importation of published materials and complained that they were prevented from bringing foreigner visitors into the country.” 38 In both 2006 and 2007, the State Department
reported that the Ethiopian government also restricted
visas for foreign religious organizations. 39
62. Representatives of foreign charitable organizations have been caught up in the government’s repression of the charitable and nonprofit sector. In 2007, for
example, the director of the policy department at ActionAid International Ethiopia, the Ethiopian branch of
the major international charitable agency ActionAid
was put on trial for treason in Addis Ababa, along with
another defendant who headed the Organisation for Social Justice in Ethiopia, which had conducted election
monitoring. The arrests of these nonprofit personnel
37
See the Ethiopia report in U.S. Department of State, Country
Reports on Human Rights Practices 2005 (March 2006), at www.state.
gov/g/drl/rls/hrrpt/2005/61569.htm.
38
See the Ethiopia report in U.S. Department of State, Country
Reports on Human Rights Practices 2006 (March 2007), at www.
state.gov/g/drl/rls/hrrpt/2006/78734.htm.
39
See the Ethiopia report in U.S. Department of State, Country
Reports on Human Rights Practices 2005 (March 2006), at www.
state.gov/g/drl/rls/hrrpt/2005/61569.htm; U.S. Department of State,
Country Reports on Human Rights Practices 2006 (March 2007),
at www.state.gov/g/drl/rls/hrrpt/2006/78734.htm.

492
and over 120 others had earlier prompted international
donors, including the World Bank and the European
Union, to threaten to withhold $375 million in desperately needed foreign aid for Ethiopia. 40
63. Under these circumstances in which the charitable, nonprofit and civil society sector already faces substantial pressure in a country in which the effective and
efficient provision of aid is critical, requiring American
charitable organizations to establish new and separate
organizations would be a highly burdensome and entirely counter-productive task. The creation of such
related organizations would mandate significant new establishment, registration and operating expenses while
causing government suspicions of the motivations behind dual organizational arrangements, and siphoning
urgently needed resources away from addressing Ethiopia’s immense problems of poverty, food insecurity,
and conflict.
E.

Peru

64. In Peru, requiring American charitable organizations to establish new and separate organizations
would be a highly burdensome task in a situation where
the charitable and nonprofit sector is already under significant pressure.
65. Freedom House reported in 2007 that “[c]ooperation between the state and NGOs has diminished significantly under the [current] government, which is perceived as wary of NGO motivations. Given the lack of
a coherent opposition in congress, NGOs are seen by the
40
International Center for Civil Society Law Newsletter, January 2006 and July 2007, at www.iccsl.org.

493
government almost as opposition political parties.
This puts them in a difficult position: the more vigorously they oppose government actions, the more the
government view that they are political entities is validated.” 41
66. These suspicions and harassment took a more
ominous form in December 2006, when “final amendments were passed to a new law that imposed new registration rules on all NGOs operating in the country.
The law [Ley No. 28875] . . . requires that all NGOs
register with [the Peruvian Agency for International
Cooperation] and divulge details of the provenance and
intended use of all donated funds. For money channeled through [the Agency], the agency—which as an
arm of the foreign affairs ministry is an executive
branch institution—will have the ability to “prioritize”
spending in line with national development goals, as well
as impose sanctions on organizations that are deemed
noncompliant with the new regulations.” 42 This new
law was perceived as a direct threat by the Peruvian
nonprofit and charitable sector. 43
67. In such an environment, requiring American organizations to entirely double their establishment and
registration activities would be both very difficult and
makes no sense, mandating significant new establishment, registration and operating expenses while causing
41
Freedom House, Countries at the Crossroads 2007 (Peru), at
www.freedomhouse.org.
42
Id.
43
Id. The law was challenged before the Peruvian Constitutional
Court, which held parts of it unconstitutional on August 29, 2007.
International Center for Civil Society Law Newsletter, October
2007, at ww.iccsl.org.

494
government suspicions of the motivations behind dual
organizational arrangements, and siphoning urgently
needed resources away from addressing Peru’s continuing issues of poverty, food insecurity, and conflict.
IV.

Conclusion

68. In summary, the government’s Guidelines impose very substantial burdens on American charitable
organizations working abroad in each of these areas.
The Guidelines do not allow American charitable organizations working abroad adequate alternative channels
for protected expression because it is simply too burdensome for non-profit organizations to create, establish,
register, and operate new related entities everywhere
they work overseas.
Executed on Feb. 5, 2008
Iowa City, Iowa
/s/

MARK SIDEL
MARK SIDEL

